<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1999

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS
                             SECOND SESSION
                                ________
                    SUBCOMMITTEE ON NATIONAL SECURITY
                   C. W. BILL YOUNG, Florida, Chairman
 JOSEPH M. McDADE, Pennsylvania      JOHN P. MURTHA, Pennsylvania
 BOB LIVINGSTON, Louisiana           NORMAN D. DICKS, Washington
 JERRY LEWIS, California             W. G. (BILL) HEFNER, North Carolina
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 DAVID L. HOBSON, Ohio               JULIAN C. DIXON, California
 HENRY BONILLA, Texas                PETER J. VISCLOSKY, Indiana        
 GEORGE R. NETHERCUTT, Jr., 
Washington
 ERNEST J. ISTOOK, Jr., Oklahoma
 RANDY ``DUKE'' CUNNINGHAM, 
California                          
          
 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
    Kevin M. Roper, David F. Kilian, Alicia Jones, Juliet Pacquing, 
 Gregory J. Walters, Patricia Ryan, Doug Gregory, Paul W. Juola, Tina 
                        Jonas, Steven D. Nixon,
         David L. Norquist, and Betsy Phillips, Staff Assistants

       Jennifer Mummert and Sherry L. Young, Administrative Aides
                                ________
                                 PART 1
                                                                   Page
 Secretary and Chief of Staff of the Army.........................    1
  Secretary of the Navy, Chief of Naval Operations, and Commandant 
of the Marine Corps...............................................  229
 Secretary and Chief of Staff of the Air Force....................  449
                                ________

         Printed for the use of the Committee on Appropriations

                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 77-494                     WASHINGTON : 2002





                     COMMITTEE ON APPROPRIATIONS

                   BOB LIVINGSTON, Louisiana, Chairman

 JOSEPH M. McDADE, Pennsylvania      DAVID R. OBEY, Wisconsin
 C. W. BILL YOUNG, Florida           SIDNEY R. YATES, Illinois
 RALPH REGULA, Ohio                  LOUIS STOKES, Ohio
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             VIC FAZIO, California
 TOM DeLAY, Texas                    W. G. (BILL) HEFNER, North Carolina
 JIM KOLBE, Arizona                  STENY H. HOYER, Maryland
 RON PACKARD, California             ALAN B. MOLLOHAN, West Virginia
 SONNY CALLAHAN, Alabama             MARCY KAPTUR, Ohio
 JAMES T. WALSH, New York            DAVID E. SKAGGS, Colorado
 CHARLES H. TAYLOR, North Carolina   NANCY PELOSI, California
 DAVID L. HOBSON, Ohio               PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma     ESTEBAN EDWARD TORRES, California
 HENRY BONILLA, Texas                NITA M. LOWEY, New York
 JOE KNOLLENBERG, Michigan           JOSE E. SERRANO, New York
 DAN MILLER, Florida                 ROSA L. DeLAURO, Connecticut
 JAY DICKEY, Arkansas                JAMES P. MORAN, Virginia
 JACK KINGSTON, Georgia              JOHN W. OLVER, Massachusetts
 MIKE PARKER, Mississippi            ED PASTOR, Arizona
 RODNEY P. FRELINGHUYSEN, New Jersey CARRIE P. MEEK, Florida
 ROGER F. WICKER, Mississippi        DAVID E. PRICE, North Carolina
 MICHAEL P. FORBES, New York         CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. (BUD) CRAMER, Jr., 
Washington                           Alabama                            
 MARK W. NEUMANN, Wisconsin
 RANDY ``DUKE'' CUNNINGHAM, 
California
 TODD TIAHRT, Kansas
 ZACH WAMP, Tennessee
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama        
          
                 James W. Dyer, Clerk and Staff Director

                                  (ii)



 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1999

                              ----------                              


                     FISCAL YEAR 1999 ARMY POSTURE

                               WITNESSES

HON. ROBERT M. WALKER, ACTING SECRETARY OF THE ARMY
GENERAL DENNIS J. REIMER, CHIEF OF STAFF, UNITED STATES ARMY

                              Introduction

    Mr. Young. The Committee will come to order. This morning 
the Committee will conduct an open hearing on the posture of 
the United States Army. And we are pleased to welcome the 
Acting Secretary of the Army, the Honorable Robert M. Walker, 
and the Chief of Staff of the Army, General Dennis Reimer. The 
Committee looks forward to hearing from you on the Army's 
posture, as well as your fiscal year 1999 budget.
    I also would like to recognize that in the audience is 
General Navas of the Army National Guard and General Baratz of 
the Army Reserve. And we are happy to have you as well. As our 
force gets smaller, your particular forces become extremely 
important, more so every day; and it is important because as we 
meet today, we have over 100,000 American troops deployed 
overseas, including the several thousand recently sent to the 
Persian Gulf region, as well as the peacekeeping mission in 
Bosnia.
    So we know that the demands on the Army are great, we know 
that the missions are being conducted extremely effectively. 
The Committee is very proud of the men and women who serve in 
uniform and who are conducting these missions.
    We will hear from you as to your assessment of the budget 
that is presented for the Army by the administration. The bad 
news is that, unlike previous years, we don't have any extra 
money this year. We always like to ask if there were extra 
money, what would you like to do with it? And you have never 
been bashful about submitting a list of unfunded priorities.
    We may still ask that question this year, but it is very 
doubtful whether there will be any extra money. So we will have 
to scrutinize the budget very closely.
    I have a very lengthy statement that I will have presented 
for the record.
    [Chairman Young's prepared statement follows:]

    This morning, the Committee will conduct an open hearing on the 
posture of the United States Army. The Committee is pleased to welcome 
the Acting Secretary of the Army, the Honorable Robert M. Walker, and 
the Chief of Staff of the Army, General Dennis J. Reimer. The Committee 
looks forward to hearing from you on the Army's posture as well as your 
fiscal year 1999 budget request.
    Today's Army is one-third smaller than it was just six years ago, 
but this smaller force is still defending America's interests around 
the globe. As we meet today, over 100,000 soldiers are forward deployed 
overseas, including several thousand recently sent to the Persian Gulf 
region, as well as those involved in the peacekeeping mission in 
Bosnia. The movement of troops to the Persian Gulf provides a vivid 
reminder to all of us that the world is still a dangerous place. And it 
also reminds us what we ask of our men and women in uniform: with 
little warning, or on short notice, they may be called away from home, 
away from their families, to carry out difficult and challenging 
missions. Once again ``America's Army'' has been called, and once 
again, it has responded, and for that we want to thank you and 
especially our soldiers for helping to keep the peace.
    As we all know, the Army's ability to fulfill these missions 
depends largely on the type of support it receives, which brings us to 
your fiscal year 1999 budget request. As Chairman of this subcommittee, 
I have previously expressed my concerns over your current and near-term 
readiness, a major challenge given a shrinking force, new missions, and 
budget cuts; and also future readiness, which depends on an adequate 
modernization program.
    We need to ask you today whether this budget meets these demands. I 
must say we are concerned, because once again we are facing major 
unfunded shortfalls in your readiness accounts, starting with the 
operations in Bosnia and the Persian Gulf. And we continue to hear 
reports from the field of how training is suffering, of shortages in 
base operations funding and problems with maintenance and spare parts.
    As for long-term readiness, your fiscal year 1999 modernization 
budget is $13 billion--almost a $800 million increase over last year's 
appropriated amount. This is good news, I guess, but we can't forget, 
as you reminded me the other day, Secretary Walker, this is the first 
proposed increase for Army modernization in 13 years. My own view is 
that we still have a lot of catching up to do.
    Even though your modernization budget goes up, it is still focused 
on upgrading or extending the life of existing weapons systems. There 
is not a lot of new production. Based on your fiscal year 1999 budget 
request, it will take 30 years to procure your requirement for new 
medium tactical trucks; the Kiowa Warrior scout helicopter will remain 
in the fleet until fiscal year 2022; and the Army will continue to dip 
into its war reserves for ammunition to satisfy training requirements. 
I worry that as a result, your current modernization programs may lead 
to long term readiness problems.
    We do know you are thinking about the future. The Army's major 
effort in this area is ``Force XXI'', and with this budget you are 
putting Force XXI on the fast track, by accelerating the fielding of 
the first ``digitized'' division from fiscal year 2001 to 2000. This 
goal poses may challenges. Many of the basic design and technologies 
needed for Force XXI are still in development, and we hope that your 
plan does not sacrifice performance in order to maintain this 
accelerated schedule. In bringing these revolutionary technologies to 
the battlefield, we have to be prepared to go a bit slower, if that is 
what's needed to get it right. We look forward to hearing your vision 
of Force XXI and the added capabilities you believe it will bring to 
the battlefield.
    In closing, we look forward to your testimony today on these and 
other issues, and I want to once again pledge our willingness to work 
closely with you in meeting the needs of the Army and its most 
important asset, its soldiers. We have the same goals you do, and we 
want to know where this Committee can help you strike a balance between 
funding for current readiness and a modernization program that protects 
readiness in the long run.

    Mr. Young.  I would ask that you could present your full 
statements for the record and summarize them as you would. 
Before we recognize you, Mr. Secretary, I would like to yield 
to my colleague, Mr. Murtha.
    Mr. Murtha. I have no statement.
    Mr. Young. Mr. Secretary, we would be happy to hear from 
you.

                 Summary Statement of Secretary Walker

    Secretary Walker.  Thank you very much, Mr. Chairman. I 
will submit my written statement for the record.
    A couple of you here still remember my old mentor, Joe 
Evins, of Tennessee. When he asked Chairman Mahon to hire me to 
be a staff member on the House Appropriations Committee in 
1971, I had no idea that I would ever be back here as a 
witness, testifying as the Acting Secretary of the Army. I am 
very honored to do so.
    My career started right here on the House Appropriations 
Committee, on what was then the Subcommittee on Public Works, 
now the Energy and Water Subcommittee, which Chairman McDade 
chairs. What I learned here on Appropriations has helped me 
throughout my career, and this is where it all started for me, 
so I thank this Committee for that.
    Mr. Chairman, on behalf of the men and women who are the 
United States Army, I want to thank this Committee for your 
strong support of soldiers. It is recognized and deeply 
appreciated.
    Mr. Chairman, this is an historic budget request. It is the 
first time in 13 years that the Army has requested an increase 
from the previous year's appropriation. Secretary Cohen 
listened to us during major budget issues, and he helped us 
where we asked and where we needed it most.
    As you alluded to in your statement, Mr. Chairman, the Army 
is very, very busy these days. It is clearly the force of 
choice. In 28 deployments since the end of the Cold War, the 
Army has provided 60 percent of the personnel to those 
deployments. The Army is doing that heavy lifting today for 
about 25 percent, about a fourth of the defense budget. So 
America is getting a great bargain from her Army.

                               READINESS

    Last week more than 28,000 soldiers, in addition to those 
already forward deployed, were training or on deployment inside 
the United States or in 76 other countries.
    To help ease the tempo of the active force, as you 
indicated, Mr. Chairman, more than 6,000 of those soldiers were 
from the Reserve components. So the total force is very busy 
and hard at work.
    Now as you know, readiness continues to be our top 
priority. So no potential enemy or international tyrant should 
ever doubt the United States Army is ready to do the job that 
it is called on to do.
    Now, I know that because I spent this weekend with our 
deploying soldiers at Fort Bliss, Fort Benning, and Fort 
Stewart, Georgia. I spent hours talking to these soldiers, 
hundreds of them. My staff tells me I shook hands with over a 
thousand soldiers before they left. I looked in their eyes and 
I thanked them for their courage and their sacrifice and the 
sacrifice of their families.
    Our soldiers today are the best. You all have seen that, as 
I have. They are the best trained, the best led and the best 
equipped. They just don't get any better, and our country is 
very, very fortunate for that.
    Mr. Chairman, of course, there have been some recent 
questions raised about readiness. Concerns have been expressed, 
for instance, about training at the National Training Center. 
As many of you know, I was the clerk of the MILCON Subcommittee 
on the Senate Appropriations Committee for 13 years, before 
President Clinton nominated me to be an Assistant Secretary of 
the Army.
    From that position, I have visited Fort Irwin and the 
National Training Center since it first began, as Congressman 
Lewis knows. I have been there on so many different rotations I 
can't count them, and I can tell you from observation that the 
quality of the training there is better than ever. It is more 
complex. It is more sophisticated. It is one reason the United 
States Army is an even better prepared Army today than it was 
before Desert Shield/Desert Storm.
    Of course, we have to work hard to maintain readiness, and 
we will need to continue to pursue certain enablers which help 
us keep readiness high, enablers such as afloat and ashore 
prepositioning and Army the National Guard Division redesign 
plan to convert 12 combat brigades into combat support and 
combat service support. And we will continue to need access to 
assured and sufficient airlift and sealift.
    Every month General Reimer and I are briefed on the details 
of readiness by unit, and we also serve on OSD's Senior 
Readiness Oversight Council which meets monthly to monitor 
readiness trends. When specific shortfalls are identified, the 
Army staff works very closely with our field commanders to 
resolve them.

                               RECRUITING

    For instance, we have seen an increase in the number of 
unfilled infantry squads. That has been the result, in part, of 
shortfalls in recruiting for certain Military Occupational 
Specialties, MOSs, such as infantry. With the help of this 
Committee, we are turning that around. Increasing the college 
fund and the number of recruiters and other initiatives are 
beginning to pay off. So today we are meeting our overall 
recruiting goals, and we are improving the number of those 
being recruited for infantry. And as those new infantry 
soldiers come out of the training base and begin to join units, 
we will see the number of unfilled squads being reduced.
    As you know, though, it is getting harder to recruit today. 
Young people have many other opportunities in a good economy. 
Even McDonald's provides money for college now to people coming 
on to work for them.
    Since the defining characteristic of our Army is quality 
people, we must continue to recruit and retain the best that 
America has to offer. To do that, we are going to need to 
continue to have the support of this committee, and we 
appreciate that.

                         EMERGENCY SUPPLEMENTAL

    Mr. Chairman, there are two other issues which impact 
readiness. As you know, the President will soon request a non-
offset emergency supplemental to fund the cost of contingencies 
for the remainder of 1998. In addition, the 1999 budget 
includes an allowance for contingencies in the 920 function, I 
believe.
    I want to stress the importance of these requests to Army 
readiness. We cannot absorb those costs. Without these funds, 
commanders will be forced to curtail training. They will be 
forced to reduce equipment maintenance. And if that happens, 
readiness of a number of Army units will fall to unacceptable 
levels.
    So I respectfully request this Committee to approve an 
emergency non-offset supplemental in the additional allowance 
for 1999.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Chairman, I also solicit your support for two 
additional rounds of Base Realignment and Closure (BRAC). When 
I was an Assistant Secretary, I was the Army's base closure 
official. It was the hardest thing I ever did. But base 
closures do save money, money that we could invest in the Army 
of the future to invest in the future readiness of the Army.
    By the year 2001, the Army will be saving almost a billion 
dollars annually from previous rounds of BRAC. But after four 
rounds of BRAC, we still have excess infrastructure. So to fund 
future modernization and future force structure, to fund the 
future readiness of the Army, the next generation of Army 
leaders will need us today to make some hard decisions. They 
will need us to reduce excess infrastructure and they will need 
us to adopt best business practices, reduce overhead, and 
engage in that Revolution in Business Affairs that Secretary 
Cohen has spoken so eloquently about.

                    FISCAL YEAR 1999 BUDGET REQUEST

    Now, Mr. Chairman, with regard to the fiscal year 1999 
budget request specifically, the most significant achievement 
in this request is the increase for procurement. Using 
resources freed up by the Quadrennial Defense Review (QDR) and 
by taking a certain level of risk in budgeting for 
efficiencies, we have increased procurement 17 percent over 
last year. At last, the procurement holiday is over. We are 
transforming an Industrial Age Army into an Information Age 
Army, and we must stay on that path. Our equipment is aging and 
wearing out and technology marches on.
    Today, 80 percent of our fielded weapons systems employ 
technology from the 1970s, and our soldiers are driving trucks 
that are older than they are. So to free up the resources 
required for a sustained and adequate modernization program, we 
must improve our commitment to acquisition reform and we must 
reduce our overhead and support costs.
    We must also capture the promise of Information Age 
technology. We must improve the speed, firepower and accuracy 
of the Army and reduce the weight of the Army in order to make 
it more deployable and better sustainable.
    Our acquisition officials tell us that the Force XXI 
process underway today can actually double the combat 
effectiveness of our current fielded weapons systems and then 
lead us to a truly revolutionary Army, the Army After Next, 
around the year 2025.
    The best way to achieve a real and solid Revolution in 
Military Affairs, while maintaining combat overmatch and 
meeting our readiness and engagement responsibilities, is to 
make sound business decisions today, to focus science and 
technology on the future, and to seize technological 
breakthroughs as they become viable. I assure this committee 
that we will work very closely with the Congress as we 
transform the Army to the 21st century.

                           EQUAL OPPORTUNITY

    Mr. Chairman, with your permission, I will briefly discuss 
two additional issues. Secretary West and General Reimer showed 
great leadership last year in developing the Human Relations 
Action Plan. We are now conducting in-progress reviews to 
monitor 128 separate actions required by that plan. General 
Reimer and I will work very closely to ensure that an 
atmosphere of equal opportunity continues to exist in the Army. 
We will work hard to ensure that in the Army, all soldiers 
serve together with dignity and respect.

                           RESERVE COMPONENTS

    Mr. Chairman, as you have pointed out, we are accompanied 
to this hearing today by the leadership of the total Army, by 
the Director of the Army National Guard, General Navas and the 
Chief of the United States Army Reserve, General Baratz.
    We want to assure this Committee that the Department of the 
Army is fully committed to a total force. You alluded to the 
fact that budget reality requires it, the taxpayers deserve it 
and, in truth, the future of the Army depends on it. So we are 
actively engaged in implementing Secretary Cohen's Total Force 
Integration Policy. The National Guard and the Army Reserve 
will always be at our decision table.
    The Army Resource Board Support Group brings final 
recommendations to the Chief and to me on all resource issues 
in the Army. We have invited the Director of the Army Guard and 
the Chief of the Army Reserve to be full members of that 
important forum.
    So, Mr. Chairman, the National Guard and the Army Reserve 
will be there on the takeoff and they will be there on the 
landing. We will make decisions as one seamless Total Army 
team. In the 1999 budget, you will see something that I have 
never seen before. We have requested more, for instance, for 
the Army National Guard than was appropriated last year. In 
fact, the request for the Guard is almost $400 million more 
than our request in fiscal year 1998. So we are making 
progress.
    Do we fund every requirement? No, we don't fund every 
requirement for any of the components. That is true throughout 
the budget because of budget constraints. But the bottom line 
is the budget is getting better.
    Mr. Chairman, as you know, we are engaged in a number of 
initiatives for Reserve component integration, and I would call 
your attention to only one of them. Since I became an Assistant 
Secretary, I have overseen the Department of Defense support to 
civil authorities. That responsibility has traditionally 
focused on floods, earthquakes, hurricanes and the like. Since 
Oklahoma City, however, we have been devoting a considerable 
amount of time to the potential of weapons of mass destruction.
    I will never forget the overwhelming sadness I felt when I 
entered the rubble of what had been the Murrah Federal 
Building. I still keep on my desk a thick piece of glass that 
the FBI gave me from the child care center. I keep it there as 
a reminder of what can happen in this country. One hundred 
sixty-eight people died that day in Oklahoma City, but 5,000 
would have died if that weapon--if that bomb--had been a 
chemical weapon.
    So I want to thank this Committee for your leadership in 
domestic preparedness. As the DOD executive agent for domestic 
preparedness, we are working with the Federal Emergency 
Management Agency and other Federal agencies to help emergency 
first responders in 120 cities nationwide. When that program is 
complete, we will have helped train tens of thousands of 
emergency responders.
    But, Mr. Chairman, there are five million emergency 
responders in this Nation today. Last fall, Secretary Cohen, 
after hearing the request of this Committee, asked us to begin 
better integrating the Guard and Reserve and to meeting the 
threat of weapons of mass destruction. The budget we present 
today includes a new initiative to do just that. So I urge the 
Committee to approve this important new initiative.

                                SUMMARY

    Mr. Chairman, the members of this Committee have recently 
traveled to Bosnia, Kuwait, and Korea. You know what kind of 
soldiers they are. They are just like those soldiers I saw this 
weekend. They are the best of America. Not only do they work 
hard, but like those soldiers who boarded those 747s this 
weekend, they are prepared to put their lives on the line for 
our country.
    We owe them not only our respect and admiration, but we owe 
them a good quality of life, and we owe them an opportunity to 
achieve their own personal hopes and goals and aspirations. So 
I conclude my testimony as I began, by thanking this committee 
for everything that you do for soldiers. If we get it right 
with soldiers, all these other issues, all these other 
challenges will fall into place.
    Mr. Chairman, thank you for the opportunity to appear today 
and we look forward to your questions.
    [Clerk's note.--The statement of Secretary Walker follows. 
The fiscal year 1999 Joint Posture Statement of the Secretary 
of the Army and the Chief of Staff of the Army is printed at 
the end of this hearing. See page 137.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                          REMARKS OF MR. YOUNG

    Mr. Young. Mr. Secretary, thank you very much for an 
excellent statement. And I think I can safely say that I don't 
think anyone in the world has more respect for the members of 
our military than the members who serve on this Committee. And 
I don't think that there are any persons in the world who are 
more committed and dedicated to a good quality of life for them 
and for their families. And I would include you and the General 
in that category, because I know that we are all working for 
the same thing.
    And General Reimer, we would like to hear from you. I just 
wanted to say that I don't know how you have done it, but you 
have managed to do a lot more with a lot less in recent years, 
and you have done an outstanding job. And I know that the 
problems that are presented to you with downsizing and with the 
funding not--and I think you might not agree publicly, but 
funding not being adequate for the needs of the United States 
Army, and I am pleased that this year's budget does appear to 
be a lot better. The increases that the Secretary mentioned and 
the increases that we see as we go through the budget, it is a 
lot better than it has been in recent years and we compliment 
you for that, because I know that you had an awful lot to do 
with making sure that that happened. So we would like to hear 
from you at this time, sir.

                  Summary Statement of General Reimer

    General Reimer. Thank you, Mr. Chairman. Mr. Chairman, and 
members of the Committee, first of all, I am delighted to be 
here and to be able to represent the soldiers of the total 
Army; the Active, the Guard and the Reserve, and the dedicated 
Army civilian workforce that we have.
    I think the Secretary has covered it very well. I would 
just like to highlight two or three points that he has made in 
his opening statement and of course, submit my statement for 
the record.
    First of all, let me say that when President Clinton talked 
about change in the State of the Union address, and I was 
there, I thought about the United States Army. He talked about 
the ground literally shifting underneath our feet as we change 
into the Information Age and into a new world. And certainly if 
you look at what has happened to the United States Army and 
what is programmed to happen to the United States Army, that 
change is very evident.
    Since the Wall came down, we have taken over 630,000 people 
out of the Army, soldiers and civilians. We have closed over 
700 bases throughout the world. We have changed from a forward-
deployed to a power-projection Army. Our strategy has changed 
from containment to engagement and enlargement. It is almost a 
180-degree change for us. That change has had tremendous 
ramifications, and the budget that we have submitted to you 
today, the 1999 budget, I think reflects those changes.
    I have been involved with the formulation of the Army 
budget now since 1991, and I can remember, as the Vice Chief of 
Staff of the Army, we used to always look at 1998 and 1999 as 
tough years. The problem with staying around the Army so long 
is that you get the chance to live through those tough years 
and that is what we are doing.
    But I would tell you that what we have done with the 1998 
and the 1999 budgets which we have before you today, is to 
balance near-term readiness and future readiness as equally as 
we possibly can.
    Our first priority remains near-term readiness, but clearly 
in this 1999 budget, you see us shifting some of the risks to 
near-term readiness in order to prepare for the future. If we 
do not, Mr. Chairman and members of the committee, I think we 
face a window of vulnerability in the outyears. We have to 
address that, and we have to make those tough decisions now, as 
Secretary Walker said, now so that we will not have that window 
of vulnerability, and the people who follow us in the 21st 
century will have the same great Army that we have been very 
fortunate to lead.
    So I would say that the most important part of this budget 
is that we have tried to keep it as balanced as we possibly 
could. We have tried to make sure that we have as many 
efficiencies as possible in this budget. It has $10.5 billion 
worth of efficiencies built into the program years. If we are 
unable to achieve those efficiencies, then we have holes, and 
some of those efficiencies are very tough. They involve more 
efficient business practices. They involve reduction of 
personnel. But the reduction of personnel, for example, the 
reduction of 15,000 Active and in the 45,000 Reserve soldiers 
that came out of the Quadrennial Defense Review, results in us 
shifting $5 billion over the program into the modernization 
account.
    So those are the tough decisions that we have had to make, 
and we have had to make them while making sure that we don't 
increase the PERSTEMPO for our soldiers who are working very 
hard. We believe this is doable.
    I would also say to you that the Reserve component funding 
is very, very important to us, because the Reserve component 
constitutes 54 percent of our service. We rely on them heavily. 
In Bosnia today, there are about 3,000 reservists helping us 
out, and they have been there since the very start. We could 
not do that mission without them. The Army is put together as a 
total Army, and we must make it work.
    Today, the Reserve component budget that we submit to you 
is funded at about 14.5 percent of the Total Obligation 
Authority (TOA). As a mark on the wall in 1985, that was 
somewhere around 9\1/4\ percent. So what we have tried to do is 
to give a greater percentage of the dollars we get to the 
Reserve component. But I will be the first to tell you that 
they are underfunded in terms of the total requirements that we 
have across the board.
    We have tried to spread the risk as best we could, keeping 
in mind, first of all, the National Military Strategy, which is 
built on the three pillars of shape, respond and prepare.
    Finally, let me just say, as the Secretary said, thanks to 
the members of this Committee. You have been magnificent in 
your support of our soldiers. Many of you have taken the time 
to visit our soldiers, in past years and in the present. You 
have gone to Bosnia, you have gone to other places. You have 
seen those soldiers out there. They deeply appreciate it. I 
want you to know how much I appreciate it and how much I 
enjoyed the opportunity to talk to you about what you observed 
over there. That is very, very important to me.
    These magnificent soldiers who represent our Nation, 
represent our Army, don't ask for much. But they certainly 
deserve an adequate and predictable quality of life and that is 
what we are stressing. I think when we talk about adequate and 
predictable quality of life, we are talking about four things. 
Adequate pay, and that is why you are seeing us come in with as 
much of a pay increase as we possibly can. They deserve 
adequate medical care and that is very, very important to them. 
They deserve adequate housing, whether they are married or 
whether they are single. And the last thing is a stable 
retirement benefit program.
    We are on the third retirement program since I have been in 
the military. And each year there are other ideas about how we 
can change retirement, and quite frankly, the soldiers are 
becoming confused. We need to stabilize that, and we need to 
give them those four things. That is what we have concentrated 
on in our quality of life program.
    Let me just close by saying that soldiers are our 
credentials and I, like Secretary Walker, saw those soldiers at 
the Third Infantry Division at Fort Stewart going to Kuwait. 
They are truly magnificent. I couldn't be more proud of them. 
We ought to judge our readiness by how they perform in Bosnia 
and Kuwait and wherever we ask them to perform.
    Thank you, Mr. Chairman and members of the Committee. And I 
look forward to your questions.
    [The statement of General Reimer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. General, thank you very much. As you know this 
afternoon, we will, in closed session, deal with acquisition 
programs, so probably the questions this morning would be more 
directed to the overall posture.
    I am going to yield my first 5 minutes of questioning to my 
colleague, Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Chairman.
    Mr. Secretary, General Reimer, it is a pleasure to be with 
you. I must confess that when I first looked at this 
magnificent brochure, I kind of looked around the room. I have 
been calling the Secretary ``Mike'' for so long, I couldn't 
find Robert Walker, our former colleague from Pennsylvania.
    Secretary Walker. I get confused myself, sir.

                         EMERGENCY SUPPLEMENTAL

    Mr. Lewis. Mr. Secretary, at the outset of your statement, 
you indicated that this was the first time in recent history, I 
think since 1985 anyway, that the Army budget is requesting an 
increase from the previous year.
    I have to presume from your opening comment that you 
anticipate shortly that a supplemental request will come up 
here. I presume it will come in a package that might relate to 
the Federal Emergency Management Agency. Probably tucked away 
within that will be minor questions that relate to the military 
and specifically to the Army.
    Secretary Walker.  I don't specifically know how it will be 
packaged, but we hope by the end of next week the Committee 
will have requests for the supplemental.
    Mr. Lewis. The Federal Emergency Management Agency comes 
under a subcommittee's responsibility that meets in another 
room that relates to some of my own work. But I too shared with 
you that disaster in Oklahoma City and went and visited shortly 
after that explosion, and to say the least, that kind of 
responsibility that is technically domestic in most of its form 
but nonetheless very much relates to those Reserve forces is a 
very important piece of our work.
    I would assume that the President will be requesting then, 
in whatever supplemental, however it comes up here, 
supplemental funding that is a non-offset supplemental. That is 
your understanding as well?
    Secretary Walker.  That is correct.
    Mr. Lewis. Did your testimony indicate that the President 
will request another BRAC round?
    Secretary Walker.  Yes, sir. The authorization bill, at 
least, includes a request for two additional BRAC rounds in 
2001 and 2005, I believe.

                        NATIONAL TRAINING CENTER

    Mr. Lewis. Okay. General Reimer, I believe that since I 
have arrived on this Committee, that we now have our fourth 
commander at the National Training Center at Fort Irwin. It may 
be more than that, but roughly that is the number that I 
remember. General Cash is a recent arrival.
    There is only one difficulty with that natural process of 
exchange and turnover. It is that you have got to get the new 
guy up to speed with some regularity. I have been very 
concerned about the fact that there is only so much territory 
around the NTC, and the availability of the expanded territory 
is every year becoming more and more limited. With the passage 
and eventual signing of the East Mojave territory, room for 
expansion was significantly limited. We are all but cut off to 
the west in terms of future expansion.
    Presently, I can tell you that there are forces developing 
that all but close the door to the east, even though after a 
short hop there is all that East Mojave expansion potential, 
but the desert tortoises to the south. There is some 
opportunity to provide reserve territory for the tortoise in 
the East Mojave, but if we don't get at it soon, those who 
would essentially close down the Army in that region will have 
their way. It is very important that you help us in the 
remainder of this Congress to make sure that those 
opportunities are not lost to the south.
    We have in place in the other agencies, Interior, people 
who are ready to move. In some way that has to be raised in 
terms of priorities so that we get that accomplished now, not 
later. Otherwise we are going to lose the opportunity.
    General Reimer. Well, Congressman, as you know, and I 
certainly agree with you, we need more land at the National 
Training Center and we have estimated our requirements at about 
200,000 acres or a little bit higher. The recent Advanced 
Warfighting Experiment (AWE) we ran out there with the task 
force indicated that our battle space requirements, given the 
capabilities we now have in this Force XXI process, are going 
to require additional territory.
    And as you stated also, we are looking at two different 
options over there. There is an Environmental Impact Statement 
ongoing, which should be completed shortly. I don't know the 
results of those studies, but as you outlined, there are pros 
and cons with each of the different expansion options, and what 
we have to do is to look at them and figure out which way is 
the best way to go.
    Mr. Lewis. The reason I raise the point to this level, 
General, is because I am concerned that, you know, the map is 
different than the territory, and the people in place out there 
have interests that are different than the Army's needs and the 
Army's interests. And unless we actually raise that to a level 
where we insist upon action in the near term, we could lose the 
opportunity for action. I am not trying to ring a bell that is 
not an important bell. Literally, there are those who would 
like to stop any NTC expansion and they are working against it 
every day.
    Timing is everything on this expansion and I would urge you 
to consider moving forward in the months ahead.
    General Reimer. I fully understand. We have tried to always 
put good people at the National Training Center and the Joint 
Readiness Training Center and which are our combat training 
programs, the dirt part of it. And because of that, there has 
probably been more frequent rotation than some would like, but 
I think it is important to get those good people in there.
    I understand the need to move quickly on this. We are 
moving as quickly as we possibly can, and we will continue to 
push that.
    Mr. Lewis. Well, if you would look at this. If we do find 
ourselves with a supplemental in the short time ahead of us, 
from time to time we do have occasion to use language, even in 
an appropriations bill, it is very infrequent but this is a 
really critical consideration. It may be that your people may 
want to consider our being of some assistance if we consult 
with our authorizing committees and the like. We should not 
delay this another year.
    Mr. Young. Mr. Lewis, thank you very much.
    Mr. Lewis. Thank you, Mr. Chairman.

              GUARD AND RESERVE ROLE IN DOMESTIC TERRORISM

    Mr. Young. Mr. Secretary, you mentioned that this Committee 
had taken the lead in providing the ability for the military, 
especially the Reserve and Guard, to respond to domestic 
terroristic activities and Mr. Murtha, of course, was the 
leader in initiating that effort. And that is included amongst 
his long list of accomplishments.
    Of course, one of the others at the top is that fact that 
he engineered the new seats for the High Mobility Multipurpose 
Wheeled Vehicle, the HMMWV.
    Secretary Walker. And I personally thank him for that.
    Mr. Young. Mr. Murtha.
    Mr. Murtha. I appreciate that. I really don't have any 
questions but I have got a couple of things that I am concerned 
about.
    What the Chairman just mentioned, the President went into 
great detail about this. I have been concerned that the Army is 
not moving forward with the fundamental decision to do the 
study that is necessary in order to get this thing moving.
    Now, I see all of the extra stuff, after you decide what do 
we do when we have one of these disasters; but I am going to 
tell you, Secretary Cohen says, the President says, but you, 
the folks that have to make this thing work--and I am concerned 
we are going to have an incident and we are not going to be 
prepared if you don't get the fundamentals down. And so I would 
hope the Army is working on it.
    I was just with the President at Camp David two weeks ago. 
He has been studying these books. Now, that is fine. 
Intellectual and theoretical arguments are fine, but the 
practical solution to this thing has got to be found and we 
have got to get moving because FEMA can't handle it, as much as 
they would like to. The initial response, I realize, is going 
to have to be local, but if we don't bring to bear on this 
problem, we are going to have a real disaster on our hands, as 
one of you said, about the number of casualties if there it 
were a chemical weapon.
    Secretary Walker.  Congressman, you are exactly right. Let 
me say tomorrow afternoon, Secretary Hamre and I are meeting 
with the director of FEMA on this very subject.

                            OPERATING TEMPO

    Mr. Murtha. Yes. The other thing is OPTEMPO. I see a more 
subdued presentation today than I have heard in the past. Now, 
this Committee, and almost everyone on this Committee, has been 
out in the field talking about OPTEMPO. We have said to the 
White House we can't support a budget that doesn't have more 
money to fill in the holes when we have these massive 
deployments time after time.
    I remember going to Fort Hood a few years ago, and we 
didn't have anybody in the Bradleys, no infantry people in the 
Bradleys. We just went to Korea. No infantry in the Bradleys. 
Now, you know, you tell me things are fine. You say, okay, 
everything is all right, we have met our overall recruiting 
goals. When we don't have infantry in the Bradleys in Korea, we 
have got a problem, and we have got to find a way to solve that 
problem.
    Now, that brings up to me this deployment in the Sinai. We 
have got 1,000 people deployed to the Sinai. I asked one of the 
high officials, one of the generals in the Israeli Army the 
Egyptian chief of staff was in to see me yesterday. I asked 
specifically, can we get rid of this unit in the Sinai?
    So is there any way that, and I am not asking you to answer 
this today, but the logistic support is actually larger than 
the unit or just about as large as the unit, if I remember. I 
would appreciate if you would look at the possibility of maybe 
contracting out at least the logistic support to reduce some of 
the impact on the soldiers themselves, because what I am 
hearing is that they are deployed so much and gone so often 
that we are starting to have real problems.
    This Committee put language in the bill, a general 
provision that said, look at the fiscal problems; counsel these 
members of the armed services about the fiscal problems they 
are having. I just read an article the other day where a lot of 
the young people in the service are having checks--all kinds of 
checks are bouncing because they don't have the money, don't 
handle their resources right. We learned that from being out in 
the field.
    We realize that there is just this tremendous OPTEMPO, all 
of these kind of things reflect on the morale. Now, it is nice 
for you to get up here and tell us how good things are, but you 
have to address these specific problems.
    For instance, Korea; 4 or 5 years ago a group of us went to 
Korea. We found all kinds of problems. And we said we have got 
to put some money in and we found a way to take money from O&M 
and shift it to military construction. I don't remember exactly 
how we did it, but we started a program where 5 years later 
they are just beginning to get the barracks, they don't have 
them finished yet, but are just beginning to get the barracks 
straightened out.
    But let me make this recommendation. They have devaluated 
their money in half. It seems to me you still have a lot of 
construction to do; that you to consider in this supplemental 
putting a request in for military construction in Korea now. 
They are still using outside toilets. The officers themselves 
have a 6-to-1 restroom where in some cases the new buildings 
for the enlisted people have 2 people per room per restroom. 
Now, that just doesn't make sense to me. So I would hope you 
would consider looking at pumping up a little military 
construction which would increase the quality of life for those 
people overseas.
    I appreciate what the Chairman said about the HMMWV seats. 
I know that it has only been 5 or 6 years, and we may not 
appreciate it here, but I will tell you those troops out in the 
field appreciate it. And the pads that they sleep on, I don't 
remember where I was but I said, where are these pads you sleep 
on? And I know you brought pads in to show us this new air 
cushion you have got that is a little bit better, I went to 
Bosnia with the President. I told the Army, put a pad on there 
for me so I can sleep on it, because this is long trip and a 
lot of time. I can see what they mean. I mean, it is not the 
most comfortable thing I have ever seen. And I understand how 
tough these guys are. But, if you don't get some sleep in the 
end, you are not able to perform the next day. And I hope that 
you will see that you can afford to do a little better job on 
this mattress that you are talking about.
    Secretary Walker.  Thank you.
    Mr. Murtha. Thank you, Mr. Chairman.

                            PERSONNEL TEMPO

    General Reimer. Mr. Chairman, you didn't ask for a comment, 
but may I just comment?
    Mr. Young. Yes.
    General Reimer. First of all, that air pad may be the only 
one we have. I don't know, but we have one. We are going to get 
more.
    Mr. Murtha. That seat you used to bring was the only seat 
you had.
    General Reimer. Mr. Chairman, I don't want you to think 
that I don't agree with you on personnel tempo (PERSTEMPO). It 
is an issue with the troops, and we are working very hard in 
that area to manage it. When I say that we think that we can do 
the reduction in personnel without impacting the PERSTEMPO, it 
is primarily because we are going after administrative 
headquarters and streamlining. We are not going inside the 
division--to the people who are deploying.
    Let me just give you some of the figures to agree with you. 
I did some spot checking with the battalion commanders. For 
example, in fiscal year 1997 we had a goal of 120 days; we 
wanted to keep people deployed less than that. One hundred 
eighty days breaks our threshold, but we manage, in between 120 
and 180 days very carefully. But in fiscal year 1997, for 
example, in this particular brigade for signal, MOS 33 Romeo, 
70 percent of those soldiers were deployed more than 120 days. 
In the military intelligence arena, 64 percent in one 
particular MOS and 85 or 83 percent in another one were 
deployed more than 120 days.
    That was just a spot check, but that is, I would say, 
pretty much average in Europe right now, because they have been 
shouldering the burden of Bosnia. Now, as the Bosnia operation 
continues to stabilize, we will spread that across the Army.
    Mr. Murtha. Are you counting the Bosnia deployment as part 
of the time they are away from home?
    General Reimer. Absolutely. A day away is a day deployed as 
far as we look at it.
    Mr. Murtha. Yes.
    General Reimer. So we are managing that very carefully, and 
I think once we stabilize the follow-on force and spread that 
across the Army, we will still be busy, but we can spread some 
of it. We initially focused it on Europe because we thought 
that this was going to be a mission that ended at a certain 
point in time. So I don't disagree with you a bit. This is a 
busy force out there, and they are doing the Nation's bidding 
and doing it very well. We have to work this PERSTEMPO issue, 
and I am continuing to focus on it.

                          MILITARY RETIREMENT

    Mr. Murtha. Let me ask one other thing, Mr. Chairman. What 
he mentioned was the pension, the three-tier pension. I think I 
hear more complaints--I am amazed at how much these young 
soldiers know about the pension system. I mean, they are upset. 
I have been trying to get the Defense Department to tell me why 
this happened, increase in wages--you know, it didn't make any 
sense to me that all of us would have let this happen.
    General Krulak told me he didn't know about this until he 
became Commandant, that these pension systems had changed. So, 
you know, I think that we have got to be more careful when we 
make these changes because they are having a real long-term 
impact on keeping people in.
    General Reimer. Your point on financial management is also 
true. At Fort Hood, we have a noncommissioned officer whose 
primary job is to teach financial management, because they are 
not getting it when they come in to us. It doesn't start with 
the Army, but we have got to correct it, because otherwise we 
spend all of our time writing letters back and forth to 
companies. So we have chosen in that particular area to educate 
our people, train them.
    Mr. Young. Mr. Skeen.
    Mr. Skeen. Thank you, Mr. Chairman.
    And Mr. Secretary, and General Reimer, good morning.
    General Reimer. Good morning, sir.

                          PERSONNEL REDUCTIONS

    Mr. Skeen. As each of you know very well, I am concerned 
about the depth of personnel cuts in this year's Army budget, 
and I am most concerned because your service branch has been 
adversely affected by the Pentagon's budget process which is 
about to cause a major problem, in my view, throughout the 
Army, both at White Sands Missile Range, which is in my 
congressional district, and throughout the country on other 
Army bases.
    On the first hand, this budget which is based on the 
Defense Department's quadrennial program review of the QDR, 
requires the Army to cut its civilian personnel and its 
research and development and testing accounts by 33 percent 
over the next 5 years. Is this the case?
    Secretary Walker.  I don't know the exact percentage.
    General Reimer. The numbers associated with the Quadrennial 
Defense Review, Congressman, were 15,000 Active component full-
time equivalents, 15,000 Reserve component full-time 
equivalents, and 15,000 Active soldier equivalents in 
civilians. And when you do the full-time equivalents, there are 
more Reserve component soldiers than civilians involved than 
just the----
    Mr. Skeen. Is that percentage of reduction in budget for 
those items a correct analysis?
    General Reimer. I am not totally familiar with that number. 
I will have to get back to you for the record on that.
    [The information follows:]

    Based on our current program, we estiamte that civilian personnel 
positions associated with research, development, test, and evaluation 
(RDTE) will decrease by about 29 percent between fiscal years 1999 and 
2003. Over the same time frame, RDTE funding will decrease about seven 
percent. Much of the apparent reduction in RDTE funding, however, is 
the result of revised accounting procedures. Specifically, beginning in 
fiscal year 2000, we will transfer base operations costs of our RDTE 
installations from RDTE funding lines to Operations and Maintenance, 
Army, funding lines.

                              ARMY BUDGET

    Mr. Skeen. Well, Congress has not approved this plan and I 
hope that us and--I certainly hope the plan is not passed as 
introduced, because of several deficiencies, and I will try to 
point those out. On the other hand, your agency was underfunded 
in this year's budget and cannot meet the requirements imposed 
by the Army and by the QDR, and that is quite a predicament. 
You must follow Pentagon personnel cut directives, yet you 
don't have the money and the personnel to carry out the 
military requirements as specified by the leadership.
    I am concerned that the Army is not getting its fair share 
of defense allocations and you are responsible for most, if not 
all, of the Defense Department deployments, yet the Army 
doesn't get its proportional share of the dollars allocated to 
these missions. And, more important, the Army has taken most of 
the casualties that our forces have suffered in the last 
decade.
    As each of you know, it is the responsibility of the 
Congress to raise funds for national defense. That is specified 
in Article I of the U.S. Constitution, and I am concerned that 
the QDR has become the baseline for future defense expenditures 
and that Congress had nothing to do with the review and 
approval of that document. And that is why we are here today, 
conducting a hearing on the Army budget for 1999, and I hope 
that we can produce a better budget for the Army through this 
process than the one submitted to Congress by the President.
    Mr. Secretary, and General Reimer, would each of you 
comment to the Committee on the Army's budget in light of the 
fact that you are underfunded and cannot meet all of your 
requirements? I would appreciate your thoughts on this matter, 
because it is a very effective thing. We had to go through the 
veto process, the line item veto process, to get the cuts 
restored to this test facility that I am particularly 
interested in, and I think you know the scenario.
    General Reimer. Congressman, I will start and maybe the 
Secretary will want to join in. Basically, we take our guidance 
from the Defense Planning Guidance and the National Military 
Strategy and, as I mentioned, it involves being able to 
respond, shape and prepare. And the Army budget, given the 
dollars that we were allocated to execute, is as tightly 
balanced as we can possibly make it. There were hard decisions 
that had to be made in this budget, and as I indicated, we 
shifted some of the risk from the future readiness, which we 
had been primarily using as we drew down the Army, to the near-
term readiness.
    What that translated to was a reduction of personnel in 
order to beef up the modernization account. We have a $5 
billion increase in the modernization account over the program 
years; and this budget in 1999, for example, compared to the 
1998 budget, as a percentage of the Operation and Maintenance, 
Army TOA, modernization increases from 65 percent in 1998 to 76 
percent in 1999. The only way we could do that in the Army was 
through personnel reductions, and so that is what we were faced 
with doing.
    Those personnel reductions were not popular with anybody, 
but in order to get more into modernization and avoid this 
window of vulnerability in the 21st century, those were the 
options that we had to deal with. They impact across the Army, 
and they are tough issues. They involve saying good-bye to some 
very dedicated soldiers and civilians. But otherwise we can't 
improve our modernization account.
    Mr. Skeen. I understand that perfectly, and I think we are 
repeating the same mistakes that we have made historically in 
the past. The only way that we can adjust the budget is to have 
a reduction in personnel, which I think is the wrong thing to 
do.
    Secretary Walker.  Congressman, if I could add.
    Mr. Skeen. Yes, sir.
    Secretary Walker. First, on the question of the number of 
civilians. In 1999, we will have 237,000 civilians, and by the 
end of the QDR period, 2003, we will be at around 218,000.
    Mr. Skeen. This is civilian personnel?
    Secretary Walker.  Civilian personnel, yes.
    With regard to your comment about resources, it points up 
two things for certain; that we do need the supplemental to be 
non-offset emergency, because we can't absorb the costs. If we 
had to absorb the cost of contingencies this year and the 
unbudgeted contingencies in 1999, we would break readiness of a 
number of units. We would have a much more difficult resource 
situation than we have got today. And second, I would indicate 
that our OMA account is as tight as I have ever seen it. It is 
tight because we took a risk by budgeting for efficiencies. We 
have about $1.3 billion in this budget assumed for 
efficiencies. If we are not able to do that, then we will have 
a problem in the OMA account.
    Last year, the net reduction directed by Congress in the 
OMA account was about $450 million. Our commanders are having a 
very tough time dealing with that net reduction. We have 
already seen them reduce their operating tempo miles earlier in 
the year than they normally do in order to absorb that cost. So 
I would just take this opportunity to encourage the Committee 
to look very carefully at approving our request for O&M this 
year.
    Mr. Young. If the gentleman would yield.
    Mr. Skeen. I yield.
    Mr. Young. I can't miss this opportunity to say, Mr. 
Secretary, that members of this Committee in the previous years 
have attempted to get the administration to agree to an 
emergency designation on those supplementals. Last year, the 
leadership of the House was prepared to go along with that, but 
the administration did not. So I would like to respond to you, 
we are happy to see that your side of the table has finally 
recognized that we can't continue to pay for these 
contingencies out of the muscle of the United States Army or 
the other services.
    Mr. Skeen. Absolutely.
    Mr. Young. So, Mr. Secretary, thank you very much. And I 
yield back to Mr. Skeen.
    Mr. Dicks. Does the Chairman of the Budget Committee concur 
with this?
    Mr. Young. I doubt that, but I am not going to speak for 
him. He is only one vote.
    Mr. Dicks. Good.
    Mr. Lewis. He doesn't have to represent the President.
    Secretary Walker.  Are any of your members on the Budget 
Committee?
    Mr. Young. As a matter of fact, one of our members is on 
the Budget Committee, yes, but he is not here.
    Mr. Skeen. Reclaiming my time.
    Mr. Young. Yes, Mr. Skeen. I am sure you will excuse me for 
that.

                       WHITE SANDS MISSILE RANGE

    Mr. Skeen. Of course, this is somewhat parochial in my view 
because of the White Sands Missile Range, but if these cuts are 
allowed to take place, I believe that it will have a 
tremendously adverse effect on the experiments scheduled in the 
test programs that I think are absolutely vital. And almost 
two-thirds of the range work is reimbursed by other defense 
program customers. The lack of personnel at White Sands will 
most certainly cause these programs to be scaled back, and I 
hope this is not going to cause a negative funding spiral and 
impact the range and its personnel infrastructure.
    If you want to restructure the nature of testing in the 
Army, that is a laudable goal. I am concerned that this budget-
driven restructuring will wreak unnecessary havoc on all of the 
Army's and the Nation's testing programs and I hope that 
doesn't happen.
    Would each of you comment on the matter and provide for the 
record any restructuring plans that the Army is developing, or 
intends, to perform its testing and evaluation in the future 
years with a third less Army personnel at the White Sands 
Missile Range?
    I understand that General Laws has announced that he is 
retiring, and he has gone through a lot of problems with his 
personnel cuts and so forth, trying to downsize. It is a great 
test facility and we don't want to repeat some of the mistakes 
we made in the past by letting this range deteriorate.
    General Reimer. Congressman, I totally agree and also would 
thank you for commenting on General Laws. I think he has done a 
great job over there--in terms of handling; what I consider, 
again, a great national asset for the Nation, not only the Army 
but for the other services.
    Let me start by saying that White Sands Missile Range falls 
underneath our Army Materiel Command. The Army Materiel Command 
commander controls about 62 different installations. He 
estimates that he doesn't need 62 installations; he needs far 
less than that. As we are unable to get a BRAC or move into a 
base closure process, then he has to spread limited resources, 
less resources, across 62 installations. If it was less than 
that, it would be a help.
    What you are finding, though, in White Sands in that 
particular area is that the 1999 funding is about $10 million 
less than it was in 1998, and that does impact around 343 or 
350-some people. It will have some impact on base operations. 
It may have some impact on testing. But basically, as I said, 
and as both of us have said, this budget is very tight. We 
don't think it will be a show stopper. It would be better if we 
didn't have to do that, in my opinion. But given the dollars 
that we have, given the mission we have, and given the Defense 
Planning Guidance, this is the best that we could do.

                         MILITARY CONSTRUCTION

    Mr. Skeen. As you know, we had an override vote over here 
on the military construction bill. And I think that that is an 
indication that we are very sensitive about that thing because 
these are facilities that have not been renovated to some 
degree within the last 30 or 40 years.
    General Reimer. If you look at our whole budget, the area 
of Real Property Maintainance, which is really being able to 
keep up our facilities, that is the lowest funded portion of 
it. You have helped us in the past, and you may not be able to 
help us this year. We don't know.
    Mr. Skeen. We are going to do our best.
    General Reimer. We appreciate that.
    Mr. Skeen. We appreciate what you have to go through, and 
this rendering process is going to have to reach a finality 
someplace. Thank you.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Dicks.

                         NATIONAL DEFENSE PANEL

    Mr. Dicks. Thank you, Mr. Chairman.
    I want to welcome Secretary Walker and General Reimer. 
Coming from the State of Washington, of course, we are very 
proud of all of the soldiers we have out at Fort Lewis, 
Washington, and the great job they do. I have been out there 
and met with General Crocker several times and I think he is 
doing an outstanding job.
    One of the things you have been talking today about is the 
National Defense Panel, they recommended that the Army become 
more expeditionary, fast, shock exploiting forces, with greater 
urban operations capability. The NDP was critical of the Army's 
procurement programs which they claim continue to modify heavy 
weapons systems, which are difficult to transport into theater.
    Additionally, the NDP recommended that the Army take the 
lessons learned from Force XXI experiments and transition 
quickly to the Army After Next.
    Now, General Reimer, Secretary Walker, do you agree with 
the NDP findings or do you disagree with them?
    General Reimer. Congressman, I agree with them to a certain 
extent, and I need to clarify that.
    I think where the National Defense Panel and I differ is 
that I don't think you can put those kind of time lines on how 
fast you move. Clearly our intent, and what we have been 
working on with this Force XXI process, is to change the Army 
from the Cold War Army, which I talked about to a post-Cold War 
Army that is more relevant, more strategically mobile, more 
lethal and incorporates new systems. And eventually, you want 
to get rid of the heavy equipment that you have right now. But 
you can't do that until you get technology that comes along to 
take its place, because the battlefield is still going to be a 
dirty place and a very dangerous place. So what we are embarked 
upon is a process called Force XXI, in which we are changing 
from that Cold War Army to the Army After Next, as we refer to 
it. That will be a totally different Army.
    But it is more than just technology. It is about developing 
the leaders that you need for it. It is about developing the 
doctrine--how you are going to train that force. All of that is 
centered around Fort Hood right now.
    Now, at some point in time you convert the majority of your 
effort from this force we have today into the expeditionary 
force. What we are doing now is investing in a focused Science 
and Technology (S&T) program to pull forward the technologies 
we will need for the Army After Next.
    And General Paul Kern and Secretary Ken Oscar, who are 
coming this afternoon, I think can elaborate more on that 
through our Army After Next war games. I think the process of 
change we have in place is the right process. Where I disagree 
with the National Defense Panel is I don't think you can put 
time lines on it this fast. You have to run the experimentation 
program. You have to make sure that the technology is there, 
but the basic thrust is in the right direction.
    One other thing on urbanization, because they are 
absolutely right and this is a good news story, we are working 
with the Marines on a series of Advanced Concept Technology 
Demonstrations in which we run about eight different exercises, 
and next year we will run a major combined exercise with the 
Marines in urbanization. If you go down to the Joint Readiness 
Training Center right now, you will find world class Military 
Operations in Urban Terrain (MOUT) facilities. We have moved in 
that area, and we are moving with our friends in the Marine 
Corps in that particular area. I think it is terribly important 
because the urbanization trends that we see in the 21st century 
have to be addressed now.
    Secretary Walker.  Congressman, I would add that QDR has 
enabled us to accelerate our process. We will have a division 
by 2000. We will have the first corps of Army XXI fielded in 
2004 as opposed to 2006, which is what we told you last year.
    [Clerk's note.--In Secretary Walker's original statement, 
he said ``By 2006, under the current plan we will have two 
corps fielded as opposed to one.]
    Mr. Dicks. You will have two what?
    Secretary Walker.  We will have one division by 2000 and 
one corps by 2004.
    And I would just reiterate what I said in my testimony. We 
have to be very careful and proceed in a deliberate fashion so 
that we focus science and technology, that we maintain always 
our readiness and our combat overmatch throughout the 
transformation process, that we are always able to do the 
missions that we are assigned by the National Command Authority 
while we transform the Army into that new revolutionary Army.

                                M1 TANKS

    Mr. Dicks. What the NDP is saying is that you have been 
investing your money in modifying, fixing tanks. Are we still 
buying new tanks?
    General Reimer. We are not buying new tanks. We are buying 
M1A2s, through an upgrade of the M1.
    Mr. Dicks. But isn't part of their recommendation that we 
go to a lighter tank?
    General Reimer. Yes, and if somebody could give me a 
lighter tank that would do something, I would be glad to buy 
into that. That is where the NDP stops.
    Mr. Dicks. So you are----
    General Reimer. Great concept. It is not reality.
    Mr. Dicks. But are we doing any R&D on it? Is the Army 
looking into it?
    Secretary Walker.  Yes.
    General Reimer. Yes. We have a number of systems that we 
think that----
    Mr. Dicks. I thought the M1 was a great tank.
    General Reimer. It is the best tank available.
    Mr. Dicks. Is your argument that it is hard to get on an 
airplane, it is hard to move it?
    General Reimer. It is 70 tons. It is difficult to move and 
you have to move it through fast sealift. The other way we do 
it is by pre-position. That is why we were able to close the 
brigade out of the Third Infantry Division in a matter of 
hours, whereas during Desert Shield it took us 28 days. We had 
done the pre-po business. And the M1A2 tank is a much better 
tank. But for somebody to say, give me a 20-ton tank that will 
do the same thing as the M1A2, sign me up right away. But there 
is nothing there.
    Secretary Walker.  As I indicated in my testimony, you 
know, we need to insert technological breakthroughs as they 
become viable. As the Chief says, we are not there yet.

                             LEGACY SYSTEMS

    Mr. Dicks. I think they were also critical of a couple of 
other weapons systems, weren't they, like the Comanche 
helicopter, which I have been a big supporter of? What do you 
think of that?
    General Reimer. I think they are wrong on the Comanche 
helicopter. I think the Comanche helicopter has to be the 
quarterback of the digitization effort. It is the command and 
control piece. It is a very highly deployable system. It can 
self-deploy. It can do the things we want in the Army After 
Next. It is very easy to maintain. It has the right logistical 
concept built in with the test and diagnostic equipment.
    They were critical of the Crusader because they said this 
is a 55-ton vehicle. The problem is you have to measure 
capabilities. You can deploy an equal capability with the 
Crusader, compared to what we have now with the M109 Paladin, 
with about 60 percent less sorties. Said another way, with the 
same number of sorties, you can deploy three times the 
capability.
    The Crusader also gives you the technology carrier. It also 
gives you a smaller crew. It is moving in the right direction. 
The M109 has been around the Army longer than I have. It is 
1950s technology. It is probably time for both of us to go. If 
we are ever going to maximize the capability of our combined 
arms teams, we have got to get fire support to stay up with 
Abrams and Bradleys.
    Secretary Walker. For the record, I want the record to show 
I do not agree with the Chief on his statement about his being 
around too long.

                           RESERVE COMPONENTS

    Mr. Dicks. We hear from the total Army, by the way, we want 
you to know that. And I understand that you are trying, and I 
know this is in your statement, that you said that the 
procurement budget this year is greater for the Guard and the 
Reserve than the amount that was appropriated by the Congress 
last year. Maybe that is because Congressman Montgomery is no 
longer here.
    But having said that, this is a serious issue, and I have 
had a chance to talk to General Reimer about this. I think it 
is very important that the Army be a total Army and that there 
is an effort to work with the Guard and the Reserve. And quite 
honestly, I think it is a bit unseemly, that there seems to be 
this kind of almost open dispute between the Guard and the 
Reserve and the active Army force.
    Now, I know that, General Reimer, you have tried to do to 
resolve this. Can you tell us today that things are better?
    General Reimer. Yes, sir, I can. I think they are better. I 
would also say that I am professionally embarrassed that this 
is an issue that has to be raised in an open forum. I think we 
have to solve this for the good of the Nation.
    I will be the first to say that the link back to the 
American people is strongest through our Reserve components. 
The Army is 54 percent Reserve components--that is not only 
fighting strength but that is the link back to the American 
people. If we ever lose that, then we will lose this Army that 
we are all so proud of. So we have to get it fixed. I have 
spent a lot of time recently, and I will spend whatever time it 
takes, as long as I am Chief, to get this back on track. It got 
off track, quite frankly, because of quick decisions that were 
made with the QDR process and a lot of misunderstanding. We are 
working hard to get it back in terms of communicating amongst 
the leaders of the total Army. And I think there is a 
dedication that I feel from all the components to make it 
happen.
    But it is not peaches and cream right now. It is getting 
better, but it is not where it needs to be, and we will 
continue to work it to get it to where it has to be. I can tell 
you that there are a lot of good initiatives going on. Not only 
are we talking about it, but we are doing something about it. 
There will be two integrated divisions that will have got 
Active component and Reserve component, primarily National 
Guard working together. They will be stood up in October of 
1998.
    That was an initiative that came from the Adjutants 
General. There are other issues about how you can integrate the 
forces from the Active component and Reserve component. I think 
we have to pick up from some of the successes in the Marine 
Corps and the Air Force and use those models. When you do that, 
you are talking about integrating at a lower level and having 
more full-time support and getting more Active component 
involvement. Those are issues that we are developing, and I 
think it is moving in the right direction. But I am 
professionally embarrassed that this has occurred and that we 
have to deal with that. We will deal with it.
    Mr. Dicks. And you have tried to work hard on this. This is 
not the first Chief of Staff of the Army who has had to deal 
with this problem. This has been a problem. But I think you are 
right, too. The Air Force, I think, has done a better job here.
    Does it get down to these two issues, does it get down to 
this--this festering concern over the combat capability of the 
Guard brigades, and money? Is this what we are really talking 
about?
    General Reimer. Well, that is a key issue. It is not the 
sole issue. It has a lot to do with trust and confidence and 
understanding of what each component brings. That is why I 
think if you integrate at a lower level, you start to develop 
leaders who understand each other better, and they rise to the 
leadership positions of the Army in all components. But it has 
a lot to do with combat operations and resources.
    To compare the Army and the Air Force, I think it is 
important to understand the Army is about 54 percent Reserve 
component, and we have got a full-time support cadre of less 
than 13 percent. On the other hand, the Air Force has something 
like 30 percent, 32 or 33, and they have a percentage of full-
time support that is probably above 30 percent. So it is a 
different type of situation that we face.
    Additional resources could solve a lot of issues for us, 
absolutely.
    Mr. Dicks. Thank you, Mr. Chairman.
    Secretary Walker. Congressman, if I could only add----
    Mr. Young. Yes, Mr. Secretary.
    Secretary Walker. That since the end of the QDR process, 
General Reimer has done an extraordinary job in trying to work 
with all the components of the Total Army, to bring them 
together to foster a spirit of trust and confidence, and I 
commend him for that, and we thank the Committee for your 
concerns at the present.
    Mr. Young. Mr. Nethercutt.

                    TRAINING AMMUNITION DESTRUCTION

    Mr. Nethercutt. Thank you, Mr. Chairman.
    Secretary Walker, General Reimer, welcome. Last September 
at Fort Lewis, there was an incident reported in the newspaper 
about some explosion of ammunition supplies and it made some 
local people sick from smoke and gas inhalation, apparently, as 
a result. And if you read the article--you in the broad sense--
I get the sense that there was a policy, sort of a use-it-or-
lose-it mentality there, to expend annual ammunition stocks.
    Do you see that in other instances in the Army? If so, has 
there been an admonition to not do--use it or lose it in terms 
of ammunition supplies or any other supplies? I think there was 
some fear that they wouldn't get budgeted fully for the 
following year. I hope that is not the case. I am just wanting 
to get some assurance from you to this committee that that is 
not the case or that some steps have been taken to make sure 
that it is not.
    General Reimer. Congressman, I think that I can assure you 
that is not a prevailing attitude across the Army.
    Mr. Nethercutt. Yes.
    General Reimer. As I said, I have been in the Army 35 
years. I think, obviously, some of that attitude has existed 
over my career. It is far less than it has ever been because 
people are very tight out there. One of the reasons we have put 
so much efficiency in is to make sure that they know that we 
only have limited resources.
    Now, I think the Fort Lewis incident in the paper had to do 
with the destruction of some training ammunition and the 
effects when it got away from us, and I think, basically, the 
bottom line is we screwed up in the way we did it. But I don't 
think that is something that is prevalent across the Army. I do 
not detect that at this point in time.
    Mr. Nethercutt. Is there a system in place for inventorying 
our ammunition stocks, that is clear, that would show that that 
is not the case? I don't assume that it is the case, but I am 
just wondering if you all have quantified that in your 
analysis?
    General Reimer. We have a very good system of inventory and 
protection of sensitive items, probably less so from the 
standpoint of ammunition, except through the chain of command. 
And I think that is the way we enforce the accountability for 
ammunition--through the chain of command.
    When a unit draws a certain amount of ammunition, they will 
get a signed receipt for that amount of ammunition. When they 
finish their training, they will turn in the remainder or else 
they will turn in the cartridges that account for the 
ammunition that was expended. So that is well documented and 
controlled.
    Now, whether it is 100 percent, my guess is probably not, 
but it is a pretty good system.

                      ADEQUATE AMMUNITION SUPPLIES

    Mr. Nethercutt. I understand. The point of my questions are 
really to emphasize, again, that we are struggling to pay for 
all of those things that we want you to have and we want to be 
certain that there isn't some sort of systemic waste when--at 
lean times like I think we have and want to get you what you 
need.
    I noticed in an article a couple of days ago in the 
Washington Post, regarding the situation in Korea relative to 
the situation in southwest Asia. General Tilleli, apparently, 
noted in a memo that with the transfer of an aircraft carrier 
and ammunition supply ships to the Gulf, there was a weakening 
of our ability to respond to North Korean aggression. I was 
concerned about his reference to shortfalls in the availability 
of Patriot antimissile batteries, several Army missile systems 
and main gun rounds. The General noted that they would be 
severely impacted by these shortfalls. I am just wondering, is 
that a failing, a shortcoming of the QDR or the two MRC policy? 
And are we going to have shortfalls there in the future? Is our 
budget adequate or is your budget adequate to make sure that 
the Korean forces have adequate ammunition supplies?
    General Reimer. I read the article. I don't feel 
comfortable talking about that. It was a classified message 
from General Tilleli to the Joint Staff. I can just simply say 
that whenever we approve a deployment, we look at worldwide 
readiness and we look at the threat to make sure that we are 
not putting somebody in danger.
    Mr. Nethercutt. Sure.
    General Reimer. Obviously, if you take forces from any 
theater, that theater commander will say, I have less forces.
    Mr. Nethercutt. Sure.
    General Reimer. But I think that risk is considered in any 
deployment decision made by the Secretary of Defense and the 
President.
    Secretary Walker.  I think the record should show we have 
not reduced the number of Patriot batteries in Korea.
    General Reimer. We have not pulled any Patriot munitions or 
any Patriot batteries out of Korea. We don't intend to.

                               RECRUITING

    Mr. Nethercutt. I was concerned--I know it is sort of a 
leak but I just was concerned that there was some jeopardy 
perhaps there, and I assume that you are well aware of it and 
making sure that we are protected.
    The final question, Mr. Chairman. I noticed in your 
testimony, Secretary Walker, that nearly 10 percent of the new 
recruits to the Army didn't have high school diplomas. In order 
to get the GI bill, you have to have, I understand, a high 
school diploma. And I am just wondering if this is a problem in 
your recruiting. Are you seeing the need to change standards a 
little bit?
    Secretary Walker.  The 10 percent who do not have high 
school diplomas must have a GED or an equivalent home schooling 
or something of the like, and they must also be in the upper 
half of the aptitude test. So we think it is the right 
approach.
    Mr. Nethercutt. So that is--if the GED is in place, 
notwithstanding the lack of a diploma, these recruits will 
qualify for the GI Bill?
    Secretary Walker.  That is correct.
    Mr. Nethercutt. Okay. I was concerned that perhaps there 
would be some longer-term shortcomings if that was the policy. 
Thank you very much for your testimony.
    Secretary Walker.  Thank you.

                              BOSNIA VISIT

    Mr. Young. Mr. Nethercutt, thank you very much.
    I want to yield to Mr. Sabo but before I do, General, and 
Mr. Secretary--the Speaker has asked me to take a sizable 
delegation to Bosnia next week to visit with your soldiers that 
are there. And I have a meeting of that delegation coming up in 
a few minutes so I am going to have to excuse myself. Mr. Lewis 
will assume the chair.
    And if you have any messages that you would like for us to 
deliver to the troops over there while we are there, we are 
going to see as many of them as we can. We are going to spread 
out across the country in different subgroups of the 
delegation.
    Secretary Walker.  We want to thank you for the trip. It is 
very important and very timely. We thank you so much for going. 
And tell the troops what we always tell them; that we love them 
and we are going to do our best to take care of them.
    Mr. Young. We will certainly do that.
    And let me yield to Mr. Sabo at this point. And, Mr. Lewis, 
if you will assume the chair, I will move on to my next 
assignment. Thank you very much for an excellent hearing.
    General Reimer. Thank you, Mr. Chairman.
    Secretary Walker.  Thank you.

                    ENVIRONMENTAL CLEANUP LIABILITY

    Mr. Sabo. Thank you, Mr. Chairman.
    Secretary, General, welcome to the Committee.
    This is not a question, but a comment on an issue I hope 
the Secretary would watch closely. We are involved in a cleanup 
program with the Twin City Army Ammunition Plant in Minnesota, 
and it is coming along fairly well. But, one of the things we 
have discovered over the years, is that we have spent a 
significant amount of Federal dollars to pay insurance premiums 
for government-owned, contractor-operated facilities.
    And it would appear that in many cases, insurance is liable 
for some of the cleanup costs. But very little effort has been 
made to collect so far. So I suggest to you that some 
aggressive action by the Army might well free up some dollars. 
We have begun working with our Committee staff and with the 
Army on the issue, but it is somewhat time sensitive because 
there are time limits on some of these claims. The statute of 
limitations for insurance liability may soon be running out in 
some cases.
    It may well be that it has been simpler over the years to 
come to this Committee for cleanup appropriations than to 
pursue the claims against insurance companies which would 
appear to be legitimate. But I believe this is something we 
should pursue, and so we simply ask for your cooperation, and 
ask that you highlight this issue within the Army.
    Secretary Walker.  Yes, sir.
    Mr. Sabo. And make a few million dollars available.
    Secretary Walker.  When I get back to the Pentagon, I will 
discuss that very issue with the Deputy Assistant Secretary for 
Environmental Affairs. Thank you.
    Mr. Lewis. Mr. Sabo, are you finished?
    Mr. Sabo. Yes.
    Mr. Lewis. Mr. Visclosky.

                          PERSONNEL REDUCTIONS

    Mr. Visclosky. Thank you, Mr. Chairman.
    If I could follow up, Mr. Secretary, and General, on some 
of the comments my colleagues made, including Mr. Skeen, about 
the personnel reductions. If I could ask: Do you have units 
that are today undermanned because of personnel reductions?
    General Reimer. The answer to that is somewhat complex. The 
short answer is, yes, but I need to explain why, and I need to 
talk a little bit about the difference between force structure 
and end strength.
    As we drew down the Army, and I mentioned we took down 
630,000 people, most of them soldiers from the Active and 
Reserve components, we also drew down our force structure 
allowance, which were the units that those soldiers were in. As 
we got to 1997, we carried across that whole year an operating 
strength deviation of about 10,000 soldiers, which meant we had 
10,000 less soldiers than we needed to fill up those units. 
That was in the Active component.
    What we did during 1997 was to transfer some of the Active 
component structure, the later deployers for the major theater 
wars, to the Reserve component, but not transfer any of the end 
strength. This, then, in fact will fill up our units and we are 
now back where we ought to be, right where force structure and 
end strength become very close to the same.
    It also makes the Reserve component more relevant to the 
war fight. It was an action that we took in 1997. So the answer 
was, yes, we had some unmanned and undermanned units out there. 
We have corrected that, and we think we have them back in 
place. In fact, the anecdotal evidence coming out of the 
National Training Center and other places is saying that the 
foxhole strength is filling up in the units.

                               READINESS

    Mr. Visclosky. Do you have units that are rated below C-3 
because of personnel shortages?
    General Reimer. Not to my knowledge. We have some--I have 
to be careful in the classification in here--but we have some 
units and Reserve components that are C-3 or lower, but not 
because of personnel. No Active components units that I am 
aware of are below C-3 because of personnel.
    Mr. Visclosky. With the projected decrease in personnel 
levels this year, is there a danger of that occurring during 
1998/1999?
    Secretary Walker.  The projections do not anticipate that, 
is my memory.
    General Reimer. No, sir. We think we have brought our force 
structure and end strength in balance. We should not have that 
problem of as many unmanned and undermanned squads, and we 
should not have any C-3 units for personnel.
    Mr. Visclosky. Okay. Today and prospectively, is that 
right?
    Secretary Walker.  Right.
    General Reimer. Yes, sir.

                                TRAINING

    Mr. Visclosky. On the readiness training, my understanding 
is that your training objective for tank miles is 800 and that 
it is anticipated for fiscal year 1997 and 1998 that we will be 
just over 650.
    Is 650 actually typical and is 800 an illusion or are we 
falling off the mark here?
    General Reimer. Eight hundred is not an illusion. Prior to 
the drawdown, we were executing at about 800 miles. What has 
happened as we have gone through the drawdown and as the money 
available to us has come down, is that we have had to work the 
balance between OPTEMPO mileage and base operations--the 
quality of life on the installations where our soldiers live 
and work. So you will see in the 1999 budget, for example, that 
we have funded base operations at about 84 percent and that 
Real Property Maintenance is about 58 percent. That is repair 
of the facilities.
    Installation commanders are faced with a real choice: How 
do they keep that base running at that particular level and how 
do they also keep the right amount of miles on their equipment 
to make sure they keep up with training? They are weighing that 
very, very carefully right now. We have to bring tank miles 
back up, and the projections that you are using in 1998 
absolutely are correct except that, as you look at it, Korea 
will now come back up towards the 800 miles. Most of the lower 
mileage is in the Continental United States in Forces Command 
and the United States Army Europe; the United States Army 
Europe, for valid reasons, because they have been in Bosnia.
    So the balance that the installation commanders are working 
is trying to keep the quality of life and the training up. 
Right now, they are doing it, but we have to stay with that 
800-mile mark as the goal for us.
    Mr. Visclosky. Could you provide for the record how much 
money you would need to hit 800 miles?
    General Reimer. Yes, sir.
    Secretary Walker.  Yes.
    [The information follows:]

    In fiscal year 1998, the Army fully funded the tank mile program. 
Major Army Commands chose to spread Congressional unspecified cuts and 
must-pay bills that arise during the year of execution, or funds 
withdrawn or withheld due to contingency operations, in the areas where 
they had the most flexibility. Commanders are responsible for the 
readiness of their units in all areas. As a result of balancing 
competing needs in readiness, training an quality of life, some funds 
originally intended for training were used in these other areas. The 
Army requires $218,000,000 to attain 800 tank miles in fiscal year 
1998. The Army's 800 mile tank training strategy is fully funded in the 
fiscal year 1999 budget.

    General Reimer. They are funded at 800 miles, but what 
happens is you are migrating money into base operations to keep 
the base operations running.
    I should also say, they are using a lot of efficiency 
measures. Instead of driving tanks to the range, they will put 
them on heavy equipment transporters and take them out. That 
saves them a lot of miles. So I wouldn't want you to think that 
the training aspect of it has gone completely down.
    Mr. Visclosky. Completely, okay.
    General Reimer. They are using all the efficiency measures 
they can possibly get. They are managing their money very, very 
carefully.
    Mr. Visclosky. I am all for efficiency, but you are going 
to have to squeeze a lot more efficiencies out of that system.
    General Reimer. Well, the 800 miles pertains to tanks.
    Mr. Visclosky. Not just tanks, but looking at some of the 
earlier discussions.
    When the Department released its budget, they claimed that 
they were going to add about $1 billion onto operations and 
maintenance accounts to preserve readiness. What did you get 
out of that $1 billion? What did the Army get?
    Secretary Walker.  I am not sure of the exact amount, but 
during the major budget issues, we were able to increase the 
amount that we had presented for real property maintenance and 
others. Even with that amount, though, as you heard, we are 
still substantially below our requirement.
    General Reimer. Most of our plus-ups in the 1999 budget are 
in the modernization account. As you see, we have tried to 
build up our modernization account, which had gotten way too 
low. So we are trying to build that back up now.

                              CAPABILITIES

    Mr. Visclosky. The Army Times had an article recently about 
each division, on average, having about 18 fewer guns than they 
did during Operation Desert Storm. It is anticipated that the 
Crusader will make up the difference, but apparently the 
Crusader will not come on line for about 7 years.
    Is the article, first of all, reasonably correct? And what 
would the Army, if push came to shove, do to make up that 
deficiency?
    General Reimer. Well, first of all, I don't recall the 
exact article you are talking about, but trying to compare the 
Desert Storm force against today's force is kind of 
interesting, and we have done some work on that. If you will 
bear with me, I would just like to point out a couple of 
things.
    Mr. Visclosky. Sure.
    General Reimer. We started in Desert Shield in 1991. We had 
no pre-positioned assets in the Persian Gulf. Now we are pre-
positioned over there so we are able to close that brigade in a 
matter of hours as opposed to 28 days. We had no C-17s. Now we 
have C-17s. We had Ready Reserve Force Roll-On, Roll-Off (RORO) 
ships. Now we are about midway through pre-positioning forces 
on large, medium-speed, RORD ships. So the basic issue here is 
that we are able to close this force a whole lot better.
    We had limited detection capability in Nuclear, Biological, 
and Chemical (NBC). Now we have M93 Fox vehicles in the force. 
We had limited anthrax vaccine. Now we have adequate anthrax 
vaccine. We had an ad hoc air defense command and control 
system. Now we have something called the Army Air Missile 
Defense Command that is over there now in place.
    If you look at the tactical end of this thing, in terms of 
what we have done for the force, we had a radio system called 
the AN/VRC-12 series. Now we have Single Channel Ground and 
Airborne Radio System (SINCGARS), a quantum leap forward. We 
had 5,000 of the SLGRs, which are Global Positioning Systems, 
in the force. Now we have over 70,000 of them spread across the 
force. We were upgunning the tanks from M1s to M1A1s. Now we 
have M1A1s in the force, and we are upgunning those to M1A2s, a 
much better tank.
    People that try to compare Desert Shield to where we are 
right now--and by the way, this was all while we were on a 
modernization holiday--realize that this is a much better 
force. Then you get the personnel aspects of it. Of the people 
I saw going out at Fort Stewart, most of the NCOs had been 
there before, two or three times. Twenty or 30 percent of the 
force, I would imagine, has experience there.
    When I was in the office, Deputy Chief of Staff for 
Operations and Plans, John Yeosock, a lieutenant general of the 
United States Army, was the most experienced person we had in 
the Army. I could count the number of people that served in 
Saudi Arabia on one hand. Now, this is a different force, a 
better force.
    Mr. Visclosky. Okay.
    General Reimer. Smaller.

                           MATERIEL SHORTAGES

    Mr. Visclosky. With the deployments in Bosnia, the Persian 
Gulf, all of the other demands, people have also raised 
questions about whether or not there are deficiencies as far as 
the Army's forces, shortages of materiel. Two that have been 
brought to my attention are potential shortages of Patriot 
batteries to meet current requirements; also a shortage of main 
gun tank rounds. Would you comment on those two issues?
    General Reimer. First of all, we have more Patriot units 
than we had during Operation Desert Shield but because of the 
threat increase in that area, in terms of tactical missile 
defense, my feeling would be that we don't have enough Patriot 
batteries. We don't have as much as the CINCs, the Commanders 
in Chief, out there would like.
    As far as the tank rounds are concerned, we went over with 
limited M829A1 rounds. We still have M829A1 rounds which are 
very, very good, but now we have a product-improved A2 also 
fielded in the force.
    Do we have 100 percent of the requirement in that? No. But 
if you look at the whole range of anti-armor killing systems 
that we have, we are adequate for what we have to do in two 
major theater wars.
    Mr. Visclosky. You are adequate, but could you attach a 
percentage as to what your shortfall is for the tank round?
    General Reimer. For the tank round, in terms of preferred 
munitions, I can't attach a percentage to that right now. We 
probably would like to have more M829A1s or 2s, but we are not 
short tank ammunition in general. And as I said, I think the 
M1A1 tank can defeat any tank on the battlefield right now.
    Mr. Visclosky. Okay.
    General Reimer. So in preferred selected munitions, yes, we 
have some shortages, but it is in our program to build those 
up.
    Mr. Visclosky. Okay, thank you. I have no further 
questions, just a comment, and a number of members on the panel 
have already said it today. I just think that you need 
additional resources. You have some very difficult choices here 
between quality of life, training, your TEMPO of operations, 
your modernization tension with upgrades of existing systems 
that you need today if something happens.
    You are in a very difficult spot, I think.
    General Reimer. Thank you, sir, and I am not going to 
argue.
    Mr. Visclosky. The question is whether you are better off.
    Mr. Lewis. That may be a very clear commitment for support 
for that emergency supplemental.
    Mr. Visclosky. Yes.
    General Reimer. Thank you.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Lewis. Mr. Cunningham.

                           WEST POINT ACADEMY

    Mr. Cunningham. Thank you, Mr. Chairman.
    General, I was very happy to see that the Navy sticker I 
put on the bottom of the bleachers at West Point did its job 
this year.
    General Reimer. It was a long ride back.
    Mr. Cunningham. It was a long ride back. I know it was a 
long ride for 2 years in a row, or 3 years in a row.
    But I want to tell you something. Sue Kelly, who represents 
your district--when I was Chairman on the Subcommittee on 
Education, the impact aid issue for that area is very 
important. I know we talk about weapons systems but we need two 
things, Mr. Chairman, that we really need to do in this 
Committee. I visited the other academies. West Point, built way 
back during the Civil War, they have got a gym with the old 
track around the top like they used to have at the University 
of Missouri, where they have to have classes in hallways 
because they don't have the areas to do it. Conditions compared 
to the other academies are dismal, and this Committee owes it 
to the Army to--and I am a Navy guy, okay? But we owe it to the 
Army and the people that we are going to ask to be the leaders 
of this country in the future in our military to fix that place 
and to invest in it, because it is a crime what they are having 
to do.
    And I want to take the lead on that. I know Sue Kelly 
would.
    Mr. Lewis. Would the gentleman yield just a moment on that?
    Mr. Cunningham. Yes.
    Mr. Lewis. In the time I have been on the subcommittee, I 
think that is the first time I have heard that question raised 
in quite that way, and it is overdue. I really appreciate the 
gentleman pointing that out and I think the Committee ought to 
take a hard look. Maybe we should go visit West Point sometime. 
I am not sure the Committee has since I have been here.
    Mr. Cunningham. I was not aware of West Point and the 
dismal conditions there. I mean, you have got thousands of 
people going through there in a substandard facility, an old 
facility. I mean, they do the best they can. I mean, you have 
got sports activities, you have got fencing in the hallway. You 
know, they have asked for some meager changes and stuff, and we 
have been unable to do that and it ought to be a focus area.
    Secretary Walker.  We want to thank you for your comments, 
both of you, because this year we do begin a plan; it is in the 
budgets, a modest beginning, and we do need to correct that 
deficiency.

                          QUALITY OF THE FORCE

    Mr. Cunningham. You will find a very strong supporter here, 
and I am sure with this Committee, on the thing.
    The M1A2 tank, I notice you are only going to produce or 
retrofit about a third of them. And with no real technology out 
there, that means a new one would take until about 2020. And 
when you are talking about 80 percent of your force is from the 
seventies, and trucks are older than many of the drivers, to 
me, when we talk about deficiencies in war capability that it 
is a real problem.
    The AA-12 missile is better than our AMRAAM. The SU-37 and 
35 are better than our F-14 and F-15. That is why we have got 
to invest in the F-22 and the F-18 E/F. But in the Army, the 
same thing. The technology that foreign countries are investing 
in, and we keep drawing down without the ability to do that, I 
am concerned. Maybe the tank is good but I want to tell you it 
doesn't stop the technology, and I am fearful that we are not 
investing in that as well.
    I want to bring up, now comes the point where--I don't know 
if you saw that movie, ``I am tired of this and I am tired as 
hell,'' and that is where I get to that point. And the first 
statement I would like to make, I would like to take off, I am 
very proud to be a member of this Committee. Both Republicans 
and Democrats, they fight for the same things that I do, in 
some cases even stronger than I do on this Committee. What I am 
going to talk about now is the White House and many of the 
Members on the House floor and the direction that they want to 
go instead of the directions that we want to go, and I want to 
caveat with that.
    The White House has continually through many different 
routes cut the military readiness, funding, and support. 
Cutting Defense further is hazardous to the security of this 
country and the well-being of our allies, and that is wrong. 
And I will be very specific.
    First of all, in 1993, when Colin Powell and Dick Cheney 
said a $50 billion drawdown would be detrimental and would put 
us into a hollow force, immediately there was $127 billion cut 
in defense. Bang, like that. And then all the other things; the 
defense conversion which takes money out, the contingencies 
that over and over we have had to take out of military budgets 
and so on.
    Something else that bothers me also is that I look at your 
statement here, as far as what you need, and then I see gender 
training, and political correct training.
    You know, when we have a limited force like this--and I 
have supported women in combat, but we cannot accept or 
tolerate anything less than superlative. Anything that detracts 
from superlative combat troops should be eliminated. The very 
first bill out of the President, out of the White House, was 
putting homosexuals in the military, our kids don't like that. 
They don't like the political correctness, that causes them to 
look over their shoulder on every decision.
    When I was in the service, I made my mistakes, but my 
senior commanders stand up for you. And if you stand up for 
your kids today and you may get fired, and that is wrong.
    Mr. Lewis. Would the gentleman yield?
    Mr. Cunningham. Yes.
    Mr. Lewis. I don't want to be indelicate here, but these 
are items that probably you should have taken care of in the 
authorizing committee when you were a member of that committee. 
We are trying to find money here.
    Mr. Cunningham. I will do that, and I will be more 
succinct, Mr. Chairman.
    Mr. Skeen. He is just getting warmed up.
    Mr. Cunningham. I am fired.
    Secretary Walker.  Congressman, may I only say a couple of 
things, and I think General Reimer will agree with this. In the 
Army, we do not make decisions based on political correctness. 
We have not done that, and I assure you as long as I am there, 
we are not going to do that in the future. We are going to make 
decisions based on what is best for the Army, to keep readiness 
up and to do the right thing for our soldiers. I want to assure 
you of that.
    With regard to the capability and the quality of the force, 
the quality is the best it has ever been. In terms of the 
capability, in terms of numbers, for instance, we may have 
fewer divisions, but if you measure in terms of number of 
brigades, we have only one less brigade than we had when Colin 
Powell had created the base force. We have 32 brigades compared 
to 33. To make up for that, we have now have 15 enhanced 
brigades which are growing in capability in the National Guard.
    And in addition to that, as the Chief pointed out a few 
minutes ago, since the end of Desert Shield/Desert Storm, we 
have come--even in a period of drawdown and budget reduction, 
we have made substantial improvements in the capability of our 
equipment and training.
    So we watch it very carefully.
    Mr. Cunningham. I know, and I understand the limits that 
you have, and I understand what you have to say because you 
work for the President. But I also know that when you are 
talking about equipment that 80 percent of it is from the 
seventies, when you are talking about trucks that are old, when 
you can't upgrade your tanks, when the other equipment isn't 
there, readiness is relative.
    Secretary Walker.  Oh, absolutely. I made those very points 
in my opening statement, as you may recall.
    Mr. Cunningham. And that it is very, very difficult. And 
why we got there is that this country is in such debt that we 
pay nearly a billion dollars a day before anything, and that 
hurts from across the board from NIH to military to everything. 
We are trying to put this country's fiscal responsibility back 
on track so that your kids and my kids aren't going to fall 
under a Socialist, Communist regime.
    In France, one in four works for the government. What do 
they have? They have a Communist and socialistic model of 
government.
    And the reason that you are there is because, if you take 
the unions and give them the power away from small business, 
which is the opposition--they don't want higher taxes, they 
don't want bigger government--it impacts on our ability to do 
that, and right on down the line.
    You talk about Office of the Secretary of Defense, I had a 
program to copy all defense mapping agencies. OSD tied that up 
for one year. We got $12 million. We could have done everything 
for you in all services. OSD tied it up because they wanted to 
steal the money or hide it or take it somewhere else. We had it 
appropriated also. They delayed 1 year. They continued copying 
the same way. They did 10 percent of the maps at a cost of $16 
million. And we could have done it. That is the kind of fraud 
and waste and abuse we need to look at in this.
    You ask--and the reason I bring up this other budgetary 
stuff, you ask for an offset, a nonoffset supplemental for 
emergency, and I agree with that. But the President's budget, 
he puts 100,000 teachers in there just like 100,000 cops, and 
it is a lie. Where is the money going to come from?
    I happen to believe that our veterans that we ask to go out 
and survive and fight our wars, and the separation and all the 
troubles that they suffer, have got a priority over somebody 
that has not served and only wants money from the government.
    We owe those men and women a priority. But yet this White 
House, most of these programs are social programs and promises 
that we can't meet that increases our deficit by over a 
trillion dollars for political reasons, and how--where are we 
going to pay for this? Is the President going to tell us that 
the money is coming out of Social Security? Is it coming out of 
education? Is it coming out of National Institutes of Health? 
Where is he going to get the money?
    Secretary Walker.  Congressman, I appreciate your comments.
    Let me say something about education in America. Nothing is 
more important to the United States Army than having well-
educated and well-trained young people in America. They are 
threatened today by gangs and drugs like they never have been 
before. The family itself is threatened, as you know.
    We must invest, and it is a national security imperative to 
invest in the education of our young people.
    Mr. Cunningham. Reclaiming my time, we only get 48 cents 
out of a dollar of the Federal education dollar down to the 
classroom, because of the bureaucracy. The President wanted $3 
billion for a new literacy program. California is last in 
literacy. Sounds good. That comes with a new bureaucracy.
    We have 14 literacy programs. Title I and Title VII are two 
of those. What is wrong with getting rid of 12 or 13 of them 
and focusing on the ones that work? But yet we would be accused 
of, quote, ``cutting education'' by the White House.
    So let's do invest. I won't get into a debate here, but I 
am trying to enforce why we are having difficulty funding the 
needs that you have because of this flesh-eating disease.
    Secretary Walker.  Yes.
    Mr. Cunningham. And we support funding you, and the people 
on this Committee do. But outside of this room--many do not. 
They would increase the deficit, increase spending and risk 
economic ruin and depreciate national security.
    Mr. Lewis. I know, as the Secretary understands, that my 
colleague from California----
    Mr. Cunningham. There is a difference.
    Mr. Lewis. He has considerable expertise in education, as a 
matter of fact, and has made that contribution. But here he 
also has expertise in the military, and picking up on his 
initial question----
    Mr. Cunningham. I am upset because we can't help you as 
much as we want.

                       DEFICIENCIES IN THE FORCE

    Mr. Lewis. Picking up on his initial question, we do have 
troops deployed around the world and the special pressures that 
we have with the deployment in the Persian Gulf, along with 
Bosnia, raises that whole specter of what are the specific 
deficiencies that you see in the Army. And I would like to have 
us pursue that in the little time we have left here. And if you 
would outline that, because that really goes to the heart of, I 
think, both of what Mr. Visclosky was asking and what Mr. 
Cunningham was asking as well.
    General Reimer. Mr. Chairman, just a point of 
clarification. Are you talking about the efficiencies that are 
being----
    Mr. Lewis. The deficiencies.
    General Reimer. Deficiencies?
    Mr. Lewis. As a result of that deployment and the pressures 
that the budget brings to you.
    General Reimer. Well, I think the way that I would measure 
it in terms of readiness--I think we have talked about this in 
general but let me be a little bit more specific. We still have 
units that are not completely filled up. As I said, we are 
getting better, and we are bringing our force structure and end 
strength in line. But you can go out to any battalion, for 
example, and probably find that they do not have all of the 
right MOSs, the right skills that they need in that battalion. 
The units are better than what they have been in the past.
    I have been in the Army, as I said, 35 years, and have been 
in a lot of units, and I have never had 100 percent fill. So 
this is not something unique. But I think it is felt more 
because the second part of it is PERSTEMPO. The people are 
deployed more. They are in Bosnia. They are getting people 
ready to go to Bosnia.
    The real bill payers, quite frankly, are the people who are 
left behind. For example, I commanded the post at Fort Carson, 
Colorado, and when I was there, we had three brigades. Now we 
have two brigade equivalents. When you pull a brigade out of 
there, you have to do cross-leveling in order to fill up that 
brigade going into harm's way to make sure they have the 
necessary people. The brigade left behind then is working very 
hard to do the things that they have to do and also train and 
do the housekeeping that always is a part of living on an 
installation and making a contribution. So it is a shortage of 
people; it is a turbulence of people.
    The second thing is that they are working very hard to 
manage the money that they have, to make sure they provide the 
right quality of life. We want to give our troops better living 
conditions. They deserve that. So commanders are taking money 
and putting it into rehabilitation of barracks. They are doing 
it at the expense of what was already mentioned, the OPTEMPO 
miles.
    So battalions come to the National Training Center, for 
example, and they don't have the opportunity to do a battalion 
field training exercise before they got there. Entry level 
skills into the National Training Center are a little bit lower 
than what in the past. But that is a learning experience, and 
they come out at the other end of the rotation well trained.
    There has been some publicity about National Training 
Center rotations. We never compare units going over there. We 
should never do that. If we ever start doing that, we will lose 
the goodness of the United States Army training system.
    The third area that I would say, in addition to quality of 
life, which I have tried to weave into these comments is that 
we need to modernize faster. We need to bring on the force--the 
Army After Next. We need to be able to make sure that the 
equipment that I just went through continues to improve and 
that we send our troops, wherever they go, with the best 
equipment that the Nation can provide. At the same time, I 
think we have a responsibility now to make those decisions so 
that in the 21st century those troops have the best equipment. 
That is the way that I would look at deficiencies.

                           DEPOT MAINTENANCE

    Mr. Lewis. Expending on deployment just a bit, does the 
deployment in southwest Asia put depot maintenance schedules 
for the Army equipment at risk?
    General Reimer. Does it put it at risk?
    Mr. Lewis. At risk, yes.
    General Reimer. Mr. Chairman, no, I don't think it puts it 
at risk. I think that we are funding depot maintenance in the 
1999 budget, somewhere around 58 percent or 59 percent overall. 
But as you get into some specific items, such as the 
communications, electronics, it is about 80 percent in that 
particular area. Again, it is a balancing act.
    Could we use more in all areas? Sure. But given what we 
have, we have tried to balance it the best we can.
    I don't think that the deployment into southwest Asia or to 
Bosnia puts depot maintenance at risk as long as we are getting 
reimbursement for those excess costs.
    Mr. Lewis. The Army in depot maintenance uses a process 
that is known as ``centers of excellence.'' Are you looking at 
money savings that might be possible by possibly having some of 
your depot maintenance work done closer to locations like the 
National Training Center for the Army?
    General Reimer. Yes, sir. In terms of depot maintenance, we 
have five depots. The Army Materiel Command feels that we 
really have requirements for about three. So we are carrying a 
little excess capacity in this particular area. We have tried 
to establish a Center of Excellence concept on a regional 
basis, which you identified, but that is not related to depot 
maintenance. We are trying to locate the repair area for 
equipment, validated in terms of quality control by the Army 
Materiel Command, closer to the equipment and providing 
regional management structure. The idea is to save the cost of 
transporting it to the depots, to make it return quicker, and 
make sure we don't let quality slip.
    To that extent, the Center of Excellence concept is as you 
describe it.
    Mr. Lewis. The reason I raise that question is that 
currently a lot of equipment goes to the National Training 
Center and we use it in sizable form. It comes into need for 
repair regularly. We take a tank and put it on a train and send 
it across the country for repair and yet there is a depot right 
next door. And it just occurs to me that reviewing the 
effectiveness of centers of excellence, at least there is a 
question that comes to my mind. It is not my final question but 
nonetheless one that seems to be obvious to me.
    General Reimer. The depot that is near there does not 
repair M1A1 tanks.
    Mr. Lewis. No, it doesn't now, but in the past the local 
personnel used to strip those tanks down to metal and put them 
back together again. Now we put them on a train and send them 
across the country. And I just wonder, in tight budgets, if we 
should not at least take a look at those earlier decisions to 
see what kind of savings is available.
    Let's see. Mr. Cunningham, I interrupted you. I don't know 
if you have additional questions at this moment or not.

                          COMANCHE HELICOPTER

    Mr. Cunningham. I just had a question on the Comanche 
program. I know it is a priority and the statements were that 
it is a mismatched program. I know the value of air 
superiority. Like in Desert Storm, looking at CNN and watching 
you go in ahead of the force and taking out the command and 
control and taking out the eyes and ears of the enemy so you 
can get in your troops and so on; are you coming along okay? 
Most of us are very supportive of that kind of a program 
because I know it is important to you. That is one of the 
advanced technology systems that you have got coming up. But 
can we help in that area or is there problems? You know, the F-
18 had problems but you fixed it, the services fixed it. What 
about the Comanche program?
    General Reimer. We have got the prototype in Florida. I was 
there less than 9 months ago and flew behind the Comanche and 
also talked to the test pilot. He is a veteran test pilot. His 
view is that the Comanche is much further along at this stage 
of development than any other aircraft that has ever been 
brought in. So I think it is on glide path and certainly a key 
part of our budget submit here.
    Mr. Cunningham. Good. Well, I used to make fun of marines 
and helicopters until a marine helicopter rescued me over the 
south of Hanoi. So it is the prettiest airplane I ever saw, and 
I would go out there and support it. And I almost kissed a 
marine, in a manly way, sir.
    General Reimer. Congressman, having been in Vietnam, I also 
like them.
    Mr. Cunningham. I said in a manly way, Joe.
    General Reimer. Having been in Vietnam, I also like 
helicopters very much.
    Mr. Cunningham. Yes, sir.
    Mr. Lewis. Thank you, Mr. Cunningham.
    Mr. Visclosky, additional questions?
    Mr. Visclosky. No. Thank you, Mr. Chairman.

                           TWENTY-NINE PALMS

    Mr. Lewis. I have one question that is provincial, but of 
regional concern. NTC, as you know, is out there in the 
countryside that I represent and not far away is Twenty-nine 
Palms Marine Corps Base, and for a long, long time, there has 
been discussion of the possibility of linkage between those two 
facilities as we move in the direction of trying to get our 
people on the cutting edge of training.
    Have you been discussing that in any way?
    General Reimer. Mr. Chairman, we have done some work in 
that area. During the task force AWE, we used a little bit of 
Twenty-nine Palms and also had some Marines participate at NTC. 
General Krulak, the Commandant, and I discussed that. We both 
intend to move in that direction. We haven't gone as far and as 
fast as we should, but we will continue to push that. It is a 
natural type of thing, I think, to use the resources that are 
there and also to get the combined aspect of the training with 
the Marine Corps.
    Mr. Lewis. The only reason I raise that question at all is 
because earlier we discussed briefly the need for expanded 
territory to the south and those same people I was trying to 
ring the bell about who would like to see no expansion of 
activity at all have their focus upon that question, too, and 
so timing is everything. I would urge you to consider it.
    The Committee has pretty well completed its questions for 
this morning. We are scheduled to recess the Committee until 
1:30 this afternoon and that will be a closed hearing. And so 
with that, I appreciate the members participating and, General, 
we will see you at 1:30.
    General Reimer. Thank you, Mr. Chairman.
    Secretary Walker.  Thank you.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                              Army Budget

    Question. Last year, Congress appropriated $58,800,000,000 for the 
Army. The Army is requesting $61,500,000,000 in fiscal year 1999. The 
Army budget includes funds for military and civilian pay, operation and 
maintenance, research and developments, and procurement activities. 
What are the Army's top priorities for fiscal year 1999?
    Answer. The Army requested $64,300,000,000 in Total Obligation 
Authority for fiscal year 1999. Training and readiness are the number 
one priority for the Army. This budget enables the Army to recruit and 
retain quality people--the Army's most important resource--and provides 
essential quality of life programs for soldiers and their families. It 
provides for operational training superior to that of any nation in the 
world. It adequately supports fielded equipment and logistics items 
that are critical to near-term readiness. The budget additionally 
supports future readiness in investment accounts. Critical 
modernization programs, such as Comanche, Crusader, Longbow Apache, 
Abrams Tank Upgrade, and the Family of Medium Tactical Vehicles, 
continue to move forward.

    [Clerk's note.--The Army response includes Military 
Construction, Base Closure and Realignment Funding and Family 
Housing Funds which are not appropriated by the National 
Security Subcommittee].

    Question. Does the President's fiscal year 1999 budget request 
reflect the Army's priorities? If not, why?
    Answer. The President's fiscal year 1999 budget is the result of a 
very careful assessment by the Army of needs and priorities. This 
budget strikes a finely tuned balance between current and future 
readiness needs, and maintains the quality soldiers, training, and 
sustainment capabilities needed for a full spectrum force. This budget 
reflects today's fiscal realities, but it also reflects the Army's 
continuous process of change and growth and its commitment to the 
American people.
    Question. What capabilities does the fiscal year 1999 budget 
provide?
    Answer. The fiscal year 1999 budget reflects a balanced program 
among the Army's priorities and requirements for fielding an 18 
division force structure (10 Active and 8 National Guard) in support of 
the National Military Strategy. It seeks to: preserve readiness, 
enhance modernization, integrate the force structure, and maintain 
quality of life.
    The budget enables us to recruit and retain quality people, the 
Army's most important component of readiness. The budget provides for 
operational training in both Active and Reserve units that is superior 
to that of any other nation. It adequately funds the support of fielded 
equipment and logistics items that are critical to near-term readiness.
    At the same time, the resourcing of critical modernization programs 
such as Crusader, Comanche, Longbow Apache, Army Tactical Missile 
System-Brilliant Anti-Tank, Abrams Tank Upgrade and the Family of 
Medium Tactical Vehicles is moving forward. The budget makes 
significant progress toward digitizing a mechanized infantry division 
by fiscal year 2000 and a heavy corps by fiscal year 2004.
    It sustains and propels the force structure in the direction of a 
more seamless Total Army--seeking improvements in Active and Reserve 
component integration and communication. Included in these improvements 
are modernization investments for the Army National Guard and U.S. Army 
Reserve units.
    This budget request continues to focus resources on maintaining 
crucial quality of life programs for our soldiers and their families; 
at the forefront is a 3.1 percent pay raise for military personnel.
    Question. Last year, the Army identified critical unfunded 
requirements to the Committee. As a result, the Committee was able to 
provide additional funding for many of these requirements. I hope you 
will continue to cooperate with us this year. If additional funds were 
made available in fiscal year 1999, how would you allocate them? For 
each of the programs you have identified, what would be the benefit of 
providing the additional funds?
    Answer. The Army has developed a prioritized list of uses for 
increased fiscal year 1999 funding should it be made available. A list 
will be provided to the Committee as requested. The benefit of 
additional funds would be to increase readiness. revitalize 
infrastructure, and accelerate modernization programs.
    Question. Would additional funds fix critical shortfalls, field 
modernization programs sooner, or just fund ``nice to have'' programs?
    Answer. Any additional funds provided would help fix critical 
shortfalls in readiness and support fielding modernization programs 
sooner. You can rest assured that any additional resources provided the 
Army will be spent carefully and wisely.
    Question. If the Army received additional funding in fiscal year 
1999 for the programs that you have outlined, would the Army be willing 
to sustain those programs in the outyears? Why or why not?
    Answer. We will sustain all programs according to their yearly 
requirements within the constraints of the Army's overall 
affordability. In some cases, the funding we have requested is a one 
year requirement, usually an up-front investment, for which level of 
effort sustainment funds are available in the outyears. In other cases, 
the outyear funding requirement gradually decreases as force structure 
reductions or efficiencies take effect. You can rest assured that any 
additional funding we receive will be carefully shepherded by 
appropriate outyear support while maintaining balance across 
requirements and considering the affordability issues which limit 
support of additional requirements.
    Question. Does the fiscal year 1999 budget adequately fund 
operations and maintenance and personnel requirements? If not, what are 
your highest priority shortfalls?
    Answer. The fiscal year 1999 estimate in the Military Personnel, 
Army, appropriation represents a fully funded program for the manpower 
displayed.

    [Clerk's note.--Operation and maintenance shortfalls are 
included on the Army's unfunded requirements list.]

    Question. Would there be savings if Congress provided additional 
funds to procure items at an accelerated rate? If so, which procurement 
items would you accelerate? What would be the near-term cost and long-
term savings of the accelerated procurement?
    Answer. The items for which we requested additional funding in 
fiscal year 1999 are mostly accelerations of existing programs and the 
quantifiable benefits in most cases result in getting critical 
warfighting capabilities into the hands of our soldiers sooner, not 
necessarily monetary savings.
    Procurements that could be accelerated to place key capabilities in 
the hands of commanders and soldiers, and serve as a representative 
sample of these savings or benefits follows. Seventy-two million 
dollars for Soldier Life Support Systems--such as containerized 
kitchens, laundry systems, space heaters, air conditioners, 
organizational equipment, latrines, and showers--will improve supply, 
safety, and environmental concerns and enhance soldier quality of life. 
Eighty-eight million dollars for the Family of Medium Tactical Vehicles 
will accelerate fielding to Army National Guard and Reserve Force 
Package 1 and 2 units, permitting mobilization of all Force Package 1 
and 2 units with a fully modernized medium truck fleet rather than a 
half-equipped force with a mixed fleet. It will also bring production 
to a more economical rate of 200 per month, and the average unit cost 
of fiscal year 1999 production will drop at least five percent. More 
trucks fielded sooner will also lower support costs.
    Additional funds provided by Congress allow the Army an opportunity 
to develop and procure additional required technologies and weapon 
systems. Be assured that additional resources which we receive are used 
for our highest priority unresourced requirements.
    Question. In the past, we have testimony from several of the 
Commanders-in-Chief (CINCs). Each year, all of the CINCs testify that 
they are faced with critical shortfalls in areas such as equipment 
maintenance, air and sea lift, and operating tempo (OPTEMPO) funding. 
The CINCs do not submit their own budget requests to the Congress. The 
resources required at the various commands are requested by the 
services. What critical shortfalls identified by the CINCs are included 
in your fiscal year 1999 request?
    Answer. In building the Army budget, we have made every effort to 
support the requirements of the CINCs of the Unified Commands. The Army 
gave careful consideration to each Army program in the CINCs Integrated 
Priority Lists. CINC priorities were considered in conjunction with 
fiscal year 1999 Fiscal Guidance, the Defense Planning Guidance, and 
Army priorities. The CINCs, as a whole, were most concerned with global 
communications, intelligence, surveillance and reconnaissance, 
strategic lift/prepositioning, force protection, weapons of mass 
destruction defense/counter proliferation, missile defense, force 
readiness, and quality of life. Army programs supporting all of these 
issues counter proliferation, which is funded at the Department of 
Defense level, were included in the fiscal year 1999 budget.
    Question. What requirements identified by CINCs have not been 
included in your budget submission? Why were those requirements not 
funded?
    Answer. CINC requirements underwent the same review and scrutiny as 
all other Army requirements. Of necessity, this includes collection of 
detailed resource requirements by Army component commands, review by 
the Army staff proponent, and finally, a detailed analysis of 
shortfalls in Army programs. This review includes consideration of the 
potential impact. Typically, the only requirements which were not 
supported were those which could not be validated by this process or 
were dependent upon external resources. For example, the Army could not 
validate a request by United States Southern Command to replace 
discontinued Defense Security Assistance Agency manpower with Army 
resources because the requirement had not been reviewed by the joint 
community.
    Question. Which shortfalls were not funded at their highest levels? 
Why?
    Answer. In most cases, the Army was able to satisfy the CINCs' 
requirements. The Army gave careful consideration to each Army program 
in the CINCs Integrated Priority Lists. Those requirements which were 
not funded at high levels reflect Army decisions on affordability 
versus risk. Typically, CINCs' shortfalls were similar to those 
experienced by Army major commands, such as infrastructure, Command, 
Control, Communications, Computers, and Intelligence (C41), force 
protection, and Active component/Reserve component (AC/RC) integration. 
The Army has programmed steady improvements for infrastructure but 
remains constrained by affordability in the near-term. For example, the 
Army is on a steady ramp to meet the Defense planning target to fund 75 
percent of requirements for real property maintenance by fiscal year 
2003, but remains limited by affordability during fiscal year 1999. For 
other programs, such as C41 systems and infrastructure, the Army was 
able to accept some risk without jeopardizing support of the National 
Military Strategy. While requirements for force protection continue to 
evolve, the Army supported these programs to acceptable levels within 
fiscal constraints. Finally, AC/RC integration and training remain a 
priority and continue to receive increased levels of funding. The Army 
resourced CINCs' requirements at adequate levels given resource 
priorities and acceptable levels of risk.

                    Additional Modernization Funding

    Question. The Army's fiscal year 1998 list of unfunded requirements 
totaled over $3,000,000,000 dollars. Does the fiscal year 1999 budget 
sustained the level of funding required for those activities that 
received additional funding in fiscal year 1998?
    Answer. We increased modernization funding in the fiscal year 1999 
budget over the previous year's funding to assure the long term 
readiness of our forces, and to achieve Quadrennial Defense Review 
goals such as a digitized force and modernization of the Army National 
Guard and Army Reserves. We were able to sustain or exceed fiscal year 
1998 appropriated levels in the fiscal year 1999 budget for some 
programs.
    Question. For the record, please provide a list of projects that 
received additional funding in fiscal year 1998, but are not adequately 
funded in fiscal year 1999.
    Answer. The attached is the total Congressional plus ups for fiscal 
year 1998. We have added a column which indicates the 10 items in 
priority which appear on the fiscal year 1999 list of unfunded 
requirements. This indicates that the item is not fully funded in 
fiscal year 1999.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                          Personnel Reductions

    Question. The Fiscal Year 1998 National Defense Authorization Act 
established an end strength floor for the Army at 495,000 personnel, 
but included language which allows the Army a 1.5 percent variance from 
that floor. Mr. Secretary, is the Army on track to meet its fiscal year 
1998 end strength goal of 488,000 personnel by September 30, 1998? As 
of this date, are you currently overstrength or understrength in 
managing these personnel reductions?
    Answer. The Army expects to achieve its strength target of 488,000 
personnel at the end of fiscal year 1998. Due to lower than expected 
attrition and robust enlisted accessions, the Army is currently about 
2,300 personnel overstrength. Fewer enlisted soldiers will be recruited 
from April through July to compensate for this overstrength. Policy 
decisions on further strength adjustments will be made as additional 
strength information becomes available.
    Question. Have you had to reduce your recruiting accessions in 
order to balance your 1998 manpower program? What is your accession 
goal for fiscal year 1998?
    Answer. Primarily due to lower than expected attrition, the Army is 
currently about 2,300 personnel overstrength. To balance the manpower 
program, adjustments to the recruiting mission have already been made 
which lowered the fiscal year 1998 recruiting mission from 76,900 to 
the Army's current goal of 73,000. February projections of Army end 
strength indicate an additional accession reduction of 1,000 might be 
necessary.
    Question. In the fiscal year 1999 budget request, the Army is 
requesting to reduce another 8,000 personnel, which would make the 
Army's end strength level 480,000 Active duty personnel. The Committee 
understands that the Department will ask the Authorization Committees 
to repeal this end strength floor for fiscal year 1999. If the 
Authorization Committees do not repeal this language, what is the 
fiscal year 1999 total unfunded shortfall for these additional manpower 
and operation and maintenance costs?
    Answer. We estimate the fiscal year 1999 Military Personnel, Army, 
appropriation would incur additional costs up to $341,000,000. The 
Operations and Maintenance, Army, appropriation would incur base 
support increased costs of about $17,000,000.
    Question. Are the fiscal year 1999 personnel reductions directly 
tied to force structure changes or Quadrennial Defense Review 
reductions?
    Answer. The majority of the Army's fiscal year 1999 personnel 
reductions are directly tied to the Department of Defense's Quadrennial 
Defense Review decision to reduce end strengths in the Active component 
by 15,000; in the Reserve component by 45,000; and in Department of the 
Army civilians by about 17,000 by fiscal year 2003. In fiscal year 
1999, the Active component expects to reduce its end strength by 8,000 
to bring it to the Quadrennial Defense Review target of 480,000. The 
Army National Guard expects to reduce its end strength by 5,000 to 
357,000 in step with its plan to comply with Quadrennial Defense Review 
recommendations. Department of the Army civilian end strength is 
projected to be reduced by about 2,000 based on workload and 
efficiencies. However, these reductions were already programmed for 
elimination and not due to Quadrennial Defense Review decisions.
    Question. If the Army's personnel tempo and operating tempo is 
already being stretched thin, how can you justify reducing your end 
strength numbers further in fiscal year 1999?
    Answer. During the Quadrennial Defense Report (QDR), and after a 
comprehensive analysis of the new National Military Strategy, our 
derived requirements, and anticipated resource levels, we determined 
that modest reductions to Army Active, Reserve, and civilian personnel 
end strengths could be achieved without significantly degrading our 
ability to implement all aspects of the National Military Strategy. At 
the same time we are focusing our efforts on adjusting our force 
structure to enhance the utility of our Reserve component (RC).
    The Army will achieve a 15,000 reduction in the Active component 
(AC) from 495,000 to 480,000 through measured reduction in the 
generating force (those forces required to meet basic wartime support 
requirements and to accomplish routine Title 10 responsibilities) and 
through the reduction and transfer of missions of lower priority AC 
combat support and combat service support units to the RC. This 
approach shields units that bear the highest operating tempo burden and 
allows the reductions to occur in the generating force where the burden 
can be more easily dispersed.
    Question. Do you have units that are undermanned due to personnel 
reductions? If so, how do these manning levels effect your Status of 
Readiness and Training System (SORTS) rates? Are any units rated below 
C-3 because of personnel shortages? If so, how long will it take the 
Army to fix these personnel shortages?
    Answer. Personnel ``end strength'' reductions do not result in 
undermanned units, providing that force structure is reduced on a 
commensurate basis to end strength. In general, the Army has been 
successful in synchronizing end strength and force structure 
reductions. Accordingly, the Army has no units undermanned due strictly 
to end strength/personnel reductions. However, due to the occurrence of 
a recruiting shortfall in certain military occupational specialities 
(MOSs), especially Infantry and service support MOSs, and coinciding 
with a temporary strength shortfall in the junior ranks, which had been 
deliberately programmed to take care of our career force during the 
Army's downsizing, some units have experienced serious spot personnel 
shortages. This situation was more pronounced during the latter half of 
1997. The recruiting problem has been corrected and the programmed 
temporary strength shortfall is self-correcting. Overall, the Army has 
dramatically improved the balance between force structure and end 
strength. Consequently, March 1998 Unit Status/SORTS Reports indicated 
that unit-manning levels improved measurably to 98 percent.
    A number of Active component battalion size or larger units 
reported C-3 or C-4 one or more times during the second quarter of 
fiscal year 1998. A small portion of those units are Authorized Level 
of Organization (ALO) 3 or lower (ALO 3-9). These units will never 
report higher than C-3/4. The primary drivers behind the remaining 
units not achieving C-1 were, in approximately equal proportion, 
``personnel shortages'' and ``personnel not available.'' Moreover, 
personnel not available affected both the Personnel and Training 
resource areas of the ALO 1/2, C-3/4 units. The major factor in 
``personnel availability'' shortfalls has consistently been operational 
commitments. Thus, operational commitments were at least as great a 
driver of Army units not achieving C-1/2 as personnel shortages. This 
peace operations readiness bill is the price we pay for accomplishing 
our Nation's policy of shaping the international security environment 
in ways favorable to U.S. interests.
    Through the remainder of fiscal year 1998, the Army will continue 
to be faced with personnel readiness challenges as we reshape the force 
in response to the Change in Noncommissioned Officer Structure 
initiative, Officer Reduction Initiative and the Quadrennial Defense 
Review. Despite these challenges, there is cause for considerable 
optimism throughout fiscal year 1998 and as we look forward into fiscal 
year 1999. Recruiting is doing well, the Office of the Secretary of 
Defense forecast looks positive, and retention remains strong.
    Question. The Army Reserve and Army National Guard are reducing 
approximately 45,000 of their selected reservists under the Quadrennial 
Defense Review also. Is there still some disagreement on how these 
reductions will be allocated between the two components? When will this 
be decided?
    Answer. The Quadrennial Defense Review recommended reduction of 
Reserve component end strength by 45,000. The first 20,000 reduction 
has been allocated. Seventeen thousand has been allocated to the Army 
National Guard and 3,000 to the United States Army Reserve. Specifics 
of the remaining 25,000 Reserve component reduction will be determined 
through a process including Total Army Analysis 2007. The Deputy Chief 
of Staff for Operations and Plans, in coordination with the Office 
Assistant Secretary of the Army (Manpower and Reserve Affairs), 
National Guard Bureau, The Adjutant Generals (Force Structure 
Committee), and Office of the Chief Army Reserve will lead the 
assessment of Reserve component force structure and determine how the 
Army will achieve the balance of the 25,000 reductions in fiscal years 
2001 and 2002.

                        Reserve Forces in Bosnia

    Question. The Presidential Selected Reserve Call-up (PSRC) allows 
the Department of Defense the authority to involuntarily call to Active 
duty up to 200,000 Reserve component personnel for up to a maximum of 
270 days. President Clinton implemented the call-up for military 
operators in Bosnia on December 8, 1995. Secretary Perry authorized the 
use of Reserve forces until August 15, 1998, at which time all 
Reservists would be back at their home bases. Mr. Secretary, has 
Secretary Cohen rescinded the August end-date for the call-up? If so, 
what is the length of time he has extended the call-up?
    Answer. Yes. In light of the President's decision that the United 
States mission in Bosnia should extend beyond June of this year, 
Secretary Cohen has determined that the stated August end date no 
longer applies. No end date has been reestablished.
    Question. The Committee understands that the Department is studying 
whether the law allows the President to activate Reservists for a 
second 270-day tour. Has the General Counsel provided you with a legal 
opinion on this question yet?
    Answer. No. The issue is still with the Department of Defense 
General Counsel for resolution.
    Question. If the Pentagon does not have the legal authority to 
order double tours for Reservists, do you believe the Army Reserve and 
Guard units can supply enough people who have those skills that are 
critically needed in Bosnia?
    Answer. Those critical skills that continue to be required to 
support the Bosnia mission and have been habitually filled by the Army 
National Guard (ARNG) and United States Army Reserve (USAR) will 
continue to be supported; although not necessarily by the ARNG or USAR. 
Alternatives to the use of the Army's Reserve component (RC) include: 
contracting, Active component soldiers, other services with a like 
capability, RC volunteers, Department of the Army civilians, and, if 
necessary, coordinating a modification of the requirement while still 
providing the required capability.
    Question. What types of units has Forces Command indicated will be 
difficult to fill either because the Presidential Selected Reserve 
Call-Up (PSRC) is scheduled to expire in August or because the Reserve 
component has been used under the PSRC already?
    Answer. Forces Command has indicated that the following types of 
Reserve Component units may be difficult to fill because the units were 
previously mobilized under the current PSRC for Bosnia: broadcast 
public affairs detachments, engineer fire fighter detachments, military 
history detachments, and some types of movement control teams. Please 
note that on February 20, 1998, the Secretary of Defense lifted the 
stated PSRC end date of August 15, 1998.

                        Individual Ready Reserve

    Question. Last year the Authorization Conference included language 
that would authorize the President under the PSRC authority to recall 
up to 30,000 members under a new category of the Individual Ready 
Reserve (IRR). This new category would consist of personnel in special 
military skills designated by the Secretary of Defense and who 
volunteered for this category prior to leaving active duty. Before this 
change in law, the President could only involuntarily mobilize the IRR 
in times of war or national emergency. Now IRR members can be ordered 
to Active duty in times other than during war or national emergency, 
for contingency operations, for example.
    Please explain to the Committee how the Department feels about 
expanding the President's call-up authority on decisions of troop 
deployments.
    Answer. The Army is pleased with the expanded call-up authority. It 
helps solve a long-standing mobilization problem within the Army: how 
to meet individual filler requirements for early deploying Active and 
Reserve component units under existing PSRC. Many units require 
``fillers'' to bring them to their full authorized strength prior to 
deployment. In the past, fillers were obtained through the cross 
leveling of soldiers from non-alerted units and volunteers from the 
IRR. This strategy met the requirements for fillers; however, it 
adversely affected the readiness and cohesiveness of units, which might 
have been needed later. The expanded call-up authority provides the 
Army with a source of needed individual fillers without sacrificing 
unit readiness. This enhances our overall capabilities in meeting the 
National Security and Military Strategies.
    Question. How do you envision this new authority would work for the 
Army? For instance, would the Army plan to transfer more combat service 
support specialities to the IRR?
    Answer. The IRR's members are individuals who have completed their 
Active duty obligations and either have a remaining service obligation 
or desire to remain on the service roles, but are not able to find a 
suitable position in the Selected Reserve. Many are recently trained 
and experienced. In the past, the Army could not effectively access 
these individuals short of a mobilization authority. This new authority 
will, in the event of a Presidential Selected Reserve Call-up, give the 
Army access to a large pool of recently trained and experienced 
soldiers in order to meet early, individual requirements for 
contingency response missions.
    Question. With over 880,000 selected reservists in all the 
services, why should the President need this additional authority to 
call-up 30,000 from the retired ranks for contingency operations? Can't 
these critical job specialities be found within the 880,000 Reserves or 
the Active duty personnel?
    Answer. For clarification, these are members of the Reserves and 
not members of the Retired Reserve, a different category than the IRR. 
In any case, Reservists in the IRR have volunteered to be part of this 
program. These soldiers are recently trained and experienced in their 
military specialties, a requirement for this category of the IRR.
    Access to these volunteers is an extremely valuable tool for the 
Army. The Army has identified over 30,000 requirements for filler 
personnel in the early stages of a single Major Theater War. In the 
past, these shortfalls have been met through the use of volunteers, 
Individual Mobilization Augmentees, or reassigning personnel from later 
deploying units. These methods of filling individual shortfalls have 
negative effects on unit cohesion, readiness, and the viability of 
later deploying units upon crisis escalation. The 30,000 IRR call-up 
authority will allow the Army to meet these Commander-in-Chief 
requirements for trained, experienced soldiers, while avoiding the 
negative effects to the Selected Reserve and the Active component.
    Question. Will retired Army personnel be required to attend the two 
weeks of annual training and specialty skill training like other 
Selected Reserve personnel? If so, what is the additional cost to the 
Army Reserve and Army National Guard to supply this training?
    Answer. Retired soldiers are not required to attend any training. 
The soldiers volunteering for this new category are members of the IRR. 
There will be no mandatory training requirement for soldiers in this 
new category. Selection of volunteers for this category of the IRR 
requires that the soldiers be within two years of separation from 
active service and be fully qualified thus requiring minimal post-
mobilization training.

              Guard and Reserve Role in Domestic Terrorism

    Question. Mr. Secretary, the Committee understands that the 
Department of Defense (DoD) has approved plans to use Guard and Reserve 
components to help respond in the event of a domestic terrorist 
incident and/or a biological and chemical attack against the United 
States, and places the Army as Executive Agent for the Office of the 
Secretary of Defense. Please summarize for the Committee how the 
Department plans to integrate Guard and Reserve forces for response to 
domestic Weapons of Mass Destruction (WMD).
    Answer. While many military units possess basic skills and 
capabilities that can be applied to WMD response requirements, few have 
been specifically focused on the precise tasks or equipped with the 
appropriate assets to immediately respond to such an event. During the 
development of the plan, services were asked to identify WMD response 
plan and to indicate if those units were adequately organized, trained, 
and equipped to perform these specific tasks.
    For many of the WMD response tasks, focusing units on the missions 
they may be asked to perform and developing their awareness of the 
Incident Command System is all that may be necessary. For others, 
specific task will require training. These are very different practices 
when compared to our military doctrine today. Here again, the value of 
training to the same standards and using common terminology and 
exercising with first responders, we have the opportunity to prepare 
for this most demanding mission. The plan addresses the areas requiring 
DoD attention and isolates in some detail the response options the 
Department may be asked to perform. In the end, the solution to the WMD 
response mission requires a partnership--military and civilian.
    This program will dramatically increase those elements that are 
prepared to respond quickly. The Consequence Management Program 
Integration Office, being established now, will develop the 
organization of each element as well as the training and equipment 
necessary for that element. These elements will range in size from 5 to 
6 people to 50 or 60. During the first year of the program, we will 
establish three types of elements: Assessment, Decontamination, and 
Reconnaissance, and being training some of the medical personnel. These 
elements will be equipped with state of the art detection and analysis 
equipment, as well as computer models for various types of attacks. As 
a National Guard element, they may be employed by the Governor or be 
federalized and deployed to respond with other federal assets.
    The structure, training courses, and equipment for these elements 
are described in the WMD response plan. We will also begin to refine 
the definition and planning for the other elements identified in the 
plan. These elements are created out of existing force structure. We 
are able to leverage the National Guard and Reserve capabilities by 
focusing existing units on the consequence management mission tasks, 
providing specific training, and delivering supplemental equipment to 
enhance their current capabilities. Using National Guard and Reserve 
elements already stationed throughout the United States also improves 
the response time to incident sites. The National Guard elements may be 
employed as state assets or as federal assets under the Response Task 
Force.
    We believe this program will develop capabilities required by our 
Nation to meet the overwhelming challenges from the use of Weapons of 
Mass Destruction. These are the same capabilities we require in DoD to 
respond to the use of WMD against our forces anywhere in the world.
    Question. What are the most likely tasks the Department of Defense 
(DoD) would be asked to support if a Federal Response Plan were 
implemented because of a Weapons of Mass Destruction (WMD) event?
    Answer. To support a Federal response to a WMD event, DoD intends 
to exploit our tested and proven capabilities. This support will be 
provided through a Response Task Force (RTF) capable of bringing the 
full-range of crisis and consequence management assistance. The RTF 
will provide command and control of those technical resources and 
forces required to support both the Federal Bureau of Investigation 
(FBI) during crisis management and Federal Emergency Management Agency 
(FEMA) during consequence management. The National Guard provides the 
first line of military response. They will bring their resources to 
bear when requested by the governor to support local first responders. 
When requested by a lead federal agency, DoD support may include 
technical assistance to law enforcement authorities. As the support 
transitions to consequence management, it would likely include: 
explosive ordnance disposal and chemical and biological support 
(survey, detection, monitoring, consultation on WMD effects, laboratory 
support, assessment and decontamination). A network of Reserve 
Emergency Preparedness Liaison Officers from all the services in each 
state and federal region support DoD and provide technical expertise 
and coordinate response requirements with each state. It is anticipated 
that DoD will identify a base support installation within close 
proximity to the area which will allow for staging areas, emergency 
medical services, airfield operations and basic subsistence services. 
Additional support requirements would include: search and rescue teams; 
hazardous materials medical teams; aeromedical evacuation; and medical 
response teams to provide equipment, triage, and treatment, as well as 
ground transportation and evacuation of causalities. Depending on the 
type of incident and the extent of destruction, DoD can and is able to 
support all of FEMA's 12 Emergency Support Functions.
    Question. What is the amount of funding being requested in the 
fiscal year 1999 budget for the Reserve component's participation in 
Weapons of Mass Destruction (WMD)? Please provide for the record a 
detailed breakout of this funding for fiscal year 1999, and what the 
continued outyear funding will be.
    Answer. For fiscal year 1999, $49,200,000 has been requested in the 
President's budget for implementation with the following 
recommendations: $19,900,000 to stand up, train, and equip National 
Guard Rapid Assessment and Initial Detection elements; $15,900,000 for 
patient decontamination and WMD reconnaissance element training and 
equipment in the Army and Air National Guard, and the Army and Air 
Force Reserve; $6,900,000 to establish and staff a Consequence 
Management Program Integration Office; $3,300,000 to train and prepare 
medical personnel to provide medical care to nuclear, chemical, and 
biological causalities; $1,800,000 for additional Emergency 
Preparedness Liaison Officer training and equipment; and $1,400,000 to 
upgrade simulation systems and conduct civil-military response 
exercises. The Program Integration Office, for inclusion in the 
Department of Defense fiscal year 2000-2005 Program Objective 
Memorandum, is currently developing funding requirements beyond fiscal 
year 1999. We will use $295,000 of the WMD domestic preparedness 
program funds for Reserve component/National Guard personnel 
participation at city visits and training in fiscal year 1999.
    Question. The Committee included $10,000,000 in fiscal year 1998 
for the Army National Guard to develop a comprehensive mission plan, 
train personnel, and acquire new chemical/biological defense 
technology. Explain how the Army National Guard's program will be 
coordinated within the Department of Defense to leverage existing 
capabilities that already exist in the Active forces and other Reserve 
components.
    Answer. The National Guard Bureau is drafting a Report to Congress 
titled ``Domestic Chemical/Biological Mission Planning to Combat 
Terrorist Attacks.'' This report will detail the Guard's plan for 
leveraging existing response assets. The study will potentially 
identify gaps existing between Department of Defense, other Federal 
Agency assets, and Guard resources. This will ensure the Guard does not 
duplicate existing assets.
    Question. In last year's bill, the Committee requested the Guard to 
submit a report by February 1, 1998, explaining in detail how these 
funds will be used. When will this report be finished?
    Answer. The National Guard Report to Congress is currently in its 
final stage of completion. Due to the complexity of the issue and 
planned scope, the report necessitated extensive interdepartmental and 
interagency coordination. The National Guard will complete the report 
in the near future.
    Question. How do you envision the Guard as having the role of a 
``first responder'' to an incident, since many Guardsmen have other 
full-time jobs and could not be activated for a job requiring quick 
reaction?
    Answer. Local civil law enforcement agencies, firemen, and 
emergency medical technicians are the ``first responders'' to a Weapons 
of Mass Destruction (WMD) incident. The National Guard is the first 
military responder to a WMD incident when military assistance is 
requested by the incident commander and approved by the Governor. This 
has historically been the case with all other Military Support to Civil 
Authority actions and will not change for WMD incidents. They will not 
replace municipalities' fire fighters, police, hazardous material, or 
medical first responders. All National Guard and Reserve forces already 
have some capabilities to function in a nuclear, biological, and 
chemical environment. During any incident, they become instate force 
multipliers. National Guard forces are already familiar with the local 
area. They know its plans, infrastructure, and the geography. They also 
have strong community links that will be invaluable in times of crisis. 
Additionally, the National Guard has been authorized by Congress to 
stand up 10, 22-member elements called Rapid Assessment and Initial 
Detection elements. These elements will be manned by full-time National 
Guard soldiers and will be able to respond to a WMD incident much 
quicker than a traditional National Guard unit that meets once a month.
    Question. Do you feel that the Guard has the technical expertise to 
train local civilian agencies in detecting or confronting a chemical/
biological threat?
    Answer. Because the Guard and Reserve are being tasked to respond 
to the very real threat of a domestic terrorist attack, they will 
demonstrate their ever ready support to the Armed Forces, and immediate 
support to local authorities across the Nation. Of significance is the 
fact that these personnel live and work in all these communities. They 
have already established the links to fire, police, and emergency 
medical personnel who are always the first to arrive on the scene of 
any disaster. Some of these National Guard and Reserve personnel have 
jobs as policeman, fireman, or emergency medical technicians. We have 
leveraged their skills and experience to augment the trainers in the 
Weapons of Mass Destruction Domestic Preparedness ``Train the Trainer'' 
training that Department of Defense is supporting with its interagency 
partners. The training is taking place in the 120 largest metropolitan 
areas in the United States. These servicemen have some of the same 
experiences of other first responders, but also have had military 
training in defense against Weapons of Mass Destruction. Based on both 
military and civilian first responder experience, they bring additional 
experience and skills to support the first responders in being better 
prepared. These servicemen compliment the interagency and local first 
responders who are also a part of the training team.

                       Sexual Harassment Training

    Question. The Committee understands that an Army Senior Review 
Panel recently reviewed the Army's equal opportunities policies and 
practices to assess the extent of sexual harassment. Several 
initiatives were proposed aimed at correcting problems. One 
recommendation, for example, was to add an extra week extension to 
Basic Combat Training in order to focus on core values. Please 
summarize the findings of the Review Panel. What is the Army doing to 
help identify and eliminate sexual harassment?
    Answer. We are reviewing former Senator Kassebaum Baker's report 
and will provide the Army's response to the Secretary of Defense on 
March 16, 1998. However, the findings of the Review Panel have centered 
on four main areas: the Army Equal Opportunity (EO) program, the extent 
of sexual harassment in the Army, leadership, and Initial Entry 
Training (IET). The Panel found that: the Army lacks institutional 
commitment to the EO program and soldiers distrust the EO complaint 
system; sexual harassment exists throughout the Army, crossing gender, 
rank, and racial lines; sex discrimination is more common than is 
sexual harassment; Army leaders are the critical factor in creating, 
maintaining, and enforcing an environment of respect and dignity in the 
Army; too many leaders have failed to gain the trust of the soldiers; 
and the overwhelming majority of drill sergeants and instructors 
perform competently and well, but respect as an Army core value is not 
well institutionalized in the initial entry training process.
    The Army is taking results of the Panel report seriously and has 
already made significant progress implementing its recommendations 
throughout the Army. The Army published the Human Relations Action Plan 
in September 1997 in response to the findings resulting from the 
investigations conducted by the Secretary of the Army's Senior Review 
Panel on Sexual Harassment and the Department of the Army's Inspector 
General Special Inspection of Initial Entry Training. The Action Plan 
serves as a tasking and tracking document for Army leaders to implement 
those actions necessary to improve the human relations environment in 
the U.S. Army today and to eliminate sexual harassment. Actions the 
Army has taken or will take include the following:
    Implemented new procedures for drill sergeant selection, training 
and background investigations;
    Assigned 110 additional lieutenants as training unit executive 
officer to ease drill sergeants' administrative burdens and free them 
to do their primary jobs;
    Redistributed 54 chaplains to training bases;
    Implemented a ``Consideration of Others'' program Army-wide; the 
goal of program is to ensure that all soldiers learn how to treat one 
another with dignity and respect;
    Standardized, improved and expanded human relations training for 
all soldiers;
    Extended basic combat training for one week to ensure the recruits 
understand the importance of Army values and tradition as well as to 
increase time spent on the ``soldierization'' process;
    Implemented chain teaching throughout the Army to educate soldiers 
and leaders on the Army's policy and standards of behavior regarding 
sexual harassment and misconduct;
    Trained commanders at all levels on how to establish a healthy 
command climate and how to measure this command climate; mandated that 
all commanders conduct a climate assessment within 90 days of assuming 
command and annually thereafter; provided the field with new command 
climate assessment tools to help leaders monitor the climate within 
their units;
    Published a pamphlet entitled Leadership and Change in a Values-
based Army which reinforced core values and leader responsibilities;
    Implemented ``Character Development XXI'' initiatives to refocus 
the Army on its core values;
    Established a Leadership Advisory Group, comprised of principal 
leadership policy and doctrine action officers, to examine leadership 
issues of importance to today's Army;
    Conducting a series of In-Progress Reviews (IPRs) to monitor the 
progress of the implementation of the plan; and
    Will conduct a follow-on assessment of the U.S. Army to determine 
if the action plan has made a difference in the Army's organizational 
climate.
    Question. Has the Army made the decision yet to extend basic 
training to nine weeks? How many personnel go through Army basic 
training each year?
    Answer. The Army decided to extend basic training to nine weeks 
beginning October 1, 1998. Approximately 110,000 recruits go through 
Army basic training each year.
    Question. What is the average cost for the Army to train a new 
service member?
    Answer. The average cost to train a new service member is 
$18,308.00. This includes $5,075.00 for basic combat training and 
$13,233.00 for advanced individual training.
    Question. Besides new recruits, who else will be required to attend 
Sexual Harassment Training?
    Answer. Everyone. All soldiers, noncommissioned officers, officers, 
and civilians must attend prevention of sexual harassment training 
every year, and all except civilians must attend twice a year. Soldiers 
must understand what sexual harassment is, how to recognize it, how to 
prevent it, how to report it, and what are the negative consequences of 
engaging in sexual harassment. Elimination of sexual harassment within 
a unit begins with a policy of aggressive and progressive training to 
identify and prevent inappropriate behavior. Unit training for junior 
enlisted and civilian employees will focus on defining sexual 
harassment and gender discrimination, sanctions which may be used to 
punish harassers, techniques for soldiers to deal with sexual 
harassment and methods of filing a complaint through the complaint 
system. Unit training or professional development training for junior 
officers, noncommissioned officers and civilian supervisors will 
reinforce the aforementioned training. In addition, emphasis will be 
placed on promoting a health work environment within the section or 
unit as well as on techniques for receiving, handling and resolving 
complainants. Training on the Equal Opportunity complaint system will 
include leader responsibilities in processing informal and formal 
complaints. It will emphasize the prevention of reprisal actions 
against complaints. Training at the unit level for senior 
noncommissioned officers, warrant officers, officers, civilian 
managers, and senior executive service will focus on fostering a 
healthy command climate and using appropriate means for determining a 
healthy command climate. All training will reinforce training conducted 
a more junior levels.
    Question. When will you implement this additional week's training, 
and how will the Training and Doctrine Command resource this training 
within budget constraints?
    Answer. The Army will implement the additional week's training 
beginning October 1, 1998. The Department of the Army will provide the 
Training and Doctrine Command adequate resources to conduct the 
training.
    Question. What is the estimated cost to the Army for extending this 
training an additional week?
    Answer. In fiscal year 1998, the Army provided $8,600,000 to the 
Training and Doctrine Command to develop an expanded basic training 
program and to partially expand the training base to conduct the 
additional training. Estimated costs for fiscal year 1999 are an 
additional $38,000,000. This does not include the salaries of Active 
Army cadre or Active Army trainees for the additional week.

                     Land Forces Training Readiness

    Question. The Army 1999 budget request indicates that actual tank 
miles (the measure of readiness related training for ground forces) for 
fiscal year 1997 and 1998 are just over 650, well below the training 
objective of 800 miles. General Reimer, what effect will the planned 
reduction in tank miles have on Army readiness?
    Answer. The Army did not intentionally plan a reduction in 
operating tempo (OPTEMPO). The combination of unspecified Congressional 
cuts, reductions in other programs (such as base operations) and 
reprogramming limitations challenged field commanders with maintaining 
a balance between readiness, training, and quality of life. When faced 
with the realities of their fiscal year 1998 funding levels and the 
concerns about reprogramming limitations during execution, the Major 
Command commanders recommended that funding be realigned to reflect 
expected spending plans. Consistent with past years, commanders 
absorbed these cuts and program shortfalls in OPTEMPO. By optimizing 
simulations, maximizing the use of Heavy Equipment Transports and 
spreading the mileage reduction over the year, commanders can maintain 
their training program within acceptable readiness levels.
    Question. Setting aside the effect of contingencies, when was the 
last time that the Army actually executed its readiness training 
program at or above 800 miles.
    Answer. Because mileage execution varies by Major Command, units 
must be looked at individually to determine their execution of the 
training strategy. During fiscal year 1997, the 2d Infantry Division 
achieved 735 miles in Forces Command. Further, all the light forces 
trained at their equivalent of ``800 miles.'' The last time the Army 
executed 800 miles or greater overall was in fiscal year 1989, when 815 
miles were executed. Since 1992, operating tempo mileage has fallen 
below the programmed training strategy. This occurred for many reasons, 
including commanders in the field balancing training requirements with 
other underfunded programs that also impact on readiness.
    The Army does not use executed miles as a readiness barometer. 
Mileage execution alone fails to include commanders use of training 
aids, devices, simulators and simulations, and Heavy Equipment 
Transports in training strategies. We have also taken several steps to 
reduce the overall cost of training, to include incorporation of 
simulation into our training strategies to reduce the number of miles 
required to be driven by combat vehicles. These techniques maintain the 
overall readiness of the Army without generating many miles.
    Question. The press release that accompanied the roll out of the 
fiscal year 1999 budget claims that about $1,000,000,000 was added to 
the Operation and Maintenance accounts to preserve readiness. What is 
the Army share of this adjustment?
    Answer. While the Army has no fiscal year 1999 Operation and 
Maintenance budget increase attributable to a $1,000,000,000 Office of 
the Secretary of Defense (OSD) add to Operation and Maintenance 
accounts, the Army did receive some increases during the Fall review of 
the Army Budget Estimate. Those increases resulted from OSD mission 
transfers to the Army and have no impact on Army readiness. Overall, 
increases generally were offset by decreases.
    Question. General Reimer, the Committee understands that emergent 
Department of the Army requirements are, in part, responsible for the 
reallocation of Operation and Maintenance funding away from readiness 
training. Could you describe for the Committee those priorities that 
have been funded instead of readiness related training?
    Answer. Austere funding in 1998 forced the Army to divert resources 
from readiness training accounts to cover critical needs in other 
programs and pay their assessed share of the Operation and Maintenance, 
Army (OMA), unspecified congressional reductions. The major unspecified 
reductions levied against the readiness accounts include: civilian 
personnel underexecution; National Defense Stockpile Fund; OMA excess 
inventory; revised economic assumptions; and temporary duty expenses. 
The adverse impact of these reductions is much greater because 
readiness funding levels had already been adjusted for reduced pricing 
and travel, as well as personnel and equipment levels.
    When resources are scarce, commanders absorb funding reductions 
within readiness accounts and protect other activities which are 
essential to the overall operational readiness of the Army. This 
includes funding for: training infrastructure and support facilities, 
including operation of training areas and ranges; centrally procured 
clothing and equipment; training ammunition; unit Nuclear Biological 
and Chemical and medical supplies; maintenance and supply support 
facilities; Power Projection Facilities; the incremental cost of 
participation in Joint Chief of Staff exercise; Active and Reserve 
component support; force communications requirements; facilities 
associated with certain combat development activities; and Land Forces 
Depot Maintenance. In addition, other infrastructure and unique 
management activity funds, including Base Operations Support, Real 
Property Maintenance, Army, funding for Unified Commands, and other 
miscellaneous activities, are funded at bare minimum levels and were 
not able to absorb any additional reductions. These supporting 
activities are essential components of the Army's ability to train, 
deploy, and sustain operations and are primary contributions to quality 
of life throughout the Army.
    Shortages in 1998 are causing commanders to make year of execution 
`boots-on-the-ground' decisions on selected training in order to 
achieve the optimal readiness balance between all the myriad of factors 
impacting readiness. Already, some units are maintaining equipment 
below normal maintenance standards, repair parts stockage levels will 
drop well below authorized levels, and units are eliminating collective 
unit training at task force level and above, except for Combat Training 
Center rotations and tasks force deployment exercises. Commanders are 
attempting to balance their existing resources by paring down training 
to those events required to sustain bare minimum acceptable training 
readiness. Commanders are forced to make necessary resource trade-offs 
in order to maintain the delicate balance of unit readiness and 
preserve the minimum acceptable quality of life standards for Army 
soldiers and their families.
    Question. Would the Army find it advisable to develop more 
restrictive reprogramming guidance for the Operation and Maintenance 
account to prevent the migration of funds from readiness related 
training to other support functions? If not, why?
    Answer. More restrictive reprogramming guidance is not the way to 
go. For fiscal year 1998, we already have more restrictive guidance 
than in the past, both in the reduced dollar threshold and in the 
number of budget lines to which it is applied. This has increased the 
workload at all levels of the Army to implement and track these 
thresholds. It has not eliminated the underlying driving forces behind 
migration, which are a tight budget and the need for field commanders 
to flexibly adjust to emergent requirements. Rather than more 
restrictive guidance, we need less. Eliminating the thresholds, or at 
least raising them to $50,000,000, would allow us to manage our funds 
more efficiently during the year with less of a workload than we are 
currently experiencing.

                 National Training Center and Readiness

    Question. In the 1998 budget request, the Army proposed that units 
on rotation to the National Training Center absorb the cost of these 
rotations from home station training funds. In the fiscal year 1998 DoD 
Appropriations Act, the Congress rejected this proposal, and added $30 
million to Operation and maintenance, Army to ensure that adequate 
funding would be available for NTC rotations, and to preserve home 
station training funds. The Army has again made this proposal in the 
fiscal year 1999 budget request. How does the Army propose spending the 
additional National Training Center funding provided in the Fiscal Year 
1998 National Defense Appropriations Act?
    Answer. The Fiscal Year 1998 National Defense Appropriations Act 
provided an additional $30,000,000 in funding for the National Training 
Center (NTC). The Army proposes to spend this funding on approximately 
170 miles for each of 17 the Active component heavy battalions using 
the prepositioned fleet while participating in NTC rotations in fiscal 
year 1998.
    Question. The Committee understands that the Army will, once again, 
propose that units absorb the cost of National Training Center (NTC) 
rotations from home-station training rather that separately funding 
such rotations. Why?
    Answer. The Army has updated the Combined Arms Training Strategies 
that are used to determine training and resource requirements. A major 
change in these strategies included making the NTC rotation a part of 
the unit's overall Home Station Training (HST) program. The Army 
changed the way it resources the prepositioned fleet at the NTC to 
reflect current training doctrine, to ensure all units are resourced 
equally, and to align the programming of its scarce Operations and 
Maintenance, Army, dollars with the way they are actually executed. 
Units in Germany who participate in NTC-like training exercises at the 
Combat Maneuver Training Center (CMTC) are resourced such that their 
CMTC rotations are included in their Home Station Training funding. 
Until fiscal year 1998, Forces Command (FORSCOM) units that rotated to 
the NTC and used the prepositioned fleet received additional resources 
for this training. This caused the Army to resource FORSCOM units at a 
higher level than the rest of the Army, to include units stationed in 
Korea. A review of the vehicle execution reports show that FORSCOM 
units are training at approximately the 800 mile level if the rotations 
to the NTC are included. Consequently, the Army changed its resourcing 
strategy to make the best use of scarce resources and to more closely 
reflect the way resources were being used by commanders in the field. 
There is no reduction on the overall resourcing of training and the 
change will not have an adverse impact on readiness.
    Question. The Committee understands that rotations to Hoenfels and 
the Joint Readiness Training Center (JRTC) are absorbed within home 
station training funds. Why?
    Answer. Since the inception of the Combat Maneuver Training Center 
(CMTC) at Hoenfels and the Joint Readiness Training Center at Fort 
Polk, units have paid for the cost of these rotations with home station 
training funds provided in the annual training accounts because 
rotations are considered part of their normal training strategy. This 
allowed heavy units driving at the Combat Maneuver Training Center and 
the Joint Readiness Training Center to report mileage driven as part of 
their training strategy execution. This includes the cost of spare 
parts and fuel for CMTC rotations of units in Germany who participate 
in training exercises at the CMTC. In addition, neither the CMTC at 
Hoenfels nor the Joint Readiness Training Center at Folk Polk maintain 
an armored vehicle prepositioned fleet. Heavy forces within Europe use 
rail transportation to move their vehicles to Hoenfels, as do Forces 
Command heavy units participating at the JRTC. The cost of this rail 
transportation also is included in their home station training funds.
    Question. Recent press indicates that there has been a decline in 
the quality of the units participating in National Training Center 
(NTC) rotations. Does this decline in quality make an argument for 
increasing the resources provided for both home station training and 
training rotations?
    Answer. One must remember that there is no comparison of units at 
the NTC or any of the Combined Training Centers (CTCs). The CTC 
experience is a learning environment. Commanders, soldiers, and units 
use the CTC experience so that they can identify weaknesses in battle 
operating systems and correct them. Having said that, I am not sure 
that there is, in fact, a decline in the quality of these units. While 
I think that the entry level experience and training may be lower as 
they go to the NTC, I think that their exit level is as high as it has 
been in the past. Operations and Maintenance funding is extremely tight 
as we have tried to shift some funds into modernization. So, basically, 
at home station, we are not doing as many large scale field training 
exercises now. Clearly, more dollars would help to alleviate this, as 
well as give more flexibility for installation commanders to balance 
the base operations and operating tempo portions of their budget.
    Question. In conjunction with the reported decline in the readiness 
of units going to the NTC, it has been noted that units are doing less 
combined arms training at their home stations during the work-up to the 
NTC. General Reimer, could you comment on this observation?
    Answer. Readiness is not evaluated at the CTCs. Readiness is 
assessed by unit commanders. CTC rotations are designed to immerse 
units in extraordinary training conditions. There is no comparison of 
units; the CTC experience is a learning environment. Commanders, 
soldiers and units use the CTC experience so that they can identify 
weaknesses in battle operating systems and correct them. We are doing 
less large scale field training exercises than we have in the past, but 
all units arriving for training at the NTC meet the Forces Command 
minimum training standards. Units arrive at the CTCs at various states 
of training proficiency based on the training strategy and guidance of 
the commanding general. Equipment readiness, level of personnel fill, 
and the factors affect a unit's state of training. Some units arrive 
after a deliberate train-up program at home station; others arrive in a 
``come as you are'' mode.

                         Contingency Operations

    Question. In the Fiscal Year 1998 National Defense Appropriations 
Act, the Overseas Contingency Operations Transfer Fund included nearly 
$1,900,000,000 for Operation and Maintenance costs associated with 
contingency operations in Bosnia and the Persian Gulf. Of this amount, 
$1,467,500,000 is for Bosnia and $416,500,000 is for Southwest Asia. 
Contingency operations for fiscal year 1998 are underfunded. Unofficial 
estimates indicate that Bosnia is underfunded by approximately 
$700,000,000, and Southwest Asia is underfunded by a similar amount 
(assuming the current buildup, but no hostilities). What are the Army's 
Military Personnel and Operation and Maintenance requirements in fiscal 
year 1998 for Bosnia outside of what has already been funded in the 
1998 Defense Appropriations Act?
    Answer. The Army's fiscal year 1998 shortfall for Bosnia, including 
Task Force Able Sentry in Macedonia, is $516,600,000. This includes 
$405,100,000 for Operations and Maintenance and $111,500,000 for 
Military Personnel.
    Question. What are the Army's total Military Personnel and 
Operation and Maintenance costs for Bosnia in fiscal year 1998?
    Answer. The Army's total fiscal year 1998 costs for Bosnia, 
including Task Force Able Sentry in Macedonia, is $1,515,000,000. This 
includes $1,250,900,000 for Operations and Maintenance and $264,100,000 
for Military Personnel.
    Question. What are the Army's Military Personnel and Operation and 
Maintenance requirements in fiscal year 1998 for operations in the 
Southwest Asia outside of what has already been funded in the Fiscal 
Year 1998 National Defense Appropriations Act?
    Answer. The Army's fiscal year 1998 shortfall for Southwest Asia is 
$609,700,000. This includes $537,100,000 for Operation and Maintenance 
and $72,600,000 for Military Personnel.
    Question. What are the Army's total Military Personnel and 
Operation and Maintenance costs for Southwest Asia in fiscal year 1998?
    Answer. The Army's total fiscal year 1998 cost for Southwest is 
$694,500,000. This includes $617,400,000 for Operation and Maintenance 
and $77,100,000 for Military Personnel.
    Question. Have funds yet been transferred from the Overseas 
Contingency Operations Transfer Fund to Operation and Maintenance, Army 
to fund your contingency related expenses?
    Answer. Yes. The Office of the Secretary of Defense has transferred 
$930,700,000 in fiscal year 1998 from the Overseas Contingency 
Operations Transfer Fund to Army's Operation and Maintenance account to 
fund contingency related expenses. This transfer has already been taken 
into account when identifying fiscal year 1998 contingency operations 
shortfalls.

                       Gender Integrated Training

    Question. In June 1997, the Secretary of Defense appointed the 
Federal Advisory Committee on Gender-Intergrated Training and Related 
Issues to assess the current training program of the Military Services 
and determine how best to train a gender-integrated, all volunteer 
force. The recommendation of the December 1997 Kassebaum Baker Report 
center on the quality of recruits and the need to instill discipline 
throughout the training process. The report also recommends 
establishing separate barracks for male and female recruits. The 
January 1998 Defense Advisory Committee on Women in the Military 
(DACOWITS) Report highlights some of the same issues as the Kassebaum 
Report but adds that the Services need to establish and enforce clearer 
gender related policies in areas such as fraternization. What is the 
estimated cost to implement the recommendation in the Kassebaum Report? 
What would the impact be on each: the Defense Appropriations bill and 
the Military Construction bill?
    Answer. The Army is reviewing the report prepared by the Federal 
Advisory Committee on Gender-Integrated Training and Related Issues. 
The estimated cost to implement the recommendation will be completed 
and submitted to the Secretary of Defense on March 16, 1998. At this 
time, the impact of these costs on the Defense Appropriations bill and 
the Military Construction bill have not be considered.
    Question. The Committee understands that each military service is 
developing its own recommendations independently on the Kassebaum 
Report. Would you please give the Committee an indication of your 
position.
    Answer. The report contains an extensive amount of valuable 
information. The Army is still studying it in depth and preparing a 
report to the Secretary of Defense. Once the report is released, we 
will promptly inform Congress.
    Question. What is your understanding of the Secretary of Defense's 
role in coordinating your recommendations with those of the other 
services?
    Answer. The Army, along with the other services, will provide the 
Secretary of Defense a response to the Federal Advisory Committee 
report no later than March 16, 1998. I know of no plan for the 
Secretary of Defense to coordinate Army recommendations with the other 
services.

                           Army Modernization

    Question. Last year, Congress provided $12,200,000,000 for Army 
modernization. The Army's fiscal year 1999 budget request for 
modernization program is $13,000,000,000--this is $800,000,000 higher 
than the fiscal year 1998 appropriated amount. These funds are used to 
develop and procure aircraft, ammunition, tracked and tactical 
vehicles, missiles, and other combat support equipment. Although your 
modernization program is higher this year than last year's appropriated 
amount, the majority of your funds are to modify and extend the life of 
systems that are currently in the Army inventory. Does this concern 
you?
    Answer. The Army has developed a budget that adequately funds our 
programs consistent with our modernization strategy and within the 
existing fiscal constraints. The Army's fiscal year 1999 budget is 
approximately $1,700,000,000 above last year's President's budget 
submission. Based on fiscal constraints, the fiscal year 1999 
President's budget and Future Years Defense Program are adequate 
operationally and economically. An increase of approximately 
$1,000,000,000 is realized each year throughout the Program Objective 
Memorandum.
    Question. Does your budget sustain your modernization efforts in 
the outyears? If not, what are the shortfalls?
    Answer. Yes, an increase of approximately $1,000,000,000 is 
realized each year throughout the Future Years Defense Program. The 
momentum will be continued through the outyears.
    Question. Do you believe that there is enough emphasis in the 
fiscal year 1999 budget on Army modernization programs? Why?
    Answer. The Army has developed a budget that adequately funds our 
programs consistent with our modernization strategy and within the 
existing fiscal constraints. The Army's fiscal year 1999 budget is 
approximately $1,700,000,000 above last year's President's budget 
submission. Based on fiscal constraints, the fiscal year 1999 
President's budget and Future Years Defense Program are adequate 
operationally and economically. An increase of approximately 
$1,000,000,000 is realized each year throughout the Program Objective 
Memorandum.
    Question. What are your top modernization programs? Are they fully 
funded in the fiscal year 1999 budget request and in the outyears? If 
not, what are the shortfalls?
    Answer. The Army's goal of digitizing a Division by fiscal year 
2000 and Corps by 2004 is our top initiative. Our digitization efforts 
include the ongoing modernization efforts of approximately 97 systems 
encompassing 538 budget lines. The total estimate of the digitization 
effort is $2,600,000,000 in fiscal year 1999. The Army did not take 
this $2,600,000,000 from programs to create a new effort. It was 
already part of the Army Total Obligation Authority that was allotted 
to these many existing programs. Of this total, approximately 
$261,000,000 was added to digitization by Office of the Secretary of 
Defense for fiscal year 1999. The $261,000,000 provides for improved 
interoperability, increased integration, improved security, network 
management, and more robust common architectures. It is key to the 
horizontal efforts that go across these systems.
    Crusader and Comanche are the two major weapons systems programs 
that continue development of new platforms.
    Other top Army's dollar value modernization programs in the 
President's fiscal year 1999 budget are the Longbow Apache helicopter, 
the Abrams tank, and the Army Tactical Missile System/Brilliant Anti-
Armor Submunition. During the Future Years Defense Program (2000-2005), 
we will spend approximately $10,400,000,000 on those systems.
    Question. Are you concerned that near term readiness is funded at 
the expense of long-term readiness? If so, what programs concern you 
the most? How would you reduce that risk?
    Answer. My primary concern is balance. The Army must receive 
adequate and predictable funding to sustain its full spectrum 
capabilities and ensure our Nation remains versatile, flexible, and 
credible in response to crises around the world. Maintaining the 
delicate balance between requirements and resources is increasingly 
difficult. Funding must be adequate, sustained, predictable, and 
synchronized to meet the readiness, force structure and endstrength, 
quality of life, and modernization requirements of today and an 
uncertain future. With 13 consecutive real declines in Army budgets 
from 1985 to 1998, the Army has had to assume risk in certain areas and 
make tough choices to balance requirements with risks. Even with a 
marginal increase in fiscal year 1999, the Army must assume prudent 
risks in a number of areas. All Army requirements must vie for steadily 
decreasing resources in a world of steadily increasing operational 
requirements and uncertainty. Balance reduces both near- and long-term 
risk to the extent possible without any increases in resources. We are 
counting on achieving efficiencies to help mitigate the risk to current 
readiness. We must closely monitor our progress in these and to the 
extent that we lose buying power increases our risk to current 
readiness. We will closely monitor our Army unit readiness 
contributors, such as base operations, real property maintenance, and 
Army training, to maintain current readiness while preserving our 
future modernization activities.

                         National Defense Panel

    Question. The National Defense Panel (NDP) recommended that the 
Army become ``more expeditionary: fast, shock-exploiting forces, with 
greater urban operations capability.'' The NDP was critical of the 
Army's procurement programs, which continued to modify heavy weapons 
systems which are difficult to transport into theater. Additionally, 
the NDP recommended that the Army take the lessons learned from Force 
XXI experiments and transition quickly to the Army After Next. Do you 
agree with the NDP findings? Which have the most merit? Why? Which do 
you disagree with? Why?
    Answer. I agree with the NDP's characterization of the security 
environment of 2020. I also believe it will contain a wide array of 
military challenges, and some different from today, some quite 
familiar, that will require our forces to exercise a broad range of 
capabilities in support of our national security and military 
strategies. In support of those strategies, our Army today, and in the 
future, must be a full spectrum force, capable, as part of a joint and 
often multinational force, of conducting important shaping and 
engagement activities, executing the full range of smaller-scale 
contingencies, and if required, fighting and winning major theater 
wars. Many of the recommendations of the NDP, including those about 
becoming more mobile and deployable and being able to operate in 
increasingly urbanized terrain around the world, are things we have 
been working on for some time, and are implementing in the Army today. 
Our advocacy of strategic sealift and C-17 programs, increasing numbers 
of urban operations training facilities, division Army Warfighting 
Experiments, upcoming light force experiments and urban operations 
joint experiments with the Marine Corps, and our Army After Next 
studies and wargames are some of our efforts in this regard. Our Army 
in 2020 will be able to get to the battlefield more quickly; it will 
seek, as our doctrine has always advocated, to exploit speed of 
maneuver, pace of operations, and shock, to overmatch, collapse, and 
destroy our adversaries; and we will continue refining our experience 
in urban operations to address increasing urbanization.
    While in general I support the idea of moving quickly to future 
capabilities, I have concerns with the NDP's suggestion that we are 
ready or able to move to 2020 capabilities today. First, we have much 
more to learn about information technologies. We need the experience 
with applying and exploiting information technologies that will come 
with our Army XXI effort. Our Force XXI process is exploring new 
concepts that are influenced by, and in turn, guide our experimentation 
and Science and Technology research. We will need our current 
procurement programs to build Army XXI and sustain us while we reap the 
fruits of experimentation and research. Second, while we must and will 
continue to seek change, we must carefully consider the impact of the 
pace of change. Mental change must precede and guide physical change. 
We must be careful that the pace of change does not outstrip the 
ability of our organizations, doctrine, leaders, and soldiers to 
distill, comprehend, and incorporate the lessons of experimentation and 
the implications of change. Failure to manage the stresses and pace of 
change unacceptably risks our ability to deal with near-term 
requirements while maintaining our path to the future. Finally, while 
the insights and concepts emerging from our Army After Next process are 
guiding our science and technology efforts to fashion future 
capabilities, we must recognize that some of the technologies that 
would support the capabilities we need simply do not exist today, and 
we do not know when they will become available. As desirable as it 
might seem, for all these reasons, we simply cannot leap to 2020 
capabilities today. In the immediate future, we believe our procurement 
programs will best ensure our ability to fulfill our National Military 
Strategy.
    Question. Based on your fiscal year 1999 budget and the 
accompanying Five Year Defense Plan, are you postured to meet the 
challenges facing you in 2010-2020? Which areas concern you the most?
     Answer. Yes, I believe we are postured to meet the challenges of 
2010-2020. Joint Vision 2010 provides the conceptual template for how 
America's Armed Forces will develop to meet those challenges. Army 
Vision 2010 is the supporting blueprint for the Army's contributions to 
the operational concepts identified in Joint Vision 2010, building a 
capabilities-based, threat-adaptive Army with the proper mix of forces 
to achieve full-spectrum dominance for the land component of the joint 
team. In particular, the Army's Modernization Strategy accommodates the 
realities of ongoing multiple commitments coupled with the requirement 
to meet the demands of our military strategy in a constrained resource 
environment. It provides a path to developing the capabilities we will 
need to meet the challenges of 2020 through a combination of near-term 
focus on achieving information dominance by 2010, and an effort to 
prioritize and focus science and technology resources to leverage 
technology advances that will help maintain decisive battlefield 
dominance well into the future. The Army's Modernization Strategy 
addresses a full spectrum of military mission areas, from defending or 
liberating territory to humanitarian operations, across a full range of 
environments, including the urban environment. Each component of the 
strategy--information dominance, combat overmatch, essential science 
and technology, recapitalization, and others--helps to position the 
Army to meet the challenges of the future.
    Although the NDP criticized Army procurement programs, I believe 
those programs are necessary to balance correctly the present day 
requirements of the National Military Strategy, while simultaneously 
preparing for the challenges of 2020. As you know, many of our concerns 
about the budget have been around modernization issues, because our 
procurement programs help us maintain combat overmatch for today while 
building the same for 2020.
    As to what concerns me most, I consider the pace at which we move 
toward the future and the adequacy of funding the most significant. The 
rate of change must carefully balance toady's readiness with the 
modernization necessary to meet future challenges. We must also 
continue to receive adequate funding for the procurement and other 
elements of our Modernization Strategy that will move us along the 
right path to meeting the challenges of 2010-2020.
    Question. The National Defense Panel (NDP) stated that it did not 
follow the logic of several of the services procurement programs. The 
NDP expressed concern over the Army's Comanche helicopter, the M1A2 
tank and the Crusader field artillery system. Do you plan on making any 
adjustments to your modernization strategy based on these 
recommendations? Please explain.
    The Comanche helicopter and Crusader field artillery system are two 
of the Army's top modernization programs. However, the NDP believes 
that future requirements would best be met if the Army used these 
systems as an interim until newer, lighter systems could be fielded. 
The NDP recommended that the Army reduce the planned procurement 
quantity of these two systems. Do you agree with the NDP assessment? 
Why or why not? Do you believe that you can field lighter systems than 
the Comanche and Crusader by 2010? Please explain--is it a technology 
or funding issue?
     Answer. Our Army Modernization Strategy continues to prioritize 
investments over time and reflects the linkage to the operational 
concepts described in Joint Vision 2010 and the patterns of operation 
outlined in Army Vision 2010. I agree with the National Defense Panel's 
finding that ``it is important to begin the transformation process 
now.'' That is what our Force XXI and Army After Next processes are all 
about. Through Force XXI, we are exploring the potential, and 
leveraging the power, of Information Age technologies. The result--Army 
XXI--will be a product-improved version of today's force, with its 
principal increases in capability coming from our exploitation of 
information systems. I believe this is a prudent course to take based 
on our understanding of the current and future geostrategic 
environment.
    Where Force XXI seeks to achieve ``mental agility'' throughout the 
force--the ability to understand all facets of the task at hand and to 
act decisively and in a timely manner--our Army After Next process is 
focused on providing the ``physical agility'' to fully exploit the 
accomplishments of Force XXI. Where Force XXI is a product-improved 
force, the Army envisioned in our Army After Next effort--the Army of 
2025 and beyond--will be a much different force, with vastly different 
capabilities, equipment, and tactics. Many of the technologies required 
to realize our vision of the Army of 2025 do not now exist. We have 
identified some of them in our Army After Next process, and we are 
funding them appropriately. As other required technologies are 
identified, we will pursue them, as our funding permits. These leap-
ahead technologies will not be developed overnight. Our patience and 
sustained commitment will be critical to their attainment.
    I do not believe that the effort we are putting into Force XXI is 
hindering our ability to realize the vision described by Army After 
Next. In fact, I believe that the course we have laid out in Force XXI 
is required to get to the Army of 2025. There are no short cuts. 
However, I agree with the National Defense Panel's recommendation that 
we should look hard at our Force XXI investments, and where possible, 
free funds for Army After Next developments. I do not think it is 
necessary for each unit in the total Army to pass through the same 
transition on the way to the Army of 2025. We are committed to 
carefully determining requirements and reengineering our process to 
achieve the savings necessary to finance future needs.
    With regard to Comanche, Crusader, and the Abrams tank, I believe 
these systems are important to modernizing our force. Our current M1A2 
tank program includes the upgrade of about 1,100 older M-1 tanks to the 
M1A2 version. Given that our total tank requirement is about 7,600 
tanks, fielding of the M1A2 tank will be limited to selected forces--
essentially as recommended by the NDP.
    The Comanche armed reconnaissance helicopter is essential to 
fighting in the future. Until it is fielded, we will accept risk in 
this portion of the force, and continue to employ aircraft in interim 
organizational designs to bridge the gap. No currently available 
aircraft is adequate to perform all the functions we envision for 
Comanche, including the OH-58D Kiowa Warrior and AH-64D Apache Longbow. 
We have already downsized our aviation force in anticipation of the 
fielding of the Comanche. While the Comanche will largely replace 
interim aircraft on a one-for-one basis, the superior capabilities 
provided by Comanche will enable us to address the risk we have 
accepted in the interim in our armed reconnaissance and light attack 
capabilities.
    The Crusader will provide indirect fire support to future maneuver 
forces. As with Comanche, we have already made organizational changes 
in anticipation of fielding the Crusader. In fiscal year 1996, we 
changed the Army's fire support force structure to leverage the 
capabilities inherent in the Multiple Launch Rocket System (MLRS) and 
Crusader. As a result, our requirement for self-propelled howitzers 
decreased from 2160 to 1378. Until Crusader and the additional MLRS 
units are fielded, we have accepted risk in our fire support 
capabilities.
    The successful fielding of each of these systems--M1A2 tank, 
Comanche, and Crusader--will enable us to bridge the gap between the 
Army of the Gulf War, the Army of 2010, and the Army envisioned in our 
Army After Next process. Each of these programs enables the Army to 
more fully exploit the potential of information age technologies and 
reduces the risks we have already accepted in anticipation of their 
fielding.
    Question. The National Defense Panel (NDP) recommended that the 
Army procure fewer M1A2 tanks than planned. Instead, the Army should 
begin the development of a new, unique tank--30-35 tons, fast, agile, 
and with a hypervelocity gun technology. Is this a realistic plan?
    Answer. We are in fact limiting the procurement of M1A2 tanks and 
plan to field them to just one third of the force. While this entails 
some risk our current plan to field about 1,100 M1A2s with our existing 
fleet of M1A1s affords us an acceptable level of overmatch as we 
transition to Force XXI. The Abrams tank is a key system in the Army of 
2010 and we must keep it viable well beyond that time. This is 
important as the Army Science Board recently reviewed technology 
applicable to a future tank and concluded that a hyper-velocity gun is 
not likely until 2020 or beyond. Today's Army took 25 years to develop 
and field; technology for the lighter force of the future is at least 
20 years away. We do not have the luxury of allowing legacy systems to 
lose their relative advantage over potential adversaries while we 
invest in leap-ahead capabilities. We must do both, simultaneously. The 
safety of our soldiers--today's and tomorrow's--demand that we get the 
balance right. The Army is charting a prudent course that will 
transform the force to one that can fight the battle of 2020 and 
beyond.
    Question. Could funds be diverted in the outyears from the tank 
production program to a new tank program?
    Answer. We are in fact limiting the upgrade of Abrams tanks to 
conserve resources for future system development and fielding. We are 
now upgrading the M1 Abrams tank into the M1A2 configuration. In 1999, 
we will add the System Enhancement Package (SEP) to the M1A2 as part of 
the digitized force. Key elements of this upgrade are the M1A2's 
Commander's Independent Thermal Viewer, 2d Generation Forward Looking 
Infrared Radar (FLIR) sights, and embedded Force XXI command and 
control hardware and software. These improvements provide the increased 
lethality and survivability overmatch essential for our soldiers in the 
mounted force between now and Army After Next (AAN). We plan to equip 
just one third of the force with the M1A2. Fielding of the M1A2 with 
the SEP upgrade will complete in 2008. Coupled with a rebuild program 
and digitization of the M1A1, we feel this will afford an appropriate 
level of overmatch. This strategy allows us to invest in the 
development of a new close combat system we call the Future Combat 
System FCS). The FCS responds to the requirement for a close combat 
system that is leap ahead in lethality, survivability, and 
sustainability for the Army After Next.
    Question. Is this a technology issue?
    Answer. This is very much a technology issue. The FCS responds to a 
requirement for a new close combat system. A key element of FCS is the 
ability of the system to perform expanded battlefield roles in the 
close heavy battlespace while significantly reducing the logistical 
support required for deployment and sustainment of such a system. This 
need for an expanded battlefield role resulted in a change from a 
Future Main Battle Tank concept to FCS. FCS concept development is 
focused on candidate armament technologies, which are the main design 
driver for FCS. Also under consideration in Science and Technology are 
alternative power sources and approaches to provide a platform capable 
of maximum output with minimum logistical demands. Advanced 
survivability measures will also be integrated into the FCS to ensure 
the crew is protected to fight in the close combat battlespace.
    Question. What is the estimated cost of a new tank development 
program and when is the earliest it could be fielded?
    Answer. Our current strategy is focused on first unit equipped in 
2018. To achieve that goal, we project a cost during our Extended 
Planning Period of 2006 to 2014 of $1,300,000,000.
    Question. The National Defense Panel (NDP) asserts that ``speed''--
the rate at which an Army can mobilize, deploy, set action and reset 
action--will be fundamental to its success.
    Are you confident that you have the ``speed'' to be successful?
    Which systems ``slow'' you down?
    When will those systems be replaced?
    Do you believe that Comanche, Crusader, and the M1A2 meet the 
``speed'' requirement? Why?
    Answer. Speed will be important for successful military operations, 
but it will not be the only factor fundamental to success. A force 
capable of full-spectrum dominance requires not only speed--the ability 
to enter into an area quickly and conduct prompt and sustained 
operations--it requires the capability to obtain, disseminate, and 
decipher key information. This is information dominance. Secondly, 
full-spectrum dominance requires the lethality to overmatch our 
adversaries, not system for system but as a combined arms, joint team. 
Further, we must have the capability to provide sustained timely 
logistics support with a minimal logistics footprint. Finally, we must 
protect our forces from the risks of air-to-surface and surface-to-
surface missiles. These factors are reflected in our Modernization 
Strategy, which sets investment priorities over time and links the 
operational concepts of Joint Vision 2010 and the patterns of 
operations outlined in Army Vision 2010.
    The speed with which we are able to get our systems to the warfight 
is dependent upon airlift and sealift capabilities, the locations and 
accessibility of our prepositioned equipment, and the dimensions and 
weight of that equipment. In addition, the lethality of certain systems 
gives us the ability to enter a conflict with the initial firepower 
necessary to conduct operations until the arrival of follow-on forces 
with capabilities to continue and sustain operations.
    None of our systems slow us down, per se. They do, however, require 
us to make additional tactical considerations in order to provide the 
necessary capabilities when we require them. The Army After Next will 
require systems that provide the capabilities of speed, lethality and 
deployability. We are currently focusing our Science and Technology 
efforts on improving the existing technology to develop systems that 
possess these capabilities.
    With regard to Comanche, Crusader, and the Abrams tank, Comanche 
exemplifies ``speed.'' It is self-deployable to about 1260 nautical 
miles, or if transported in Air Force C-17 transport aircraft, Comanche 
will be ready to fight 45 minutes after arrival. No boresight for 
firing weapons or test flight will be required. During combat, it will 
take about 15 minutes to refuel and rearm Comanche.
    Regarding Crusader, we will field eight Army Prepositioned Sets 
under the current fielding plan. This will allow us to rapidly deploy 
forces to support a wide variety of contingencies. The Army will also 
be able to strategically deploy Crusader. Crusader is deployable by 
both sea and air. In fact, Crusader increases the commander's 
flexibility when deploying. Fewer Crusaders, requiring less lift, can 
provide fire support equivalent to our current system. This is 
especially beneficial when tailoring forces for operations other than 
war. The commander may not require his complete fire support 
organization, and with Crusader, he can deploy a highly capable fire 
support package suited for the situation. Crusader lets the commander 
deploy the fire support he needs using less strategic lift, and freeing 
up assets to carry other systems.
    We also play to field M1A2s to selected Army prepositioned sets to 
ensure rapid deployability. Coupled with the M1A1s is already deployed 
to the Army prepositioned sets, we can get heavy forces on the ground 
very quickly, as we have most recently proven in Kuwait.
    The successful fielding of each of these systems--M1A2 tank, 
Comanche, and Crusader--will enable us to bridge the gap between the 
Army of the Gulf War, the Army of 2010, and the Army envisioned in our 
Army After Next process. Each of these programs enables the Army to 
more fully exploit the potential of information age technologies and 
reduces the risks we have already accepted in anticipation of their 
fielding.
    Question. The NDP recommended that the Army develop lighter, more 
agile automated systems of the 21st century.
    Do you believe Comanche, Crusader, and the M1A2 all meet those 
requirements?
    Which systems currently in development meet those requirements for 
the 21st century? When will they be fielded?
    Answer. Comanche meets the requirements. It is self-deployable to 
about 1,260 nautical miles, or if transported in Air Force C-17 
transport aircraft. Comanche will be ready to fight 45 minutes after 
arrival. No boresight for firing weapons or test flight will be 
required. During combat, it will take about 15 minutes to refuel and 
rearm Comanche. Fielding is set to begin in fiscal year 2005.
    While Crusader is not lighter than current systems, it will more 
agile, automated, and takes less aircraft sorties to deploy an 
equivalent amount of firepower. The weight requirement for Crusader and 
its companion Resupply Vehicle is 55 tones (each) combat loaded. The 
Army After Next (AAN) will have two components: Campaign Forces and 
Battle Forces. The Campaign Forces will be equipped with Crusader and 
overmatch systems such as Multiple Launch Rocket System, Abrams, and 
Bradley. Campaign Forces will make up approximately 75 percent of the 
Army's combat forces.
    The Battle Forces will be equipped with future lighter more lethal 
systems and will make up approximately 25 percent of the Army's combat 
forces.
    Crusader will be the keystone fire support system for Army XXI and 
AAN. In addition Crusader is a technology carrier for future ground 
combat weapon systems for both the Campaign and Battle Forces. Fielding 
of Crusader is set to begin in fiscal year 2005.
    Crusader's mobility will exceed the requirement to support Abrams/
Bradley based maneuver forces. It will also be able to cover 750 meters 
in a 90 second period of time when required for increased survivability 
from counter battery fires. Its automation is state of the art and will 
take the traditionally manpower intensive tasks of firing an artillery 
weapon and resupplying an artillery unit out of the hands of soldiers. 
Once the Resupply Vehicle (RSV) is uploaded, these tasks will be 
accomplished without a solder ever touching the projectiles.
    The M1A2 combines the well-known agility, of the Abrams tank will 
increased fightabilty, survivability, and maintainability. For example, 
M1A2 target acquisition is 45 percent faster than the M1A12 we have 
incorporated the most up to date armor package to enhance 
survivability, and its on board diagnostics allow continuous 
diagnostics of the system. In 1999, we will add the System Enhancement 
Package to the M1A2 as part of the digitized force. Key elements of 
this upgrade are the M1A2's Commander's Independent Thermal Viewer, 2d 
Generation Forward Looking Infrared Radar sights, and embedded Force 
XXI command and control hardware and software. These improvements 
provide the increased lethality and survivability overmatch essential 
for our soldiers in the mounted force for Army XXI and the Campaign 
Forces of Army After Next (AAN). Fielding began in fiscal year 1995 and 
is ongoing.
    Question. The National Defense Panel (NDP) recommended that the 
Army take the lessons learned from Force XXI experiments and transition 
quickly to the Army After Next.
    What is the Army After Next?
    Answer. Army After Next is our project to explore and assess the 
nature of warfare in the next century and the future evolution of U.S. 
national security requirements. Via this process, we are conducting 
broad studies of warfare to frame issues vital to the future 
development of the Army and present them to the senior Army leadership 
for consideration and decision. Currently, these studies focus on, but 
are not constrained to, the period of 2010 to 2025 and beyond, and 
address four broad research areas: the geostrategic setting of 2025, 
the evolution of military art to 2025, human and organizational issues, 
and technology trends to 2025.
    We envision that the results of our Army After Next project will be 
an Army that is significantly different than today's in terms of 
doctrine, organization, and equipment.
    Question. Do you think the NDP's recommendation is realistic? 
Please explain.
    Answer. I agree with the NDP's fundamental recommendation that we 
should seek to transition to the concepts embodied in Army After Next 
as soon as possible, consistent with the strategic environment, our 
National Military Strategy, and available resources. That may include 
limited fielding of some systems that are currently in procurement or 
about to enter production. The NDP recommended that some systems be 
fielded only to our III Corps and forward-based forces as a risk 
mitigation capability. That is essentially what we are already doing.
    However, the new capabilities we envision in our Army After Next 
project are not available today, and we do not believe they are 
achievable in the near term. To realize the concepts embodied in Army 
After Next, we have focused our Science and Technology investments 
where we believe they will best support the leap-ahead capabilities we 
seek.
    Question. What new technologies are you developing for Army After 
Next?
    Answer. We are both developing new technologies through basic 
research, as well as seeking to mature emerging technologies 
sufficiently to permit their application to military requirements. They 
are addressed in considerable detail in the Army Science and Technology 
Master Plan. They include, but are not limited to, hybrid power 
systems; logistics efficiencies (fuel efficiency, ultra-reliability, 
weight reduction); human engineering and cognitive engineering; 
signature control (including counters); protection schemes for land 
systems (including active protection); advanced materials; affordable 
precision and alternate lethality means; alternative propellants; non-
lethal capabilities; and biological and chemical protection, antidotes, 
and vaccines.
    Question. How will the Army After Next be organized?
    Answer. Getting the answer to your question is a significant thrust 
of our Army After Next project. We continue to conduct broad studies 
and experiments to understand and explore the range of options. From a 
practical standpoint, we know that the Army of 2025 will be a 
combination of Army XXI forces (resulting from our Force XXI process) 
and newly created forces that are optimized to exploit ``knowledge and 
speed'' at all levels of war. We believe these new forces will include 
organizations that are significantly more mobile, strategically and 
tactically; logistically unencumbered and, therefore, more capable of 
sustained, independent operations; and able to fully exploit 
Information Age technologies. We intend to employ the 2d Armored 
Cavalry Regiment (Light), currently based at Fort Polk, Louisiana, as 
our Army After Next experimental force.
    Question. Do you believe you could transition to the Army After 
Next at a quicker pace? Why? Is it a technology issue, funding, or 
both?
    Answer. Our transition to Army After Next is a factor of funding 
and technology, as well as the appropriate rate of change. I think we 
can get to Army XXI more quickly if additional resources were 
available, but I do not believe we can accelerate Army After Next by 
bypassing Army XXI. We still have significant technological challenges 
to resolve and much experimentation to conduct before we will be ready 
to commit to a defined course of action for Army After Next. Perhaps 
most importantly, we must change how we approach military problem 
solving, educate our leaders, and train our soldiers and units to fully 
exploit the ``knowledge and speed'' that we envision our new 
capabilities will provide. This mental change may, in fact, be more 
difficult than the development and introduction of new technologies. 
However, we know that our transformation to Army XXI is a significant 
and necessary step towards Army After Next. We believe that to 
accelerate our transition to the Army After Next, we would need to both 
accelerate our Force XXI initiatives and increase our investments in 
the research and development of new technologies and capabilities. 
While we do not believe there is a discrete, linear relationship 
between investment in research and development programs and our pace 
towards the Army After Next, we believe there are prudent opportunities 
for modest increases in research and development investments.
                              JLENS System
    Question. Last year, this Committee recommended that the Aerostat 
program be terminated, but it did not prevail in conference. Instead, 
the conferees appropriated $35,000,000 a decrease of $51,000,000 from 
the budget request. This year the Army renamed the program, the Joint 
Land Attack Cruise Missile Defense Elevated Netted Sensor System 
(JLENS), and is requesting $103,000,000 to continue the program. Please 
explain the JLENS concept.
    Answer. JLENS is a critical joint program for developing advanced 
elevated radars to provide sensor support for Land Attack Cruise 
Missile Defense (LACMD) using the Air Directed Surface to Air Missile 
concept. JLENS sensors provide a significant capability, contributing 
to the creation of a Single Integrated Air Picture, a key Commander-in-
Chief (CINC) requirement. The system also is a key system contributor 
to the comprehensive Joint Theater Air and Missile Defense (JTAMD) 
cruise missile defense architecture laid out in the JTAMD master plan.
    The JLENS system uses off-the-shelf aerostats at an altitude of 
15,000 feet for extended periods to elevate sensors and communication 
systems. The JLENS system cost is hundreds of dollars per flight hour 
compared to thousands of dollars per flight hour for fixed wing 
aircraft. The JLENS system takes a major step in addressing the 
emerging cruise missile threat at low altitudes and in ground and sea 
clutter. JLENS is following a fast track acquisition approach beginning 
with a technology demonstration program. At the program's conclusion, 
it will provide a leave-behind operational system for CINC contingency 
operations. As such, it will be employed at corps level or above corps, 
supporting active air defense, passive defense, attack operations, and 
communications relay missions. The greatest contribution to CINC's 
warfighting capabilities is the sensor date required for over-the-
horizon engagements by Patriot and overland engagements by the Naval 
Standard Missile.
    The radar and software technology required to achieve the desired 
capability from JLENS is strongly leveraged from other Department of 
Defense programs, such as the Theater High Altitude Air Defense sensor 
(Ground Based Radar), multiple Battle Management Command, Control, 
Communications, Computers and Intelligence programs, and advanced radar 
development initiatives.
    The technical concept is two radars, one providing surveillance 
capability, and one providing precision track capability, installed on 
two separate aerostat platforms. Mobile mooring stations are used to 
launch and retrieve the aerostats. A ground processing station controls 
the radar operations and the dissemination of target location and track 
data over Joint Tactical Information Distribution System and 
Cooperative Engagement Capability communication networks to tactical 
operations centers.
    Question. How will it be deployed and what will be its mission?
    Answer. The operational concept in support of the Joint Theater Air 
and Missile Defense (JTAMD) cruise missile defense architecture is 
described in the JTAMD master plan. One or more surveillance platforms 
will be deployed to cover the theater area of operations and one or 
more precision track radar platforms will be deployed with each 
surveillance system. The surveillance radars are deployed to provide 
long-range detection and continuous tracking in support of the entire 
battlefield. The precision tracking radars are deployed to provide the 
best ability to assist surface based air defense weapons to defend 
surface assets. Joint Land Attack Cruise Missile Defense Elevated 
Netted Sensor System (JLENS) will be employed at corps level and at 
echelons above corps supporting active defense, passive defense, and 
attack operations. In addition, JLENS can support secondary missions 
such as communications relay, range extension for Unmanned Aerial 
Vehicles, Theater Ballistic Missiles detection, and general 
surveillance missions.
    Question. Why do you need the Joint Land Attack Cruise Missile 
Defense Elevated Netted Sensor System (JLENS)?
    Answer. We need the system because of the cruise missile threat. 
The primary concern of the Land Attack Cruise Missile (LACM) threat is 
the enemy's ability to deliver Weapons of Mass Destruction on the 
battlefield. The LACM includes a flight profile of low altitude 
incursion using earth curvature and terrain features to prevent 
observation by surface based defensive weapon sensor systems. Surface 
based sensor coverage is limited to a line-of-sight geometrical 
relationship with the LACM or, indeed, or any target. Detection and 
track of a LACM using the low altitude tactic is prevented either until 
the target appears over the horizon or as it emerges from behind an 
intervening terrain feature. In either event, obtaining timely 
information about the threat in order to engage it is delayed or 
perhaps lost entirely.
    All existing Army Air Defense radars are ground-based and have 
limited coverage against low altitude targets due to terrain masking 
and earth curvature. Deployment of adequate numbers of ground-based 
radars and air defense systems required for complete or near-complete 
coverage of the battle space would be cost and manpower prohibitive.
    The solution is to raise the radars. The line-of-sight limitation 
is mitigated by cost effective long-term elevation of advanced sensors 
to an altitude where observation beyond the radar horizon of the ground 
based sensors becomes possible. The benefits of having a capability to 
observe targets beyond the sensor horizon are significant. Low altitude 
and surface coverage is extended far beyond that of surface sensors. 
Detection and track range is potentially increased by several orders of 
magnitude, and weapon systems can engage at the maximum capability of 
the designed missile. Having a capability to detect and track threats 
in this formerly blind zone greatly improves defensive effectiveness 
by:
    (1) Supporting acquisition of a Single Integrated Air Picture 
(SIAP) providing detection, track, and identification information about 
airborne targets that would otherwise not have been observed. 
Continuous target track can now become a reality. Maintaining tracks is 
more likely and the inadvertent loss of tracks and confusion caused by 
targets emerging is minimized. This is accomplished through the use of 
the Cooperative Engagement Capability (CEC) and the Joint Tactical 
Information Distribution System (JTIDS).
    (2) Providing precision tracking data to air defense weapon systems 
that can be used to initiate and conduct intercepts against the LACM 
threat at long range.
    this Air Directed Surface-to-Air Missile (ADSAM) capability 
increases the cost effectiveness of air defense forces by permitting 
effective defense of assets from low altitude attack without requiring 
the addition of more surface based weapon systems to cover the over-
the-horizon or terrain masked blind zones. Furthermore, the ADSAM 
engagements of LACM targets at long-range increase the battlespace and 
permit intercept of weapons of mass destruction at locations more 
favorable to the defense.
    An elevated platform designed to detect and track low-altitude 
targets can provide additional benefits to the battlefield commanders 
by:
    (1) Providing information about moving surface targets, such as 
armor columns, to establish a basis for engagement by ``attack 
operations'' weapons;
    (2) Providing a basis for vectoring aircraft to intercept over-the-
horizon hostile air forces; and
    (3) Assisting the surface commanders in the maintenance of 
continuous knowledge of the location of friendly force units (friendly 
protection).
    JLENS, using aerostat platforms, provides an economical means of 
elevating tactical sensors to achieve the foregoing benefits for thirty 
days at a time. Additionally, a capability to elevate communication and 
communication network systems, such as JTIDS and CEC, is inherent in 
the modular payload approach of the JLENS architecture. This provides a 
relay capability to extend the range and coverage of tactical 
communications. Recently, analyses have been initiated to investigate 
the possibility of providing a backup capability to the Global 
Positioning System by providing a line-of-sight limited, position 
determination system based on the elevated JLENS aerostat platform.
    Question. What other system (either currently fielded or in 
development) could be used to do the Joint Land Attack Cruise Missile 
Defense Elevated Netted Sensor System (JLENS) mission?
    Answer. Some fixed wing aircraft with radar have the capability to 
provide over-the-horizon surveillance when they are on-station. 
Airborne sensor systems currently deployed include Joint Surveillance 
Target Attack Radar System, Airborne Warning and Control System, and 
the E-2C Intelligence Electronic Warfare system. None of these aircraft 
can detect advanced cruise missiles, nor can they provide the precision 
track and target identification support capability required to 
accomplish Air Directed Surface to Air Missile engagements of Land 
Attack Cruise Missile Defense (LACMD) targets in an intense surface 
clutter environment. Further, no other system will allow the multiple 
over-the-horizon engagement of multiple service weapon systems 
(Patriot, Standard Missile, Advanced Medium Range Air to Missile).
    The major draw back of fixed-wing assets is cost. Anywhere from 
four to five fixed-wing aircraft are required to provide 24 hour, seven 
days a week, continuous coverage. Each aircraft has a crew size of 10 
to 24 personnel. In addition, airfield(s) are required to service and 
support the fixed-wing platforms. This cost for fixed wing assets 
translates into thousands of dollars to tens of thousands of dollars 
per hour for missions such as Bosnia, Desert Shield, Korea, etc. 
compared to the hundreds of dollars per hour required for the JLENS 
system. To provide both a surveillance and precision tracking 
capability to support the entire JLENS mission would require additional 
planes and personnel and increase cost significantly.
    The best solution to LACMD is a joint JLENS/fixed-wing solution. 
Both systems provide the synergism required to defeat the LACMD.
    JLENS augments and extends the capability of these aircraft based 
sensors. Deployment of JLENS permits 24-hour coverage of the airspace 
at operational costs and manpower estimate at 80-90 percent savings 
over aircraft based assets. Deployment in peacetime and under pre-
hostility conditions is economically and tactically effective 
mitigating a need to effect early deployment of the higher cost 
aircraft based assets. Upon the onset of hostilities, JLENS uniquely 
supports ADSAM engagements and, thereby, improves the effectiveness of 
air defense operations.
    Question. To date, the Joint Requirements Oversight (JROC) has not 
validated the requirement for the Joint Land Attack Cruise Missile 
Defense Elevated Netted Sensor System (JLENS) program. When will the 
JROC validate the requirement?
    Answer. The Army has approved the JLENS Operational Requirement 
Document (ORD). Army, Navy, Air Force, Marine Corps and Joint Theater 
Air and Missile Defense Organization (JTAMDO) representatives have 
developed a Joint ORD. The ORD was reviewed by each of the services and 
comments were provided to the JLENS user proponent, the United States 
Army Air Defense Artillery School (USAADASCH), for a final ORD.
    Space and Missile Defense Command (SMDC) should receive the revised 
USAADASCH-approved JLENS Joint ORD by March 12, 1998. SMDC will then 
prepare a forwarding letter to Headquarters (HQ), Training and Doctrine 
Command (TRADOC), requesting expeditious processing of the ORD. Once 
finalized at HQ TRADOC, the ORD will go to Headquarters Department of 
the Army (HQDA), for release to the Joint Staff. The Joint Staff will 
send it out for general officer review, which normally takes 15 days. 
Once the general officer review is complete, the Joint Requirement 
Oversight Council (JROC) will then schedule the ORD for review and 
approval, probably around the middle of May. The JLENS ORD final 
approval is expected by June 1, 1998.
    Additionally, the JTAMDO briefed the JLENS program to the JROC in 
November 1997. The JROC approved the participation of JLENS in the 
JTAMDO demonstration in fiscal year 2002.
    Question. Have the vulnerability assessments been completed? Please 
summarize the finding.
    Answer. Initial vulnerability assessments have been completed. Over 
the past year, significant analysis has been conducted on the Joint 
Land Attack Cruise Missile Defense Elevated Netted Sensor Systems 
(JLENS) system. The initial results show that the JLENS system 
vulnerability will be mitigated by either JLENS active/passive counter 
measures and/or operational strategies. The Special Operations Forces 
(SOF) threat against the mooring system appears to represent the 
greatest potential hazard. This threat is no more intense or effective 
than SOF directed against other battlefield/airborne systems. Further 
testing is planned.
    Question. The estimated development cost of the Joint Land Attack 
Cruise Missile Defense Elevated Netted Sensor (JLENS) (formerly called 
Aerostat) is $400,000,000--this includes one demonstration system. It 
is our understanding that the demonstration program has a shortfall of 
$87,600,000. Please explain.
    Answer. The shortfall of $87,600,000 for fiscal year 2002 was 
created by the Congressional $51,200,000 reduction ($86,200,000 to 
$35,000,000) in program funding levied in September 1998. The result of 
this reduction is that the JLENS Project Office is unable to complete 
the originally envisioned program by the end of fiscal year 2001. The 
major impact of the reduction was to reduce funding to the prime 
contractor by 65 percent ($60,300,000 to $21,100,000) which lead to a 
corresponding delay in radar development. The delayed radar effort has 
created a ripple effect whereby fiscal years 1999-2001 funding is 
required to accomplish the effort originally planned for fiscal year 
1998. In addition, the reduction has delayed Cooperative Engagement 
Capability (CEC) procurement until fiscal year 1999. Further, early 
demonstrations of JLENS capabilities had to be substantially modified, 
delayed, or even canceled. Finally, the reduction has delayed final 
JLENS system integration and testing until second quarter, fiscal year 
2002, forcing the Early User Test (EUT) and Joint Theater Air and 
Missile Defense (JTAMD) demonstration to be combined due to scheduling. 
The breakdown of the $87,600,000 is as follows: $64,200,000 for the 
prime contractor to complete integration and testing of the JLENS 
prototype and $23,400,000 for government costs for JLENS in-house 
costs, other government agencies (Navy, Army) providing support, and 
costs to run the EUT and JTAMD demonstration.
    The fiscal year 1999 President's budget has programmed fiscal years 
1998-2001 funding for the JLENS Program at $389,000,000. The currently 
programmed funding is budgeted in the amount of $276,000,000 for the 
prime contract effort to develop the JLENS surveillance and tracking 
radars, the aerostat platform, the processing station, and 
communications payloads. An additional $66,600,000 is programmed for 
developing and integrating modifications to the weapon and 
communications systems with which the JLENS will be interfacing and the 
acquisition of items of government furnished equipment required by the 
prime contractor to complete the JLENS systems. The remaining 
$46,400,000 is budgeted for JLENS in-house costs (salaries, travel and 
facilities), contractor support, the maintenance of the JLENS testbed 
at the White Sands Missile Range.

    [Clerk's note.--The Army reduced funding for the JLENS 
program and reduced the scope of work before the budget was 
submitted to the Congress.]

    Question. Are future vulnerability assessments planned? When will 
they occur and what vulnerabilities will you evaluate?
    Answer. Additional vulnerability analysis is being planned now that 
a prime contractor has been selected. An independent evaluation will be 
conducted to asses the full vulnerabilities of the Joint Land Attack 
Cruise Missile Defense Elevated Netted Sensor System selected design. 
The assessment will include, but not be limited to: infrared (IR) 
missiles, radio frequency missiles (Doppler), RF missiles (non-
Doppler), smart bombs/missiles (IR, laser), air gun systems, iron-
bombs, anti-radiation missiles, jammers, surface to air missiles, 
tactical ballistic missiles, man portable air defense systems, direct/
indirect artillery fire, and direct energy weapons.
    Question. It is our understanding that the Department of Defense 
does not know if they will procure additional JLENs after the 
demonstration is complete. When will the production decision be made?
    Answer. A decision to procure additional JLENS units has not yet 
been made. The JLENS Project Office has submitted a request for 
Engineering and Manufacturing Development (EMD), Low Rate Initial 
Production (LRIP), and Production funding in the current Program 
Objectives Memorandum cycle for the period fiscal year 2002-2010 to the 
Department of Army. Following the EUT and the JTAMD demonstration, four 
options are available to the government in fiscal year 2002 for the 
JLENS program. These are:
    (1) Operations and Support--the JLENS prototype would be placed in 
use for a 24-month period at a location to be determined; or
    (2) EMD--after a Milestone II decision, the program would build one 
additional prototype and one operational system; or
    (3) Block I LRIP--produce a limited quantity based on the initial 
design; or
    (4) Product Improvement Program (PIP)--if the Block I LRIP option 
is not chosen, the program could enter a PIP phase followed by 
production.
    Question. The Office of the Secretary of Defense strategy is to 
conduct a demonstration of the JLENS and then make a procurement 
decision. For each alternative please provide the required development/
production-funding, schedule, and operations and support costs. Field 
the one JLENS test system?
    Answer. Please note the following four answers are preliminary 
pending results of the ongoing JLENS demonstration program. The JLENS 
system consists of two aerostats, surveillance radar, at least one 
tracking/illuminating radar, processing stations, and communications 
payloads.
    --Development and production funding: $476,600,000
    --Schedule: fiscal year 1998-2002
    --Operations and support costs: $8,000,000 per year/system
    Question. Enter EMD?
    Answer.
    --Development and production funding: $100,000,00 for one EMD 
system \1\
---------------------------------------------------------------------------
    \1\ Requires $78,000,000 in fiscal year 2004 to complete the EMD 
system.
---------------------------------------------------------------------------
    --Schedule: fiscal year 2003
    --Operations and support costs: $800,000,000 per year/system
    Question. Begin LRIP?
    Answer.--Development and production funding: $100,000,000-
$150,000,000 for one LRIP system \2\
---------------------------------------------------------------------------
    \2\ Requires $116,000,000 in fiscal year 2004 to complete the LRIP 
system.
---------------------------------------------------------------------------
    --Schedule: fiscal year 2003
    --Operations and support costs: $800,000,00 per year/system
    Question. Stop the program?
    Answer.
    --Development and production funding: $10,600,000
    --Schedule: third quarter of fiscal year 2002
    --Operations and support costs: $0
    Question. Your fiscal year 1999 budget includes no funding for 
JLENS in 2002 and 2003. How much more would be required if the Office 
for the Secretary of Defense makes the decision to field the one JLENS 
test system?
    Answer. Please note the following four answers are preliminary 
pending results of the ongoing JLENS demonstration program. For fiscal 
year 2002, $87,600,000 is required to complete the demonstration 
system.
    Question. Enter EMD?
    Answer. In fiscal year 2003, the JLENS requires $100,000,000 to 
start the EMD system.
    Question. Being LRIP?
    Answer. In fiscal year 2003, JLENS needs $100,000,000-$150,000,000 
to start the LRIP system.
    Question. Stop the program.
    Answer. The JLENS requires $10,600,000 to stop the program in 
fiscal year 2002.
    Question. Since neither the Army nor the Navy have committed to a 
procurement program, what is the benefit of conducting the $400,000,000 
JLENS demonstration program?
    Answer. The JLENS program will deliver state of the art 
surveillance and illuminating sensors to the Nation following the fast 
track acquisition philosophy beginning with a technology demonstration 
program. The demonstration program will provide the initial 
architecture for air defense as envisioned in the JTAMD Vision 2010 
document. Capability provided and demonstrated will be the initial 
development of a single Integrated Air Picture meeting all four 
services' requirements, including an air-directed surface to air 
capability leveraging the Navy's SM-2 interceptor, the Army's PAC-3 
interceptor, and the Air Force's Advanced Medium Range Air-to-Air 
Missile interceptor. Upon completion, the results of the demonstration 
program can be used to enhance existing battlefield weapon systems 
regardless of whether a production and corresponding deployment 
decision is made.
    Question. Last year we were told that the Aerostat demonstration 
program would cost $600,000,000--now the cost has been reduced to 
$400,000,000. What was done to bring down the cost of the program?
    Answer. The Deputy Under Secretary of Defense (Acquisition and 
Technology) established JLENS program funding via Program Budget 
Decision 725 in the amount of $538,000,000. The $538,000,000 was 
established as a best estimate funding wedge prior to a more refined 
estimate, which was developed during the concept definition phase of 
the program. The $600,000,000 estimate was based on several program 
options which are no longer required as a result of the concept 
definition studies and the competitive proposals submitted by the three 
offerors during the source selection evaluation conducted in fiscal 
year 1997. Originally, the program was oriented towards providing both 
a strategic and a tactical solution to the problem of land attack 
cruise missile defense. The JLENS demonstration program was directed to 
focus solely on he tactical solution for cruise missile defense, which 
significantly contributed to lowering the program's cost estimate. The 
JLENS program originally planned to carry two prime contractors for the 
first 19 months of the program through concept design review. With the 
funding reduction in fiscal year 1998 of $51,200,000, this option was 
eliminated, which also contributed to lowering the overall program 
costs. The program was also originally investigating the development of 
a 90-meter aerostat. Terrain analysis demonstrated little value was 
added with the additional altitude and radar performance obtained with 
a 90-meter aerostat when compared to the additional cost required to 
develop a new aerostat. The selection of an existing 71-meter aerostat 
significantly reduce program costs and risk.

    [Clerk's note.--The Army also reduced the planned funding 
for JLENS before the budget was submitted to Congress. Funds 
from JLENS were moved to pay for higher priority Army 
programs].

                              Digitization

    Question. The Army is creating a digitized battlefield, which it 
believes will give it the ability to maintain a modern, but small force 
capable of decisive victory. The Army is developing digital information 
systems that will allow it to gather, transfer, and analyze data in 
order to have improved situational awareness.
    Please describe the Army's plan to digitize the battlefield.
    Answer. The Digitization strategy is an integral subset and 
underlying guiding principle of the Army's modernization effort. 
Digitization applies modern information technology concepts to the 
military environment resulting in an integrated, high-speed command and 
control structure reaching from the National Command Authority to the 
individual soldier.
    The Army is using a process called ``Force XXI'' to evolve from our 
current Army of Excellence (AOE) structure to the ``Army XXI'' 
structure. The Force XXI process consists of three axes: redesigning 
the tactical Army; redesigning the institutional Army; and integrating 
digital technologies. Force XXI includes battle lab experimentation, 
Advanced Warfighting Experiments (AWEs), and other innovative processes 
to inform our efforts to modernize for the 21st century. Among the many 
initiatives of Force XXI are the Division Design Analysis, which 
provides a solid analytical foundation for redesigning the division, 
and the Warfighter Rapid Acquisition Program (WRAP).
    Simply stated, Force XXI projects our quality people into the 21st 
century and provides them the right organizations, the most realistic 
training, robust and predictable sustainment during both peace and war, 
and the best equipment and weapons systems our Nation can provide given 
the resources available. We will leverage technology in order to army 
our soldiers with the finest, most lethal weapons systems in the world. 
The power of information will allow the ultimate weapon--the individual 
soldier--to successfully meet the challenges of the 21st century and 
achieve decisive victory. Digitization will allow the Army to 
effectively integrate command and control hardware and software with 
communications systems and weapons systems to provide information 
sharing both horizontally and vertically, in the Army as well as Joint 
and Combined forces. The strategy is to leverage the latest mature 
technology advances in information management from the commercial 
sector. The improved and increased level of integration and 
interoperability will provide for high effective Joint and Coalition 
operations.
    Our digitization efforts include the ongoing modernization efforts 
of approximately 97 systems encompassing 538 budget lines. The total 
estimate of the digitization effort is $2,600,000,000 in fiscal year 
1999. The Army did not take this $2,600,000,000 from programs to create 
a new effort. It was already part of the Army Total Obligation 
Authority that was allotted to these many existing programs. Of this 
total, approximately $261,000,000 was added to digitization by the 
Office of the Secretary of Defense for fiscal year 1999. The 
$261,000,000 provides for improved interoperability, increased 
integration, improved security, network management, and more robust 
common architectures. It is key to the horizontal efforts that go 
across these systems.
    Digitization applies information technologies to acquire, exchange, 
and employ digital information throughout the battlespace. Accordingly, 
the Army will digitize all command and control systems, as well as 
communications systems, including tactical radios, military satellite 
communications, and network management. Our digitization strategy will 
set the conditions for full-spectrum dominance by integrating command 
and control and situational awareness systems across multiple weapons 
platforms (Abrams tanks, Bradley Fighting Vehicles, and Comanche 
helicopters), as well as combat support and combat service support 
platforms.
    Programs receiving increases from the $261,000,000 in fiscal year 
1999 include the Longbow Apache, Kiowa Warrior, Bradley Fighting 
Vehicle, Abrams tank, Army Tactical Commands and Control System family, 
Force XXI Battle Command Brigade and Below, Integrated Systems Control 
network management, Tactical Operations Centers, architecture 
development, and training support. Other adjustments identified include 
increased funding for AWEs, information security, satellite 
communications, and the Warfighter Information Network.
    Question. Last year, you planned on fielding the First Digitized 
Division (FDD) in 2001. This year you have accelerated the fielding to 
2000. What is the urgency? Is it threat driven? What is the impact if 
you delay the fielding?
    Answer. Acceleration is not threat driven. The FDD has been 
scheduled for the end of fiscal year 2000 in support of Joint Vision 
2010 and Army Vision 2010. Joint Vision 2010 states: ``by 2010 we 
should be able to enhance the capabilities of our forces through 
technology. This will, in turn, expand our greatest advantage: the 
adaptability, initiative, teamwork, and commitment of our people at 
every level.'' We must leverage the mature leading edge of commercial 
technology in order to achieve the full spectrum dominance envisioned 
in Joint Vision 2010. The earlier we field this new capability, the 
earlier we can adapt the new operational tactics, techniques, and 
procedures as a way of life in the entire Army. This minimizes the 
expense of having to train and support both an analog and a digitized 
Army for an extended period of time. We should also maintain the 
momentum of the digitization effort that began with the spiral 
development process where the user, developer, and industry come 
together to translate requirements into fielded capabilities in 
significantly reduced timeframes.
    The sooner we can field a standard integrated and interoperable 
hardware and software infrastructure the easier it will be to respond 
to new threats and technology advances. We realize that there is some 
risk that some of the programs may not be ready to field in 2000. 
However, most of the systems are mature and will provide a solid basis 
of improved capability for the FDD, even if a few systems get fielded 
later.
    Over the last year and a half, we have managed to successfully 
synchronize the Army fielding process to meet the FDD objective by the 
end of fiscal year 2000. In addition, this schedule lines up with Year 
2000 compliance efforts in fiscal years 1998 and 1999, along with 
Allied force interoperability capabilities to be implemented in fiscal 
year 2000.
    Any delay fielding this critical capability will further delay 
understanding personnel requirements, resolution of technical issues, 
and integration of newly developed information technologies. A delay 
will also increase costs exponentially, as we would be forced to 
stretch contracts over longer periods of time and continue to train 
soldiers for both digital and analog units.
    Question. Last year, by your own admission, you defined the 
digitization program as generally high risk in terms of cost, schedule, 
and technology. Now you are accelerating the program. What is the level 
of risk in your new program? Based on your own risk assessment of the 
digitization effort, do you believe that fielding the first digitized 
division by fiscal year 2000 is over ambitious? Please explain.
    Answer. The schedule risk to field all systems by fiscal year 2000 
remains high. However, many key systems have a version already fielded. 
Even if a few systems have delayed fieldings, the fiscal year 2000 
improved capability will be significant. The Army has implemented a 
spiral software development process using operational units to evaluate 
successively more capable software. Spiral development is a process 
which uses short, incremental developments--each of which builds on 
previous work--to shorten the development cycle and speed products to 
the field. Getting users involved throughout the development process 
will ultimately reduce the risk associated with a formal Initial 
Operational Test and Evaluation, but adds more installation, training, 
and testing time to the schedule.
    Cost risk is moderate because the Army received approximately 
$261,000,000 for fiscal year 1999 during the last Program Objective 
Memorandum (POM) cycle to fund the requirements to meet our fielding 
goals. However, because each of the product increments builds on 
previous increments, long range cost estimates tend to have a wide 
range. Technology risk is moderate since we now have conducted and 
analyzed the results of Task Force XXI (TFXXI), conducted in March 
1997, and the Division XXI AWE in November 1997. None of the 
deficiencies require technological fixes beyond that which is used 
commercially. It remains moderate simply because there are a large 
number of systems that must be integrated.
    Risks have been reduced in two of three areas, and we have taken 
steps to make the goal less ambitious. For example, we only intend to 
equip the first digital division (FDD) with the highest priority 
command, control and communications equipment by fiscal year 2000. 
Other weapons systems will be fielded on a schedule determined by 
individual program funding profiles. Many systems are already fielded 
to the FDD, and only two of the three brigades (those located at Fort 
Hood) of the FDD will be fully digitized by the end of fiscal year 
2000.
    Question. The Army has conducted Advanced Warfighting Experiments 
(AWEs) to evaluate what impact digitization has on the battlefield. 
During the AWEs, the army's test community found that the ``digitized 
brigade performed much like the baseline non-digitized brigades at the 
NTC in areas of lethality, survivability, and operational tempo.
    Is this what you expected?
    Answer. We stated going into the Task Force (TF) XXI AWE that our 
focus was on how digitization and the other new technologies we were 
looking at would improve our mental agility; it clearly did this. There 
were striking examples in the TFXXI AWE, and again in the Division AWE, 
in which commanders and staffs perceived the battlespace with greater 
clarity and tempo than ever before--and then acted on that perception 
with great speed.
    The Experimental Force, the EXFOR, went up against the world-class 
Opposing Forces, or OPFOR, on their ``home-turf'' at the National 
Training Center. The AWE featured wins and losses on both sides. Given 
the immaturity of many of the digital systems that were part of the 
experiment and the detriment this lack of maturity had on the train-up 
for the AWE, we were pleasantly surprised that they were able to hold 
their own against a well-trained force like the OPFOR. The EXFOR 
successfully demonstrated the potential that digital battle command can 
offer towards decisive military operations. The AWE revealed the vision 
of a future battle in which the tactical commander is capable of 
destroying the enemy force through the effective application of 
information to his combat power.
    Question. What criteria are you using to measure the success of the 
AWEs?
    Answer. An AWE is successful if it provides insights that will 
shape the future force--Army XXI. AWEs, to date, have successfully 
placed our Experimental Force in rigorous and dynamic battlefield 
environments in order to generate sufficient data to allow analyses of 
the impact and effectiveness of information technology on the 
battlefield. The primary data collection effort for the Division AWE 
was conducted using over 100 subject matter experts (SMEs) and 60 
Battle Command Training Program observer/controllers (OC). This data 
was consolidated into a database, containing over 6,000 SME/OC 
observations, interviews, surveys, etc. Analysts from the U.S. Army 
Training and Doctrine Command's Analysts Command, Operational Test and 
Evaluation Command, and the Army Research Laboratory evaluated the 
data. The results, both quantitative and qualitative, are used to 
support our acquisition and fielding decision-making process.
    The TFXXE AWE exceeded the expectations of planners and 
participants alike. It revealed the dynamic potential of the digital 
land force and validated the Army's approach to experimentation. AWEs 
serve to put concepts of doctrine, training, leaders, organizations, 
material, and soldiers to the most rigorous test possible, short of 
actual war. They also serve as a ``forcing function'' to synchronize 
all the pieces of a digitized force at the same place and time. The 
Army overcame many technical obstacles in this process that would have 
taken years to solve in the normal requirements-development model.
    Question. Do you believe that you did not see a significant 
increase in performance because of technical issues? What were they and 
how have you resolved them?
    Answer. Certainly, the varying levels of maturity and functionality 
of the technologies that were experimented with during the AWEs 
affected the performance of the force. To some extent, soldiers lacked 
time for sufficient training and familiarization with the many new 
digitized systems and associated procedures. The greatest challenge was 
insufficient interoperability of all the digital command and control 
systems, communications systems, sensors, and weapons platforms on the 
battlefield. The Army recognizes the enormous amount of effort that is 
required to integrate systems and has taken action to increase funding 
in critical areas, such as development of operational and systems 
architectures, system integration, and the Central Technical Support 
Facility. In addition, existing programs are migrating to the standards 
outlined in the Joint Technical Architecture and all new starts must 
build to these standards to support interoperability.
    We most definitely saw not only an increase in performance, but a 
dramatic increase in performance--albeit one that was not apparent to 
some forms of data collection and analysis. Let me give you an example. 
At one point during the TFXXI AWE, one of the experimental company 
teams had to traverse the area known as ``the washboard''--a very 
difficult piece of terrain to cross. Most units avoid it, because even 
apart from enemy action, units tend to get lost, delayed, and disrupted 
when they operate there. But this company team traversed the washboard 
unscathed and emerged as a coherent fighting force on the other side, 
because the soldiers had situational awareness--allowing them to move 
and fight as a cohesive team even when they could not see each other. 
This incident may not have caught the attention of analysts focused 
only on attrition dynamics, but military history would attest to the 
fact that the ability to cross ``uncrossable'' terrain has won battles 
many times in history. This is just one aspect of what digitization is 
doing for us.
    Question. Based on the outcome of the AWEs, what is the advantage 
of accelerating the digitized divisions?
    Answer. We have seen the potential of a Joint Task Force that has 
an integrated digital capability. Joint Vision 2010, the conceptual 
template for America's Armed Forces, will channel the vitality and 
innovation of our soldiers to the entire Army. During the TFXXI 
rotation at the NTC, commanders failed to take full advantage of the 
capabilities offered by enhanced situational awareness because of a 
lack of confidence in the new technology. Fielding these technologies 
sooner will provide commanders and their staffs more opportunities to 
learn how to effectively use the digitized capabilities during routine 
training activities. In other words, the sooner we can file standard 
hardware, the easier the transition will be to new versions of software 
across the Total Army. To make all these changes by fiscal year 2010, 
we have to start in fiscal year 2000 to accomplish all the issues 
implementing doctrine, training, leaders, organizations, materiel, and 
soldiers that must be addressed for the brigade, division, corps, and 
the entire Army.
    Over the last year and a half, we have managed to successfully 
synchronize the Army fielding process to meet the First Digitized 
Division objective by the end of fiscal year 2000. These first steps 
firmly ground us in the multiyear framework to achieve Joint Vision 
2010 on schedule as directed by the Joint Staff and leverage the 
technological opportunities to achieve new levels of effectiveness in 
Joint warfighting. The earlier we field this capability, the earlier we 
can adapt the new tactics, techniques and procedures as a way of life 
in the Army.
    Question. The General Accounting Office (GAO), the Committee's 
Surveys and Investigations Staff (S&I), and the Army's Director of 
Operational Test and Evaluation have all raised questions as to the 
technical maturity of the digitized systems.
    Last year, the GAO and S&I believed that the Army digitization 
systems had complex technical issues that would be difficult to resolve 
before fielding in 2001--now you have accelerated the schedule. Do you 
believe that you have resolved the technical issues? How?
    Answer. The technical and maturity issues documented by the test 
communities were expected. The Army's intent was to conduct an 
experiment--not a test--at the National Training Center last March. We 
knew going into the experiment that the functionality was not adequate 
for go-to-war systems, but it was adequate to answer the experimental 
hypotheses. One of the most significant problems with the systems used 
in the TFXXI AWE was the inability to support battlefield dynamics, 
such as the ability of a network manager to rapidly reconfigure units 
task organized for a particular mission. Since the concepts and 
technologies used in the TFXXI AWE were experimental and had a high 
risk of being discarded immediately after the exercise, we chose not to 
expend the time and resources needed to develop highly robust systems. 
Armed with the lessons learned from the nine months of TFXXI 
experimentation, however, we have made significant changes to the 
communications architecture, and have plans in place to substantially 
automate the few residual functions.
    Question. Are you willing to trade off schedule to ensure essential 
performance?
    Answer. We will not field a system that does not meet the users 
essential performance requirements. We have included a large number of 
technical and operational tests between now and the formal Initial 
Operational Test and Evaluation in the first quarter of fiscal year 
2000 to monitor the program's progress. This is another benefit of the 
spiral software development process we're using.
    Question. What issues would cause you to delay the fielding of the 
first digitized division?
    Answer. There is a subset of critical command, control, and 
communications systems that must meet user requirements before we can 
turn the equipment over to operational users. For example, the Tactical 
Internet (TI) is needed to support the Force XXI Battle Command Brigade 
and Below (FBCB2). Without the TI, we cannot field FBCB2. However, we 
would still field the systems that digitize tactical operations centers 
down to battalion level.
    Question. When would you make the decision to delay fielding?
    Answer. As mentioned in the response above, we have included a 
number of tests over the next two years to monitor program progress. 
Potentially, we could decide after any one of the test events whether 
or not the overall program schedule needs to be changed. Only those 
systems requiring further development would have fielding schedule 
adjustments. Other systems will be fielded on schedule.
    Question. To date, you have spent almost $500,000,000 on the 
digitization effort. However, there have been no formal operational 
tests on two of the most important components of the digitization 
program--the computer software (FBCB2) and the communications link 
(Tactical Internet). Together, they provide a common picture across the 
battlefield--increasing situational awareness. The only evaluation of 
either system has been through your Advanced Warfighting Experiments 
(AWE).
    How would you assess the performance of FBCB2 and the Tactical 
Internet in the AWEs? Would the test community agree?
    Answer. FBCB2 and the Tactical Internet actually performed much 
better than was anticipated. The Task Force (TF) XXI AWE was an 
experiment and not an operational test of a ``go-to-war'' capability. 
The AWE itself included the six-month train-up prior to the two-week 
rotation at the National Training Center (NTC). With each major live 
training event at Fort hood--platoon, company, and battalion lanes, and 
finally the NTC rotation--the performance and reliability of the system 
improved. Based on results from the NTC rotation, the Operational Test 
and Evaluation Command (OPTEC) reported that the situational awareness 
provided by FBCB2 and the Tactical Internet was the highlight of the 
AWE. Over 50 percent of all platforms were visible on the screens at 
any one time at company and battalion levels. Numerous interviews with 
the participants support the critical role this situational awareness 
played during the AWE. OPTEC also reported that the ability to send 
operational graphics and orders was not sufficient. Due to the 
instrumentation and data collection provided by the test community, the 
material developer has been able to isolate the causes of these 
problems and is restructuring the network architecture to preclude this 
from occurring in the fielded version.
    Question. What criteria did you use to measure effectiveness of 
FBCB2 and the Tactical Internet? Would you use the same criteria in a 
formal test? How would it differ?
    Answer. The test community looked at many of the same measures of 
effectiveness that they will use as the FBCB2 progresses through its 
acquisition process. There is a Limited User Test scheduled for later 
this year (August 1998), a Force Development Test and Experiment in 
August 1999, and an Initial Operational Test and Evaluation in October 
1999. The measures of effectiveness include speed of service, message 
completion rates, human factors impacts, platform visibility 
(situational awareness), etc. The difference between the experiment and 
the formal testing will be that the measures of effectiveness will be 
compared to specified operational criteria provided by the user. In 
addition, the formal test will be more structured to ensure sufficient 
data is collected under controlled conditions to show whether FBCB2 
meets these performance criteria.
    Question. OPTEC has stated that the FBCB2 and Tactical Internet you 
will field will be markedly different from what was used in the AWE? 
Why?
    Answer. The ``system'' that was taken out to the AWE was developed 
to provide sufficient functionality to support investigation of the 
hypothesis. The FBCB2 and Tactical Internet systems that will be 
fielded will change based on what we learned during the TF XXI AWE. The 
hardware is markedly different, using smaller systems with increased 
processing capability and better screen visibility. The software is 
expanded to include the full complement of messages identified by the 
user as being critical to operations on a digital battlefield and user 
interfaces to develop and send messages have been reworked to be more 
user friendly. We are migrating to a Joint Variable Message Format to 
ease interoperability with other services. The Tactical Internet 
architecture is redesigned to eliminate the shortcomings identified 
during the experiment and ensure operationally suitable message 
completion rates. Increased network management capability, to increase 
the flexibility of the network to design changes in the force, and 
command and control protection tools, to decrease the vulnerability of 
the Tactical Internet also will be included.
    Question. When will you test the ``new'' FBCB2 and Tactical 
Internet?
    Answer. First, there is a series of contractor in-plant testing 
done in accordance with contract requirements. This is followed by 
Field Test I of FBCB2 and the Tactical Internet, to include electronic 
and information warfare technical testing, in May 1998 at the 
Electronic Proving Grounds, Fort Huachuca, Arizona. This is followed in 
August 1998 by the Limited User Test (LUT) at Fort Hood with troops 
from the 4th Infantry Division. The purpose of this LUT is to verify 
the fixes that resulted from TF XXI and validate the scalability of the 
architecture. A second technical test (Field Test II) is scheduled 
approximately a year later. That test will be followed by a Force 
Development Test and Experimentation (August 1999) and an Initial 
Operational Test and Evaluation (October 1999), together constituting 
the operational test program for FBCB2. The FBCB2 and Tactical Internet 
will be fully examined at each of these events.
    Question. Are both programs adequately funded to meet your 
accelerated schedule? If not, what is the shortfall? What is the impact 
on your schedule?
    Answer. Both programs are funded to meet fielding of the First 
Digitized Division and First Digitized Corps. Digitizing the remainder 
of the force is subject to availability of funding in the outyears. 
However, the Army is undergoing a significant transition in the way it 
does business. This revolutionary change is known as ``Spiral 
development.'' This concept involves working more closely with 
industry, whereby soldiers suggest changes and industry immediately 
responds.
    Question. What interoperability issues will the digitized force 
have with non-digitized Army units? How will you resolve the 
interoperability issues?
    Answer. Interoperability between digital and analog units was an 
issue during the Division Advanced Warfighting Experiment (AWE) at Fort 
Hood, Texas in November 1997. It was concluded that digital and analog 
units can interact and fight well together. The problem is how to 
transfer the information between a paper map and a computer. This is 
solved, in part, by sending liaison teams with digital equipment to the 
analog units. The transfer of information can then take place in one 
location, taking into account that the analog unit requires a 
significantly longer period to pass operational overlay information 
through its ranks. This solution creates requirements for additional 
liaison officers and equipment that are not yet clearly defined.
    Question. The other services?
    Answer. The Army continues to pursue many ongoing efforts with the 
other services to ensure interoperability and seamless communications 
throughout the battlespace. Additionally, the common, minimal set of 
information technology standards developed by the Army on behalf of 
digitization is the basis of the Joint Technical Architecture that is 
now mandated for use throughout the Department of Defense.
    There are a number of initiatives underway between the Army and 
other services leading toward systems interoperability. For example, 
the Marine Corps has purchased the Army's Combat Service Support 
Control System and Advanced Field Artillery Tactical Data System. In 
addition, a number of Office of the Secretary of Defense-sponsored 
Advanced Concept Technology Demonstrations cut across service 
boundaries. The Army Digitization Office has recently begun an 
initiative to work joint service interoperability issues, to produce a 
coherent Joint interoperability strategy, and coordinate, where 
possible, with Army digitization advances. These efforts include steps 
to identify a single point of contact within each of the other services 
to provide a digitization focus for Joint interoperability.
    We successfully integrated the Marine Corps Newton systems during 
the Task Force XXI AWE in March 1997 and have been working with the Air 
Force on Situational Awareness Data Link development, fielding and 
joint doctrine.
    Question. Coalition allies?
    Answer. For international digitization interoperability issues, 
there are a number of North Atlantic Treaty Organization (NATO) forces 
and multinational forces available for discussion and resolution. The 
principal NATO groups include the NATO Command, Control and 
Communications Board (NC3B), the Joint C3 Requirements and Concepts 
Sub-Committee (JC3RCSC), and the NATO Army Armaments Group (NAAG). In 
the multinational environment, groups range from the American, British, 
Canadian, Australian group to bilateral staff talks and exchanges with 
multiple countries.
    The Army Digitization Office (ADO) is responsible for the Army's 
International Digitization Strategy, which identifies the high level 
requirements for international interoperability. This was produced in 
1995 in conjunction with Director of Information Systems, Command, 
Control, Communications and Computers and other Army departments. 
Practical steps towards interoperability are extensively worked at the 
weapon system level (British and Dutch purchase of Apache). At the 
command level, the Command and Control System Interoperability Program 
(C2SIP) is a major step forward. C2SIP is a fiscal year 1998 start 
Advanced Concept Technical Demonstration (ADO helps finance) which 
brings work from three previous international initiatives into a single 
U.S. program. C2SIP will both refine already developed capabilities and 
lead to fielding of these capabilities in the Army Battle Command 
Systems by 2003. C2SIP provides two levels of interoperability based on 
legacy requirements and future technology. By 2003, the U.S. Army will 
have interoperability at either one or the other of these levels with 
the armies of Canada, Denmark, France, Germany, Holland, Italy, Spain, 
and the United Kingdom.
    Two other initiatives, the Artillery Systems Cooperative Agreement 
(ASCA) and the Low Level Air Defense Picture Initiative (LLAPI), are 
aimed at achieving interoperability with multiple allied artillery and 
air defense systems. An international interoperability agreement has 
been reached in the LLAPI and is being negotiated in the Artillery 
Systems Cooperative Agreement.
    Question. What is the total cost of digitizing the division in 
2000? For the record, please provide the cost and equipment you plan on 
fielding.
    Answer. In November 1997, the Army provided an estimate of 
$423,000,000 required to digitize the 4th Infantry division; however 
that estimate included Research, Development, Test and Evaluation 
(RDTE) costs that are properly distributed across multiple divisions. 
The Army has further refined the definition of digitization, resulting 
in a broader subset of programs. Of the total cost for digitization, 
$373,700,000 is for the procurement of systems to be fielded 
specifically to the first digitized division (FDD). The $37,700,000 
does not fund any RDTE. It includes funding for: the All Source 
Analysis System; Avionics; Forward Area Air Defense Command and 
Control; Avenger; Linebacker; Guardrail Common Sensor; Integrated 
System Control; Command and Control Protect; Spitfire; Maneuver Control 
System; M1A1/2 Abrams; M2 Bradley; Striker; Advanced Field Artillery 
Tactical Data System; Paladin; Laser Marker; Applique; Combat Service 
Support Control System; Maneuver Control System; Secure Mobile Anti-Jam 
Reliable Tactical Terminal; Fire Support Team Improved Data Modem; 
Ground Based Sensor; Digital Topographic Support System; Warfighter 
Information Network. It also includes funding for existing Army command 
and control programs (Maneuver Control System, Advanced Field Artillery 
Tactical Data System), communications programs (Single Channel Ground 
and Airborne Radio System, Enhanced Position Location Reporting System, 
Satellite Systems), sensor programs (Sentinel, Tactical Unmanned Aerial 
Vehicle), and the digitization-related pieces of weapon systems (Abrams 
and Bradley).
    Question. Your first digitized force will be a heavy division. When 
will you digitize your light forces?
    Answer. Given that digitization is a subset of modernization, 
decisions are pending on several key issues including: digitizing the 
Army's light forces; corps troops; digitization schedule for the 
remainder of the Army, to include the Reserve components; and heavy 
division and corps redesign. These issues are being worked and 
coordinated between the Army Staff and the major commands.
    Based on implementing Army Vision 2010, the Army has scheduled 
modernization of the ``light divisions'' that are part of the XVIII 
Airborne Corps: the 82nd Airborne Division, 101st Airmobile Division, 
10th Mountain Division, and appropriate corps troops. Many of the 
systems being provided to these divisions, and to the XVIII Airborne 
Corps, are considered to be part of the overall modernization plan. 
However, affordability may constrain these plans.
    Digitization includes all the Army's command and control systems. 
It also includes communications systems, such as our tactical radios, 
military satellite communications, and network management. Integration 
of communications and situational awareness systems into key weapons 
platform (tracked combat vehicles, Avenger air defense, and Comanche 
helicopters) and combat support and combat service support platforms 
must also take place as a part of the overall digitization effort.
    As a part of Army modernization, these systems are scheduled for 
fielding to all XVIII Airborne Corps. The level of fielding varies, and 
current fielding plans may change based on U.S. Army Training and 
Doctrine Command's pending division and corps redesign.
    Question. Your current plan is to digitize your first division in 
2000 and your first corps in 2004. Does your budget adequately fund 
your plan? If not, what are the shortfalls?
    Answer. With the approved $54,200,000 digitization reprogramming, 
and plus-ups by Office of the Secretary of Defense totaling 
approximately $261,000,000, the Army is on track to field the First 
Digitized Division in fiscal year 2000 and the First Digitized Corps in 
fiscal year 2004.
    Question. When will you digitize the Army Reserve Components?
    Answer. Decisions are pending on several key issues, including the 
digitization schedule for the remainder of the Army, to include the 
Reserve components. The issue is being worked and coordinated between 
the Army Staff and the major commands.
    Digitization is providing our commanders with a common relevant 
picture of the battlefield, and with the command and control to 
prosecute effective warfare in response to this picture. The Army 
desires to provide this information dominance to the force, both Active 
and Reserve, by 2010. However, affordability may constrain that plan. 
Currently, the Army Digitization Office is working with the National 
Guard Bureau and the Office of the Chief of the Army Reserve to 
determine the appropriate level of digitization for Reserve component 
(Guard and Reserve) units.
    Digitization includes all the command and control systems. It also 
includes communications systems, such as our tactical radios, military 
satellite communications and network management. Integration of 
communications and situational awareness systems into key weapons 
platforms (Abrams tanks, Bradley Fighting Vehicles, and Comanche 
helicopters) and combat support and combat service support platforms 
must also take place as a part of the overall digitization effort.
    As a part of Army modernization, many of these systems are already 
resourced and scheduled to be fielded to the Reserve components. The 
level of fielding varies, and current fielding plans may change based 
on U.S. Army Training and Doctrine Command's pending division and corps 
redesign.
    Question. How much is required to digitize the Army Reserve 
Components? Is that funding included in your Future Years Defense Plan?
    Answer. Funding for Army modernization includes the Reserve 
components. As a part of Army modernization, many of the digitized 
systems are already resourced and scheduled to be fielded to the 
Reserve components. The level of fielding varies, and current fielding 
plans may change based on U.S. Army Training and Doctrine Command's 
pending division and corps redesign.

                    Advanced Warfighting Experiments

    Question. The Army has conducted several Advanced Warfighting 
Experiments (AWEs) designed to evaluate the benefits of digitized 
force. An experimental brigade completed live training at the National 
Training Center (NTC) in March 1997 and a division level experiment was 
conducted at Fort Hood in November 1997. This completed a three year 
experimental phase.
    The Army's Operational Test and Evaluation Command (OPTEC) 
evaluated the AWEs. However, data from the most recent exercise has not 
been released.
    When will the Army release the OPTEC evaluation of the November 
1997 AWE?
    Answer. The OPTEC evaluation comprises a single input to the 
overall analytical effort of the November 1997 AWE. Headquarters, U.S. 
Army Training and Doctrine Command, is assimilating all inputs, and 
will publish a consolidated report in April 1998.
    Question. AWEs provide the opportunity to assess how digitization 
improves situational awareness and command and control. What is your 
assessment of the last AWE? What were the lessons learned?
    Answer. The Division Advanced Warfighting Experiment (DAWE) 
provided an excellent opportunity to examine the contributions of high 
fidelity blue and red Situational Awareness (SA) to Experimental Force 
(EXFOR) commanders. The high fidelity SA was dependent on systems that 
ranged in maturity from fielded systems to prototypes. In addition, 
``near perfect'' blue SA feeds were provided to the brigade and 
division command centers from simulated subordinate units. These 
systems provided more timely and accurate information about friendly 
units on a moment's notice. In looking at the interface between analog 
and digitized units, the engineer battalion was degraded because of the 
very limited number of digitized systems.
    Red SA was highly accurate and comprehensive as a result of the 
availability in the simulation of Joint-Surveillance Target Attack 
Radar and Unmanned Aerial Vehicle throughout the exercise, except 
during periods of adverse weather. Commanders relied heavily upon these 
two systems during the DAWE to give them unparalleled knowledge of 
enemy forces. The Army has yet to determine the realistic availability 
of these systems for a division.
    Question. According to OPTEC, command and control messaging 
problems ``have been seen throughout all Task Force XXI exercises.'' 
For example, during the March 1997 AWE, only 30 percent of the command 
and control message traffic actually made it to its destination. Have 
you resolved these problems? If not, what are the outstanding issues?
    Answer. In the initial design of command and control (C2) 
architecture, it was a priority to be as close to commercial standard 
internet design as possible; hence the commercial internet architecture 
was followed as closely as possible. Standard commercial routing 
protocols were used and a grid of radio circuits was established to 
route message traffic over it much in the same way as the commercial 
internet. This architecture did not work well for a number of reasons. 
The commercial routing protocol did not work well in the tactical 
environment, and there were some software problems which created 
routing loops, to name a few of the biggest problems.
    Since the time of the Task Force XXI AWE, the basic SA architecture 
has been retained, but improved upon to make it more flexible. In 
addition, all software problems have been corrected and upgrades to the 
internet controller have been accomplished to provide greater 
performance. The entire command and control (C2) architecture has been 
redesigned to be more like the SA architecture and to take advantage of 
the inherent broadcast capability of our tactical radios. We now have a 
broadcast capability, a multicast capability, and a point-to-point 
capability based on switched virtual circuits. These changes have 
drastically simplified the C2 architecture and should provide SA-like 
performance for C2 message traffic that requires both speed of service 
and a high message completion rate (``degree of digital 
conductivity''). A primary focus of the Force XXI Battle Command 
Brigade and Below Limited User Test will be to verify these basic 
improvements to the C2 architecture.
    Question. Situational awareness--the ability to know where the good 
guys and the enemy are has improved throughout the AWE, however, it has 
not proved to prevent fratricide. During the March AWE, the digitized 
force had a total of 32 fratricide incidents. (The average NTC rotation 
has nine).
    What impact did digitization have on the incidence of fratricide in 
the November 1997 AWE?
    Answer. The November 1997 AWE did not include force-on-force 
events, so there was no opportunity for fratricide to occur in any 
manner comparable to the March 1997 AWE.
    Question. OPTEC's assessment is that situational awareness in its 
current form is insufficient to prevent fratricide. Do you agree?
    Answer. We will do everything in our power to prevent fratricide, a 
terrible accident where our own firepower comes too close to a portion 
of our own force. But we should remember that accidents occur in much 
less stressful and dynamic conditions than today's battlefield. the 
current state of digitization--situational awareness--should go a long 
way towards reducing fratricide, and it's getting better every time we 
do an experiment or test.
    In some respects, the findings go a long way to showing how 
effective situational awareness is in preventing fratricide. Of the 32 
incidents you mentioned--and keep in mind that the Brigade Combat Team 
that composed the Experimental Force was considerably larger than an 
average rotational unit--only 5 occurred when both victim and killer 
had operational applique. My point is that applique--when working 
properly--definitely contributed to fratricide prevention.
    Question. How do you plan on reducing fratricide for Force XXI?
    Answer. Improved situational awareness and integrated battle-
command capabilities should translate into a more lethal and a more 
survivable force, with less fratricide, through a combination of 
Information Age technologies; associated tactics, techniques, and 
procedures; and solid training.
    Question. During the March 1997 AWE, the Director of Operational 
Test and Evaluation conducted an assessment of the digitized force's 
performance. The assessment concluded that the ``digitized brigade 
performed much like the non-digitized baseline brigades at the NTC in 
areas of lethality, survivability, and operational tempo.'' However the 
Army's assessment was that the ``lack of discernible difference in the 
performance data does not imply a lack of potential for more mature 
versions of this initiative.''
    Please explain what you mean by this.
    Answer. We have seen the potential of a Joint Task Force that has 
an integrated digital capability. The Army's intent during the March 
1997 AWE was to conduct an experiment--not a test. We know going into 
the experiment that the functionality was not adequate for go-to-war 
systems, but it was adequate to answer the experimental hypotheses. We 
also knew that significant research and development would still be 
required to fully mature some systems before fielding them.
    The Experimental Force, the EXFOR, went up against the world-class 
Opposing Forces, or OPFOR, on their ``home-turf'' at the NTC. The AWE 
featured wins and losses on both sides. Given the immaturity of many of 
the digital systems that were part of the experiment and the detriment 
this lack of maturity had on the train-up for the AWE, we were 
pleasantly surprised that they were able to hold their own against a 
well-trained force like the OPFOR. The EXFOR successfully demonstrated 
the potential that digital battle command can offer towards decisive 
military operations. The AWE revealed the vision of a future battle in 
which the tactical commander is capable of destroying the enemy force 
through the effective application of information to his combat power.

                          Force XXI Initiative

    Question. General Reimer, you worked hard to establish funding for 
the Force XXI Initiative which is ``an Advanced Concept Technology 
Demonstration-type approach to streamline acquisition of high pay off 
technologies.'' This year the Army is requesting $99,000,000 to 
continue the Force XXI Initiative. Last year, Congress appropriated 
$38,900,000 for new Force XXI initiatives. The Congress directed that 
none of the Force XXI Initiative funds may be obligated without prior 
notification. The notification is to include the requirements, 
maturity, affordability, and sustainability for each system. When will 
the Congress receive notification for the fiscal year 1998 funds?
    Answer. The Congress will receive notification in mid-April 1998.
    Question. Will the notification include the funds required to 
complete the program in fiscal year 1999?
    Answer. Yes. The notification will include information papers on 
each new fiscal year 1998 Force XXI Initiative which have a fiscal year 
1999 budget request.
    Question. Last year, we were disappointed at the Army's reluctance 
to provide data supporting the Army's plan for obligating the Force XXI 
funds. We view that the supporting data provides us the only 
opportunity to assess the requirements, maturity, and sustainability 
for the proposed initiatives since they are not part of your budget 
submit. Why did it take so long for us to get the supporting data?
    Answer. The delay was mainly due to the schedule of our 
experiments. The Army's Advance Warfighting Experiment (AWE) was 
performed in March 1997. The Warfighting Rapid Acquisition Program 
(WRAP) Army Systems Acquisition Review Council (ASARC) was conducted in 
April 1997. I signed the Congressional letters of notification in late 
May 1997. This year, the Divisional AWE, which had some of the fiscal 
year 1998 Force XXI Initiatives, was preformed in November 1997. The 
WRAP ASARC was held in January 1998. The Congressional notification 
letters are scheduled to be sent to the Congress in mid-April 1998.
    Question. In the future, will you provide the Operational Test and 
Evaluation assessment with the notification letter?
    Answer. Yes. We will enclose the Operational and Test Evaluation 
assessments with this year's notification letter.
    Question. Do you anticipate that we will have the same problems 
this year? Why not?
    Answer. No. The Congressional notification letters will be sent to 
Congress ahead of last year's notification by over a month. We will 
enclose the Operational and Test and Evaluation assessments with this 
year's notification letter.

                         Aviation Modernization

    Question. The Army has just completed its ``Total Army Aviation 
Modernization Plan'' for the Active Army and National Guard. The 
modernization strategy is to provide modernized and updated aircraft to 
the first to fight units in both the Active and Reserve components. 
Please summarize your modernization plan. What are your priorities? 
What are the major deficiencies on your current fleet?
    Answer. The 1998 Total Army Aviation Modernization Plan defines 
priorities and outlines modernization goals for both the active and 
reserve component. Factors driving modernization are: maintaining 
combat overmatch, affordability, operational and support costs, 
recapialization efforts to guard against fleet obsolescence, joint 
systems interoperability, and joint and combined arms training and 
simulation requirements.
    Army Aviation's modernization priorities are: (1) solve Aviation's 
most critical battlefield deficiency--tactical reconnaissance and 
security; (2) maintain attack overmatch in attack helicopters into the 
21st century; (3) enhance Command, Control Communication, and 
Intelligence (C3I) and joint/combined interoperability through 
battlefield digitization; (4) recapitalize aging utility, cargo and 
fixed wing fleets until replacement is possible; and (5) develop 
technology underpinnings for Joint Vision 2010 and Army After Next 
requirements.
    Major deficiencies in the current fleet include: maintenance of the 
OH-58D Kiowa Warrior as the interim scout aircraft in both the active 
and reserve force until sufficient numbers of Comanches are procured to 
replace them; continued operation of legacy AH-1 Cobras until they can 
be replaced by either Apaches or Comanches; modernization of the UH-60 
Black Hawk fleet to meet Force XXI battlefield requirements and to 
extend the life of the UH-60 until it can be replaced by the Future 
Utility Rotorcraft; modernization funding needed to either upgrade or 
replace significant numbers UH-1 Huey helicopters; and execution of an 
Improved Cargo Helicopter program to extend the life of the CH-47 
Chinook until it is replaced by the Joint Transport Rotorcraft.
    Question. Your aircraft modernization plan ``recognizes that 
funding to resource all modernization goals are outside current Army 
funding levels.'' How much is required to fund the plan? How much is 
included in your fiscal year 1999 budget and the outyears?
    Answer. The Army Aviation Modernization Plan addresses aviation 
modernization requirements out to fiscal year 2020. The total cost of 
modernization through that time frame has not been determined. The 
fiscal year 1999 President's budget includes $1,320,000,000 for 
aviation modernization programs. Additionally, the Future Years Defense 
Program (fiscal years 2000-2003) includes $6,909,000,000 for aviation 
modernization. This funding supports major procurements that include: 
Comanche Operational Test and Evaluation (OT&E); 400 AH-64D's; 207 Fire 
Control Radars for the AH-64D; 90 UH-60L's; 11,497 Longbow Hellfire 
Missiles; and 11 UC-35 jet aircraft.
    Question. Your modernization strategy runs counter to the 
recommendation made by the National Defense Panel. The National Defense 
Panel recommended that the Army move toward advanced vertical lift 
systems versus service-life extensions of current rotary wing aircraft 
as proposed in your modernization plan. Why the difference?
    Answer. The Army has conducted extensive analysis of the current 
tilt rotor technology as a potential solution for future vertical lift 
requirements. However, the significant costs associated with this 
technology make it an unaffordable option for Army requirements. Given 
available resources and the absence of affordable technology, the Army 
has chosen service life extension programs as the most affordable and 
achievable means to meet some of its aircraft modernization 
requirements.
    Question. What is your rational for submitting a ``Total Aircraft 
Modernization Strategy'' that cannot be supported in your budget? Why 
isn't your strategy based on budget projections?
    Answer. The Army has openly and accurately stated its aviation 
modernization requirements for both Active and Reserve components. 
These requirements are based on the capabilities the Army needs to 
accomplish missions outlined in the Defense Planning Guidance. 
Requirements are determined by missions, not fiscal constraints. Fiscal 
constraints do limit the Army's ability to execute this modernization 
plan. The Army will continue to prioritize available resources to 
accomplish its aviation modernization requirements.
    Question. Have you developed alternatives to ensure that the 
aviation fleet remains reliable and safe if funding does not 
materialize to support your modernization strategy? Please explain.
    Answer. The Army will continue to ensure its aviation fleet remains 
safe and reliable until aircraft can be either replaced or modernized. 
If adequate modernization funding is not available, the Army will have 
no choice but to continue to operate its present fleet. Operational and 
support costs will continue to grow as the fleet ages. The longer 
modernization is delayed, the longer the Army will be forced to operate 
without the advanced capabilities needed to accomplish assigned 
missions.

                    Light Tactical Wheeled Vehicles

    Question. Last year, the Army requested $9,000,000 to begin a High 
Mobility Multipurpose Vehicles (HMMWV) replacement program. Both 
Appropriations Committees denied funding because the Army had not 
completed a light tactical vehicle strategy, which evaluated four 
alternatives. Recently, we received budget documentation supporting a 
multiyear contract for the HMMWV extended service program. Why are you 
requesting the authority to proceed with a multiyear contract since it 
does not meet the criteria legislated in the fiscal year 1998 National 
Defense Appropriations Act.
    Answer. The value of the HMMWV extended service program multiyear 
contract as presented in the budget exceeds $500,000,000, which is the 
threshold for seeking multiyear procurement authority from Congress. 
However, due to the high unit cost of remanufactured HMMWV, the Army 
does not intend to execute this contract and has abandoned these 
efforts to develop a new light tactical vehicle.
    Question. Have you completed your light tactical wheeled strategy? 
Can you summarize your findings?
    Answer. No, we have not. We are currently conducting a Light 
Tactical Wheeled Vehicle Analysis of Alternatives which will be 
completed no earlier than December of 1998.
    Question. When will you submit your plan to Congress?
    Answer. We plan to submit our plan during the second quarter of 
fiscal year 1999.
    Question. Your budget request includes $24,000,000 to begin a HMMWV 
Extended Service Program. If you have not completed your tactical 
wheeled vehicle strategy, how did you determine that this was the 
optimal plan for keeping a viable light tactical fleet?
    Answer. As an interim strategy, the Army wanted to remanufacture 
basic HMMWVs into the A2 configuration with some corrosion resistance 
enhancements. This did not prove to be a cost-effective means of 
modernizing the fleet. Therefore, we are asking the Congress to 
authorize and appropriate these dollars into the HMMWV production line.
    Question. The Marine Corps considered a HMMWV Extended Service 
Program (ESP), but decided it made more cost effective to procure new 
HMMWVs. Why are your conclusions different?
    Answer. Last fall, in conjunction with the USMC, the Army had Am 
General remanufacture basic HMMWVs into a near A2 configuration. The 
Army and the Marine Corps learned from this effort that Marine Corps 
vehicles were too corroded to remanufacture and that the cost of such 
an effort, $45,000 per vehicle, was prohibitive. The Army along with 
the USMC has concluded it is more cost effective to procure new 
vehicles than to take basic HMMWVs to the A2 configuration.
    Question. Does your research and development budget include funds 
to develop a new tactical wheeled vehicle? If so, how much? What is the 
total funding required to complete the program?
    Answer. In regard to research and development funding, we have 
abandoned our efforts to develop a new light tactical vehicle. However, 
we are monitoring an ongoing technology base effort at the National 
Automotive Center called the Commercially Based Tactical Truck 
(COMBATT) program. This program is exploring the feasibility of 
modifying commercial, production vehicles to meet the HMMWV performance 
specifications. Ford, General Motors, Chrysler, and AM General are 
participating in this program. If we believe the results can improve 
the light tactical fleet, we will build and test prototypes from the 
COMBATT program. In the meantime, we will continue to buy HMMWVs.

                    Crusader Self-Propelled Howitzer

    Question. A recent ``Army Times'' article highlighted that the Army 
has slashed the number of field artillery guns in its divisional 
artillery force. According to the article, some divisions has 18 fewer 
guns than they had in Operation Desert Storm. Crusader is expected to 
make up the difference; however, Crusader will not be fully deployed 
for another seven years. Does the article paint an accurate picture?
    Answer. Yes. In fiscal year 1996, I made a decision to modernize 
the total Army Field Artillery force in order to enhance our 
warfighting capability. This modernization initiative involved 
restructuring the self-propelled 155mm cannon battery from an eight-gun 
to six-gun, two platoon configuration and fielding a second Multiple 
Launch Rocket System (MLRS) battery in the heavy division artilleries 
to form a composite 2x9 MLRS battalion. This force structure decision 
reduced the number of self-propelled howitzers in a division from 72 to 
54 and reduced the total Army self-propelled howitzers requirement from 
2160 to 1378.
    Question. Do you believe that there is an operational risk by 
having this long-term gap in the Army's fire support capability? Please 
explain.
    Answer. Yes, I made this decision realizing that there was some 
risk, but acceptable risk, until Crusader and the 2x9 MLRS battalions 
were fielded. I consider this risk acceptable based on our Quadrennial 
Defense Review, which indicated that the security environment between 
now and 2015 will be marked by the absence of a ``global peer 
competitor'' able to challenge the United States militarily. By 
following our current modernization strategy, we will field Crusader to 
22 Active component battalions, 10 Army National Guard battalions and 8 
Army Prepositioned Sets, in addition to six 2x9 MLRS battalions by 
2015.
    Question. Can other weapon systems be used to fill the gap until 
Crusader is fielded? If so, what are they? What are their limitations?
    Answer. First, let me say that no other cannon artillery system in 
development anywhere in the world can meet all of Crusaders 
requirements. This has been validated by the United States General 
Accounting Office in their report to the Secretary of Defense on June 
1997. No other weapon system can take the place of Crusader; however as 
you know, we are currently fielding the Paladin howitzer, which is the 
Army's most modern self-propelled howitzer and will be the primary 
means of fire support of the first part of the Army XXI. Paladin is a 
fine weapon system, but the fact remains that it is currently outgunned 
by 11 threat cannon systems in range and rate of fire, cannot keep pace 
with its supported Abrams/Bradely based maneuver forces, and is based 
on a 35 year-old chassis. Many of the technologies that Paladin 
pioneered, such as self-location and on-board fire control, are 
becoming increasingly common on more modern and capable self-propelled 
weapons being fielded around the world.
    Question. According to the article, the reduction was made to save 
money for the Crusader development program. Is the Crusader program 
fully funded?
    Answer. Yes, the Crusader program is fully funded. The reductions 
were not made to save money for the Crusader development program, they 
were made to allow the fielding of a 2x9 MLRS battalion to each heavy 
division and to allow Paladin to be fielded to more of the total force.
    Question. Last year, the Army restructured the Crusader program. 
The new schedule compresses the development phase by almost one year, 
but retains the First Unit Equipped date in fiscal year 2005. The 
Army's Operational Test and Evaluation office says this restructured 
schedule causes a high degree of risk in the program. Do you agree with 
the assessment? If the program slips, what are the operational 
implications since you reduced the number of guns in the divisional 
artillery force?
    Answer. No. The new development program did not really compress 
Engineering, Manufacturing and Development (EMD). What it did do was 
compress the overall development schedule by having concurrency in some 
of the Program Definition and Risk Reduction activities with EMD 
activities. The new program was worked by working level integrated 
product team (WIPT) made up of key Office of the Secretary of Defense 
and Army personnel. Operational Test and Evaluation Command (OPTEC) was 
part of this WIPT. OPTEC concurs with the program office risk 
assessment--the new development plan is an acceptable risk program. The 
Crusader program is on track to meet a fiscal year 2005 First Unit 
Equipped with the most cost-effective system required to meet the 
operational requirements. If the program were to slip, the force would 
remain at risk until Crusader were fielded. The current self-propelled 
howitzer force structure depends upon Crusader fielding to provide our 
soldiers with a world class weapon system which will restore United 
States cannon supremacy.

              Two Major Regional Conflicts (MRC) Strategy

    Question. Supporting the indefinite extension of the North Atlantic 
Treaty Organization (NATO) mission in Bosnia combined with the recent 
increase in the deployment of U.S. forces to the Persian Gulf has 
stretched the ability of the U.S. to meet its security commitments 
elsewhere in the world. Recent press coverage indicates that the strain 
placed on U.S. forces is evident in each of the military services. For 
example, the Army is reportedly experiencing shortages in the 
availability of Patriot anti-missile batteries and main gun tank 
rounds. Shuffling assets to meet both emergent requirements and long-
term security commitments may also hinder the Department's ability to 
conduct required maintenance actions on time. In addition, the need to 
meet the increasing demand for U.S. forces will significantly increase 
the strain placed on U.S. military personnel. Given the indefinite 
extension of the Bosnia mission and the recent buildup in the Persian 
Gulf, do you feel that the Army has adequate equipment and personnel 
resources to fulfill its share of current national security 
commitments?
    Answer. Yes. In requiring the U.S. military to engage in activities 
to shape the international environment and respond to the full spectrum 
of crises, the National Military Strategy envisions us conducting, when 
in the national interest to do so, smaller-scale contingencies, like 
Bosnia, as well as posturing ourselves to conduct major theater wars. 
Engaging in multiple concurrent contingencies requires careful 
consideration to ensure our forces are not dissipated and, therefore, 
neither unable nor perceived as unable, to respond to more critical 
threats. I believe our operations in Bosnia do not prevent us from 
fulfilling the requirements of our National Military Strategy.
    Within its current end strength, the Army can execute its portion 
of the National Military Strategy with acceptable risk, but it is not 
easy, particularly for our soldiers and their families. The Army 
receives the smallest total obligation authority of any Department, yet 
it is performing the lion's share of the day-to-day execution of the 
National Military Strategy. For example, in addition to our forces 
stationed abroad, an average of 31,000 soldiers were deployed on any 
given day during fiscal year 1997. This is roughly the equivalent of 
two divisions of personnel.
    Recognizing that the Army must bear its share of the burden in 
meeting the requirements of the National Military Strategy, the Army 
strives to meet its commitments by closely monitoring risk, while 
maintaining a dynamic, synchronized, balance among the six fundamental 
imperatives: quality people, training, leader development, doctrine, 
force mix, and modern equipment. We have established a balance that 
enables us to meet the National Military Strategy elements of shape, 
respond, and prepare now, but the balance is fragile. It could be 
disturbed easily by failure to meet Quadrennial Defense Review-derived 
end strength targets, unpredictable funding, or less than expected 
efficiencies from programmed infrastructure reform. If, for example, we 
were to maintain, without additional funding, a larger total Army end 
strength, diversion of funds to support that end strength could 
jeopardize our ability to build the Army we will need to meet future 
challenges.
    Question. What specific deficiencies do you see in Army forces?
    Answer. While recapitalizing the force to meet future challenges, 
we will assume some degree of calculated risk (with shrinking budgets) 
in terms of readiness in order to allocate sufficient resources to 
conduct the science and technology and modernization efforts that will 
lead to long-term capabilities. However, we must manage that risk 
carefully to ensure that readiness does not suffer to an unacceptable 
degree. The key is to monitor the risk while improving the balance 
between the vital components of our Army--readiness, modernization, and 
people.
    We have established a balance, but it is fragile and could easily 
be disturbed by inconsistent funding, a failure to meet end strength 
targets, or to achieve programmed efficiencies. Our current 
capabilities are less robust than previous resource levels permitted, 
and as a result, we have less margin for error--operationally or 
fiscally. However, the Army realizes that failure to balance current 
readiness and future modernization will result in a future force that 
is nothing more than a smaller version of today's Army. To maintain the 
proper balance, the Army needs: timely supplemental funding for 
unplanned contingency operations in Bosnia and Southwest Asia; to 
achieve its Quadrennial Defense Report-determined personnel reductions; 
flexibility to program, budget, and adjust expenditure of funds during 
the year of execution; additional rounds of Base Realignment and 
Closure to being infrastructure in line with current needs; and 
adequate resourcing to include the availability of critical enablers, 
such as adequate sea and airlift, equipment modernization, and enhanced 
intelligence and communications architectures.
    Question. Supporting the indefinite extension of the North Atlantic 
Treaty Organization (NATO) mission in Bosnia combined with the recent 
increase in the deployment of U.S. forces to the Persian Gulf has 
stretched the ability of the U.S. to meet its security commitments 
elsewhere in the world. Recent press coverage indicates that the strain 
placed on U.S. forces is evident in each of the military services. For 
example, the Army is reportedly experiencing shortages in the 
availability of Patriot anti-missile batteries and main gun tank 
rounds. Shuffling assets to meet both emergent requirements and long 
term security commitments may also hinder the Department's ability to 
conduct required maintenance actions on time. In addition, the need to 
meet the increasing demand for U.S. forces will significantly increase 
the strain placed on U.S. military personnel. Recent press accounts 
indicate the Army may have a shortage of Patriot batteries to meet 
current requirements. General Reimer, please describe the shortfall in 
light of current requirements.
    Answer. Recent events in the Persian Gulf reflect that the Army is 
prepared to play its unique and key role in our National Military 
Strategy. During the recent Iraqi crisis, all units requested by 
Commander-in-Chief, Central Command, including Patriot batteries, were 
allocated and rapidly deployed as scheduled.
    Patriot batteries, as you are aware, are in high demand to support 
worldwide joint military operations. Therefore, they are managed under 
the Global Military Force Policy (GMFP). This policy requires strict 
monitoring of the operating tempo of monitored units, such as Patriot 
batteries. We acknowledge some risk in executing two Major Theater of 
Wars (MTWs) with current Patriot assets. To mitigate the risk, we have 
initiated a plan to standardize the Patriot force by increasing the 
available Active duty batteries. The risk concerning Patriot batteries 
is acceptable in the near-term for conducting two Major Theater Wars. 
There is no risk in conducting current operations within the scope of 
the GMFP.

                            Tank Ammunition

    Question. General Reimer, there are also accounts which claim that 
the Army is suffering from a shortage of main gun tank rounds. Does the 
Army face a shortage in this area?
    Answer. The Army does not have a shortage of tank main gun 
ammunition. The Army has sufficient inventory of tank main gun, armor-
piercing, and high explosive anti-tank rounds to defeat the threat 
posed in two Major Theater Wars.

                           Depot Maintenance

    Question. Do the new deployment requirements in Southwest Asia put 
depot maintenance schedules for Army equipment at risk?
    Answer. Equipment maintenance is not at risk as long as the Army is 
reimbursed for excess costs associated with the deployment.
    Question. If the Army is unable to meet its maintenance schedules 
for equipment, what risks does this pose to the Nation's ability to 
meet its security commitments?
    Answer. We do not anticipate equipment maintenance precluding us 
from meeting our security commitments, unless we are not reimbursed for 
excess costs associated with the deployment. Should we deploy, we would 
have the necessary capability to take assets with us for essential 
maintenance, and other major depot maintenance would be deferred until 
after the deployment.

    [Clerk's note.--End of questions submitted by Mr. Young. 
Questions submitted by Mr. Lewis and the answers thereto 
follow:]

                         Black Hawk Helicopter

    Question. General Reimer, I understand the Active Army and the Army 
National Guard have acknowledged a shortfall of 90 UH-60L Black Hawks 
helicopters in Guard ``war fight'' units. As you know, Chairman Young 
and this Committee have been strong supporters of the Black Hawk 
program. We are pleased that the Army and Office of Secretary of 
Defense are no longer planning to terminate the Black Hawk. Isn't it 
true that these 90 Black Hawks meet the ``war fighting'' requirements 
and fill the missing third assault company in six assault battalions, 
thereby bringing these battalions to their doctrinal configuration?
    Answer. Yes, this is true.
    Question. Under that all but eight of the 90 ``war fighting'' Black 
Hawks are either in the fiscal year 1999 budget request or projected in 
Program Objective Memorandum 2000?
    Answer. This is not correct. The Army has funded 50 UH-60s in 
fiscal years 1999 through 2003 and recognizes an unfunded requirement 
for 40 additional UH-60s. Funding for the remaining 40 aircraft will 
compete with other priorities in the Program Objective Memorandum 
process.
    Question. Aren't there sufficient cost savings associated with this 
90 aircraft buy achieved by adding eight additional Black Hawks to the 
22 included in your fiscal year 1999 budget?
    Answer. Yes. Re-baselining the current multiyear, multi-service 
contract from 18 H-60 helicopters per year to 36 H-60 helicopters per 
year would save the Army $33,200,000 over the remaining three years of 
the multiyear contract (fiscal years 1999, 2000 and 2001).
    Question. Isn't it true that the five-year multiyear contract to 
procure Black Hawks contains an option which would allow a baseline 
change to a more economic rate resulting in significant savings of up 
to $60,000,000 over the life of the contract?
    Answer. The current multiyear contract is based on a procurement 
strategy of 18 H-60 helicopters per year for all services (Army, Navy, 
and Air Force). The contract does contain an option for the Army to re-
baseline to a more economic rate of 36 H-60 helicopters per year. The 
advantage of going to 36 H-60s per year versus 18 would be a total 
savings of $33,200,000 spread out over three years ($10,900,000 in 
fiscal year 1999; $10,700,000 in fiscal year 2000; and $11,600,000 in 
fiscal year 2001). this assumes the Navy buys six CH-60s in fiscal year 
1999 and 18 CH-60s each in fiscal years 2000 and 2001 and the Army 
funds eight additional H-60s in fiscal years 1999, 2000, and 2001. 
However, in order to achieve a more economic rate and save $33,200,000, 
the Army would have to invest an additional $237,000,000 ($73,800,000 
in fiscal year 1999; $74,800,000 in fiscal year 2000; and $88,400,000 
in fiscal year 2001) into its Black Hawk program. Additionally, this 
would commit the services to 36 H-60 helicopters per year not only in 
fiscal year 1999, but in the remaining two years of the multiyear 
contract (fiscal year 2000 and fiscal year 2001). The Army has a valid 
requirement for additional Black Hawks but simply lacks the additional 
$237,000,000 (within current Army Total Obligation Authority) necessary 
to achieve a more economic rate.

    [Clerk's note.--End of questions submitted by Mr. Lewis. 
Questions submitted by Mr. Skeen and the answers thereto 
follow:]

                         Unfunded Requirements

    Question. Would you provide, for the record, a listing of the 
Army's major unfunded requirements in this year's budget proposal?
    Answer. The Army Staff is currently evaluating and prioritizing 
fiscal year 1999 unfunded requirements. Upon completion of this process 
and approval by the Deputy Secretary of Defense, the fiscal year 1999 
list of unfunded requirements will be provided for Congressional use.
    Question. Would you provide for the record, a listing of the Army 
Materiel Command's (AMC) and the Testing and Evaluation Command (TECOM) 
unfunded requirements in this year's budget proposal.
    Answer. The Army's consolidated fiscal year 1998 list of unfunded 
requirements is currently under development and contains high priority 
unfunded items for both AMC and TECOM. Upon approval by the Deputy 
Secretary of Defense, the list will be released to the Committee.

                             Civilian Cuts

    Question. What is the Army's rationale for an across-the-board 
civilian personnel cut at this time?
    Answer. The Army has no plans at this time for an across-the-board 
civilian cut. The Army plans civilian reductions in conjunction with 
workload changes, efficiency studies, and available funding.

               Army's Tactical High Energy Laser Program

    Question. What is the status of the Army's Tactical High Energy 
Laser (THEL) program? Please provide an update for the Committee and 
note if there are any unfunded requirements in this program in the 
fiscal year 1999 budget?
    Answer. The Army Space and Missile Defense Command has issued a 
letter contract modification to the original contract with TRW Space 
and Electronics Group, Redondo Beach, California, to include 
integration and field testing of the THEL demonstrator at the High 
Energy Laser Systems Test Facility (HELSTF), White Sands Missile Range, 
New Mexico. To date, the TRW team of U.S. and Israeli contractors has 
done an excellent job of maintaining jointly agreed to cost, schedule 
and performance baselines. Most of the THEL hardware has been 
fabricated and is in the final stages of integration and various stages 
of subsystem testing. The Command, Control, Communications and 
Intelligence (C31) subsystem, which includes an Israeli furnished 
radar, has already been successfully tested in Israel and will be 
shipped to HELSTF in late March 1998. The C31 subsystem testing at 
HELSTF is scheduled in the April and May timeframe. The Pointer Tracker 
subsystem is in final integration at TRW and will be shipped to HELSTF 
in late June to early July 1998. The Laser subsystem will be undergoing 
subsystem integration and testing at TRW's Capistrano, California, test 
facility through June 1998 and then will be shipped to HELSTF for 
integration and testing with the other two subsystems. Live fire 
testing at HELSTF is scheduled for completion by the end of 1998, at 
which time the demonstrator will be available for shipment to Israel. 
After completion of the HELSTF field testing, Israel is expected to 
fund any follow on phases of the program in fiscal year 1999 and 
beyond. No U.S. funds are budgeted for the cooperative THEL program in 
fiscal year 1999, and there are no unfunded requirements in fiscal year 
1999 for THEL.

                    Army's Solid State Laser Program

    Question. Would you comment on the progress of the Solid State 
Laser Program, which is managed by the Army Space and Missile Defense 
Command?
    Answer. Overall the program is progressing toward demonstrating 
Solid State Laser (SSL) weapon level technologies that support the 
development of compact, highly mobile, all electric, high power lasers 
for missions such as short range point air defense against low 
observable, low altitude, and highly maneuverable targets. The SSL 
program offers the potential to support the warfighter of the Army 
After Next.
    This Diode Pump (DP) SSL disk amplifier technology program has 
three main technology phases. The first phase leverages the Department 
of Energy's series of developments in SSL devices used for laser fusion 
(at Lawrence Livermore National Laboratories). The second phase is the 
development and demonstration of low cost manufacturing processes for 
laser diode pumping sources. The third phase is the initial field 
testing of the developed DP SSL disk amplifier module leveraging the 
existing high energy, lightweight Army Pointer Tracker (APT) at the 
High Energy Laser Systems Test Facility, White Sands Missile Range, as 
a surrogate laser beam director.
    The DP SSL disk amplifier program is in the process of developing 
the first of three laser modules needed for a high average power laser. 
The first set of modifications to an existing APT to allow operation at 
the SSL wavelength is complete. When the laser hardware fabrication is 
completed, the components will be integrated to initiate a proof-of-
principle demonstration of the operation of a single laser module under 
correct thermal loading and control. The testing of this disk amplifier 
laser module is planned for completion with fiscal year 1998 funding.

                    High Energy Laser Test Facility

    Question. Would you comment for the Committee on the current status 
of the High Energy Laser System Test Facility (HELSTF), which is 
located at White Sands? Will this year's budget request adequately 
sustain these unique national resources?
    Answer. The HELSTF fiscal year 1999 budget of $15,000,000 is 
sufficient to perform the HELSTF mission. Although the prime contractor 
recently reduced their staff by about 40 people, the government 
believes that the remaining staff of 125 people can do the tasks 
associated with HELSTF operation and maintenance and operations of the 
Sealite Beam Director and the Mid-Infrared Advanced Chemical Laser used 
in testing at the facility.

                     Directed Energy Space Control

    Question. Would you update the Committee on the status of the 
recent directed-energy space control experiments conducted at High 
Energy Laser Systems Test Facility last year? Please comment on any 
findings and recommendations for future activities related to these 
experiments.
    Answer. The Data Collection Exercise used the Low Power Chemical 
Laser, the Mid Infrared Advanced Chemical Laser and the Air Force MSTI-
3 satellite. The Army Space and Missile Defense Command successfully 
illuminated MSTI-3 with both the high and low power lasers. Data 
collected from the exercise is being used to directly support the 
initial assessment of U.S. satellite vulnerability to ground based 
lasers. This data also partially validates atmospheric propagation 
codes and is being entered into satellite vulnerability assessment 
database.
    The specific details of the experiment and results are classified; 
however, the experiment did raise some important satellite tracking 
issues which require further investigation.

    [Clerk's note.--End of questions submitted by Mr. Skeen. 
Questions submitted by Mr. Cunningham and the answers thereto 
follow:]

                              Hollow Army

    Question. General Reimer, in your statement you say that some 
people fear a return to a ``hollow Army'' where requirements far 
outstrip resources. You indicate that Army deployments have increased 
more than 300 percent with an average of 31,000 soldiers deployed in 
over 70 countries. You are recently quoted in the press as saying that 
the Army ``has too many undermanned and unmanned squads.'' This would 
seem to indicate a disparity between resources and requirements. Every 
year senior military officials testify that while their service is fine 
for short term, the mid- and long-term are problematic or in danger. 
What is your definition of a ``hollow force?'' What would be the 
telltale signs that requirements have outstripped resources? What 
assurances can you provide to this Committee that your claim that 
``today's Army is the best ever'' is more believable than the same 
claim, which was given in the 1970s by your predecessors?
    Answer. In early 1980, General Meyer, then Chief of Staff of the 
Army, called attention to some specific readiness problems and coined 
the term ``hollow Army'' to describe them. Specifically, overseas units 
were manned at 105 percent strength and a significant number of 
noncommissioned officers (NCOs) were sent to recruiting and Reserve 
component duty. Units located in the United States were the billpayers, 
which resulted in fill rates of 75 percent to 90 percent. Reductions in 
available NCOs led to reductions in quality training. An underlying 
concern was the ``quality'' of soldiers and new recruits. Regarding 
modernization, General Meyer stated there were insufficient funds 
available for Research and Development or new equipment. However, the 
preponderance of his remarks on the ``hollow Army'' referred to 
personnel shortages and personnel quality. Thus ``Hollow Force'' is 
defined when the above conditions are present.
    The term ``hollowness'' is not descriptive of the Army today. A 
comparison of the quality of today's recruits with those of the 
``hollow Army'' clearly shows why. In 1979, only 64.1 percent of 
recruits had a high school diploma and 46 percent scored in the lowest 
category of the Armed Forces Qualification Test. In 1997, 90 percent of 
our recruits had high school diplomas and only two percent scored in 
the lowest category. The Army of today consists of high quality 
soldiers and civilians led by competent, well-trained leaders equipped 
with the best equipment found anywhere in the world. Although personnel 
shortages and turbulence in the field do exist, and the Army continues 
to face personnel challenges, they are largely a function of the 
drawdown of 488,000 Active component soldiers starting in fiscal year 
1989. This turbulence and need to manage endstrength, while we shape 
the force internally, provides continuing challenges. The Army 
leadership continues to aggressively work the force structure balance 
issues while simultaneously keeping the Army trained and ready.
    Today's Army is the best ever. The significance of land forces to 
our national security has been validated time and again since the fall 
of the Berlin Wall. As a full spectrum force, each day America's Total 
Army meets the requirements for forward presence overseas while 
remaining prepared to project landpower into any area where our 
Nation's interests are threatened. The Army has done the heavy lifting 
in 28 of the 33 significant military operations since 1989, providing 
more than 60 percent of committed forces for these vital missions. 
Recent successes are demonstrated by operations in Bosnia and our 
ability to deploy combat brigade teams to Southwest Asia within 96 
hours in response to the current situation in the Gulf. Soldiers are, 
as always, our credentials and our legacy.

    [Clerk's note.--End of questions submitted by Mr. 
Cunningham. Questions submitted by Mr. Dicks and the answers 
thereto follow:]

                          Comanche Helicopter

    Question. As you know, I have been a long-time supporter of the 
Comanche, because of its ability to collect reconnaissance in a wide 
variety of battlefield environments and to perform light attack 
missions at night, in adverse weather, and in low visibility 
conditions, represents a truly revolutionary system. No other United 
States helicopter can or will possess the capability of the Comanche. 
Does the Army still rate the Comanche as one of their top modernization 
programs?
    Answer. Comanche is certainly one of our most important 
modernization programs, and its fielding will address aviation 
deficiencies in armed reconnaissance. We continue to accept risk in our 
armed reconnaissance fleet, relying on the Vietnam-era Cobra and the 
interim Kiowa Warrior. In addition to the quantum leap in capability 
that Comanche brings, it is aviation's technology carrier into the Army 
After Next.
    Question. Can you provide the subcommittee with a general overview 
on how the program is doing?
    Answer. The Comanche program is doing quite well. Prototype 1 
continues its envelope-expansion test flights at West Palm Beach, 
Florida. Prototype 2 is nearing completion and will be brought to 
Washington, D.C. later this spring. Development of its Mission 
Equipment Package (MEP) continues on track, with encouraging technical 
breakthroughs in avionics and cockpit displays. Recently, Comanche was 
nominated for the prestigious Collier Trophy, which is awarded for 
significant aerospace engineering achievement. From a program 
management standpoint, Comanche is performing superbly, with very small 
variances from cost and schedule objectives.
    Question. Is the program being funded at an efficient rate? Is 
additional funding needed?
    Answer. The current Research, Development, Testing, and Evaluation 
(RD&E) funding profile ramps up gradually to a peak in fiscal year 
2004, dictating a sequential development of the program's sub-elements. 
A more desirable RD&E profile would dedicate more funds up front to 
allow for simultaneous development. However, funds are being obligated 
in an effective manner and the program is executable as currently 
budgeted.
    Question. If you had additional funds provided by the Congress for 
this program, how would the monies be used?
    Answer. Any additional funds would go to accelerate the development 
and testing of the MEP, leading to a more capable Early Operational 
Capability (EOC) aircraft. Specifically, funds would be applied to 
avionics development, helmet display testing, software development, 
Comanche Portable Cockpit upgrades, armament testing, and diagnostics 
improvements. We would also use those funds to provide the Comanche 
with Longbow Fire Control Radar capability as early as feasible. This 
would enhance Comanche's participation in the digitization experiments 
scheduled for next decade.
    Question. According to the Comanche program office, the Comanche 
program is ``mismatched'' with the Force XXI Initiative. What does the 
program office mean by ``mismatched?''
    Answer. The program is not really ``mismatched,'' although we do 
have some concerns about Comanche's ability to fully participate in 
planned Force XXI activities. The delivery of Comanche's six Early 
Operational Capability aircraft occurs in fiscal year 2002, after but 
in time to capture the lessons learned from the First Digitized 
Division (FDD) in fiscal year 2000 and to participate in the First 
Digitized Corps. The Initial Operational Capability in December 2006; 
however, technology improvements from FDD digitization initiatives will 
be incorporated in all Comanche aircraft.
    Question. The Army has budgeted $2,600,000,000 for its Force XXI 
initiative. Why is the Comanche, which according to the Army is its top 
modernization program, not being given the capability to operate in the 
digital battlefield of the future?
    Answer. Comanche is fully digitized and will be a key player on the 
digital battlefield. Its advanced Mission Equipment Package will accept 
and pass digital information to a wide range of ground and air 
platforms in near real-time. Comanche has been termed ``The Quarterback 
of the Digitized Force'' and will link Tactical Operation Centers, 
Longbow Apaches, Crusaders, and joint platforms to significantly 
enhance the ground commander's situational awareness. Its modular 
avionics suite will set the standard for future ``radios,'' replacing 
today's black boxes with a more flexible system in which individual 
components can be replaced and waveforms can be reprogrammed with 
software.
    Question. What are the risks of a ``mismatched'' program?
    Answer. The Comanche is the centerpiece of the digitized force, 
linking together all other elements of that force and distributing near 
real-time battlefield intelligence and targeting data. The risk is that 
some digitization experiments will take place without Comanche's full 
participation. Synergistic improvements that Comanche will bring out in 
other systems will not be identified, and tactics, techniques, and 
procedures for the digitized force will be developed without the 
Comanche's full impact. We anticipate reducing that risk by seeking to 
incorporate more capability in our Early Operational Capability (EOC) 
aircraft and using these aircraft in our digitization initiatives.
    Question. Why are we buying six early operational aircraft at an 
estimated unit cost of $50,000,000 if they are not going to be in sync 
with the capabilities required for the digitized battlefield?
    Answer. The EOC aircraft serve several purposes, one of which is to 
support the digitization plans for the First Digitized Division/First 
Digitized Corps. Additional purposes are early user evaluation of 
Comanche capabilities and the development of new tactics, techniques, 
and procedures. Lessons learned on how to fight these EOC aircraft will 
ensure that production aircraft are fielded in accordance with the 
doctrine for fighting them.

                         Army After Next (AAN)

    Question. The Army has been criticized in some quarters--most 
recently by the National Defense Panel (NDP)--for its decision to 
continue investments in Cold War legacy systems instead of moving out 
to a smaller, faster, more agile force equipped with top-notch 
technologies as envisioned under the Army After Next (AAN) plan--your 
blueprint for the force beyond 2010. Can you give the subcommittee a 
brief overview on the Army After Next blueprint?
    Answer. The Army After Next (AAN) project serves to clarify our 
vision for the 2025 timeframe and examines concepts, organizations, and 
technologies that will be needed then. The holistic approach of the AAN 
project enables the Army to maintain a balance between doctrine, 
organizations, training, leader development, force mix, and material 
for a future force. This approach allows the Army to properly focus its 
long-term investment in technology.
    The purpose of AAN is to conduct a broad range of studies of 
warfare to the year 2025, frame issues critical to the development of 
the Army during that period, and integrate them into the Force XXI 
process. The AAN project consists of an annual cycle of war games, 
workshops, and conferences.
    In 1997, the Army conducted the first major AAN war game. The war 
game was a free-play, political-military exercise involving United 
States, allied regional nations, and special player teams. Participants 
included ambassadors, educators, retired generals, and senior leaders 
from allied nations, government agencies, industry, and all services. 
Insights gained from the war game proved invaluable to developing a 
vision of the future and to the process of change. The war game 
reinforced the criticality of speed and mobility, strong military ties 
and alliances, well-developed space assets, back up systems for digital 
communications, and full spectrum dominance.
    The AAN project is in its second full year of inquiry into the 
future. The next scheduled annual war game will take place April 20-30, 
1998, at the Army War College in Carlisle, Pennsylvania. The next 
annual report outlining the year's insights is scheduled to be 
published in November 1998.
    Question. Why does the Army seem to be moving slower than the other 
services in investing in systems that will be relevant in the 
battlefield of the future?
    Answer. The Army has developed a long-term strategy and is 
investing in the future. Both the Quadrennial Defense Review and the 
National Defense Panel complimented the Army for moving quickly to 
leverage information technology.
    The Force XXI process is the process of continuous transformation 
to achieve America's 21st century Army. The Force XXI product, Army XXI 
will be a knowledge- and capabilities-based, power projection Army, 
capable of land force dominance across the continuum of 21st century 
joint military operations; an Army capable of responding to the world's 
changing geopolitical environment. The Army After Next is a project 
designed to assist the Army's leadership with their effort to develop a 
long-term view of the Army's future. It represents the next phase of a 
continuous modernization process. The course we have laid out in Force 
XXI is required to get to the Army of 2025. There are no short cuts.
    The Army recently conducted a series of Advanced Warfighting 
Experiments to determine equipment for the First Digitized Division and 
First Digitized Corps which will incorporate information technology 
into heavy force weapons systems and provide leaders with unprecedented 
speed and synchronization of information on friendly and enemy forces. 
The Army is also developing a light force Advanced Warfighting 
Experiment to determine the future light force design.
    The new capabilities we envision in our Army After Next project are 
not available today, and we do not believe they are achievable in the 
near term. To realize the concepts embodied in Army After Next, we have 
focused our Science and Technology investments where we believe they 
will best support the leap-ahead capabilities we seek.
    We are developing new technologies through basic research, as well 
as seeking to mature emerging technologies sufficiently to permit their 
application to military requirements. They are addressed in 
considerable detail in the Army Science and Technology Master Plan. 
They include, but are not limited to, hybrid power systems; logistics 
efficiencies (fuel efficiency, ultra-reliability, weight reduction); 
human engineering and cognitive engineering; signature control 
(including counters); protection schemes for land systems (including 
active protection); advanced materials; schemes for land systems 
(including active protection); advanced materials; affordable precision 
and alternate lethality means; alternative propellants; non-lethal 
capabilities; and biological and chemical protection, antidotes, and 
vaccines.

                           Army Modernization

    Question. When will we see a significant shift from legacy systems 
upgrades to the Army After Next Systems?
    Answer. The Army Modernization Strategy's approach is near-, mid-, 
and far-term. In the near-term (1998-2003), achieving information 
dominance by 2010 will be the focus of our efforts. We will continue to 
maintain necessary funding to sustain combat capability overmatch. In 
addition, we will fund research and development to support the Army 
After Next. The Army is inserting technology to extend the lives and 
capabilities of many existing systems, and retiring older, expensive-
to-maintain systems that provide minimal operational return. In the 
mid-term (2004-2010), the emphasis on information dominance continues 
while we recapitalize through technology insertion and replacement of 
aging equipment. for the far-term (2011-2020), the Army will prioritize 
and focus its science and technology resources to leverage technology 
advancements that help maintain decisive battlefield dominance for Army 
After Next. From the near-term through the far-term, we will integrate 
technological advances into existing systems, through Horizontal 
Technological Integration, to provide the warfighter with common, 
efficient, and high-payoff enabling technologies across multiple 
systems.

                           M829A2 (A2) Round

    Question. Last year this subcommittee included language directing 
the Army to provide full funding for the A2 round in its fiscal year 
1999 budget and directed the Army to explain to Congress their plan for 
ensuring this happens. The subcommittee received a letter from Dr. 
Oscar on December 10, 1997, assuring us the round would be funded at a 
``minimum sustaining level.''
    I understand the minimum sustaining level for the A2 round is 
$42,000,000 for fiscal year 1999. The Army included just under 
$10,000,000 in the request. There has subsequently been a commitment 
made by the Army to reprogram the A2 to meet the FY99 requirement. 
However, I am very unhappy that the Army made a promise to the 
subcommittee and then so blatantly walked away from it. Why did the 
Army ensure minimum sustaining funding then include only 25 percent of 
the funding required for sustainment?
    Answer. The Army remains committed to funding the fiscal year 1999 
M829A2 requirements. The Army has $31,700,000 of the $38,000,000 to 
$42,000,000 required to procure the minimum production quantity of 
M829A2s. The Army plan to fund the procurement of M829A2 was based on 
reducing development funding for the M829E3 by $10,000,000 (later 
adjusted to $9,700,000 for inflation) and to using $22,000,000 from 
proceeds of foreign sales to partially complete the M829A2 funding 
requirement. The Army will include this item as an unfunded requirement 
on the fiscal year 1999 list of unfunded requirements for those funds 
outstanding. We recognize that if additional funding is not 
appropriated, a below-the-threshold reprogramming action (moving funds 
from other accounts to cover the commitment without exceeding the 
Congressional thresholds for notification/approval) is required.
    Question. Can you explain the plan to reprogram the funds to meet 
the minimum sustaining level?
    Answer. At the present time, a specific source(s) has not been 
identified.
    Question. What is the time frame for this to occur?
    Answer. The Army expects to provide this funding in early fiscal 
year 1999.

    [Clerk's note.--End of questions submitted by Mr. Dicks. 
The Fiscal Year 1999 Army Posture Statement, as referred to on 
page 7, follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                      Wednesday, February 25, 1998.

                     FISCAL YEAR 1999 NAVY POSTURE

                               WITNESSES

HON. JOHN H. DALTON, SECRETARY OF THE NAVY
ADMIRAL JAY L. JOHNSON, CHIEF OF NAVAL OPERATIONS, U.S. NAVY
GENERAL CHARLES C. KRULAK, COMMANDANT OF THE MARINE CORPS, U.S. MARINE 
    CORPS

                              Introduction

    Mr. Young. The Committee will come to order.
    We are happy to have Secretary Dalton and Admiral Johnson 
and General Krulak back with us again to talk to us about the 
posture of the Navy and the Marine Corps. We look forward to 
your expert testimony. The challenging times for all the 
military forces as we meet today become more interesting on a 
daily basis, with the deployment of the Navy and Marines 
throughout the world, probably in excess of what the normal 
deployments are with additional costs.
    We would like to hear what you have to tell us about the 
state of the services, what the requirements are for fiscal 
year 1999, what this Committee can do to guarantee that the 
soldiers and sailors, the Marines, the men and women in our 
uniform are properly cared for. And Mr. Secretary, we are very 
happy that you are back with us today.
    [The Chairman's prepared statement follows:]

    This morning, the Committee will conduct an open hearing on the 
posture of the Navy and the Marine Corps. The Committee is pleased to 
welcome John H. Dalton, the Secretary of the Navy; Admiral Jay L. 
Johnson, the Chief of Naval Operations; and General Charles C. Krulak, 
Commandant of the Marine Corps. The Committee warmly welcomes you here 
today and looks forward to your expert testimony.
    These remain challenging times for all the military services. As we 
meet today, Navy and Marine forces are deployed throughout the world. 
In the Persian Gulf they are working overtime, preparing to go directly 
into harm's way--without hesitation. I can tell you that all of us in 
the Congress are very proud of the excellent performance of the men and 
women in our nation's Navy and Marine Corps, and the skill, 
professionalism, and bravery they exhibit every day in carrying out 
very difficult missions.
    For the last three years since I became Chairman of the National 
Security Subcommittee, I have been warning about the danger resulting 
from delayed modernization of your weapon systems. The Committee and 
the Congress have done the best we can during the last three years to 
provide increases in funding to the Defense Department to address 
potential readiness problems and to address weapon system modernization 
shortfalls. We appreciate your willingness to work with us in the past 
to identify priorities for additional funding, and I stress to you 
today the importance of maintaining that open dialogue as we enter this 
new era of balanced budgets and a fixed level of defense spending.
    Your fiscal year 1999 budget is encouraging, in that funding for 
Navy and Marine Corps modernization programs is increased over last 
year's appropriated levels. However, it still only provides funding for 
71 new aircraft and helicopters (of which only 54 are combat aircraft), 
810 missiles, and 5 combatant ships. We cannot lose sight of the need 
to pursue a strong modernization program, nor should we ``declare 
victory'' now that we have seen the first proposals from the 
Administration to modestly increase funding for weapons system 
procurement. We have a long way to go to meet the JCS goal of $60 
billion per year for modernization spending, and we may never reach 
that goal in a balanced budget environment if the Administration 
continues to expand the peacetime missions to which military forces are 
assigned.
    Finally, last year's budget from the Department of the Navy was 
very discouraging in terms of funding for ship self-defense, 
cooperative engagement, and theater ballistic missile defense 
capabilities for new-construction DDG-51 ships. We believe these new 
capabilities are badly needed, as they provide greater protection for 
our sailors and Marines, other deployed forces, and civilian 
populations both here at home and abroad. Your new budget is much 
improved in these areas and I want to commend you for your attention 
and commitment to these important programs. We still have some concerns 
about these programs which we plan to discuss with you today.
    So, the purpose of the hearing today is to hear first-hand what is 
the posture of our nation's Navy and Marine Corps, and to discuss in 
detail some of the issues I just mentioned. We want to understand how 
you are meeting the challenge of increased deployments and new threats. 
We also want to identify those areas where this Committee could help 
you better perform your mission. Our goal is to strike a balance 
between funding for current readiness and a prudent modernization 
program that protects readiness in the long run.

    Mr. Young. Before we turn the microphone over to you, I 
would like to see if Mr. Dicks has a comment he would like to 
make.
    Mr. Dicks. Thank you, Mr. Chairman. I want to welcome 
Secretary Dalton and Admiral Johnson and General Krulak, and we 
look forward to the hearings today, and also to get a report on 
your views on the supplemental appropriations bill as well. 
Thank you.
    Mr. Young. Mr. Secretary, welcome and we will be happy to 
hear from you at this time, sir.

                 Summary Statement of Secretary Dalton

    Secretary Dalton. Mr. Chairman, thank you very much. Mr. 
Dicks, distinguished members of this Committee, it is a genuine 
pleasure to be back with you today. This is my fifth time to 
report to this Committee, and it is indeed an honor and 
privilege to represent the men and women, along with these two 
outstanding service chiefs, from the Department of the Navy.
    If I could, and take a moment to reflect on the Department 
of the Navy in terms of over those last 5 years, where we have 
been, where we are today, and where we are going. I would like 
to do that by discussing briefly where we are operationally, 
programmatically, and in personnel.

                           OPERATIONAL STATUS

    First of all, operationally, I think the last few weeks 
have proved Winston Churchill to be accurate when he said that 
the best ambassador is a warship. By having the Sailors and 
Marines in the Arabian Gulf in the last few weeks, we now have 
the possibility of an agreement that will hopefully resolve 
that issue. I think it would not have happened without the 
resolve that was shown by the forward presence of the Sailors 
and Marines in the Gulf.
    Those forces didn't need anybody's permission to be there. 
I think that puts a very strong exclamation point behind what 
we have been saying about the importance of our forward 
presence and having our Sailors and Marines forward deployed, 
getting the job done for the American people.
    But it is not just the Arabian Gulf. The same thing has 
happened with respect to Haiti; with respect to bringing the 
parties to the peace table and making the Dayton Accords 
possible for Bosnia; we brought stability in the Taiwan Strait; 
the rescue of Captain Scott O'Grady; the noncombatant 
evacuation operations that were done in Albania and Sierra Leon 
and the former Zaire. From A to Z and anywhere in between, the 
Navy and Marine Corps have answered all bells, have responded 
professionally and gotten the job done for the American people. 
I am very proud of those outstanding men and women and the fine 
job they are doing.

                          PROGRAMMATIC STATUS

    Programmatically, I want to thank you and this Committee, 
for the support that you have provided to the Department of the 
Navy. Whether it was aircraft carriers or submarines, combatant 
ships, aircraft, big deck amphibs, or support for Marines, 
Sailors and civilian personnel, you have been there. Not only 
have you supported our requests but in many cases you have 
enhanced those requests and moved procurement programs forward. 
We are grateful to you for that.
    I want to commit to you our continued work in the area of 
acquisition reform to ensure we bring the highest quality Naval 
Service at the most reasonable cost. We continue to seek the 
most cost-effective way possible to take maximum advantage of 
those dollars to provide quality for the American people.

                            PERSONNEL STATUS

    In personnel, we simply have the best ever. The men and 
women who are serving in our service today are outstanding, and 
I am very proud of them.
    We all know that several years ago we were reading adverse 
headlines about poor behavior, sexual harassment problems, a 
cheating scandal at the Naval Academy, those kinds of things. 
We recognized the problem, we attacked the problem, and I think 
we have made great headway. You are not seeing those kinds of 
incidents today. This is because we reemphasized our core 
values: honor, courage, and commitment, with training, and 
education, focusing on the importance of team work, through 
venues like the ``Crucible'' in the Marine Corps and ``Battle 
Stations'' in the Navy. From the day these Sailors and Marines 
come into the Naval Service, they are taught the importance of 
those core values and the importance of working together. In 
addition to that, and emphasizing the diversity in our officer 
ranks, we have gone back to the foundation and bedrock 
principles that have made our department the great department 
that it is, and I am very proud of the progress that we have 
made in that regard.

                                STRATEGY

    With respect to the future, I believe we have the right 
vision with our ``Forward from the Sea.'' It is something we 
decided on several years ago and continue to review but we are 
convinced that it is the right vision. We have not tried to 
reinvent ourselves every couple of years. We are focusing on 
the future and realize that recent incidents like those to 
which I just referred continue to occur, and reinforce this as 
the right vision. Yet we want to enhance it and make sure that 
we progress with the Revolution in Military Affairs and the 
Revolution in Business Affairs. We want to make sure our 
Sailors and Marines have the right platform as we look to the 
future and consider things like information warfare and 
information technology for the 21st century. We are focusing on 
the future with things like the Navy's Fleet Battle Experiments 
and the Marine Corps' Warfighting Labs; the Hunter Warrior last 
year, and the Urban Warrior that we have this year. Our efforts 
are to look to the future to ensure that we have the platforms 
and programs in place for our people.

                           BUDGET PRIORITIES

    Mr. Chairman, we are proud of this budget that we have 
presented to you today. We think it is a solid plan and 
encourage your support of it.
    If I could just emphasize a couple of platforms in terms of 
priorities. The F/A-18E/F program last year was our number one 
priority. It is again this year. That program remains on time, 
on budget, underweight, and it is moving forward well.
    CVN-77 is a must program that we have in 2001 and we 
request your advanced procurement for that. DD-21, the Land 
Attack Destroyer for the 21st Century and TBMD--it is very 
important that we continue to move forward with these programs. 
V22 and the AAAV are programs that are very important to us.
    Challenges we face, we indeed have them. Readiness. 
Readiness is in good shape for our forces that are forward 
deployed. However, we have some work to do for periods when 
these units are in a non-deployed status--as we build back up, 
getting ready for deployment.
    Retention and recruiting. We all know the economy has been 
very strong in the last several years and, indeed, there are 
many options for young men and women. That is a challenge that 
we are addressing.

                           OTHER INITIATIVES

    If I could ask for your particular support for three major 
issues, Mr. Chairman. One is the emergency supplemental that is 
before the Congress. It is very important to the Department of 
Navy that the emergency supplemental be supported without 
offsets, and I ask for your support for that.
    Secondly, base realignment and closure, another round of 
BRAC. Both the Quadrennial Defense Review and the National 
Defense Panel have looked at this issue and concluded, as the 
Secretary of Defense has, as I have, that we simply have too 
much infrastructure and we need your support for additional 
rounds of BRAC.
    Finally, we have before you, that has just arrived to the 
Congress, a reprogramming request for manpower and personnel 
totaling $220 million. We request that reprogramming to take 
care of our people. We have some permanent change of station 
orders and other home port changes affecting almost 14,000 of 
our people and we sincerely request your support of that 
reprogramming for fiscal year 1998.
    Finally, Mr. Chairman, I want to thank you again for the 
support this committee has provided the Department of the Navy. 
We really appreciate what you have done and continue to do for 
our people. I am very proud to be here this morning to 
represent the Sailors and Marines and civilians of the 
Department of the Navy, and I would be happy to respond to your 
questions.
    [Clerk's note.--The statement of Secretary Dalton follows. 
The Fiscal Year 1999 Joint Posture Statement of the Secretary 
of the Navy, the Chief of Naval Operations, and the Commandant 
of the Marine Corps is printed at the end of this hearing. See 
page 370.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Young. Mr. Secretary, thank you very much. And as you 
have stated, in recent years we have been able to add to the 
President's budget and we have been able to accelerate some of 
your programs and move them ahead. We are all pretty much aware 
that this year is a little different. We don't have that 
cushion of additional money over the budget. So we are going to 
have to work very closely to make sure that the priority items 
are taken care of.
    Again, thank you for your statement.
    Admiral Johnson, I would be happy to hear from you at this 
time.

                  Summary Statement of Admiral Johnson

    Admiral Johnson. Thank you, Mr. Chairman. Mr. Dicks, 
members of the Committee, I appreciate the opportunity to 
appear before the committee once again, and I would only add 
very briefly that I share the Secretary's enthusiasm for our 
Navy and Marine Corps team. I am very intensely proud of our 
Navy, what they are doing, and what they represent for our 
country right now.
    We have had a good year. We are planning to have another 
one, and your support is fundamental to that and we appreciate 
what you did for us in the past year. We are on station, as you 
know, out forward, where we belong. We will stay on station as 
long as the country needs us out there.
    And I have spoken to our commanders only today. They are 
taking a nice even stream out in the Arabian Gulf. They are 
ready and they will stay ready. They are very proud of what 
they are doing.

                           BUDGET PRIORITIES

    As to the budget, it is indeed a good and balanced budget. 
I believe it reflects a lot of good team work. It also is 
reflective of the work that we did in the Quadrennial Defense 
Review, and I think that is significant because we were part 
and parcel of that whole process. Indeed, it reflects a 
reshaping of our Navy into what I call a leaner but more 
capable Navy.
    We focused a lot of our effort and our investment on 
filling our operating and maintenance accounts, filling our 
manpower accounts and solidifying our procurement strategy in a 
way that we think is very balanced and will serve the Navy 
properly in the 21st century.
    Once again, sir, I too am very grateful for the support of 
the committee here in Washington, and I am also particularly 
grateful for the time and effort the members of the committee 
spend out forward with our men and women, telling them thank 
you. It means a lot to all of us. And I stand by for your 
questions.
    Mr. Young. Admiral, thank you very much.
    General Krulak, we would like to hear from you at this 
time, sir.

                  Summary Statement of General Krulak

    General Krulak. Chairman Young, Mr. Dicks, distinguished 
members of the Committee, I think you have my written 
statement. I wrote it myself so all the misspellings are mine. 
Rather than take any time, I am prepared for your questions.
    [The statement or General Krulak follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     ADVERSE IMPACT OF DEPLOYMENTS

    Mr. Young. I would like to first--thank you very much, 
General.
    I would like to get into the question that was raised in a 
story in the Washington Post yesterday about the increased 
deployment of carriers and other combatants in the Gulf region 
taking away from the Pacific. And General Tilelli was quoted 
several times in the story expressing some concern.
    Where do we stand there? We understand the need for the 
presence in the Gulf area but what is that doing to the rest of 
our commitment?
    Admiral Johnson. Well, Mr. Chairman, we have, as you well 
know, a two-carrier battle group presence in the Arabian Gulf 
right now, and that does indeed mean that we are without 
carriers in both the Mediterranean and the western Pacific. 
With a 12-carrier force and a 6-month deployment policy that we 
believe is good and proper, it means we have to share the risk, 
and that is what you see here.
    To that end we have, in fact, on both coasts, the next 
carrier battle groups to deploy in what we call a ``surge 
status'' so that they are in an increased state of readiness. 
They are able to respond on short notice if required. But 
indeed there is a gap in both places right now.
    General Krulak. Sir, for the Marine Corps, we have, with 
the permission and concurrence of both General Tilelli and 
CINCPAC Admiral Prucher, we have moved the 31st Marine 
Expeditionary Unit ARG down into the Indonesia area so that it 
can go either way. We pulled the new Amphibious Ready Group, 
(ARG) out of the Mediterranean, put it into the northern 
Arabian Gulf and we have standing by at Camp Lejeune, an MPF 
fly-in echelon that would fly in to join with Maritime 
Prepositioning Force, (MPF) ships that are currently acting as 
the reserve for EUCOM.
    So we are covered all around.

                          SIX-MONTH ROTATIONS

    Mr. Young. Let me ask, what is the effect of the normal 6-
month rotation? Is that going to be affected or will the 
deployments be longer than 6 months now?
    Secretary Dalton. Mr. Chairman, we learned some valuable 
lessons from the hollow force that we experienced in the 
seventies by extending deployments beyond their schedules. We 
have learned that 6 months is about the right length of a 
deployment. People come in the Navy and Marine Corps to deploy 
and go to sea, but we also know that predictability is very 
important to our people. If we leave for a 6-month deployment, 
the expectation is that we are going to keep to that, and we 
have an excellent record of keeping those deployments to 6 
months.
    Obviously, if the situation becomes aggravated and we need 
to respond, then that is what we are there to do and we will do 
what we need to do for the Nation. However, as things stand 
today, we will make every effort to continue to meet those 6-
month deployments, and once our Sailors and Marines get home, 
there is a 2 to 1 turnaround. They are home for a year before 
they are asked to go back, and we give them the opportunity to 
be at home for at least 50 percent of the time over a 5-year 
period. This has worked well and is something our people like 
and we have found is in the best interest of retention.
    So, near term, we see no reason to change that. The current 
situation does not call for a change.

                    COST OF PERSIAN GULF DEPLOYMENTS

    Mr. Young. Mr. Secretary, the Speaker has organized a group 
in the House of certain Members who deal with national defense, 
national security issues, to meet with Secretary Albright, 
Secretary Cohen, Mr. Berger, and General Shelton. And we have 
had several meetings in the last couple of weeks. And one of 
the questions that I keep raising at these meetings is the cost 
of the deployment to the Gulf region. No one has been able to 
give us any kind of an answer on what the costs might be, 
whether we bomb Saddam or whether we just stay in the area.
    Can you give us any idea what the additional costs will be 
to the Navy and the Marine Corps for this deployment?
    Secretary Dalton. Mr. Chairman, deploying for 6 months at a 
time is what we do. As the CNO pointed out, those carriers are 
in a 2.0 presence in the Gulf today. If they were not there, 
they would be someplace else, in the Med or the western 
Pacific.
    So one of the things that we talk about is the fact that 
when you approve our budget, with that sticker price includes 
our ability to deploy and be forward--have a forward presence 
and get the job done.
    Obviously, if we are extending beyond our plan, there is 
going to be additional costs. To date, that is not a problem, 
but it certainly could be a problem if we have to surge 
forward, as the CNO indicated, and send more of our people to 
sea earlier. We would expend more resources, in which case we 
would be addressing our needs in a supplemental request.
    Mr. Young. So I think what you are telling me is that 
because the Navy and Marine Corps are basically a deployable 
force at any given time, peace or no peace, that unless you 
start to use up a lot of ammunition and fire a lot of missiles 
and do a lot of things like this, that you are not going to be 
the big cost to the deployment; it will be another service?
    Secretary Dalton. Well, Mr. Chairman, there are marginal 
costs associated with this, and let me ask the CNO to address 
that.
    Admiral Johnson. Well, just to follow on what the Secretary 
said, as you know, for instance, with our ships, sir, we 
program 50.5 steaming days per quarter. That is the sticker 
price, if you will. At the present time, given the circumstance 
in the Gulf, we are steaming those ships at a rate nominally 
between 70 and 75 days a quarter. So there is, indeed, a 
marginal cost increase for that level of operation, even though 
it is in the bounds of the 6-month deployment and all that we 
have talked about before. So there will be some incremental 
costs.
    If you ask for a specific figure, I could tell you today it 
is about $130 million, but that is a very soft number. We will 
provide you specifics as things evolve, and we will give that 
to you for the record, sir.
    [The information follows:]

    The Navy's budget for FY 1998 included funding to operate one 
Carrier Battle Group (CVBG) for three quarters of the year and one 
Amphibious Readiness Group (ARG) in the Arabian Gulf for about one half 
of the year (189 days). The increased cost associated with operating 
two CVBGs and one ARG for the remainder of the year is estimated to be 
$209 million. This includes increased levels of flying and steaming 
($150 million), transportation and equipment ($31 million), and 
additional military personnel costs ($28 million) for imminent danger 
pay and reservist activation. This estimate is included in the 
Department of the Navy's portion of the Emergency Supplemental request 
currently before Congress.

    Mr. Young. Okay. Thank you very much.
    Mr. Dicks.

                               RECRUITING

    Mr. Dicks. Again, I want to welcome you. I noticed in 
Secretary Dalton's statement, that the Navy is having a problem 
with recruiting. In the first 2 months of 1998, Navy recruiting 
accessed only 91 percent of goal. If that trend continues 
through fiscal year 1998, it may lead to an annual accession 
goal shortfall of 4,000 personnel. I noticed the Marine Corps 
doesn't seem to have that problem.
    What are we trying to do about that?
    Secretary Dalton. We are addressing that issue, Mr. Dicks. 
As I mentioned in my statement, I think in large measure the 
background for that problem is the strong economy. People are 
finding jobs in the local area as opposed to considering 
options that include the military service. Also the propensity 
to enlist is down. When those of us here were growing up, we 
had fathers, uncles, and relatives who had served in the 
military. That number is much lower today and people don't have 
role models to look to who have served. Those things have 
caused the propensity to enlist to be lower.
    However we have addressed this issue from the standpoint of 
enhancing our advertising budget by some $15 million. We are 
putting more recruiters in the field and supplying additional 
funds for college funds, to offer educational opportunities. 
Just recently, in February, I signed out letters to every high 
school principal in the country that our local recruiters will 
take to the high schools and present to the principals. The 
letters show the opportunities for their high school graduates 
who go into the Navy or Marine Corps. It is a personal one-on-
one approach to try to get us in doors that we have not been in 
before.
    I talked about individuals not having role models. Many of 
our administrators in schools also don't have the same support 
for our military in terms of offering or speaking out and 
offering opportunities for those high school students.
    One other initiative is we were asking newly promoted 
admirals and generals to return to their high schools, present 
the case of their own careers and explain how fulfilling their 
careers have been in the Navy and Marine Corps, addressing 
people that are sitting in the same seats where they sat 
before. It is a good opportunity for them to show what a career 
in the Navy and Marine Corps can be.
    So we are attacking this. We recognize it is going to be a 
challenge but I think we are addressing it and I feel good 
about our approach.
    Let me ask the CNO if you would like to expand on that.
    Admiral Johnson. Only to add, sir, the Secretary said it 
well, and I share his concerns. I am troubled by things like 
this propensity to enlist. The last numbers I saw show a very 
distinct trend line down to where the propensity for service is 
in the 10 percent range, which is really low. So I think it is 
a national concern that we all need to share.
    We are working very hard, stabilizing the recruiting force. 
We have great recruiters out there. We provide a quality 
product for the sons and daughters that come aboard, but it is 
a very challenging environment. I do not think that is going to 
change. So we have got our work cut out for us.

                           F/A-18E/F AIRCRAFT

    Mr. Dicks. Good.
    Well, I encourage you to do everything you can. It sounds 
like you are doing a lot.
    The Navy has requested $3.2 billion for the F/A-18E/F, for 
continued RDT&E and the purchase of 30 aircraft, which I 
strongly support. I have been briefed on the wing drop issue, 
and I know that Congressman Cunningham is our test pilot for 
this subcommittee. I am convinced that the Navy is very close 
to developing a fix to this problem that will not impact the 
costs or schedule of the program. And I commend the Navy 
leadership for its diligence and forthrightness on the matter.
    The Navy has been experimenting with several, I think 
three, different fixes to the wing drop problem. Has a decision 
been made as to which one will be incorporated on the aircraft? 
And if it hasn't, when will there be a decision made?
    Secretary Dalton. Mr. Dicks, just to reemphasize just how 
important this program is, it really is--the high priority for 
this year's budget.
    The program is doing well. As I said, it is on time, on 
budget, underweight. We have the issue of the wing drop, which 
I would like to ask the CNO to address, but first of all I want 
to thank Congressman Cunningham for taking the time and going 
down to fly that aircraft. It really shows great interest and 
support and we are grateful to you, Mr. Cunningham.
    Mr. Dicks. I am glad you didn't say ``courage,'' because 
there might be an implication there was something wrong.
    Secretary Dalton. It was a completely safe flight. I think 
he will be happy to address that. But let me ask the CNO to 
speak to that.
    Admiral Johnson. The specific answer, Mr. Dicks, is that we 
believe the pathway now is taking us to the wingdrop solution. 
We are marching forward with a combination of flight tests, 
fluid dynamics, wind tunnel testing and an independent blue 
ribbon panel verification to lock all of that in by 12 March at 
the Navy program review.
    That is when we will have this. We believe it will be done 
and gone away then. It will be within budget. There won't be 
any impact to the program and we will be off and running again. 
It is a very solid program.
    Mr. Dicks. Now, we have all had our problems with the GAO. 
Sometimes we like what they say, sometimes we don't. GAO has 
alleged, and I understand that a lot of their information is 
outdated, in addition to the wing drop problem, the aircraft is 
faced with other problems including signature, cost, engine 
capability, and the ability of the aircraft to properly 
dispense munitions. Now I have seen nothing in the briefings I 
have received to substantiate any of the GAO claims.
    In your judgment, is there any validity to these charges or 
could you at least give us, for the record an answer to what 
the GAO has alleged about the F/A-18E/F?
    Admiral Johnson. Yes, sir.
    Mr. Dicks. Any comments you want to make now?
    Admiral Johnson. There are no show stoppers in there, no 
surprises. We opened everything we had to the GAO. They were 
with our folks for months putting that product together. So we 
will provide you, as we are doing right now, a point by point 
explanation, if you will, of the issues that arose.
    [The information follows:]

    The following information is the Department of Defense (DoD) 
response to the General Accounting Office (GAO) draft report, ``NAVAL 
AVIATION: F/A-18E/F Development and Production Issues,'' dated January 
8, 1998 (GAO Code 707258/OSD Case 1517).
    1. WING DROP (PAGE 10).--GAO States: ``To Navy and Boeing 
officials, wing drop is the most challenging technical risk to the F/A-
18E/F program. The deficiency has been classified by Boeing and the 
Program Risk Advisory Board (PRAB) as a medium technical, schedule, and 
cost risk to the low rate production phase of the E/F program. Program 
officials consider it a high risk deficiency.''
    DoD Response: The PRAB had consistently classified wing drop as 
medium risk and considers it equal to other medium-risk items. The 
December PRAB reclassified wing drop as ``high'', reflecting the fact 
that no single wing modification at that time had completely resolved 
the problem. The second Blue Ribbon Panel, which met in January 1998, 
indicated that a variety of promising solutions were identified that 
mitigate the wing drop problem. All are relatively minor changes to the 
basic wing and do not involve redesign of the wing box. The Panel 
stated that there is considerable risk that all of the essential tests 
(needed to determine the optimum configuration and assess performance 
impacts) cannot be completed by the ``target completion date'' of March 
1, 1998, and recommended extending future tests to investigate some 
additional potential fixes. The panel erroneously considered March 1, 
1998, to be a milestone date for resolution of the wing drop problem. 
The Department is confident that a cost-effective solution to wing drop 
will be demonstrated and validated on a schedule permitting a timely 
decision on additional production aircraft.
    2. NEW TECHNOLOGY (PAGE 14).--GAO States: ``The ITT (Integrated 
Test Team) has documented new technology anomalies that could 
negatively affect the new technology features to be incorporated into 
the aircraft. Boeing and the Navy have stated that there is currently 
no definitive answer as to the impact these changes will have on the 
reduced radar cross section of the E/F. They believe that the F/A-18E/F 
will have unacceptable operational test and evaluation results if the 
fixes do not work. However, if the fixes do work, they need to be 
included on the aircraft being produced under the first lot of low-rate 
initial production, because these aircraft will be used for operational 
test and evaluation. If these fixes are not included, it is likely that 
operational evaluation will be unacceptable.''
    DoD Response: The program is committed to implementing all required 
LRIP aircraft fixes prior to operational test and evaluation. 
Significant design margin in radar cross section (RCS), successful EMD 
weapon system RCS specification tests, accurate signature predictions, 
and the defects test data all support our conclusions.
    Prior to the formulating of candidate modifications to solve the 
wing drop problem, the F/A-18 E5 aircraft was flown on the RCS range to 
dynamically measure in-flight RCS. F/A-18 E5 successfully passed the 
RCS specification test. This demonstration occurred 16 months ahead of 
schedule without any retesting required. F/A-18 E5 predicted signature 
levels correlated extremely well with the measured flight test RCS 
date. This same approach will be taken to investigate the RCS impacts 
of any future revisions to the aircraft design. The effects of the 
solution to the wing drop problem on RCS are under evaluation as that 
solution is developed.
    Using full scale models to evaluate the effect of defects to RCS 
degradation has determined that the F/A-18E/F weapon system RCS overall 
is very robust. Moderate degradation due to damaged or missing form in 
place seals, radar absorbing material (RAM), blade seals, and trailing 
edge boots can be tolerated without significant degradation to the 
aircraft's RCS.
    Forward fuselage and Aft/Center Fuselage RCS model degradation 
testing has been completed. With the exception of the windshield 
changes, (where the signature effects are mitigated with RAM and R-
card), none of the problems (seals, latches, special coatings) 
referenced would result in a significant change to the aircraft 
signature.
    The materials and processes used to reduce the signature of the F/
A-18E/F aircraft have been very successful, and many advances have been 
made over previous low observables aircraft.
    Development and evaluation of F/A-18E/F during EMD have been 
successful thus far. Simulation and analysis estimates of aircraft 
signature have been borne out well in flight testing. Consequently, 
there is confidence that these predictive tools will help resolve any 
RCS issues that might arise as a result of incorporating solutions to 
the wing drop problem.
    3. F/A-18E/F COST ESTIMATE (PAGE 19).--GAO Stated: ``The Navy has 
consistently maintained that the F/A-18E/F will be developed and 
produced within the cost estimates established for the program. 
However, certain key assumptions on which F/A-18E/F cost estimates were 
based have been overcome by events. These assumptions related to such 
things as: no unanticipated issues during the development program; the 
number of aircraft to be bought, in total and on an annual basis; the 
ratio of the ``E'' and ``F'' models to the total number of aircraft to 
be bought; and inflation factors to be used in projecting future year 
costs.''
    DoD Response: The F/A-18E/F development cost goal is $4.88 billion 
in (FY90$). The current F/A-18E/F budget is $48 million (FY90$) below 
the goal. The Department considers that sufficient margin remains for 
technical issues now being addressed, including wing drop.
    4. COST (PAGE 5) GAO States: ``The Navy's F/A-18E/F unit 
procurement cost estimates are understated. These cost estimates were 
based on what has become unrealistically high quantities of E/F 
aircraft that will be bought; the Navy's not factoring not factoring in 
the cost effect of its decision to buy more of the higher cost F models 
than was factored into the original cost estimates; and unrealistically 
low out-year inflation factors for aircraft to be purchased in the 
later years. More realistic assumptions indicate that, although the 
total procurement cost will decrease, the F/A-18E/F unit cost will be 
more than the Navy currently estimates,''
    DoD Response: The Office of the Secretary of Defense (OSD) Cost 
Analysis Improvement Group (CAIG) conducted an independent review of 
program cost estimates in March 1997. Their results were within 1% of 
the program office budget estimate for Engineering and Manufacturing 
Development (EMD), 6% for production, and 3% for operations and 
support. In accordance with Quadrennial Defense Review (QDR) direction, 
program quantity was reduced from 1000 to a minimum of 548 aircraft 
with a reduction in total program cost of $21.7 billion (FY97$). As 
expected, the unit procurement cost of the aircraft increased. The 
decision in FY97 to replace F-14s with the F/A-18F (two seat model) was 
accounted for in the CAIG's estimates as well as the program office 
estimate. The President's Budget prepared by the program office and 
submitted by OSD reflected the increased quantities of ``F''s and the 
reduction in total number of aircraft. The Department agrees with the 
related unit procurement cost change to $64 million (FY97$). The 
program cost estimate shows differences with the Congressional Budget 
Office (CBO) projection of $73.1 million (FY97$). These differences are 
seen in the CBO projection of support costs where they use historical 
F/A-18C/D numbers. The F/A-18E/F estimates takes advantage of projected 
F/A-18C/D commonality savings.
    5. ENGINE CHALLENGES (PAGE 14).--GAO States: ``The Program Risk 
Advisory Board has identified engine-related issues, including engine 
warm-up time required before carrier launch, partial engine flameouts 
during some flight tests, visible engine smoke, and engine failures 
during flight.''
    DoD Response: Engine warm up. Potential solutions for this problem 
have been identified and include Full Authority Digital Engine Control 
(FADEC) software changes, as well as hardware rework to eliminate ``W'' 
seal leakage. Testing is being conducted on engines at General Electric 
and Patuxent River in January 1998 to verify potential solutions. The 
solutions will be incorporated in OT-IIB flight test engines, as well 
as all production engines.
    Flameouts. Partial flameouts have been detected by the FADEC during 
some throttle transients on engines equipped with the ``low smoke'' 
combustor. These flameouts are not detected by the pilot and represent 
no operational impact. The FADEC detected partial flameout results when 
the flame at several lean-flowing nozzles momentarily goes out. The 
flamed-out nozzles are quickly re-lit by the continued burning at 
either the adjacent nozzles or the single rich flowing nozzle, as 
designed. Potential solutions include revising the FADEC's flameout 
detection algorithm or modifying the engine deceleration schedule in 
the FADEC. These have been tested in ground tests and shown to be 
effective.
    Visible Engine Smoke. The visible engine exhaust issue has been 
resolved for some time. Two ``low smoke'' combustor configured engines 
have been flight tested and have demonstrated engine exhaust plume 
visibility to be the same as, or better than, the F404 engine in the F/
A-18C/D.
    Engine Failures. The F414 development program has encountered no 
significant hardware failures beyond what is normally expected during 
any development program. The only significant failure was a compressor 
stator failure in November 1996. Analysis showed the cause to be a 
design change incorporated into the stage 6 stator of some of the 
flight test engines. All engines were retrofitted to the original 
design with no subsequent problems. No further stage 6 failures have 
been experienced with the original design stator.
    6. WEAPON SEPARATION PROBLEMS (PAGE 16).--GAO States: ``In recent 
flight tests during November and December 1997, bomb-to-bomb collisions 
occurred when releasing certain weapons. In addition to the weapons 
separations problem, recent tests have revealed that noise and 
vibration may cause structural damage to stores being carried under the 
wing. Currently, this problem is resulting in speed limitations on the 
aircraft when carrying certain weapons.''
    DoD Response: Weapons separation and bomb-to-bomb collision 
challenges are a part of every aircraft designed to deliver air-to-
ground ordnance. These problems have been fixed through a combination 
of towed pylons and stores release software (modifying minimum release 
interval) incorporated into the Stores Management System. The issue of 
noise and vibration is limited to the outboard pylon on each wing and 
to the MK-83 Conical Fin Assembly, which is susceptible to fatigue 
cracks in a very narrow Mach/altitude regime. This problem has been 
mitigated through use of the BSU-85 bomb stabilizing unit fin with no 
tactical impact. There are no current flight restrictions (speed or 
altitude) in place or anticipated, and there is no tactical 
significance associated with the minimum release interval adjustments.
    7. HORIZONTAL STABILATOR DELAMINATIONS (PAGE 17).--GAO States: ``A 
redesign of the horizontal stabilator for the low-rate initial 
production aircraft was completed in October 1996 and is currently 
undergoing testing. In November 1997, a delamination occurred during 
testing of the redesigned stabilator. This resulted in a decision to 
stop production pending completion of a review of the delamination 
problem. Production is estimated to resume in February 1998.''
    DoD Response: Since November 1997, additional coupon and element 
testing with subsequent analysis has led to the conclusion that the 
original EMD stabilator design with fasteners is capable of a full 
flight envelope following a maximum load test. The EMD aircraft are in 
the process of completing this test and the LRIP 1 aircraft that will 
have the same design, will have stabilators tested prior to delivery. 
For LRIP 2 and beyond, a slightly redesigned stabilator is now in full 
scale test, to be completed this summer. When completed, this will 
allow full flight envelope without the maximum load test. This plan has 
negligible cost or schedule impact to the program.
    8. VERTICAL TAIL DEFICIENCIES (PAGE 18).--GAO States: ``The F/A-
18E/F vertical tail has not been certified because it experienced 
deficencies during testing early in the test cycle. This deficiency has 
been classified by both Boeing and the PRAB as a medium technical risk 
to the low-rate initial production phase of the F/A-18E/F program.''
    DoD Response: The first failures experienced during testing were of 
subsystem components. These components were installed in the test 
article to achieve accurate mass representation of a fully assembled 
tail. Certification of these components was not an objective of the 
test, and technically the failures were non-relevant. The team treated 
the failures as relevant and revised the design of these components 
such that the stress level in each component and its mounting was at or 
below the endurance level by analysis; that is, by analysis we now show 
no flight hour restrictions on these items.
    All components of the tail which completed the two lifetimes of 
testing without failure are considered certified by test with no 
additional substantiating analysis required. No new parts were added 
during the second lifetime; therefore, all components that were 
modified or added by the start of the second lifetime have undergone 
one full lifetime of testing and are considered certified by test for 
3,000 hours. Additional analyses, taking into account the failures 
experienced during the first lifetime of fatigue testing, show that the 
vertical tail redesign is good for 24,000 hours. This will be submitted 
along with the final test report to certify the part meets the full 
6,000-hour life requirement.
    9. PERFORMANCE RESULTS IN BRIEF (PAGE 3).--GAO States: There are 
numerous deficiencies relative to the aircraft's operational 
performance, and that the most technically challenging is wing drop.
    DoD Response: Finding discrepancies from predicted performance is 
the purpose of flight testing. The F/A-18E/F is meeting or exceeding 
all Key Performance Parameters called for in the Operational 
Requirements Document (ORD).
    10. RESULTS IN BRIEF (PAGE 4).--GAO States: ``In July 1997, a Navy 
board that assesses risk areas in the E/F program stated that 
operational testing may determine that the aircraft is not 
operationally effective or suitable. According to program officials, 
this assessment means that the F/A-18E/F may not be as capable in a 
number of operational performance areas as the most recently procured 
F/A-18C aircraft.''
    DoD Response: the F/A-18E/F ORD defines performance requirements. 
That document was revalidated by the Joint Requirements Oversight 
Council (JROC) on March 7, 1997. Specific quantifiable parameters--such 
as speed, acceleration, maneuvering energy (P<INF>S</INF>)--are used as 
requirements. In other areas, a more subjective ``as good as or better 
than AC/D'' is identified. The Program Risk Advisory Board (PRAB) 
identified acceleration and P<INF>S</INF> in the ORD as key performance 
parameters (KPPs) that are being met with margin, but are slightly less 
than that of a F/A-18C/D, as potential risk factors. Trades made in 
designing an overall more capable F/A-18E/F aircraft required 
performance trades in certain areas. The OT-IIA operational assessment, 
the first in which operational testers flew the E/F aircraft, found 
that the slight reduction in acceleration and P<INF>S</INF> had no 
significant tactical impact.

    Mr. Cunningham. Would the gentleman yield?
    Mr. Dicks. Yes, I yield.

                          F/A-18F TEST FLIGHT

    Mr. Cunningham. First of all, Norm, I took the airplane up 
to 45,000 feet in a pretty high angle of attack and they told 
me to go to burner, to idle, to burner, and I said, no, because 
if you do that in any other airplane you are going to flame the 
thing out.
    I had no engine problems and I went from idle to burner, 
selected turn, yaw on the airplane, and the engines held. And 
not only that, they outperformed the F/A-18C/D in every 
circumstance; in climb, in acceleration, at different 
altitudes. As a matter of fact, when I climbed to 45,000, I had 
the C/D stay down below because I had to come home when the 
other plane did and he had about 3 to 4,000 pounds less fuel 
than I did by the end of that time. So we kept him.
    But in all of those areas, in the engine drop--in the 
weapons drop, what you do is, if you got that many stores and 
they are dropping off, you want to make sure they don't 
collide, especially if they are electrically fused. All you do 
is take your accelerometer and you delay, different delays on 
those things coming off. And then you have to do the study when 
you hit the target, does that affect, you know, the PK or the 
kill probability of the target and stuff. They are working on 
addressing those issues.
    But I want to tell you that I flew--and for the Committee, 
every airplane going through the test cycle, for example, the 
F-5 when I tested it, had something called inverted pitch hang-
up. I mean you couldn't do that in a wind tunnel. It still has 
it, but you know about it. It is no problem. The F-16 hit deep 
stall condition. They lost some airplanes with that.
    I tested that airplane with the F-110 engine because it had 
a further FCG. They put an NPO switch in the thing to control 
it.
    I have flown a lot of airplanes in test scenarios and I 
have never come back with one that I was so pleased with. And 
you know how strong I am on the F-14?
    Mr. Dicks. Right.
    Mr. Cunningham. I would rather fly the F-18F than the F-14.
    Mr. Lewis. Did you get your flight pay?
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. Thank you, Mr. Dicks.
    Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.
    Welcome, gentlemen.
    Mr. Young. Excuse me just a minute, Mr. Lewis. I just want 
to say it is not every chairman that has his own test pilot to 
send out on missions like this, and we are real pleased to have 
Duke. And his report when he came back from that flight was 
very, very optimistic.
    Mr. Cunningham. Can I move up a few chairs?
    Mr. Young. Mr. Lewis.

                         VISITS TO HIGH SCHOOLS

    Mr. Lewis. Admiral Johnson, what is your high school?
    Admiral Johnson. I went to West Salem High School in 
Louisana.
    Mr. Lewis. I wanted to follow up on the Secretary's earlier 
comments when he said that the recruiters were going out to 
their high schools.
    Admiral Johnson. Yes, sir. I was the guest speaker at the 
high school graduation last year. It was one of the biggest 
thrills of my life.
    Mr. Lewis. You and General Krulak are the kind of symbol we 
need out there to encourage those people to sign up, so I am 
excited to hear about your efforts.
    Admiral Johnson. Yes, sir.

             IMPACT OF BOSNIA AND PERSIAN GULF DEPLOYMENTS

    Mr. Lewis. Bosnia seems to be with us forever, and combined 
with the recent buildup in the Persian Gulf, raises questions 
about the Navy and the Marine Corps having adequate equipment 
and personnel resources to fulfill their share of the current 
national security commitments. Can you both comment on that, 
Bosnia and the Persian Gulf?
    Admiral Johnson. Yes, sir.
    Secretary Dalton. Sir, we feel very positive about where we 
are with the Navy and Marine Corps. Our men and women are 
working hard and doing a great job and this committee and this 
Congress have been very supportive of our request. We are 
getting the job done.
    Our troops that are forward deployed, our Sailors and 
Marines are ready and they are on capable platforms. They are 
well trained and are getting the job done. So I feel very good 
about where we are today and where we are going.
    Obviously, as I mentioned in my statement, those forward-
deployed forces are doing well. We have some challenges with 
respect to readiness of those that are not out there, ready to 
go, and the CNO, the Commandant, and I are addressing those. 
Let me ask them to expand on that.
    Admiral Johnson. I would add, sir, that the nondeployed 
side of our lives is where the focus of effort is being placed 
right now. That gets back to your point on adequate resourcing 
and it gets to the readiness aspect.
    You know that the Navy and the Marine Corps, by the nature 
of our rotational business, we work ourselves up to a 
deployment level of readiness and then when we come back from 
that deployment, we step off the readiness, by design, and then 
work ourselves back up.
    I describe that as a bathtub. And if you picture that 
bathtub in your mind, what we are really seeing on the 
nondeployed side of our lives is that the bathtub, in readiness 
terms, is getting deeper and the climb out comes later and it 
is steeper. We get back to the readiness we need for 
deployment, but it is challenging to do that. That is why we 
have reshaped ourselves in the Quadrennial Defense Review. That 
is why we have taken the investment that we are saving by the 
reshape and putting it into the operating and maintenance and 
manpower accounts to fix that.
    General Krulak. Sir, let me answer. There is no single 
Service, nor a Service Chief, who appreciates this Committee 
more than the Marine Corps and Chuck Krulak, because without 
your support, certainly over the last years that I have been 
the Commandant, our position and our posture would be far worse 
than it is now.
    I agree with both the Secretary and the CNO regarding our 
readiness of the forward deployed forces. It is top notch. I 
reiterate what I have said now for the third time in front of 
this committee: We are underfunded in procurement. Because of 
that underfunding, we have systems, whether it is the AAV or 
whether it is a generator, whether it is the truck, whether it 
is a HMMWV, that are beyond their service life. As a result, 
the bathtub that the CNO so well described is there in spades 
for us. The Marine works 18 hours a day, the lights are never 
off in the hangar bays, they are never off in the maintenance 
bays, and we must solve the procurement shortfall.
    We have taken some big steps. I think you see it reflected 
in this budget that is on the Hill as a result of the QDR. We 
have been able to raise our procurement. We are still a half a 
billion dollars short of where we need to be.
    Mr. Lewis. Mr. Secretary, both gentlemen have responded but 
I am not sure they took us right to the heart of my question. 
We have ongoing presence in two very serious locations. Bosnia 
does seem to go on forever. I would like to have you be a 
little more specific about what deficiencies you see in the 
Navy and the Marine Corps forces in view of this present 
circumstance.
    General Krulak. I think that those, from the Marine 
standpoint, for those that are both in the Gulf and are 
participating in the Bosnia situation, they are forward-
deployed forces and they are ready to go. It is, again, what 
happens to them when they come back; and that is this issue of 
can we get them back on the step, get their equipment back up 
and get them ready to go for the next contingency.
    It gets tougher every year. I think the Navy would feel the 
same way.
    Admiral Johnson. And I think the other thing I would add, 
Mr. Lewis, from a slightly different angle, is to reiterate the 
point that because our focus of effort right now for the 
carriers and the battle groups and the amphibious ready groups, 
as Chuck described is in the Arabian Gulf, we are unable to 
service the requirement in the Mediterranean and some of the 
other theaters. So there is a cost there, if you will.

                       UNFUNDED BUDGET PRIORITIES

    Mr. Lewis. Let me follow up just one line that relates to 
the same question. Secretary Dalton, would you describe for the 
Committee the Department of the Navy's top unfunded priorities 
and why the fiscal year 1999 budget is not sufficient in those 
areas?
    Secretary Dalton. Mr. Lewis, if I could take that for the 
record, I would appreciate it, sir.
    Mr. Lewis. Can you give us anything on the record at this 
point?
    Secretary Dalton. I don't know of anything off the top of 
my head, sir. This budget, as I indicated in my statement, is a 
solid plan. Obviously, there are constrained resources with 
which we are dealing. This body has made it clear they wanted 
to balance the budget and we support that. However, with that, 
you can't do everything you might like to do. But this is a 
solid plan. It reflects our priorities that are expressed and 
we think--we ask for your support of this budget. We think it 
will get us where we need to be. With respect to any shortfall, 
nothing occurs to me but I would be happy to review it and 
respond for the record.
    [The information follows:]

    The Department of the Navy's top priorities have not changed in 
recent years. Readiness, quality of life and modernization issues 
remain our highest priorities, in that order. In prioritizing our 
fiscal year 1999 funding the Department has dedicated the resources 
needed to maintain a high level of readiness and sustainability, thus 
allowing more realistic and stable commitments to the capabilities 
needed to defeat future threats.
    With that in mind, I would first stress that I do consider our 
budget sufficient in all these areas. There are always, however, 
instances where more resources would be beneficial. The Chief of Naval 
Operations and Commandant of the Marine Corps have developed lists of 
their top unfunded priorities. I support their views. However, I wish 
to emphasize that our fiscal year 1999 budget request is finely 
balanced and our first priority is to get the budget approved as 
submitted, including the amendment for contingency operations. We can 
not afford general reductions and don't desire priority changes. Any 
additional funds over and above that could be applied to the priorities 
provided by my Service Chiefs.

    Mr. Lewis. Well, Mr. Secretary, let me say that there is 
one responsibility that we have relative to the Federal 
Government's role and that is securing our national defense. 
You share that with us.
    Secretary Dalton. Absolutely.
    Mr. Lewis. But we need to know up front and in clear terms 
where the deficiencies are, for it is my own personal view that 
we have gone way beyond the pale relative to shortfalls and 
this Committee certainly should not be hesitant to discuss 
those shortfalls with us. I know that you are not, but, you 
know, this is the first hearing, not the last hearing of the 
year. Some of them will be open, some of them will not. We will 
be coming back this afternoon, I presume, Mr. Chairman, and 
maybe we can discuss some of these things further. Thank you 
for the time.
    Mr. Young. We will have a closed session this afternoon on 
acquisition.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Young. Mr. Skeen.
    Mr. Skeen. I yield my turn, Mr. Chairman.
    Mr. Young. Okay. Mr. Bonilla.

                             V-22 AIRCRAFT

    Mr. Bonilla. Thank you very much, Mr. Chairman. Gentlemen, 
good morning.
    General Krulak, I would like to start out, if I could, with 
a question about the V-22 because you talk about the benefits--
--
    General Krulak. Yes, sir.
    Mr. Bonilla. Of having accelerated production.
    General Krulak. Yes, sir.
    Mr. Bonilla. And the upcoming budget proposes a budget 
reduction in procurement from last year's appropriated levels. 
So my question is: Isn't that the wrong request? Shouldn't we 
continue to have accelerated production of the V-22?
    General Krulak. Sir, as a result of the QDR, I think you 
are aware we are, in fact, increasing the numbers of V-22s over 
the FYDP. We are getting a plus-up of 11. We reach at FY 04 the 
mark of 30 a year. This particular year is a very tough one. We 
did the very best we can, but if you see, we have, in fact, put 
the money against a very good ramp that will take us, as I 
indicated, in 04, to 30 a year.
    I look at the V-22 almost like the Phoenix that has arisen 
from the ashes multiple times. And so to be honest, I am really 
excited about this. I wish we could go quicker, but I think 
that it is a credit to the administration, the Congress, that 
in fact we are now seeing this remarkable capability finally 
entering and finally with full support.
    Mr. Bonilla. Well, I appreciate your comments about the V-
22 and, as I have stated on this subcommittee before, I am 
highly suspicious of the QDR and that the agenda was set out in 
the beginning. It was kind of a veiled, disguised effort to 
just cut even further into the bone of the military, and I want 
to make sure that we are doing the right thing for you and what 
you need.
    General Krulak. Yes, sir. I will share that both the 
Secretary of the Navy and myself went down and sat down with 
the Secretary of Defense on this very issue, and we were able 
to articulate the case and, in fact, this was one of the shifts 
of dollars within the QDR that the Secretary made. And we are 
excited about it.

                           RECRUITING ISSUES

    Mr. Bonilla. General, thank you.
    Secretary Dalton, I am always so proud to see what you are 
doing for the Navy, with the Navy. As a fellow San Antonian, it 
gives me great pleasure to see the success that you have 
enjoyed as Secretary of the Navy.
    Secretary Dalton. Thank you very much, Mr. Bonilla.
    Mr. Bonilla. You are very welcome.
    I would like to just address a question here for you, 
Secretary, today. I noticed your comments in your letters that 
you are writing to high school principals, and I think it is a 
good idea, and I just would urge you to consider doing this in 
some of the more rural areas as well. The areas that I 
represent, as you know, go all the way to the Mexican border 
and out to El Paso and you know our territory down there. There 
are a lot of good people that are looking for opportunity, very 
patriotic, and the principals out there might be good avenues 
to go down to get to some of those young people that are 
looking for opportunities to serve their country.
    Secretary Dalton. Absolutely, Mr. Bonilla. Our plan is to 
have one of those packages in the hands of every high school 
principal in the country and have one of our recruiters present 
it personally to them and express that. And I would like to 
show you one of these packages. I really do think it is a 
first-class package. It shows opportunities for education, for 
responsibility early in one's career, for travel, for 
management opportunities early, the things that should 
challenge young men and women to experience this adventure and 
opportunity in the Navy and Marine Corps. I think it is 
something that really will help us and I would like present one 
of these to each member of the Committee so you will what we 
are presenting to principals throughout the country.

                          INTERSERVICE RIVALRY

    Mr. Bonilla. I appreciate that, Secretary.
    I would like to move now to a question about interservice 
rivalry because we have been hearing rumblings that we are not 
going to have as much of an ability for the Air Force to set up 
over in the mid-East as we would like, but that perhaps the 
interservice rivalry has affected decisions at the Pentagon as 
to what the right direction is going to be. I mean, if we have 
to rely on our carriers and our Navy aircraft, so be it. I 
mean, I am a huge fan of the Navy and the Air Force. We have 
got to do what is right and I just want to be reassured by 
those of you here today that we are not going to inject some 
fairness in this to make somebody happy. We have got to do the 
right thing for our country's Armed Services in that part of 
the world. Period, end of story.
    Secretary Dalton. Mr. Bonilla, we agree with you. I think 
the spirit of jointness that is in the Pentagon is indeed real. 
I sense it in dealing with my counterparts and I know that the 
service chiefs do with theirs. I think this particular 
situation was one where we didn't need anyone's permission to 
sail ships in international waters in order to bring power and 
to show our resolve. I think that what we experienced was that 
some of the nations in the area were not as forthcoming with 
giving us the opportunity to launch aircraft from their soil as 
we might have liked. I think that we are likely to continue to 
see that sort of thing in the future, because there is a spirit 
of nationalism that is taking place around the world. I think 
it just reemphasizes the importance of having those platforms 
of 4\1/2\ acres of American territory that can be moved 
anywhere, anytime, expeditiously, and get the job done for the 
American people. But we clearly work well with our other 
services and there is indeed a spirit of cooperation and 
jointness to get the job done for the American people.
    Mr. Bonilla. I appreciate that, Secretary.
    Just a closing comment. I know I share a lot of the 
sentiment on this Committee. We want to give you everything--
all of the resources you need to do your job. I know it has 
been tough in recent years, but just rest assured there are a 
lot of us and you have a lot of support in this Congress for 
what you are doing.
    Secretary Dalton. Well, thank you very much and we 
appreciate that support very much.
    Mr. Young. Mr. Bonilla, thank you very much.
    Mr. Sabo, would you mind if we went to Mr. Visclosky next?
    Mr. Sabo. No. That is fine.
    Mr. Young. He has a conflicting schedule this morning and 
does have some important questions. So if you have no 
objection, Mr. Visclosky, you are recognized.

                            NAPALM DISPOSAL

    Mr. Visclosky. Mr. Chairman, thank you very much.
    And, Mr. Secretary, I would preface my remarks by 
indicating that I am not angry at you, but I am at my wit's end 
and I am furious at the United States Navy.
    I used to represent the First Congressional District of 
Indiana. I now represent Napalm USA.
    I have had in my local papers articles about a factual 
Apocalypse Now. I have had headlines in my papers about my 
county commissioners joining opposition to the napalm disposal 
program in the First Congressional District of Indiana: Napalm 
Foes Get Support from County.
    I have had to answer questions in my office because press 
conferences have been held and allegations made that Battelle 
Corporation, who was hired as one of the consultants in the 
Napalm disposal program, was involved in government-sanctioned 
human radiation experiments and appears to have secured the 
contract because of long-standing ties to the Department of 
Energy. I spent the better part of a day answering questions to 
my constituents about why I am allowing a company which allowed 
the radiation experiments on human beings to make a decision to 
have napalm brought to my congressional district.
    I have editorials from all of my local papers, talking 
about how the residents of my district deserve an honest answer 
from the Navy about napalm, and I could go on.
    Wanting to show that I am on your side, as far as the 
public perception of my district, let me just read some more 
headlines. These are relatively random samplings from the last 
8 to 9 weeks of my life:
    Visclosky to Explain Support For Napalm Recycling in East 
Chicago, Indiana.
    Visclosky Says Napalm Recycling Will Be Safe.
    Visclosky Satisfied Napalm Recycling Will Be Safe.
    One of my favorites: Visclosky Endorses Napalm Plan.
    Another one of my favorite ones: Indiana Congressman 
Accepts Napalm.
    That warms my heart.

                        NOTIFICATION TO CONGRESS

    I found out that the Navy is going to recycle napalm in 
East Chicago, Indiana, because a colleague of mine from 
Illinois held a press conference during the Christmas holidays. 
No one had the courtesy from the Department of the Navy to 
inform one of the constituents I represent, one of the public 
officials in any of the communities affected, and they had no 
courtesy in informing me ahead of time.
    The Navy's plan here was to begin to recycle napalm in East 
Chicago, Indiana, and then tell somebody about it. And I would 
suggest, Mr. Secretary, that napalm, that one word, is a flash 
point.

                  COMMUNICATION WITH LOCAL COMMUNITIES

    I have had many briefings from the Navy in the last 8 weeks 
since I was surprised about this issue, about the process 
involved. The image the average constituent I represent has of 
this plan is, first of all, that the Navy who is storing this 
napalm in the State of California looked for some place to dump 
it. They are going to dump it in the First District. They are 
going to bring a train with 100 train carloads of bombs into 
East Chicago, Indiana, park it on a side rail and dump it 
there.
    Now, you know, everybody at the Navy knows and I know that 
is not true. It is true in my district because that is the 
image that was allowed to be connoted by Members of Congress 
who jumped you and the Navy and me.
    I have press secretaries for other Members of Congress in 
other States talking about the reason why they are so involved 
is their Members' conscience doesn't stop at the Indiana State 
line, implying that I have no conscience in this matter.
    The question of environmental justice and environmental 
racism has been brought up because the facility is in a 
minority a community, large Hispanic population, a large black 
population.
    I hate to take people's time but I am furious. Here is the 
Navy's response to that very, very sincere, heartfelt, 
frightened outrage of those constituents.
    The Navy's response is, the EO12891, 11 February 1994, 
generally requires Federal agencies to achieve environmental 
justice, EJ, as part of their missions to the greatest extent 
practical and to establish policy to achieve this purpose. 
Pursuant to the EO, the DOD issued a strategy of EJ on 24 March 
1995. The strategy focuses on ensuring a healthy and safe 
environment around DOD installations that are located in or 
near minority and low-income populations. With respect to 
CERCLA response actions, neither EO nor the strategy focuses on 
the effects of shipping CERCLA substances via railroad to 
permitted treatment facilities. One assumes this is because the 
substances being shipped have already been approved by the 
appropriate agencies for transportation and treatment by the 
permitted agencies. And as part of those permitting processes, 
the permitting agencies are generally responsible for assuring 
public participation in making decisions as to the list of 
chemicals that permitted entities may accept, and for making 
proper land use decisions.
    Nevertheless, the CERCLA off-site policy did require the 
Navy to check PCI's compliance record with EPA Region 5 and the 
Indiana Department of Environmental Management. These agencies 
reviewed their records and concurred that PCI's compliance 
record was such that the shipment of Navy CERCLA substances was 
permissible.
    What made me furious was, first of all, it is 
unintelligible to the constituents I represent. It is 
unintelligible to me. The Navy faxed me this so I could send it 
out to the media. So that I could send it out to the media. And 
then the media calls me and says, what does it mean? And the 
Navy won't return their calls. The Navy won't return their 
calls.

                     CONTACT WITH LOCAL COMMUNITIES

    The Navy has been, one, just absolutely insensitive. It has 
been absolutely nonresponsive here. We have asked for a public 
education program. I asked the Navy to come out, and they came 
out. They did four public hearings, one in Chicago, one south 
side Chicago, two in my district, at my request. They didn't 
think to do it. I had to request it. But they did it, and I 
appreciated that.
    You had a large number of white males come in and give a 
very detailed technical analysis of this situation, and people 
whose opinion I trust, public officials and others who were in 
the crowd, who are reasonably neutral on the issue, said that 
that is all it was. There wasn't a shred of sensitivity given 
to the people of this community. The fact is, there are a host, 
because of the industrial history of that area, of recycling 
facilities and companies people that have hazardous materials, 
and toxic substances. They closed the Indiana toll road within 
the last 18 months because of a hazard spill they had at 
another recycling facility in this same neighborhood. We closed 
the Indiana toll road. People are scared to death.
    The Navy said they are going to engage in a public 
relations campaign. We are creating a World Web Site where the 
public can obtain information on this project. And hey, that is 
great. But the people who are most frightened, who live by that 
plant, they don't have enough money to pay the electric bill. 
They don't have any computers. They don't have access to the 
Internet. computers.

                     CONTACT WITH PUBLIC OFFICIALS

    I have repeatedly asked the Navy, as part of their public 
relations, to go see people like Mr. Lipinski, Mr. Jackson, Mr. 
Davis, Mr. Rush, Mr. Weller, every member of the Illinois 
delegation; the Illinois senators who are opposed to this 
program. My staff had a stack of press calls because the Navy 
sent out a press release and then they refused to return 
reporters' calls. My office is answering their calls.
    I asked the Navy, given people's concern, would you 
consider stationing one of your personnel at this facility for 
these 2 years? Not as a hostage, because you have committed 
that this is a safe process, but to show that you are not just 
worried about this situation today and tomorrow but that when 
it is dumped in East Chicago, Indiana, there is going to be 
somebody there because they care. They are going to be there, 
and they are going to be making sure this is a safe process. 
The Navy should have to do that.
    The Navy, by law, had to hold a public meeting in 
California, and I appreciate their doing it. But they didn't 
have to hold one in Indiana. I think in a situation like this 
where it is just apparent that this is going to be a 
controversial issue, that the Navy gets ahead of the curve; the 
Navy goes out of their way to be sensitive; the Navy goes out 
of their way to hold public hearings; the Navy goes out of 
their way to be accessible to people, especially in Indiana.
    The Army has a good program as far as involvement and 
outreach and mobile units as far as their chemical weapons 
disposal program. They have information repositories. They hold 
fairs, festivals, public meetings, speaking engagements, media 
inquiries, outreach offices. It wasn't enough they have a 
mobile unit.
    Mr. Secretary, I hate to take the Committee's time and, 
again, I respect you and I am not angry personally at you. I am 
furious at the Navy, furious at the Navy, and I have nowhere 
else to go but you. Thank you.
    Mr. Young. We will let the witnesses respond first, Mr. 
Cunningham.

                               NAVY GOALS

    Secretary Dalton. Congressman, our goal is certainly to be 
responsive and to be sensitive on matters such as this. Our 
goal is to safely, permanently and responsibly remove and 
recycle napalm. We perhaps have not done everything--obviously 
we have not done what you would like for us to do but I know 
that we have held hearings in the area. I know that Under 
Secretary Hultin and Assistant Secretary Pirie have worked with 
your office and I understand have had conversations with you 
about this over the period of time. We have been working with 
the Department of Energy. As a result of some of the issues 
that were raised and that you mentioned, I asked our Inspector 
General to review the situation with respect to the company 
that was involved.
    In addition to having our own Inspector General review the 
issue, I have also asked the Department of Energy to review the 
matter because they are the ones that actually made the 
engagement with Battelle and specifically with Pollution 
Control Industries.
    But obviously you are unhappy, and I understand that. We 
would be happy to work with you to try to have your 
constituents advised of what we are doing. I think there is a 
misperception of napalm being more than it is. We know that it 
is, indeed, less volatile than gasoline and it is not dangerous 
to transport but there is a misperception. We certainly want 
and would be happy to work with you to educate your 
constituents with regard to the situation. And I pledge to you 
that we will do that.
    Mr. Visclosky. Mr. Secretary, your answer is not responsive 
to my question and my statement. I don't want the Navy to work 
with the Department of Energy anymore. I want them to work with 
my community.
    I don't want the Department of the Navy to work with 
Battelle anymore. I want them to work with my local public 
officials. I want them to go see Mr. Lipinski, I want them to 
go see Mr. Jackson. I want them to go see Senator Durbin. I 
want them to go see Senator Moseley-Braun. I want them to see 
John Porter and and Jerry Weller. I want them to see those 
public officials. I want them to sit down with my county 
commissioners. I don't want them working with the Department of 
Energy anymore. I don't want you working with my office 
anymore. I have my own job to do. I have my own press to deal 
with. I am tired of answering questions about radiation 
experiments.
    Battelle can do that, the Navy can do that. I don't want to 
do that anymore. The Navy has not done what you said they have 
done. They have not done that. They held four public 
informational meetings at my request, and I am telling you the 
two that took place in East Chicago were not sensitive to the 
emotions and the fears of the people in that community. It was 
not clearly conducive to convincing my county commissioners, 
who then passed a resolution in opposition to my position, 
saying that, hey, we are taking this all the way to the top. 
Those county commissioners, elected public officials in my home 
county, were at that meeting and the Navy did such a swell job 
of public relations that they convinced them that they have got 
to go to the State of Indiana for relief because the Navy is 
not going to provide them any and that I am not because I 
invited the Navy in.
    Don't misunderstand me. I am not opposed to this. I have 
just read you all the headlines where I am on your side--I am 
your guy. I am your guy. All I do at home is tell people why we 
are bringing this two-thirds of the way across the country from 
the State of California. Why don't you do it there? And I tell 
them, and I go through the whole process.
    You have never gotten ahead of the curve here. And I--and 
if anybody here can tell me you have talked to any of that 
Chicago delegation in the last 3 or 4 days like they said they 
were going to do, just correct me right now.
    Secretary Dalton. I have spoken with Senator Durbin.
    Mr. Visclosky. There you go.
    Secretary Dalton. You said I hadn't, and I have spoken with 
him.
    Mr. Visclosky. Okay. There you go.
    Secretary Dalton. But as I said a minute ago, I would be 
happy to work with you and your constituents to try to explain 
what we are doing and how we are doing it and I am pledging to 
you, sir, cooperation. I really don't want to be combative. I 
would like to be cooperative.

                       TIMING OF DISPOSAL PROCESS

    Mr. Visclosky. The final question is on the timing. I was 
told by the Navy that they would start the process in early 
March to mid-March. I have been told by the people at the plant 
that is not true, and that the Navy has been telling them that 
since last September, and that this is going to spill over 
until April, May or June before any of those substances or the 
canisters are going to arrive in East Chicago. I have been told 
that within the next 2 weeks this process is going to start. 
The people at the plant in my district tell me that is not 
true. I would like to know is the plant correct or incorrect?
    Secretary Dalton. I will respond for the record. I don't 
want to give you inaccurate information in terms of when it is 
going to start.
    [The information follows:]

    While I do not have an exact date for the first shipment's arrival, 
the Navy will continue to be the most accurate source of information 
and dates on this project. Facts and dates on the project will be 
provided to all interested members and the public through various media 
when available. As of February 25, 1998 cannisters were scheduled to 
begin processing in early March with the first shipment occurring 
approximately seven days later, barring unforeseen circumstances or 
events.

    Mr. Visclosky. I appreciate that.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Nethercutt, would you have any objection if 
we go to Mr. Cunningham for his time at this point?
    Mr. Nethercutt. No objection.
    Mr. Young. As much as he has an interest in this same 
issue?
    Mr. Nethercutt. No, I have no objection.
    Mr. Young. Mr. Cunningham.
    Mr. Cunningham. I will discuss this issue, and I will hold 
the other questions that I have.
    I think all of us empathize with the gentleman from 
Indiana. This is not my district, but it is North County. It is 
in Mr. Packard's district where this is coming from. And there 
is a difference between a perception and a reality, that the 
perception within the community of this stuff is it is 
dangerous, it is going to be bad, but he needs help with 
convincing his people the reality.
    We all know the value of the press and how they whip people 
up to sell newspapers and a lot of miscommunications.
    I wish we could have done it right in California, too. 
Unfortunately, this body, just like Ward Valley on EPA rules 
and different things, we have gotten so extreme that we prevent 
ourselves from doing the things that are smart. The extreme 
environmentalists have shut us down from doing a lot of that 
stuff, but I empathize with the gentleman. And some of the 
things that are the actual facts on this, it wasn't the Navy, 
it was the Department of Energy, since they have the expertise 
in getting rid of hazardous material, made this selection in an 
open bid. It was a fair and open bid.

                            VENDOR SELECTION

    Secondly, the company, a fact that we need to get out, I 
think, to your constituents, was given a clean bill of health. 
You know, when you talk about the things way in the past, we 
are talking now, no--there is a lot of things that happened in 
the past with different companies, but I, myself, worked with 
the individual. He is coming out of California. I am a 
Californian. But when you are dealing with gas and getting rid 
of gas, basically, and this company was deemed probably one of 
the more appropriate to do that, even though I asked the same 
question, why can't we just light this stuff off? It is gas. Of 
course, the EPA would go nuts if you do that with clean air.

                         ENVIRONMENTAL CONCERNS

    So maybe we need to think about clean air when we are 
dropping it on foreign countries. But we are going to get rid 
of it. There is a problem. It has been delayed since 1985.
    And the other problem is, these canisters are leaking and--
some of the canisters are leaking, and it creates a problem to 
the environment itself. And we need to dispose of it. But I 
know the California delegation would be happy to work with you 
on this and work with it. We will write letters to your editor 
and work with the Secretary and whatever it takes.
    Mr. Visclosky. I appreciate the gentleman's comment. And, 
again, from the press, it is obvious that I have--you know, I 
understand what the process is. The fact that we are not going 
to use this as a weapon, I congratulate the government on that 
decision, and I would congratulate the Navy, instead of burning 
it up. I mean, that is the first thought that comes up.
    This is a recycling process. I mean, you know, that is a 
very positive story, and it has just absolutely been--that is 
my frustration. I have been trying to hold the line, and I have 
Members of this body and the other, on the other side of the 
State line, who are not convinced. At some point, I am looking 
for some assistance.
    Mr. Cunningham. Mr. Chairman, I just wanted to state this. 
I will yield back the balance of my time. Since I am in a lowly 
low-level position down here, I will not usurp the others.
    Mr. Lewis. Before you do that, if you would yield to me 
just for a moment?
    Mr. Cunningham. Yes.

                   WARD VALLEY NUCLEAR WASTE DISPOSAL

    Mr. Lewis. Mr. Visclosky, the gentleman mentioned a place 
called Ward Valley, which is the recipient of low-level nuclear 
waste that happens to be in my district, and you are just 
exactly the kind of Member who probably did exactly what he 
should have done relative to a national problem.
    I will never forget the session with a cross-section of 
people regarding Ward Valley, and when we were talking about 
that disposal 14 years ago, I said, look, I know you are going 
to be looking in my desert, and I know there are a lot of 
impervious basins there. Very likely the location is going to 
be somewhere in my district. Please don't expect me to be a 
cheerleader. On the other hand, I am not going to demagogue the 
issue. And the next I know--our State is a big one, but the 
next thing I know, we have got people coming from other parts 
of the States demagoging the issue, with no solution at the 
other end. And frankly, you are suffering from what I call GGS. 
The gentle word is good government stuff. But in the meantime, 
if there is a way that some of us can help with this process, I 
certainly would volunteer.
    Mr. Visclosky. Thank you.

                      VIEWS OF CONGRESSMAN PACKARD

    Mr. Young. Mr. Secretary, I have received a letter from 
Congressman Ron Packard, who is chairman of the Appropriations 
Subcommittee on Military Construction, expressing his support 
of the current plan, and I would ask that the letter be made a 
part of the record at this point.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. All right. Let's go back now, Mr. Sabo.
    Mr. Sabo. I will pass.
    Mr. Young. Mr. Sabo passes. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Welcome, gentlemen. I feel almost benign here with my 
questions, with all respect to my colleague.
    Mr. Young. Mr. Nethercutt, you are never benign.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Cunningham. I don't think so, either.

                       NEXT GENERATION DESTROYER

    Mr. Nethercutt. Mr. Secretary, Operational Maneuver from 
the Sea acknowledges that precise, long-range, sea-based fire 
support will be an increasingly critical element for Naval 
expeditionary forces. In your written testimony, you noted that 
DD-21 will support the land attack mission, but these ships 
won't join the fleet until after 2008.
    And recognizing--and to the extent you may have testified 
about this, I apologize. Recognizing the Southwest Asia 
situation, we can certainly see and appreciate the importance 
of sea-based deterrence.
    With the cancellation of the maritime fire support 
demonstrator, what is being done to bridge the gap for the land 
attack mission?
    Secretary Dalton. Mr. Nethercutt, let me ask the CNO to 
address that, if he could.
    Admiral Johnson. Thank you, sir.
    Mr. Nethercutt, a lot is being done, is the short answer. 
We are very serious about our fire support plan. The Commandant 
knows that. We have been working very closely with the Marine 
Corps. DD-21 is indeed a part of that solution. But let me just 
give you a couple of specifics, from short range to long, if 
you will, and in close to out a way.
    The specific answer is we will have a fire support level of 
effort for the 21st century in place by 2001. What that 
specifically means is we will have modified the 5-inch gun that 
exists today to allow it to fire extended-range guided 
munitions, which will give us precision accuracies out to 63, 
to 65 miles, which is the Marine Corps standard for now.
    We also know that because of the V-22 that we are all 
excited about receiving, and what that is going to mean to 
Operation Maneuver from the Sea, that the battle space is going 
to deepen from that. Therefore, in addition to that, we are in 
the process right now of evaluating two systems, vertical 
launch systems. One is a Navy version of the Army ATACMs, which 
we have already done some testing with. The other is one we 
call the land attack missile, the Land Attack Standard Missile 
(LASM), which will be tested this year.
    One of those, or some combination of those, is going to 
solve the problem from 100 to 200 miles ashore very precisely. 
That is the short term, if you will. And we are on record 
saying by 2001 we are going to have the capabilities that I 
described.
    What happens after that is we work ourselves towards DD-21, 
which intros in 2009 or 2008, and with that we are also looking 
at a--what we call VGS, a Vertical Gun System, 155-millimeter, 
very precise out to 100 miles. So there is a lot going on in 
just that piece of the fire support in addition to the tactical 
Tomahawks, et cetera. So that is probably longer than you 
wanted, but we are very serious about our commitment to our 
troops ashore.
    Mr. Nethercutt. I understand. And that was the point of the 
question, just to make sure the record is clear, that there is 
consideration being given; it is a multifaceted.
    Admiral Johnson. Absolutely.
    Mr. Nethercutt. And serious.
    Admiral Johnson. Absolutely.
    Mr. Nethercutt. Budgetwise and functionally.
    Admiral Johnson. Yes, sir.

                            PILOT RETENTION

    Mr. Nethercutt. I will just tell you, I had the good 
fortune last year, last fall, to sit in the back seat, and fly 
in a Harrier and an F-18 from Beaufort with Navy and Marine 
pilots, and I was very, very impressed with the quality of 
people that you have serving in the Navy; and also had a chance 
to go down and help commission a ship, the U.S.S. Mahan, just a 
week, I guess, or so ago, and was so impressed with the crew 
and the young men and women who were serving the Navy.
    What I heard in Beaufort and also talked a little bit about 
down in Florida was this issue of retention of pilots as well 
as retention of other military personnel, Navy and Marine 
forces. What is your sense of our challenge there? Are we 
meeting it adequately? Do you expect that we are going to be 
able to keep these good young men and women serving at sea and 
in the air?
    Secretary Dalton. Mr. Nethercutt, first of all, I want to 
thank you for taking the time to go down to Beaufort and be 
with our people. They really are the best, and we are awfully 
proud of them. We are grateful to you, and we appreciate your 
colleagues when you have the opportunity to get out and be with 
our people. We also thank you for speaking at the commissioning 
of MAHAN. That is our newest DDG, and we are awfully proud of 
it, and thank you for being there.
    Mr. Nethercutt. Sure.
    Secretary Dalton. Pilot retention is, indeed, a challenge 
for us, and we are addressing that. This body has been 
supportive of giving us some additional tools with respect to 
bonuses and additional flight pay.
    We just sent a team of people out to talk with pilots in 
squadrons around the Navy. This was in addition to the kinds of 
things that the CNO and I do on a regular basis. But we wanted 
to get into what is bothering them, and what are their 
concerns. The team has just returned and given us some ideas of 
things that we can do to address the pilots' concerns.
    However, the airlines are hiring at an aggressive pace. 
There is more money for people from that standpoint than we can 
compete with in terms of dollars. What we intend to do is to 
make sure that we are giving these young men and women the 
opportunities they need with respect to flight hours, with 
respect to spares, with respect to compensation to the extent 
that we can. We also need to try to meet the concerns relative 
to retirement and things of that nature. We are addressing 
those issues.
    Since the CNO is an aviator and has been there, let me ask 
him to address it as well.
    Admiral Johnson. Only to comment additionally, Mr. 
Nethercutt, that we consider retention across the board to be a 
serious issue with us right now. I will focus in on the pilot 
retention because that is the basis of your question.
    If you look at the overall numbers today, we don't have a 
problem. If you peel those numbers back and look at it 
community by community and project yourself ahead a couple of 
years and look at what is coming, we have a problem. We are not 
in denial of that reality.
    But as the Secretary touched on, there is no silver bullet 
solution to pilot retention, and I think Mike Ryan will tell 
you the same thing from the Air Force, and I am sure Chuck 
would agree from the Marine Corps. It is lots of things. So 
what we have to do is take the inputs that we get, look at the 
realities from the eyes of the junior officer pilot and try to 
tackle what I call a multipronged attack, and that is exactly 
what we are doing.
    The compensation piece is a part of it. The fixing our 
programs and funding our accounts is a part of it, and so it 
goes. We are seriously committed to fixing and staying ahead of 
the curve. We have time to do that. I am doing everything I can 
to make that happen.

                    MARINE CORPS PERSONNEL RETENTION

    General Krulak. Let me take it in two points, sir. First 
has to do with overall retention. The Marine Corps, similar to 
our successes in recruiting, we are finding our enlisted 
Marines standing in line for retention. By the end of this 
first quarter, I had 88 percent of all of the available boat 
spaces that I could in fact fill were already filled, and we 
had to stop reenlisting so that the good Marines who would 
become available and eligible to reenlist later in the year 
would have a space to go to. And so we are very happy about 
that.
    On the pilot side, I have personally visited every single 
ready room in the Marine Corps. I have a book beside my phone. 
I call a ready room a week. The bottom line is exactly what the 
CNO said. I wish he could say it was just airline hiring. It is 
not. It is a lot of things that span the issue of are they able 
to get their aircraft up, are there spare parts there on the 
flight lines, to are we making it challenging enough, are they 
getting the flight hours they want, all the way to such issues 
as the airline hiring.
    It has got to be attacked on all fronts. We think we are 
doing a good job of it, but you really have to keep your eye on 
it.
    Mr. Nethercutt. Well, I think you are right. And housing 
and family care and medical care, those things are important to 
these young pilots and others. And, frankly, the idea of 
recreation, I mean, we always look askance at building gyms and 
recreation facilities and all that, but I tell you I have been 
there and I have seen them, and we have one coming out in our 
state, in Norm's district, and those are very important in 
terms of keeping these people occupied and keeping them out of 
the taverns and working out and playing handball and whatever 
else needs to be done. So I commend you on it, and your 
attention to it is going to be, I think, bringing long-term 
dividends.
    Secretary Dalton. Mr. Nethercutt, your point about quality 
of life is indeed very important. We are talking about pilots, 
but that is true across the board. It is something that we have 
addressed and are addressing, but we still have a ways to go in 
terms of enhancing quality of life for our people.
    Mr. Nethercutt. One more question, if I may, Mr. Chairman.
    Mr. Young. Yes.

                            HORIZON CONCEPT

    Mr. Nethercutt. Admiral Johnson, I understand the Navy's 
Warfare Development Command has begun this 2-year study on the 
horizon concept--I think you and I talked a little bit about 
that when we met a little bit earlier--by which crews rather 
than ships would be rotated.
    Admiral Johnson. Yes, sir.
    Mr. Nethercutt. What is your sense of it as a short-term or 
a long-term concept that should be employed in the Navy?
    Admiral Johnson. I think, just briefly, sir, the horizon 
concept as you describe it is one that was brought forward from 
our strategic studies group. I tasked them to look way out.
    Mr. Nethercutt. Sure.
    Admiral Johnson. So this is a long-range project. There is 
nothing in the short term in the context of stationing ships 
and rotating crews, because quite honestly, when you start 
getting into it, what it really takes is a whole different kind 
of ship to be able to sustain that.
    So I put that in the category of long-range planning and 
downstream issues, but it is a good effort.
    Mr. Nethercutt. I think it is, too. And I would say to my 
colleagues, to those of you who haven't seen some of these 
modern ships, I saw the U.S.S. Bataan down at Newport News and 
the Mahan and some of the other ships. I mean, they are really 
exciting and enticing in terms of recruitment, but also in 
terms of being sort of able to use this concept perhaps in the 
shorter rather than longer term.
    Admiral Johnson. Yes, sir.
    Mr. Nethercutt. So thank you, Mr. Chairman.

                           SHIP SELF-DEFENSE

    Mr. Young. Admiral Johnson, you know the Committee's 
interest because of our meeting last year at this time on ship 
self-defense, and we have talked about that numerous times 
since that hearing last year. Your budget does provide for some 
additional ship self-defense, but as we look at the numbers of 
ships being outfitted with the self-defense system, I would 
like to see it accelerated even more. I think it would be hard 
to excuse sending a ship into harm's way and have it attacked 
and not have a self-defense system.
    Where are we going? We know where we are today based on 
this budget. Where are we headed? When are we going to have 
self-defense systems on the combatant ships especially? And 
tell us about the tests that you ran.
    Admiral Johnson. Yes, sir.
    Mr. Young. Tell us about that and when we might expect to 
be full up on ship self-defense.
    Admiral Johnson. Well, sir, let me just say straight up 
that I don't want there to be any mystery about our commitment 
to ship self-defense. Okay? We are committed to ship self-
defense, and we will stand up to that.
    What happened specifically this year, as the Chairman may 
or may not be aware, is that we originally were looking at five 
units. We are now at two units. That is really a good news 
story in one sense, and it gets back to your question, which is 
why I mentioned it. What really happened to us was, among other 
things, we were so taken by what happened aboard ASHLAND in our 
OPEVAL with the absolutely eye-watering success of that OPEVAL, 
frankly it caused us to reevaluate what we were doing. We are 
enhancing the program based on that OPEVAL.
    What that translated to in the short term was the same 
amount of money, but it is going to cost a little bit more per 
unit. So we rephased and kept the money in there, and that 
impacts the number of units. We are committing to SSDS for 
that. When we have the 21st century ARG, it will be properly 
defended, and we are committed to that, sir.
    Mr. Young. Does it cost more to retrofit the ship with 
self-defense systems than it would be to install them as you 
go?
    Admiral Johnson. I can give you that answer for the record, 
sir. My gut reaction answer is, yes, sir, it would cost more to 
back fit rather than forward fit. But I will be happy to 
provide that for the record.
    [The information follows:]

    Navy's individual ships class Maritime Force Protection planning is 
based on providing the most cost-effective force protection possible, 
consistent with available funding, force wide. Furthermore, all ship 
classes will receive or retain a level of force protection consistent 
with their expected service life and potential exposure to operational 
threat environments.
    Navy utilizes a combat systems approach to validate each ship 
class' performance against the CNO AAW Ship Self Defense Capstone 
requirement. All systems in the detection through engage sequence are 
modeled against the validated Defense Intelligence Agency threats. No 
one system is good enough, by itself, to meet the Capstone performance 
requirements. All new construction ship combat systems provide the 
firepower and performance necessary to meet Navy Capstone requirements 
and Congressional guidance against the validated threat. The AAW combat 
system configuration for all new ships, selected after careful 
analysis, meets all threats through 2012 with growth potential provided 
to meet far term threats yet to be defined.
    Normally, the cost to retrofit a ship with ship self defense 
systems is greater than the cost of building the ship initially with 
these systems. The reason for this is that in the retrofit case, 
equipment which is already installed must be removed or repositioned as 
part of the new installation. For example, the installation cost to 
retrofit a ship with Ship Self Defense System Mk-1 (SSDS) is greater 
than the cost of building the ship initially with SSDS.
    Installation cost comparison ($M) for SSDS is as follows:

Retrofit (based on USS COMSTOCK):
Advance Planning (PSNSY Det Boston)...........................    $0.130
Shipalt 1176 (to be contracted to NASSCO).....................     1.950
Alteration Installation Team (NSWC PHD).......................     1.114
Alteration Installation Team (NAWC-AD)........................     0.500
                    --------------------------------------------------------------
                    ____________________________________________________

    TOTAL.....................................................     3.244
Forward Fit (based on USS PEARL HARBOR):
Construction Work Package (Avondale) (1)......................     2.016
Miscellaneous Materials.......................................     0.150
On-Site Technical Support (NSWC PHD)..........................     0.190
On-Site Technical Support (NAWC AD)...........................     0.046
SUPSHIP New Orleans Support...................................     0.125
                    --------------------------------------------------------------
                    ____________________________________________________

    TOTAL.....................................................     2.527

    Note (1): Actual contract cost was reduced by 20% due to rework 
costs.

    Mr. Young. Admiral, I appreciate that. We will continue to 
express concern about Ship self-defense until we get them on 
all of our ships.
    Admiral Johnson. Yes, sir.
    Mr. Young. I would expect the Marines riding on those ships 
would have some feeling about that, General.
    General Krulak. Yes, sir. We have been working very hard 
with Jay. Obviously, my desire is to get my amphibs forward-
fitted as best we can, and that is going with the LPD-17, and 
that is going to look good.
    The LSDs, as Jay indicated, are also looking good. The 
issue, of course, is the LHDs and the LHAs. The LHDs we 
anticipate getting done by the end of 2003. The LHA, of course, 
is up in the air, pending the decision of what we are going to 
do on the service life extension.
    But the LPD looks good. The LSD is coming along; LHD also. 
I think by 2003, we are going to be okay. It is during that 
time frame that is in between that we are concerned. But it is 
not a case of Jay not supporting us, because he has given 
support.
    Admiral Johnson. May I make one more comment, Mr. Chairman?
    Mr. Young. Certainly.
    Admiral Johnson. What we have also done inside the 
Lifelines is I asked my team to just go back and look at the 
whole business of ship self-defense. As you know, and as the 
staff knows, there have been lots of puts and takes and hills 
and valleys here. So what I asked for was kind of a clean look 
at the requirement and how we were servicing that requirement 
just to make sure we had it right. That look is coming to me 
here in probably another 6 weeks. So that will validate, I 
think, where we are going. But I just want you to know we are 
taking it very seriously.

                   FINANCIAL DIFFICULTY FOR PERSONNEL

    Mr. Young. Mr. Secretary, I think that you all are 
convinced that the members of this subcommittee are just 
totally dedicated and determined to improve quality of life for 
those who serve in the uniform at every opportunity. We have 
that commitment to ourselves. We have that commitment to you. 
But more importantly, we have that commitment to those who 
serve in the uniform and their families.
    A very distressing article that appeared in the 
Philadelphia Enquirer a couple of weeks ago and they quote from 
a recent DOD study that says, at least one-third of Navy 
personnel can't pay their bills and are costing the Pentagon 
more than $200 million a year in bad checks, loan defaults and 
bankruptcies. It goes on to say that the Navy personnel were 
losing security clearances because of their financial 
difficulties, and their military readiness was being affected 
by their money problems.
    Is this accurate? Is this actually happening?
    Secretary Dalton. Mr. Chairman, the background for that 
story is that we in the Navy asked for a study done by the 
Military Family Institute to assist us in evaluating some data 
that we had seen with regard to this. Actually, we read about 
that report in the newspaper before we got the study, so it was 
a little premature.
    Mr. Young. A little leak, huh?
    Secretary Dalton. I guess that is what you would call it, 
but it let us know that there are some issues that we need to 
address and are addressing. What the study pointed out is that 
there is access to credit for people today at a younger age 
than we have historically experienced in this country. There is 
not a stigma of being in debt as there once was, and more 
people are taking advantage of credit, particularly at a 
younger age.
    We are increasing the training of our people to make them 
aware of this. We have Family Service Centers that are 
increasing the emphasis and the importance of staying out of 
debt and having a personal financial situation one can manage. 
The Assistant Secretary of the Navy for Manpower and Reserve 
Affairs has an initiative called Lifeline which is a computer 
based virtual quality of life information center that has been 
made available to our people. We also have a financial 
management CD ROM which is available for personal financial 
management. This issue is important to us because these young 
people for the first time in their lives, 18, 19, 20 years old, 
are having money to manage and they need some training in order 
to deal with it.
    So it is something that we are addressing and realize that 
we have to educate our personnel in terms of the importance of 
taking care of their personal finances.
    Mr. Young. Is this problem basically at that level, the 
newer members as opposed to, say, the officer corps?
    Secretary Dalton. That is where a good deal of the problem 
is. As I said, I have not actually reviewed the study to give 
you a direct answer. I will be happy to provide that for the 
record, if I could.
    Mr. Young. Okay. If you have any suggestions where we might 
be able to help with that problem, let us know that also.
    Secretary Dalton. Thank you. I would be happy to do that.
    [The information follows:]

    The majority of our enlisted members are between 18 and 23 years 
old. For many it is their first time away from home, receiving their 
first steady paycheck, having few financial responsibilities (food and 
shelter provided), and experiencing a strong desire to enjoy life 
(cars, stereos, etc.) to the fullest extent, like many of their 
civilian counterparts of similar age and maturity. The combination of 
these demographics with little or no education or experience in 
managing finances, easy access to credit, vulnerability to financial 
scams, and occasionally the desire for immediate gratification, renders 
these young people particularly susceptible to financial problems. 
However, such financial difficulties are by no means confined to the 
young enlisted ranks. Many officers and senior enlisted also lack the 
financial training needed to successfully handle their finances. As a 
result, they contend with many of the same type of financial problems 
experienced by their junior enlisted counterparts, but often to a much 
greater extent, as a result of their greater access to credit.
    The Military Family Institute (MFI) study, a copy of which I have 
provided for the Record, demonstrates that personal finance is one of 
the important quality of life issues facing the Navy today. The proper 
administration of our Personal Financial Management Program (PFM) is a 
way to effectively reach all Sailors at a time when they are receptive 
to learning the financial lessons required to manage their personal 
finances.

    Mr. Young. We are concerned about that.
    Mr. Dicks.

                          JOINT STRIKE FIGHTER

    Mr. Dicks. Thank you, Mr. Chairman.
    Let me go to the Joint Strike Fighter program. As I 
understand it, the budget includes $919 million for continued 
RDT&E on the JSF, of which $463 million is Navy money.
    Now, as everyone knows, this is a program between the Navy, 
the Marine Corps and the Air Force.
    Can you give the Committee a general overview on the status 
of the JSF program?
    Secretary Dalton. Mr. Dicks, this is a very important 
program for the Department of the Navy. It is one that we now 
have the cognizance of and the Assistant Secretary of the Navy 
for Research, Development and Acquisition, Mr. Douglass, is 
leading that program. He can provide information in greater 
detail this afternoon when you meet with him.
    Mr. Dicks. All right.
    Secretary Dalton. But let me just say that we are committed 
to it. It is extremely important to the Navy and the Marine 
Corps, and it is one that I think does make sense. We are going 
to save significant dollars in terms of doing this jointly with 
the Air Force Department, and we are also pleased to have our 
allies, particularly the United Kingdom, participating in the 
program.
    So it is going to reduce the overall costs with respect to 
the initial design, research, and development--It is extremely 
important, and we are watching it closely.
    The CNO and Commandant could certainly add to that 
response.
    General Krulak. I concur with the Secretary. I mean, this 
is a critical program for the Marine Corps. It is the STOVL 
(Short Take-Off Vertical Landing) version that we are looking 
at. It is, in fact, the results of our neck-down strategy. That 
is the aircraft we are going to. We have at the program office 
a Marine general who is one of the deputy program managers to 
ensure that our support and our desires are kept at the 
forefront. And so I would just reiterate, this is a critical 
program for the Marine Corps.
    Admiral Johnson. We are four square behind it. We are 
putting our money where our mouth is. It is the future for us, 
along with the Super Hornet. I tell the fleet that between 2010 
and 2015, what we want on the decks of our aircraft carriers is 
a mix of F-18 Super Hornets and JSFs. I like the way that looks 
because both of them are going to be frontline, top-of-the-
line, state-of-the-art assets. So we are very much committed. 
And every indication we have right now is, as Chuck says, the 
program is very solid. So we are excited about it.
    Mr. Dicks. Good.

                          TRIDENT D-5 BACKFIT

    Last year, there was a little fight here in the Congress on 
the backfitting of the D-5 missile on the Trident submarines, 
and thanks to a strong cooperative effort between the 
subcommittee and the Navy, we were able to minimize the 
Trident-related reduction. Does the Navy remain fully committed 
to the Trident program?
    Admiral Johnson. Yes, sir. Short answer, yes, sir. We 
absolutely do, and those D-5s are very important to us.
    Mr. Dicks. It is my understanding that the plan is to go 
from 18 Tridents to 14, but that depends on the Russia Duma 
approving START II. Is that your understanding as well?
    Admiral Johnson. Yes, sir, it is.
    Mr. Dicks. Now, if they don't do that, then it is the plan 
to remain at 18?
    Admiral Johnson. Yes, sir.
    Mr. Dicks. And that will have implications, obviously, for 
the budget; isn't that correct?
    Admiral Johnson. Yes, sir, it most definitely will. By 
about the year 2002, it will have serious budget implications 
for us.
    Mr. Dicks. I guess you would have to refuel, overhaul and 
retrofit the submarines, the D-5. You also have to buy the 
additional D-5 missiles.
    Admiral Johnson. That is correct.
    Mr. Dicks. Now, as I understand it, the CINC at STRATCOM 
has said that if we do go to 14, that it would be on the basis 
of a 7/7 split between the West Coast and the East Coast. Is 
that your understanding, Admiral Johnson?
    Admiral Johnson. I think, sir, if I could, I would--I would 
prefer to discuss that in another place.

                            JSTARS EXERCISES

    Mr. Dicks. Okay. I understand the Navy and Marine Corps 
employed Joint STARS during the fleet battle experiment Alpha, 
the Hunter Warrior exercise and in an amphibious planning 
exercise in Korea last November. Can you comment on the utility 
of JSTARS for the Navy and Marine Corps operations?
    General Krulak. It is a magnificent piece of gear, sir. It 
assisted us in Hunter Warrior, enabled us to do things that 
without that aircraft we would not have been able to do. It 
is----
    Mr. Dicks. Can you tell us a couple of those?
    General Krulak. Your Hunter Warrior was an effort to 
determine whether a small organization, tailored to bring fires 
to bear on a much larger organization, whether they could, in 
fact, dominate that larger organization if you had the 
intelligence and the ability to bring fires. The JSTARS was 
able to assist in providing that intelligence, particularly in 
the onward columns, and very, very accurately; it allowed us 
then, using burst transmission to overhead platforms, to bring 
down fires almost immediately and very effectively.
    Jay, do you want to comment?
    Admiral Johnson. No, I concur fully. It was very effective. 
We were very positive and encouraged by what we saw.

                         A-12 AIRCRAFT LAWSUIT

    Mr. Dicks. Secretary Dalton, can you tell us about the 
status of the A-12 lawsuit and the Navy's plans to proceed in 
its defense?
    Secretary Dalton. Yes, sir. As you know, the judgment was 
rendered recently. A final opinion and order was filed, I 
think, on February the 20th, and the Government immediately 
filed its notice of appeal the same day.
    The case will now be reviewed in the United States Court of 
Appeals for the Federal Circuit. It averages about a year for 
an appeal to be heard and decided by a three-judge panel of the 
Court of Appeals for the Federal Circuit. Some appeals take 
more time; some take less. The appellate process could also 
involve additional appellate review. Therefore, it is not 
possible to predict when the appellate process will be 
completed.
    I think if the appeal is upheld, then there would be 
significant liability, and we would have to address that. The 
judgment fund would----
    Mr. Dicks. The judgment fund is at the Justice Department?
    Secretary Dalton. At the Treasury Department, I believe.
    Mr. Dicks. Treasury.
    Secretary Dalton. So that would be the initial response. I 
think we are a long way from getting to that point.
    Mr. Dicks. Would there be any effort to try and settle 
this?
    Secretary Dalton. We are exploring other options, but I 
think the first thing to do is to get the appeal process 
started.
    Mr. Dicks. Then as I understand it, that is paid for out of 
the Treasury and would not come out of the defense budget. Do 
you know the answer to that question or not?
    Secretary Dalton. You are correct, sir, in that the 
original judgment would be paid by the judgment fund. However, 
we are one government, and there is no free lunch. I think that 
obviously there would be some potential repercussions to the 
Department of Defense and the Navy Department. But I think we 
are a long way from reaching that point.
    Mr. Dicks. It would be interesting to know whether that 
liability is going to come down on the Navy, on the Defense 
Department, or is it going to come down on the government as a 
whole through the judgment fund.
    Secretary Dalton. I will respond for the record.
    Mr. Dicks. And I think the answer is it is the judgment 
fund, if there is a final judgment against the Federal 
Government, because we have all kinds of various lawsuits that, 
you know, if we settle them, we would pay it one way, and if 
you--and if it isn't settled and it is a judgment, then it is 
done through this other fund. Obviously, there is probably 
limits to how much money is in that fund for judgments, but 
that is one that I was--if you can put something in the record.
    Secretary Dalton. Yes, sir, I will respond for the record 
on that.
    [The information follows:]

    The Navy has appealed the $1.8 billion judgment to the Court for 
Appeals for the federal circuit. We believe that the appeal will be 
successful. Thus we are unable to determine now what the final outcome 
of the litigation will be or when it will be.
    After all appeals, any final judgment would be paid initially from 
the judgment fund. The Navy would be required to reimburse the judgment 
fund with the same kinds of appropriations that were used on the 
contract.

                          COLLISION AVOIDANCE

    Mr. Dicks. And give me a figure on that.
    There was a segment on 60 minutes this weekend, about the 
lack of the TCAS system--on our military aircraft. I don't know 
if this is a major issue for the Navy, but it certainly is for 
the Air Force. But I think you know, this is a system in 
which-- if planes are going to crash into each other; somebody 
in the cockpit, go high, or go low, so that the planes can 
avoid each communicates to the pilot to other. Apparently there 
was some efforts made after Secretary Brown's death by 
Secretary Perry to try to make certain that each of the 
services was doing what they have to do with their airplanes in 
order to avoid collisions of this nature.
    Recently there was a collision between a German aircraft 
and an Air Force C-141, and a substantial number of lives were 
lost.
    I have been concerned about this for a long period of time; 
I realize on fighter aircraft that TCAS technology may not be 
appropriate, but, for other aircraft that carry personnel and 
other things of that nature, I think having this kind of a 
system, has real value. United Airlines put it in at some 
minimal amount, like $25,000 per airplane. We are doing it and 
at--at the defense level it is much more expensive. But can you 
tell us what the Navy is doing to have a system so that we can 
avoid these kind of crashes, save lives, save the airplanes?
    Admiral Johnson. Yes, sir. We, like the rest of the 
Department of Defense, sir, responded in the wake of Secretary 
Brown's tragedy and have gone forward with a very concrete plan 
that puts global positioning systems in all of our transport-
type aircraft and indeed ground proximity warning devices of 
one sort or another.
    The TCAS, the collision avoidance systems, on the 
nontacticals is something that we have looked at. I will 
provide you a very specific answer for the record, sir, but I 
share your concern.
    [The information follows:]

    Ground Proximity Warning System (GPWS) provides audible and visual 
warnings to alert aircrew of impending controlled flight into terrain 
(CFIT) unless corrective action is taken. Traffic Alert and Collision 
Avoidance System (TCAS) provides audible and visual collision avoidance 
warnings regarding an aircraft's position relative to another aircraft 
for the prevention of mid-air collisions.
    Navy policy requires the installation of GPWS and TCAS equipment 
similar to U.S. commercial airline equipment, in all its passenger 
carrying aircraft.
    Navy is also installing GPWS in all tactical and rotary wing 
aircraft that have shown a high risk of mishaps due to CFIT. TCAS 
installation into tactical and rotary wing aircraft is not currently 
programmed, awaiting the development of TCAS equipment that would be 
effective in formation flying. The mission for tactical aircraft 
differs significantly from the mission of passenger or commercial 
aircraft; tactical aircraft most often operate distant from civilian 
aircraft, in restricted airspace and in close proximity to one another. 
TCAS equipment addressing these flight regimes has not been developed. 
Navy is developing a formation collision avoidance system for rotary 
wing aircraft.
    Traffic Alert and Collision Avoidance System and Ground Proximity 
Warning System are funded for installation on the following non-
tactical Navy passenger carrying aircraft: C-2, C-9, C-12, C-20 
(derivative 737), C-130 and KC-130. TCAS installations commenced in 
fiscal year 1998 and will be completed in fiscal year 2004. GPWS 
installations commenced in fiscal year 1998 and will be completed in 
fiscal year 2003. The Navy's priority for installations are in the 
commercial derivative aircraft (C-9, C-12 and C-20). Both C-9 and C-20 
have GPWS installed as part of their original equipment; and will 
complete the TCAS installations in fiscal year 1998. C-12 aircraft will 
complete both installations by fiscal year 2003.

    Mr. Dicks. Yes, I mean, it did not look good.
    Admiral Johnson. Yes.
    Mr. Dicks. Especially for the Air Force, but I am going to 
ask each of the groups as they come through to give us what 
they have done for the record.
    Admiral Johnson. Yes, sir. But by the end of 1998, we will 
be compliant with the first part that I mentioned specific to 
the GPS and the proximity.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. Mr. Lewis.

                              BASE CLOSURE

    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Secretary, there is not a district in the country that 
has had more experience with base closure than my district in 
the West. Since you mentioned BRAC, I can't help but at least 
raise that question.
    In the last go-around, reaching beyond the Air Force bases 
that were closed, the Commission was looking very closely at 
the Marine Corps logistics base, which is located at Barstow. 
It was all but a final decision that that facility was closing, 
and then one of our Commissioners visited the facility, saw the 
kind of personnel we have there, what they can do in terms of 
weather, year-round work, storage in that weather, et cetera, 
and the Commissioner did a 180. That just speaks to the point 
that the map is different than the territory.
    I am very concerned about our problems relative to 
infrastructure. I think they are appropriate concerns. I am 
also concerned that unless people visit places like China Lake, 
they don't really know what those assets are all about. So I am 
concerned about China Lake versus other discussions we get 
within our committee regarding assets of value. Would you 
comment?
    Secretary Dalton. Yes, sir, Mr. Lewis. I think you are 
right. It is very important to visit the site of each of the 
places that are under consideration to have a full 
understanding of what they do, and why they do it, how they do 
it, and how well they do it.
    I would like to emphasize is the fact that we simply have 
far too much infrastructure. Whereas, we have come down almost 
45 percent in terms of the number of ships since 1988, we have 
come down more than 30 percent in terms of the number of 
personnel, Sailors and Marines in the Department of the Navy. 
Our procurement is down 40 percent. Our base structure is down 
only 17 percent in net replacement value.
    It is clear that everything we recommended closing didn't 
get closed in 1995, and we have come down significantly since 
then. So it is clear that we have too much infrastructure.
    The base realignment and closure process is the only 
process that has worked. I mean, prior to BRAC, it was really 
impossible to close a facility because of the situation that 
exists with legislative maneuvering that is possible in both 
chambers. We simply need more rounds of BRAC. In terms of how 
it is done, this body has the ability to write the law in the 
best way to make sure that it is done properly, and then 
perhaps we can, in fact, learn lessons from how it was done 
before and enhance that procedure.
    I think it is undeniable that we have too much 
infrastructure, and the only way that we know that works is to 
have base realignment and closure. I know it is a tough issue. 
I know it is something that the Members don't like to talk 
about, and particularly Members that have facilities in their 
districts. I just encourage this body to do the courageous 
thing and give us the opportunity to rid ourselves of 
infrastructure that we don't need, because we simply don't have 
the funds to give the services the procurement dollars they 
need and take care of our people if we are spending money on 
things that are not necessary. To me, it is a clear issue, and 
I really would appreciate the support of this body to give us 
the legislation necessary to go forward for rounds of BRAC in 
the year 2001 and 2005.
    Mr. Lewis. Mr. Secretary, I would make two points. The 
first is it is very important to recognize that that 
infrastructure may very well serve a very important military 
purpose, but it is clear that we have got to be willing to go 
forward and close those assets that are somewhere lower down on 
the schedule in terms of priorities. There is just no question 
that you have got to have our support in connection with that.
    The second point, however, is that the record of DOD so far 
on BRAC is so miserable in terms of their relationships with 
the communities that it is a very, very tough sale. I mean, 
assets that have tremendous community potential value are 
languishing for 8 and 9 years because of a lack of follow-
through, you know, after the supposed closure. And I tell you 
that really is going to hurt you in the Congress.
    Secretary Dalton. Mr. Lewis, I can tell you that in the 
Department of the Navy we have made a strong, very strong, 
effort to work with communities, and I think our record is good 
in terms of getting facilities closed and working with the 
community, with their reuse plans, to assist them and indeed 
enhancing the opportunities for economic development in places 
where we have closed bases. I think the record is good with 
respect to that, and I pledge to you that we would try to even 
enhance what we have done in the past in that regard.
    In terms of the record with respect to what we have 
realized from the base closures to date is the fact that the 
savings have been greater than we anticipated, and the costs 
have been less than anticipated. So I think the record is a 
positive one, and I would be happy to supply specifically for 
the record just exactly what that has been for the Navy.
    [The information follows:]

    At the end of 2001, when all four BRAC rounds will be complete, 
Navy will have spent a total of $10.0 billion and saved $15.7 billion, 
for a net savings of $5.7 billion. Beginning in 2002, Navy will save 
another $2.6 billion every year.

    Mr. Lewis. I am very interested in personalizing it beyond 
that, for as we look to the Pacific and the future significance 
of the Pacific to the Navy's mission, items like China Lake 
become very special assets that we all need to understand 
better. I need to understand them better as well.
    Frankly, I look forward to your visit. I am not looking for 
a commitment today, but rather it is very, very important that 
we do that firsthand rather than secondhand.
    Secretary Dalton. I agree, sir.
    Mr. Lewis. Thank you.
    Mr. Young. Mr. Hobson.

                              JUNIOR ROTC

    Mr. Hobson. Thank you, Mr. Chairman.
    Mr. Secretary, I want to thank you for your PR move with 
the wives. That was a smart move on your part. As you know, 
there was a little trouble with the Air Force, the wives on the 
Air Force base, and he did a great job of taking some wives out 
to the aircraft carrier, and it gave them a great appreciation 
of what the young people do on those ships, and it makes--with 
the Navy, you have got wives now promoting the Navy with the 
Members. So it was a pretty smart thing on your part.
    General Krulak, I wanted to ask you a question. There is 
just one thing wrong with Marine Corps' junior reserve officers 
training program. There just aren't enough of them. And this is 
a popular and successful high school program, and I think a 
positive factor in the lives of a lot of young people. I also 
think it is probably a good recruiting and public relations 
tool for the Corps.
    Springfield South High School, in my hometown, it is 
eligible for a junior ROTC unit, and this is a school that is 
in an area that could really, I think, benefit a lot of young 
people from the Marine Corps presence. Unfortunately, this year 
there aren't enough funds, as I understand it, to maintain the 
existing 174 units scattered throughout the Nation, and no new 
units will be established.
    How many schools can be accommodated in your 1999 request, 
and how much more money would it take to include Springfield, 
Ohio? I need to be a little parochial about this.
    General Krulak. Let me first--from the macro level, I was 
with General Colin Powell when he determined, certainly with 
the great concurrence of all of the Service Chiefs during his 
last year, to boost the number of junior ROTC units. I mean, 
there is absolutely no question that if you are going to reach 
the youth of America, you are going to have to use methods that 
may not always seem mainstream.
    One of those is to, in fact, inculcate within the youth 
this idea of service, whether it is with the Navy, the Air 
Force or the Army, in our case the Marine Corps. So we 
absolutely believe that this is probably one of the best 
returns on any dollar we can give, because, one, you are 
helping the service, and, two, you are absolutely helping the 
young man or woman.
    I will get you the exact dollars. I will tell you that 
right now, we, the United States Marine Corps, get 6 percent of 
the total money allocated to the junior ROTC organizations. I 
would obviously like to have more than 6 percent because I 
don't think that is--it certainly does not equate to the number 
of people we have in the Corps vis-a-vis the entire Armed 
Forces. I will get you the number, the dollar figure, that 
would take us down to your high school. We think this is a 
winner.
    [The information follows:]

    Present fiscal year 1999 funding accommodates 174 MCJROTC units. 
The MCJROTC Program has 44 schools on the waiting list. Based on a 
geographical distribution, Springfield South High School is Number 3. 
Using this distribution, estimated cost to fund three additional units 
is:
    $364,500--(3 units @ 50% one time stand-up cost);
    $307,500--(Annual maintenance of 3 units);
    42,000--(1 additional civilian billet--GS-6);
    $349,500--(Annual cost);
    $714,000--(Total cost to establish three additional MCJROTC units, 
to include Springfield, Ohio).

    Mr. Hobson. Well, the interesting thing is, you know, I 
have Wright-Patterson Air Force Base in my district, and I have 
some Air Force ROTC units which do very well, but I don't have 
a Marine Corps one. This didn't arise with me. This came out of 
the local community, which is reasonably close to Wright-
Patterson, saying, we think this would be good in our 
community, this would be good for our school. And when you get 
a local community that wants it, I think, you know, we in 
Congress need to try to do that for the young people as 
something we do.
    If I had my way, every kid who graduated from high school 
ought to go to basic training for at least 9 weeks, but I don't 
think we can do that in this environment.
    General Krulak. I often wondered whether it should not be 
looked at more than just a defense issue, but one from 
education, because I will tell you just as an officer and 
Marine, but more importantly a father, these types of things 
that can get at the youth of today, to inculcate within them a 
value, a sense of values and character, are critical, and I 
will tell you, the best dollar spent is to spend it on the 
development of our young men and women.
    So I am just not sure that we as a Nation shouldn't start 
looking at not just the military part of it, but if we really 
believe in this, then we get our education folks to get 
involved and take a look at their budgets, too.
    Mr. Hobson. Just as an aside, in the State of Ohio, when I 
was in the legislature, we had a program, and I don't know 
whether it affects the Marines or the Navy, I don't know, but 
for the Air Force and the Army Guard, we will pay 100 percent 
of any young person who joins the Guard's college education if 
they go to an Ohio institution. So if we can figure out a way 
to help you guys also.
    Mr. Young. Sounds real good.
    Mr. Hobson. But you have got to be an Ohio resident. It is 
a good program, and there are a number of States that do this 
for the Guard.
    General Krulak. Yes, sir.
    Mr. Young. Mr. Cunningham.

                      COMBAT LOGISTICS FORCE SHIPS

    Mr. Cunningham. Acquisition plans right now, the combat 
logistic force, there is not funding in there enough. Any 
change in funding causes a delay, and if you take a look at 
those types of ships, they usually lose out to the other 
combatant carriers, destroyers, those kind of things, and there 
is not enough money. When we talk about acquisition, you know, 
the President's budget isn't large enough, you know. Or is it 
adequate? I say, no, primarily because we have these things 
that are delayed, delayed, delayed, and BRAC isn't going to do 
it. You have a BRAC in 2001, 2005. You don't get the savings 
for 5 to 10 years. Are we going to get to $60 billion in 
procurement because of a BRAC? You better change the spin and 
tell the President to do that, because it just don't work, Mr. 
Secretary.
    But on these kinds of ships, I am very supportive of 
alternative funding, charter and build. We tried to do the same 
thing with the C-17 with the Air Force, to privatize those 
things. Do you see a future in that kind of creative accounting 
and data funding?
    Secretary Dalton. Mr. Cunningham, we think charter and 
build has merit. We are debating that issue within the 
Administration, and if I could answer for the record, I would 
appreciate it.
    Mr. Cunningham. All right. I appreciate it. And I have some 
questions for the record on that issue I would like to submit.
    Secretary Dalton. Okay.
    [The information follows:]

    The Navy continues to look at Charter and Build for the T-ADC (X) 
vessels as one alternative to direct procurement. There is significant 
pressure on the Shipbuilding Conversion, Navy (SCN) account to purchase 
necessary aircraft carriers, submarines, and surface combatants. 
Therefore, the Navy is considering alternative acquisition approaches 
to acquire services necessary for the fleet.
    The Office of Management and Budget (OMB) requires a two-step 
process when evaluating lease versus buy. First, an economic analysis 
is required. To Accomplish this task, the Navy commissioned an 
independent entity to evaluate the financial aspects of Charter and 
Build. In accordance with the OMB guidelines, the analysis shows that 
leasing is cost neutral to buying on a present value basis.
    If leasing is attractive, OMB then requires the Navy to classify 
the lease in accordance with budgetary guidelines. This review shows 
that the T-ADC (X) vessels should be scored as capital leases, which 
require up-front budget authority and outlays on a ``pay as you go 
basis''. This approach appears no different than acquiring the ships 
through the SCN account (from a budget authority perspective). 
Therefore, the Navy is working with the Office of the Secretary of 
Defense and OMB to discuss scoring and budget authority aspects of the 
Charter and Build approach. The three ships in the SCN account (in 
fiscal year 2002/fiscal year 2003) allow us to continue exploring this 
alternative while ensuring the needed Combat Logistics Force 
replacement program starts.

                          MIRAMAR HELICOPTERS

    Mr. Cunningham. I will go to General Krulak.
    You are well aware of the problems with the helicopters 
there at Miramar?
    General Krulak. Yes, sir.
    Mr. Cunningham. I want to thank you, you know, for all the 
effort that the guys have stepped up with the community 
relations, but you have got a group of hard-core zealots there 
trying to stir up the folks. Is there any end in this lawsuit? 
Is there a direction that we are going to go on this thing?
    General Krulak. We, as you know, we are still in the middle 
of trying to reach a resolution. We have provided some 17,000 
pages of documentation. We believe that the magnitude of what 
they are going to have to go through will probably bring this 
to a halt. We are getting a sense of that from my counsel. I 
can get back to you on it specifically. We are working it, 
working it very hard. We will try, as you know, with the 
introduction of the V-22, the earlier the better to get them 
out there to help solve that. We have got the trainers being 
put out there so that we can actually move our squadrons out as 
quickly as possible to try to diffuse this.
    I can get back to you on the exact time. But right now we 
are still in the battle.
    [The information follows:]

    MV-22s will begin to arrive at MAG-16, MCAS Miramar, in fiscal year 
2005. Twenty-one (21) aircraft are forecast to arrive during fiscal 
year 2005, twenty-five (25) during fiscal year 2006, and the final two 
(2) aircraft in fiscal year 2007. This puts 48 MV-22 Ospreys at MCAS 
Miramar completing the MAG-16 stand-up.

                          CAMP PENDLETON LEVEE

    Mr. Cunningham. I appreciate it.
    Mr. Secretary, I want to thank the Department also we have 
had some problems with the sand issue out there, and a lot of 
it was caused because of the lack of sand on the beaches. I 
mean, it is just solid rock there, and the bluffs are going 
away with this El Nino, and people's homes are falling down. We 
are talking monumental problems especially in California.
    But we would like your continued support to be able to beef 
that up, and if we don't get some resolution, we are going to 
be looking to take out that levee up around Pendleton, which is 
causing a lot of the change in flow. And the Marine Corps may 
not like that, or the community up there may not like that, but 
we have got to change that because it is destroying people's 
lives. This is a heads up.

                            RETENTION ISSUES

    I would like to just close on the retention issue. It is 
not, as you say, just because of the economy. Family separation 
in all services is the number one issue for retention. And 
where we draw down our ships to like 300 ships, and we draw 
down the numbers. You draw down the services, and they have to 
deploy longer. You increase Bosnia, you increase like in 
Kuwait, and, Jay, you talked about $130 million. It costs 
nearly a million dollars a day to steam a carrier with all the 
operations and everything. When we look at the expansion of 
that, the cost, the retention, you talk about readiness, we 
have all our adversary squadrons are gone. That not only made 
us readier to fight, but it gave our kids shore duty billets to 
come where they could fly instead of having them come back to 
this damn Pentagon to work that you and I drag ourselves away 
from just so we can stay in the cockpit, all of those things.
    And I want to tell you, they don't like homosexuals forced 
on to them. I talk to them every day. They don't like the 
politically correct Navy. To where I used to get in trouble as 
a JG and stuff, my skipper would stand up for me. They do that 
today and they get fired in many cases with the political 
correctness of it. It is making it very, very difficult.
    You talk about fathers not having their sons, because of 
the erosion of the benefits. Subvention helps, but we have got 
a long way to go with veterans' care and those kinds of things 
to help to keep these guys turned around.
    Bonuses help a little bit. It went from 29 to 33 in the Air 
Force. I am sure it helps the Navy as well. But that is just a 
minimum. We keep asking our kids to do more with less, where 
the markets are open out there and expect them to stay in.
    When I was a lieutenant commander, I didn't look out to go 
fly with the airlines. I said, hey, my benefits are there. I 
can serve my country. I can fly fighters, and I can do that. 
All of that has gone away, Mr. Secretary, and these kids are 
losing face with it.
    Yeah, they like to fly and they want to serve their 
country, but they are losing a lot of it, and we have got a 
tough time.
    Mr. Young. Thank you very much for a very good hearing.
    Admiral Johnson. Thank you, Mr. Chairman.
    Secretary Dalton. Thank you, Mr. Chairman.
    Mr. Young. The Committee is adjourned.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                         Contingency Operations

    Question. In the fiscal year 1998 DoD Appropriations Act, the 
Overseas Contingency Operations Transfer Fund included nearly $1.9 
billion for Operation and maintenance cost associated with contingency 
operations in Bosnia and the Persian Gulf. Of this amount, $1,467.5 
million is for Bosnia, and $416.5 million is for Southwest Asia. 
Contingency operations for fiscal year 1998 are underfunded. Unofficial 
estimates indicate that Bosnia is underfunded by approximately $700 
million, and Southwest Asia is underfunded by a similar amount 
(assuming the current buildup, but no hostilities).
    What are the Navy and Marine Corps' Military Personnel and 
Operation and maintenance requirements in fiscal year 1998 for Bosnia 
outside of what's already been funded in the 1998 DoD appropriations 
Act?
    Navy Answer. In order to provide two carrier battle groups in the 
Arabian Gulf for the remainder of the fiscal year, it was necessary to 
reposition one carrier which was deployed in the Mediterranean Sea 
supporting the Bosnia contingency operations. As a result, the Navy and 
Marine Corps' overall estimate of funding required for Bosnia has 
decreased by $5.1 million. This reduction was taken into consideration 
when the Emergency Supplemental request was submitted by DoD to the 
Congress.
    Marine Corps Answer. Funding requirements for fiscal year 1998 
Bosnia costs beyond that included in the fiscal year 1998 appropriation 
for the Military personnel, Marine Corps appropriation and in the 
Transfer account for O&M requirements total $2.5 million; $1.4 million 
for MPMC and $1.1 million for O&MMC. The proposed Supplemental request 
includes the O&MMC portion under the Overseas Contingency Operations 
Transfer Fund. Funding under the MPMC appropriation supports Reserves 
activated for support, imminent danger pay and family separation 
allowances. O&M funding is primarily for equipment maintenance and 
travel and per diem.
    Question. What are the Navy and Marine Corps' total Military 
Personnel and Operation and maintenance costs for Bosnia in fiscal year 
1998?
    Navy Answer. The total cost for the Navy and Marine Corps 
contingency operations in Bosnia for fiscal year 1998 is $76.9 million.
    Marine Corps Answer. Total MPMC requirements in support of Bosnia 
operations are $2.7 million. Total O&MMC requirements are $2.3 million.
    Question. What are the Navy and Marine Corps' Military Personnel 
and Operation and maintenance requirements in fiscal year 1998 for 
Southwest Asia outside of what's already been funded in the 1998 DoD 
appropriations Act?
    Navy Answer. The additional cost to the Navy and Marine Corps of 
the enhanced presence currently being maintained in the Gulf (two 
carrier battle groups and one amphibious readiness group) is estimated 
to be $209 million. Offsetting this increase is a reduction in cost for 
Bosnia of approximately $5 million, bringing the Department's net 
requirement down to $204 million.
    Marine Corps Answer. Additional costs for the MPMC appropriation 
are $3.7 million. Additional costs for the O&MMC appropriation are $5.7 
million. The Military Personnel costs support primarily imminent danger 
pay and family separation allowances. The Operation and Maintenance 
costs primarily support incurred predeployment costs, subsistence 
expenses, a planned MPF off-load, and equipment maintenance.
    Question. What are the Navy and Marine Corps' total Military 
Personnel and Operations and maintenance costs for Southwest Asia in 
fiscal year 1998?
    Navy Answer. The total cost for the Navy and Marine Corps 
contingency operations in Southwest Asia for fiscal year 1998 is $322.4 
million.
    Marine Corps Answer. Total MPMC costs are estimated to be $3.7 
million and total O&MMC costs are estimated to be $5.7 million in 
support of Southwest Asia operations in fiscal year 1998.
    Question. Have funds yet been transferred from the Overseas 
Contingency Operations Transfer Fund to Navy and Marine Corps' 
Operation and maintenance to fund your contingency related expenses?
    Navy Answer. As of 18 March 1998, $157.8 million has been 
transferred to the Navy and $1.2 million has been transferred to the 
Marine Corps for contingency related operations and maintenance costs.
    Marine Corps Answer. Funding has not yet been received from the 
Overseas Contingency Operations Transfer Fund. The Marine Corps is 
scheduled to receive $1.2 million in support of Bosnia operations from 
this account in fiscal year 1998.

              Navy Ability To Support the Two MRC Strategy

    Question. Supporting the indefinite extension of the NATO mission 
in Bosnia combined with the recent increase in the deployment of U.S. 
forces to the Persian Gulf has stretched the ability of the U.S. to 
meet its security commitments elsewhere in the world. Recent press 
coverage indicates that the strain placed on U.S. forces is evident in 
each of the military services. For example, redeployment of a carrier 
to meet the emerging threat in the Persian Gulf may result in a carrier 
gap in the Mediterranean. Shuffling assets to meet both emergent 
requirements and long term security commitments may also hinder the 
Department's ability to conduct required maintenance actions on time. 
In addition, the need to meet the increasing demand for U.S. forces 
will significantly increase the strain placed on U.S. military 
personnel.
    Given the indefinite extension of the Bosnia mission and the recent 
buildup in the Persian Gulf, do you feel that the Navy and Marine Corps 
have adequate equipment and personnel resources to fulfill its share of 
the current national security commitments?
    Navy Answer. Yes. The Navy continually monitors and assesses its 
ability to fulfill its share of the current national security 
commitments. Although some challenges exist, we have the equipment and 
people to meet all commitments. Unfunded contingencies, however, result 
in funds being diverted from non-deployed forces to deployed. Such 
action negatively impacts the balance of current readiness across the 
force by delaying vital equipment repairs and disrupting quality 
training.
    Marine Corps Answer. Yes. Currently our forward deployed forces 
have been able to meet most of the CINC's requirements for Marine 
Corps. We have deployed a modest number of additional Marines to 
enhance our command control and to support our Maritime Prepositioned 
Squadron operations in the Arabian Gulf. These deployments will enhance 
our ability to quickly respond to any further requests for Marine 
forces from USCINCCENT.
    Question. What specific deficiencies do you see in the Navy and 
Marine Corps forces?
    Navy Answer. Maintaining and attracting the highly qualified people 
necessary to man our force is a significant challenge. Recently, we 
have been experiencing some manning shortfalls. These shortfalls can be 
attributed to our conscious decision to reduce accessions, especially 
accessions of unskilled personnel, to achieve mandated force level 
reductions yet keep faith with out career force.
    We are working hard to fill these shortfalls in a very difficult 
recruiting environment--characterized by a strong U.S. economy, low 
unemployment and a low propensity for enlistment age young adults to 
join the military.
    We have submitted to Congress a significant fiscal year 98 
reprogramming request to move additional funds into out Personnel 
account. Among the things this reprogramming will provide are:
    <bullet> Increased funding to the Permanent Change of Station (PCS) 
move program--which helps improve distribution.
    <bullet> Increased funding to the Selective Reenlistment Bonus 
(SRB) program--which helps retain individuals with critical skills.
    <bullet> Increased funding to the Enlistment Bonus Program, 
advertising, and Navy College Fund programs--tools which will assist 
Navy recruiters in attracting prospective recruits.
    Maine Corps Answer. The Marine Corps does not have any additional 
equipment or personnel deficiencies caused by both the Bosnia mission 
and the recent build-up in the Persian Gulf.

                          Tempo of Operations

    Question. What risks are posed by the requirement to maintain a 
constant two carrier presence in the Persian Gulf for the foreseeable 
future?
    Navy Answer. The Department of the Navy is striving to support the 
current requirement for two carriers battle groups in the Persian Gulf 
with regularly scheduled forward-deploying forces. It must be 
emphasized however, that this support comes at a cost, in reduced 
presence in other theaters, and poses significant challenges for the 
Fleet Commander.
    <bullet> To date, there have been no exceptions to the Navy's 
PERSTEMPO guidelines specifically caused by the increased carrier 
presence in the Persian Gulf.
    <bullet> Short term impacts are slight due to the forward deployed 
posture and inherent mobility of naval forces which make them an ideal 
choice for crisis response and easy to shift between theaters of 
operation when contingencies arise.
    <bullet> Longer term support comes at a greater cost due to 
compressed Interdeployment Training Cycles (IDTC) and perturbations to 
long range CVBG deployment schedules, which could result in increased 
OPTEMPO/PERSTEMPO.
    <bullet> Higher transit speeds, increased flight/steaming hours, 
and the requirement to compress or defer maintenance have potential 
impact on force readiness and quality of life for Sailors and Marines.
    Marine Corps Answer. Further stresses to OPTEMPO. The U.S. Navy has 
answered this question in detail.
    Question. Do you foresee any long term carrier gaps emerging 
because of the need to maintain an increased presence in Southwest 
Asia?
    Navy Answer. In order to maintain a two CV presence in the Arabian 
Gulf while: (1) limiting our deployments to six months; (2) minimizing 
the impact upon maintenance and training schedules; and (3) ensuring 
force readiness and quality of life for our Sailors and Marines, 
carrier gaps exist now in the form of reduced coverage in the EUCOM and 
PACOM Areas of Responsibility (AORs).
    For example, it is projected that only 13 percent of the CV 
presence requirement for EUCOM will be met in calendar year 1998, 
should the two CV presence requirement for the Arabian Gulf remain in 
effect. Additionally, only 87 percent of the CV presence requirement 
for PACOM will be met during this same period. As long as there is a 
requirement for a two CV presence in the Arabian Gulf, there will be 
gaps in CV coverage in other AORs.
    Question. The Committee understands that increased carrier coverage 
in the Persian Gulf may produce a gap in coverage in the Mediterranean. 
In your view is there a tradeoff between supporting the NATO mission in 
Bosnia and meeting the threat we face from Iraq?
    Navy Answer. As per Supreme Headquarters, Allied Powers Europe 
(SHAPE) Statement of Requirements, there is currently no requirement 
for CV support to the NATO mission in Bosnia. However, due to the 
volatile nature of the AOR, a situation could quickly arise in which a 
CVBG would be required.
    Marine Corps Answer. The use of multiple carriers in the Gulf 
allows for independent US action against Iraq in strength. It provides 
a force that is not bound to restrictions imposed by foreign 
governments for the use of their bases or territory. In my view, it is 
the continuous presence of the two carriers, and the option for 
independent US action which has brought Saddam to the negotiating 
table. This is a clear example of the inherent flexibility of Naval 
forces which allows our National Command Authorities to shift combat 
power from one theater to another unencumbered by the vagaries of 
foreign governments. So in that respect, the movement of the Med 
carrier battle group to the Arabian Gulf was a sound decision.
    Although the use of carrier air has proven a most efficient support 
mechanism for forces in Bosnia, we also have the cooperation and 
support of the Italian government, where we have many aircraft based in 
support of the NATO mission in Bosnia. I would defer to CINCEUR on any 
preferences he may have for shore-based versus afloat aircraft, 
although I suspect that he would prefer to have both available to him. 
The Navy, of course, has the capability to backfill our carrier 
presence in the Med if required, although at an increase to operational 
and deployment tempo.
    The current situation is but one more example of the flexibility 
and efficiency of naval forces, and the importance of these strategic 
assets to our warfighting CINCs and to our nation.
    Question. Does the redeployment of ships and aircraft put the 
maintenance schedules for equipment at risk?
    Navy Answer. Since the Navy is supporting a two carrier presence in 
the Persian Gulf with regularly scheduled forward-deploying forces, 
maintenance schedules have not been affected. However, if we are 
required to maintain this presence indefinitely, the Navy will face 
some challenges. A condensed Interdeployment Training Cycle (IDTC) will 
likely be required. Additionally, some work scheduled to be 
accomplished during upcoming ship and aircraft maintenance 
availabilities may need to be deferred.
    Marine Corps Answer. Yes, in at least, some cases.
    Question. If the Navy is unable to meet its maintenance schedules 
for equipment what risks does this pose to the nation's ability to meet 
its security commitments?
    Navy Answer. Deferring equipment maintenance can lead to readiness 
degradation and eventually have an impact on the Navy's ability to meet 
its operational commitments. However, if maintenance schedules were 
condensed to support an emergent need for additional deployed forces, 
non-essential work would be deferred, and those resources made 
available would be directed toward accelerating the repair of essential 
equipment.
    Marine Corps Answer. The risks would be many and varied and will be 
answered in detail by the Navy.

                             Naval Strategy

    Question. Admiral Johnson, in April 1997 you declared that the Navy 
was shifting from ``platform-centric'' to ``network-centric'' warfare. 
This is warfare which derives its power from the networking of a well-
informed but geographically dispersed force.
    Please describe your vision of network-centric-warfare, and the 
implications for naval warfighting.
    Answer. Network Centric Warfare (NWCW) is warfare based on the 
ability of a widely distributed, self-synchronizing force to mass 
effects when and where desired. Based on timely, accurate, and shared 
information obtained through high quality, widely distributed netted 
sensors, a streamlined command structure is able to alter conditions 
and respond to rapidly changing scenarios.
    The network centric Navy will consist of a sensor grid, command and 
control process, and a shooter grid; all riding on a common information 
backplane. Properly executed, NWCW allows us to mass fires not forces. 
Other benefits of NWCW are a flattened command hierarchy which enhances 
speed of command and synchronization. The ultimate goal is to lock out 
enemy options early on and thus effectively change their actions.
    One of the most important aspects of a network-centric naval force 
will be the ability to gain and maintain information superiority. The 
principal utility of network-centric operations is time--more time for 
our warfighters with the right information at the right place. This 
superior information position gives us the ability to change the 
critical initial conditions of the battle to our advantage. It will 
allow us to control how and when the battle will be fought. Not only 
will this advantage of time allow us to determine the conditions of the 
battle, but it may dissuade the enemy from taking any action because we 
can preempt his actions.
    The implications for naval warfighting are far-reaching and are 
still in an embryonic stage. As the civilian and commercial sectors are 
only just beginning to realize the full economic and social potential 
of the Internet, the military services are only glimpsing the beginning 
of a new era in warfighting.
    Question. How does the Cooperative Engagement Capability program 
fit into this strategy?
    Answer. Cooperative Engagement Capability (CEC) is a crucial 
component of network-centric warfare. In essence, CEC provides the 
sensor grid of a networking-centric navy. The goal of CEC is to link 
geographically dispersed sensors, of differing capabilities, with all 
potential firing platforms. Thus, all firing platforms will have the 
identical real-time picture of the battle-space.
    For the first time in naval warfare history, we are able to 
initiate fire engagements based on tracking data provided by sensors 
located on remote platforms, such as Naval vessels or shore-based 
Marine Corps radars. This has immense potential for application to the 
littoral battlefield or to overload engagements using Naval weapons. 
This leads to a tremendous capability to combine Army and Air Force 
sensor grids with Naval sensor grids to provide a joint firing 
solution. Joint warfighting capabilities would be significantly 
enhanced by the ability to combine all Services' sensor grids. We are 
not at that point yet, but it is a definite possibility.
    Question. What programs are now in the 1999 budget before us that 
were not there before you announced this new strategy?
    Answer. There are no programs within the Navy's budget which can be 
specifically identified with network-centric warfare. In the broad 
sense, all the Navy's programs support or will support network-centric 
warfare. As network-centric warfare forces the command hierarchy to be 
flattened, it will also require a shift in how the Navy views its 
resources. Information technology and warfare capabilities will be co-
mingled in such a way that it may be detrimental to view them as 
separate and distinct. We are only at the beginning of this process so 
it is difficult to judge the need for any new programs at this point. 
But we have determined the need to examine how the capabilities 
interact and what is the best way to implement the change to network-
centric warfare.
    To facilitate this change, we employ the Fleet Battle Experiments 
(FBE). Prior to fiscal year 1999, we funded the FBEs within existing 
programs. In the fiscal year 1999 budget, we decided to set aside a 
discrete project line to support the Maritime Battle Center (MBC).
    MBC is specifically charged with planning, design, analysis, and 
reporting of Fleet Battle Experiments (FBE). Guided by the National 
Military Strategy, Navy Operational Concept, and Joint Vision 2010, MBC 
will develop FBE themes and a long range execution schedule. Through 
the MBC and FBEs, we hope to realize the full potential of network-
centric warfare.
    Question. Explain your recent decision to establish the Navy 
Warfare Development Command and restructure the Navy War College.
    Answer. Establishing an innovation process and identifying an 
organization responsible for developing concepts and doctrine are 
essential to maintaining the Navy on the cutting edge of future 
warfighting capabilities. This decision was based on recommendations 
from a high level civilian task force (CNO Executive Panel) which were 
thoroughly staffed within the Navy and concurred in by the Navy's 
uniformed leadership.
    The purpose behind my decision to establish the Navy Warfare 
Development Command and restructure the Naval War College was to:
    <bullet> Tie together concept development, fleet experimentation 
and doctrine formulation within the framework of the Navy strategic 
vision.
    <bullet> Draw on the unique resources and talent available at the 
Naval War College.
    <bullet> Provide a formal process for innovation in naval 
operations required to continue meeting our strategic vision.
    <bullet> Capitalize on our recent Fleet Battle Experiment 
successes.
    <bullet> Revitalize and empower the doctrine development process.
    <bullet> The reorganized Naval War College, incorporating 
responsibilities formerly assigned to the Naval Doctrine Command, will 
provide the appropriate leadership to develop strategy and guide the 
Navy's warfare innovation efforts into the twenty-first century. The 
relocation of functions will enable a complete synergy with the CNO 
Strategic Studies Group (located at the Naval War College), and the 
faculty and military chairholders. This reorganization is the most 
effective and efficient approach to achieving the desired enhancement 
in naval warfare innovations, warfare experimentation, and doctrine 
development.

                         Unfunded Requirements

    Question. The Department of the Navy did a good job of funding 
items in the fiscal year 1999 budget that have been problem areas 
requiring Congressional adds during the past 3 years. In the new 
balanced budget environment, it is unlikely that the Congress will be 
able to continue providing large funding increases unless corresponding 
offsets are found. Nevertheless, it would be useful to us to know what 
your unfunded priorities are in case we find ways to address them 
during our appropriations process.
    What are the potential savings if the Congress were to provide 
additional funding in fiscal year 1999 for any of these items?
    Navy Answer. The costs and savings for each item on the March 25, 
1998 unfunded priority list are as indicated below:
    Flying Hour Spares:
    25 Mar unfunded priority amount: $45 million.
    Savings: As a result of increased reliability of the repair parts 
these funds would procure, savings are expected in the outyears. To 
qualify for this program the improved components must be expected to 
generate at least a two for one savings over a ten year period. If 
funded, these savings would be phased into the budget.
    Ship Depot Maintenance:
    25 Mar unfunded priority amount: $90 million.
    Savings: N/A.
    Recruiting:
    25 Mar unfunded priority amount: $62 million.
    Savings: N/A.
    ADT:
    25 Mar unfunded priority amount: $10 million.
    Savings: N/A.
    ADSW:
    25 Mar unfunded priority amount: $10 million.
    Savings: N/A.
    Real Property Maintenance:
    25 Mar unfunded priority amount: $391 million.
    Savings: The additional cost of increased deterioration resulting 
from deferral of $391 million in maintenance and repair requirements to 
fiscal year 2000 is estimated to be $20 million, not including the cost 
of impacts to mission readiness and efficiency.
    Ship Self Defense:
    25 Mar unfunded priority amount: $30 million.
    Savings: Inflation savings.
    CEC:
    25 Mar unfunded priority amount: $20 million.
    Savings: None.
    CVN-77 Technology Insertion:
    25 Mar unfunded priority amount: $33 million.
    Savings: The provision of additional RDT&E funds in fiscal year 
1999 would produce savings by expanding the identification of 
transition technologies to reduce life cycle costs for the CVN 77, the 
other nine ships of the CVN 68 class, as well as for the CV (X). 
Savings estimates are currently being refined.
    CVN-77 Advanced Procurement:
    25 Mar unfunded priority amount: $100 million.
    Savings: The savings achieved from the acceleration of $100 million 
of advanced procurement and advance construction items for CVN-77 are 
estimated at several hundred million dollars.
    CH60 MCM:
    25 Mar unfunded priority amount: $15 million.
    Savings: None. This is an emergent requirement to investigate the 
feasibility of starting a formal program plan to transition from the 
MH-53E to the H-60 to conduct AMCM in an organic role with the fleet.
    AQS 20X:
    25 Mar unfunded priority amount: $7 million.
    Savings: None.
    IT-21:
    25 Mar unfunded priority amount: $143 million.
    Savings: It is expected that there will be operational savings due 
to electronic/communication efficiencies, but at this time we cannot 
predict a rough order of magnitude.
    Piers, Runways and Quality of Life:
    25 Mar unfunded priority amount: $192 million.
    Savings: By advancing the projects into fiscal year 1999 cost 
avoidance from inflation would be 1-5 percent. Some of the projects 
would have operational savings which would result from improved 
efficiencies. Inflation savings are determined by taking the cost of 
the individual project and calculating the savings based on the 
inflation rate and the number of years the project is accelerated. 
Precise calculations of the savings have not been performed for the 
listed projects.
    Bachelor Quarters:
    25 Mar unfunded priority amount: $81 million.
    Savings: By advancing the projects into fiscal year 1999 cost 
avoidance from inflation would be 1-5 percent. Some of the projects 
would have operational savings which would result from improved 
efficiencies. Inflation savings are determined by taking the cost of 
the individual project and calculating the savings based on the 
inflation rate and the number of years the project is accelerated. 
Precise calculations of the savings have not been performed for the 
listed projects.
    Bachelor Quarters Furniture:
    25 Mar unfunded priority amount: $10 million.
    Savings: There are minimal inflation savings expected due to the 
provisions of additional funds in fiscal year 1999.
    Family Housing:
    25 Mar unfunded priority amount: $53 million.
    Savings: There would be minimal savings realized from the 
acceleration of this project.
    NSIPS:
    25 Mar unfunded priority amount: $19 million.
    Savings: IT-21: There are no savings from these technology 
upgrades. These funds will be used to accommodate technology upgrades 
coming from several systems which must be used in Personal Support 
Activity offices.
    RT-21: No direct savings. Hardware maintenance may be reduced.
    BPR: Business Processing reengineering and more efficient and 
effective staff performance are expected to generate savings. Because 
the work proposed is what is required to identify these savings, it is 
not possible to state at this time.
    ACC: The ACC will reduce by 25% the outyear operations and 
maintenance for systems supported.
    SDS: N/A.
    EFSR: The improvement/cost savings will be realized by the more 
efficient method of doing business. With all of current manning 
reductions already in place, this will enable PSDs to work more 
efficiently and maintain the level of service required. These savings 
have been determined based on already taken reductions in the PSD 
manning. A full economic analysis and identification of further 
manpower savings is part of the NSIPS implementation plan.
    ATM Machines at Sea:
    25 Mar unfunded priority amount: $12 million.
    Savings: This is a fact of life requirement and not a potential 
cost saver. Shipboard assessment demonstrated that the systems will 
fail at the turn of the century. The ATM I hardware is out of 
production and is no longer supported by the contractor. The ATM II 
systems require hardware upgrades to run the new Y2K software. The 
software has been tested and is currently deployed to four ships with 
another 20 scheduled this fiscal year. The requested funds are to 
complete the replacement/upgrade of the remaining 124 platforms by 
December 1999.
    E-2C:
    25 Mar unfunded priority amount: $71 million.
    Savings: If we assume the multiyear procurement is approved, the 
total savings achieved by moving an aircraft from fiscal year 2003 to 
fiscal year 1999 is minimal. The minimal savings is primarily the 
result of the multiyear procurement buying all the detail parts and 
Prime Mission Equipment (PME) in fiscal year 1999. The fiscal year 1999 
buy of parts and equipment already includes the plus-up aircraft's 
parts and equipment. There are some savings in fiscal year 1999 by 
spreading overhead over four aircraft instead of three aircraft, but 
this is offset by an increase in fiscal year 2003 due to the movement 
of the aircraft from fiscal year 2003 to fiscal year 1999. Approximate 
inflation savings would be $2.6 million.
    AIP Acceleration:
    25 Mar unfunded priority amount: $72 million.
    Savings: When the amount under consideration ($72 million) is 
combined with existing fiscal year 1999 funding, an AIP kit average 
unit procurement cost decrease of $0.5 million is anticipated. This 
would allow the procurement of 8 additional kits for the $72 million. 
Significant increase in operational effectiveness will reduce operating 
hours necessary to carry out ASUW and surveillance missions.
    Submarine Connectivity:
    25 Mar unfunded priority amount: $61 million.
    Savings: Availability of an additional $61 million in fiscal year 
1999 funds would result in a future savings of $6.3 million to the 
Department of the Navy. These savings will accrue due to quantity 
savings based on contract negotiated prices.
    Submarine Towed Arrays:
    25 Mar unfunded priority amount: $12 million.
    Savings: None.
    Acoustic Rapid COTS Insertion:
    25 Mar unfunded priority amount: $21 million.
    Savings: Increased fiscal year 1999 funding supports new and 
additional requirements currently not funded within the FYDP. There are 
no specific savings that can be attributed to increased fiscal year 
1999 funding.
    Standard Missile:
    25 Mar unfunded priority amount: $48 million.
    Savings: Total savings to the Program are $28 million. Acquisition 
savings of $26 million, and $2 million in operational and support 
savings.
    The long term effect of the procurement of additional rounds in 
fiscal year 1999 allows for the program to get further along the 
learning/rate curve earlier, resulting in a reduction in the cost of 
rounds in the outyears. The result is a net savings of $26 million 
across the total procurement (acquisition savings).
    The $2 million savings in operational and support dollars is a 
direct result of procuring rounds early in the acquisition cycle. This 
allows earlier cessation of operational and support dollars, providing 
savings.
    TOMAHAWK:
    25 Mar unfunded priority amount: $27 million.-OMN
    Savings: There are no acquisition savings associated with the 
additional recertifications and refurbishments. This is a readiness 
driven requirement. There will be approximately $600,000 per year 
inflation savings by performing recertifications and refurbishments in 
fiscal year 1999 vice in FYDP outyears.
    TADCX:
    25 Mar unfunded priority amount: $450 million.
    Savings: The potential exists to eliminate 2 SLEPs for a total of 
$35 million in then year dollars.
    SH60R:
    25 Mar unfunded priority amount: $23 million.
    Savings: There are no direct savings to be gained. However, the 
addition of a fourth test asset mitigates the possibility of potential 
schedule slip with attendant cost increase during TECHEVAL/OPEVAL. An 
additional test asset provides the test team with flexibility in test 
scheduling and mitigating technical risks. After testing completion, 
all test assets will return to the fleet with no further rework 
anticipated.
    LANTIRN PODS:
    25 Mar unfunded priority amount: $8 million.
    Savings: None.
Steaming Days:
    25 Mar unfunded priority amount: $20 million.
    Savings: N/A.
    Marine Corps Answer. Following is a list of our unfunded priorities 
for procurement and R&D for aviation, ground equipment, and amphibious 
support programs. This list is arranged by appropriation and 
prioritized within each appropriation.
    Generally speaking, acceleration of these programs would result in 
inflation savings. There are several ground equipment programs for 
which the unit price would decrease as a result of a larger quantity 
procurement. Examples follow the table.
    Additionally, earlier fielding of many of these critical 
replacements for our aging aviation platforms and ground equipment will 
result in savings in terms of decreased equipment maintenance costs.

                          [Dollars in millions]
------------------------------------------------------------------------
  APPN                          Item                            Total
------------------------------------------------------------------------
    APN MV-22 (Acft)                                             $78.0
    APN AV-8B Acft & Spares (2 Acft)                              43.1
    APN CH-53E HNVS ``B'' Kits                                    30.0
    APN AV-8B Act Modifications                                    2.3
    APN AH-1W Night Targeting System                              11.0
    OPN OMNI IV Night Vision Goggles                              22.6
    OPN LCAC C4N Upgrade                                          16.8
    WPN Hellfire II/TOW Rocket Motors                              3.6
  RDT&E AV-8B OSCAR & LSO Upgrade                                 12.2
  RDT&E AV-8B Advanced Targeting FLIR                             64.3
  RDT&E USMC H-1 Upgrades, 4BN/4BW Acft                           23.4
  PANMC Ctg, 120mm Target Practice w/Tracer (TP-T) (DODIC          0.7
         C784)
  PANMC Ctg, 120mm Target Practice, Cone Stabilized,               0.5
         Discarding Sabot w/Tracer (TPCSDS)
  PANMC Ctg, 25mm Target Practice Discarding Sabot-Tracer          0.9
         (TPDS-T) (DODIC A940)
  PANMC Ctg, 5.56 Blank Linked (DODIC A075)                        0.6
  PANMC Ctg, 7.62mm Ball Linked (DODIC A143)                       0.7
  PANMC Ctg, Cal .50 Ball Linked (DODIC A555)                      0.3
  PANMC Ctg, 9mm Ball (DODIC A363)                                 0.8
  PANMC Rocket, 83mm Dualmode (DODIC HX05) PIP                    18.0
  PANMC Fuze, Hand Grenade Practice (DODIC G878)                   2.5
  PANMC Grenade, Hand Smoke Green (DODIC G940)                     0.5
  PANMC Grenade, Hand Practice Smoke TA M83 (DODIC G982)           0.2
  PANMC Signal, Smoke & Illum Marine (DODIC L283)                  0.5
  PANMC Igniter, Time Fuse Blasting (DODIC MN08)                   0.6
    PMC Base Telecom Infrastructure                               64.1
    PMC LTVR                                                      37.0
    PMC Mod Kits Tracked Vehicles                                  4.6
    PMC Y2K Compliance/Computer Replacement                       20.0
    PMC P-19A Aircraft Firefighting SLEP                           4.6
    PMC SECM                                                       5.4
    PMC Night Vision Equipment                                     6.1
    PMC Hose Reel                                                 16.5
    PMC Network Infrastructure                                    16.5
    PMC Avenger                                                    7.6
    PMC Power Equipment                                            9.5
    PMC Material Handling Equipment                               10.4
    PMC Mods Kits (Artillery & Other)                              1.3
    PMC JTIDS                                                      3.0
    PMC GPA-123 IFF Antennas                                       1.2
    PMC CBIRF                                                      1.0
  RDT&E Marine Corps Warfighting Laboratory                       10.0
  RDT&E LW155 Howitzer                                             6.8
  RDT&E Predator/SRAW                                              4.0
  RDT&E AAAV                                                       5.0
  RDT&E CBIRF                                                      1.2
  RDT&E Unit Ops Center (UOC)                                      1.1
  RDT&E Global Broadcast System                                    0.7
    SCN LCAC SLEP                                                  3.6
------------------------------------------------------------------------

    Examples of programs with potential unit cost savings: AAAV: The $5 
million fiscal year 1999 Budget enhancement would allow the AAAV 
program to fund development of an alternative propulsion system and 
alternative suspension components.
    The current primary propulsion system is estimated to have a 
Design-to-Unit-Production-Cost (DTUPC) of $467,000 (in constant fiscal 
year 1995 dollars). This enhancement would allow development of an 
alternative propulsion system that is estimated to have a DTUPC of 
$311,000. This would yield a potential procurement savings for the 
1,013 vehicles, and spares of $202.8 million, for the years fiscal year 
2006 through fiscal year 2012.
    An AAAV alternative suspension subsystem (HSUs) has an estimated 
DTUPC reduction of $35,500 per vehicle for 1,013 vehicles totaling 
$35.9 million in procurement and $205 million in O&M. Another 
alternative suspension component is an alternative lightweight track 
system. If successful this would provide competition between two 
vendors thereby reducing the DTUPC for the track system. Past 
competition has yielded DTUPC reductions of fifteen (15) percent.
    Shop equipment contact maintenance (SECM): Potential savings of 
$300,000 associated with reduced unit cost derived from an acceleration 
of the program and increased production quantities.
    Material handling equipment: Savings associated with MHE 
procurement via commercial channels are $1.6 million on the RTCH and 
$2.0 million on the TRAMS.
    PANMC: The cost savings associated with the ammunition on the 
Budget Enhancement List (BEL) is largely attributable to the inflation 
savings. Of the 11 ammunition items on the BEL, 10 are requested to 
raise the Marine Corps acquisition objective to 100%. These 10 
ammunition items total $8.8 million and will save approximately 
$168,000 in additional inflation costs.
    The $18 million requested for the Shoulder Launched Multi-Purpose 
Assault Weapon (SMAW) Dual Mode Rocket (DODIC HX05) will replace the 
encasements. Additionally, the HX05 has a current effective range of 
250 meters. With the planned scope of work, both the encasement and the 
spotting cartridge will be replaced, thereby increasing the range and 
effectiveness to 500 meters, which complies with the current 
Operational Requirement Document (ORD). The cost avoidance, NOT A 
SAVINGS, realized by replacing the encasements vice procurement is 
approximately:

Procurement 34,000 rockets @ $1,433.73 ea...............     $48,746,820
Repair 34,000 rockets @ $529.41 ea......................      17,999,940
                    --------------------------------------------------------
                    ____________________________________________________
    Total cost avoidance................................      30,746,880

    Question. What are the highest unfunded O&M or personnel 
requirements?
    Navy Answer. The Department of the Navy's top priorities have not 
changed in recent years. Readiness, quality of life and modernization 
issues remain our highest priorities. In prioritizing our fiscal year 
1999 funding, the Department has dedicated the resources needed to 
maintain a high level of readiness and sustainability, thus allowing 
more realistic and stable commitments to the modernization needed to 
defeat future threats.
    With that in mind, I would stress that I consider our budget 
sufficient in all these areas. There are always, however, instances 
where more resources would be beneficial. The Chief of Naval Operations 
and Commandant of the Marine Corps have developed lists of their top 
unfunded priorities. I support their views. However, I wish to 
emphasize that our fiscal year 1999 budget request is finely balanced 
and our first priority is to get the budget approved as submitted, 
including the amendment for contingency operations without offsets by 
the Department. We can not afford general reductions and do not desire 
priority changes. Any additional funds over and above that could be 
applied to the priorities provided by my Service Chiefs. I have 
attached their lists.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Marine Corps Answer: Following is a list, in priority order, of our 
highest priority unfinanced requirements for both the active and 
reserve O&M and Military Personnel accounts. These items represent 
either new, emergent items that could not be addressed in the 
formulation of the budget (e.g., advertising, operating forces 
support), or items that, because of a topline constraints, could only 
be financed at a certain pace, either in the budget or the FYDP (e.g., 
personnel support equipment, initial issue, maintenance of real 
property, recruiting). If additional funding became available, the pace 
of these programs could be accelerated. Back-up papers are attached for 
each item.

O&MMC:
    Advertising................................................... $12.0
    Operating Force Support.......................................  16.1
    Base Operations...............................................  10.4
    Active Duty Special Work (ADSW)...............................   2.1
    Initial Issue Equipment.......................................  25.0
    Marine Corps Warfighting Laboratory...........................   1.0
    Personnel Support Equipment...................................  25.0
    Recruiting Operations.........................................   1.5
    Maintenance of Real Property..................................  72.0
    Norway Containerization.......................................   7.5
    Distance Learning Initiative..................................  10.0
    Automated Recruit Management System...........................   1.0
    Voluntary Education (Tuition Assistance)......................   1.0
    Depot Level Maintenance.......................................  20.7
    Human Resources Management and Forecasting....................   1.0
    Family and Individual Readiness...............................   1.6
    MAGTF Logistics Automated Information System..................   0.6
                                                                  ______
        Total O&MMC............................................... 208.5
                        =================================================================
                        ________________________________________________
O&MMCR:
    Increased Use of Guard & Reserve..............................   1.2
    Initial Issue.................................................  10.0
    782 Gear Career Issue.........................................   4.0
    Unit Relocations/Host-tenant Departures.......................   1.5
    Contracted Engineer Technical Services........................   0.8
    Corrosion Control and Coating Program.........................   3.2
                                                                  ______
        Total O&MMCR..............................................  20.7
                        =================================================================
                        ________________________________________________
MPMC:
    Recruiting-Enlistment Bonus Program...........................   3.0
    Recruiting-Marine Corps College Fund..........................   5.9
                                                                  ______
        Total MPMC................................................   8.9
                        =================================================================
                        ________________________________________________
RPMC:
    Increased Use of Guard and Reserve............................   3.4
                                                                  ______
        Total RPMC................................................   3.4
                        =================================================================
                        ________________________________________________

    Question. Which of these items are on any of the CINC Integrated 
Priority Lists?
    Navy Answer. The latest set of Unified CINC Integrated Priority 
Lists (IPLs) were submitted to OSD in December 1997 to support the 
upcoming Program Objective Memorandum. Unified CINCs' IPLs continue to 
stress force protection, force readiness, combating terrorism, 
personnel quality of life, upgrades of existing equipment, theater 
missile defense, tactical and strategic mobility, and C4I systems 
improvements.
    Unfunded Navy procurement, R&D, O&M, and manpower items are all 
prioritized within the Force Readiness, Force Protection, C4I Systems, 
Theater Missile Defense, Flying Hours and Steaming Days, Logistics and 
Mobility, Force Structure, and Quality of Life categories of various 
CINC IPLs.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Marine Corps Answer. Although this budget fully funds my highest 
priority, near-term readiness, there are areas where I could use help 
should additional funds become available.
    I would ask, however, that you also consider the following items:
    That you support the Fiscal Year 1998 Supplemental, and that the 
request be treated as an emergency, with no offsets required by the 
Department; and,
    That you support our funding and program requests as reflected in 
the Fiscal Year 1999 President's Budget Request. The items funded in 
the budget represent our top priorities within existing topline 
constraints.
    The Marine Corps is in the business of warfighting and funds each 
program based on its cost-benefit to the Corps warfighting capability. 
Because the Unified CINCs will ultimately employ the Marine Corps 
warfighting assets, the Marine Corps measures each investment by its 
contribution to supporting the warfighting CINCs. Whether it's arming 
our firing batteries or enhancing our Marines' quality of life, the 
justification for funding must be an increase to our warfighting 
effectiveness. During the development of the Budget Enhancement List, 
careful consideration was given to each program's impact on warfighting 
capability. If the enhancement did not support a CINC's warfighting 
capability by either directly or indirectly supporting an IPL item, it 
was not included on the Enhancement List. Each of the programs included 
in the list meets this criteria of supporting at least one of the CINC 
Integrated Priority Lists.
    Attached is a listing of our underfunded or unmet items which are 
not financed due to present fiscal constraints. These items are arrayed 
as requested by the House National Security Committee, HNSC, in the 
categories of Quality of Life, Readiness and Modernization, and are 
prioritized by appropriation or area of support, within each category.
    I remain concerned about the long-term implications of underfunding 
investment in infrastructure at our bases and stations in terms of 
maintenance of real property and minor construction. I added a fourth 
category to those requested by the HNSC, ``Other'', which covers these 
areas, as well as other items in the area of operations and maintenance 
support of our active forces which could be accelerated in the event 
additional funds became available.

    [Clerk's note.--The list was provided for the Committee's 
files.]

                  Increased Use of Multiyear Contracts

    Question. The Department of the Navy budget request for fiscal year 
1999 requests authority for new multiyear procurement programs and also 
continues existing multiyear programs. The effect of the fiscal year 
1999 budget, if approved by Congress, would be to have DDG-51 ships, 
AV-8B aircraft, E-2C aircraft, T-45 trainer aircraft, CH-60 
helicopters, the medium Tactical Vehicle Replacement, and Javelin anti-
tank missiles purchased under multiyear contracts. The Navy is also 
closely examining the feasibility of multiyear procurements for V-22, 
F/A-18E/F aircraft, P-3 aircraft modifications, and LPD-17 ships in 
future years.
    Secretary Dalton, please describe the Navy's new strategy of 
aggressively pursuing multiyear procurement programs.
    Navy Answer. By capitalizing on the increased stability in our 
modernization accounts, we can accelerate procurement of crucial 
systems and reduce unit costs, increasing our modernization potential 
by the billions of dollars (including existing multiyear contracts) 
which this approach saves.
    Question. Defense outyear budget projections are often optimistic, 
and usually materialize into actual programs at much lower funding 
levels. What is the risk that the Navy will start a number of multiyear 
programs that it cannot finish?
    Navy Answer. The stability of funding and requirements in each of 
our fiscal year 1999 multiyear proposals were carefully evaluated and 
were rated low risks. What little risk remains will be further 
mitigated through appropriate use of variation in quantity liability 
limitation contract clauses.
    Marine Corps Answer. There is low/no risk that the Department of 
Navy will start a number of multiyear programs that it cannot finish. 
All programs requesting multiyear procurement (MYP) must meet certain 
criteria. Following is the list of criteria and an example of how one 
program, the AV-8B, has satisfied each criterion. The criteria are to 
be used in a comparative benefit/risk analysis format where criterion 1 
below, represents the benefit factor and criteria 2 through 6 represent 
risk factors.
    Benefit to the Government. A MYP should yield substantial cost 
avoidance or other benefits when compared to conventional annual 
contracting methods.
    Stability of Requirement. The minimum need for the item remains 
unchanged or varies only slightly during the contemplated contract 
period in terms of production rate, fiscal year phasing, and total 
quantities.
    The AV-8B 3 year MYP saves $32 million over annual funding.
    Stability of Requirement. The minimum need for the item remains 
unchanged or varies only slightly during the contemplated contract 
period in terms of production rate, fiscal year phasing, and total 
quantities. The Department of the Navy (DON) posture statement 
revalidated the remanufacture of 72 day attack AV-8B's and demonstrates 
the DON's commitment to properly fund this weapon system to the 
quantities proposed in the multiyear plan.
    Stability of Funding. There should be reasonable expectation that 
the program is likely to be funded at the required level throughout the 
contract period. The DON has shown a commitment to support the AV-8B 
MYP plan by fully funding the requirements. Funding for the AV-8B has 
been stable since 1992.
    Stable Configuration. The item should be technically mature with 
relatively few changes in item design anticipated and underlying 
technology should be stable. The AV-8B is a mature airplane that is 
currently over half way through its procurement life. No major 
engineering change proposals are planned during the multiyear profile.
    Degree of Cost Confidence. There should be reasonable assurance 
that cost estimates for both contract costs and anticipated cost 
avoidance are realistic. AV-8B MYP savings were developed utilizing 
contractor Boeing (MDA) input. The assumptions, methodology, and 
savings utilized by Boeing were independently reviewed by the NCCA, and 
were deemed to be reasonable.
    Degree of Confidence in Contractor Capability. There should be 
confidence that the contractor can perform adequately, both in terms of 
government furnished items and their firm's capability. The Government 
is confident that Boeing (McDonnell Douglas) will be able to support 
and deliver the AV-8B based on past performance with MYP scenarios 
(FY88-FY91).
    Risk Factors. Each risk factor should be categorized as low, medium 
or high and an explanation of the risk assessment provided. All AV-8B 
risk factors are rated as low based on the comments above.
    The Marine Corps reviews all multiple year and multiyear 
procurements for all of the criteria above, and for affordability in 
both the current years and future years of the budget. Funding ``bow 
waves'' are assessed for Service affordability. For large dollar 
multiple year procurement items, plans for future years affordability 
beyond the six budget years are assessed in the Program Objective 
Memorandum development process. Additionally, most Marine Corps 
multiyear ground equipment procurements are related to joint or multi-
Service programs and involve future year commitments within the larger 
funding bases of the other Services.
    Question. For each of the aircraft programs (AV-8B, T-45, E-2C) now 
proposed in the 1999 budget for multiyear procurement for the first 
time please tell us:
    <bullet> what is the ``up-front'' investment cost?
    <bullet> what are the savings?
    <bullet> what is the percentage of savings resulting solely from 
multiyear procurement?
    Navy Answer.
                                  e-2c
    Additional up-front investment: fiscal year 1999 $139.3 million, 
fiscal year 2000 $109.2 million
    Savings: fiscal year 2001-fiscal year 2003 $355.1 million (net 
fiscal year 1999-fiscal year 2003 $106.5 million)
    Percentage savings multiyear alone: 8.3%
    Net savings multiyear plus acceleration: $204 million, or 14.4%
                                 t-45ts
    Additional up-front investment: fiscal year 1999 $41.2 million, 
fiscal year 2000 $14.2 million
    Savings: fiscal year 2001-fiscal year 2003 $102.9 million (net 
fiscal year 1999-fiscal year 2003 $47.4 million)
    Percentage savings multiyear alone: 5.2%
    Net savings multiyear plus acceleration: $246 million, or 18.5%
                                 av-8b
    (Note: AV-8B approved for fiscal year 1998 multiyear start, but 
shown below as fiscal year 1999 multiyear start)
    Additional up-front investment: fiscal year 1998--$.3 million, 
fiscal year 1999--$1.4 million, fiscal 2000 $6.2 million, or fiscal 
year 1998-2000 net $4.5 million additional investment
    Savings: fiscal year 2001-fiscal year 2006 net $36.4 million (net 
fiscal year 1998-fiscal 2006 $32.0 million)
    Percentage savings multiyear alone: 6.5%
    Net savings multiyear plus acceleration: Not applicable.
    Marine Corps Answer. The fiscal year 1999 President's Budget 
reflects funding for a 3 year MYP procurement for the AV-8B. The up 
front investment is $25.3 million in fiscal year 1999 for a 3 year 
multiyear contract.
    The savings are $32.0 million over a 3 year multiyear (fiscal year 
1999 to 2001) procurement. The savings are derived as follows: The 
benefit from savings yield $15.7 million in fiscal year 2000 and $41.6 
million in fiscal year 2001 for a total savings of $57.3 million. After 
reducing total savings by the up front costs ($25.3 million in fiscal 
year 1999), net savings as a result of entering a MYP are $32.0 
million.
    The percentage of savings are 6.5% over a 3 year multiyear (fiscal 
year 1999 to 2001) for the airframe CFE.
    The intent of the Department of the Navy is to enter the AV-8B into 
a 4 year MYP. The AV-8B 4 year MYP has been forwarded by ASN (RDA) and 
SECNAV. SECDEF approval is expected, with Congressional notification to 
follow immediately. Once approved the following up front investment 
cost and savings would apply.
    For a 4 year MYP the up front cost would be $26.8 million in fiscal 
years 1998 and 1999 for a 4 year multiyear contract that would include 
fiscal year 1998 procurement.
    The savings are $33.0 million for a 4 year multiyear (fiscal years 
1998 to 2001) procurement. The savings are derived as follows: The 
benefit from savings yield $17.2 million in fiscal year 2000 and $42.6 
million in fiscal year 2001 for a total savings of $59.8 million. After 
reducing total savings by the up front costs ($26.8 million in fiscal 
years 1998 and 1999), net savings as a result of entering a MYP are 
$33.0 million.
    The percentage of savings are 4.9% over a 4 year multiyear (fiscal 
years 1998 to 2001) for the airframe CFE.
    Question. Under what conditions and when would the Navy pursue 
multiyear procurement for F/A-18E/F aircraft, V-22 aircraft, or LPD-17 
ships?
    Navy Answer. Future multiyear procurement candidates will be 
evaluated in terms of expected benefit (substantial economic and/or 
national security benefit), requirement stability, funding stability, 
program maturity and configuration stability, cost confidence, and 
contractor confidence. Those which offer substantial benefit at 
acceptable risk will be proposed for multiyear procurement.
    It is important to note, however, that most of the programs 
mentioned have potential for large savings through the use of multiyear 
contracts.
    Marine Corps Answer. Use of multiyear procurement (MYP) for the V-
22 is dependent upon the maturity of the aircraft (concurrence with 
R&D), stability of configuration, and degree of cost confidence 
(ability to negotiate a fixed-price type contract). The Navy recommends 
MYP no earlier than the full rate production decision in fiscal year 
2001 with advanced procurement in fiscal year 2000. As currently 
programmed, the MYP will begin in fiscal year 2003.
    In addition, the Department of the Navy is also examining multiyear 
procurement for 10 LPD 17 class ships funded in fiscal year 2000 
through fiscal year 2004, and will balance the need to multiyear the 
program against available SCN funds. The LPD 17 is the replacement for 
four aging class of ships (LST, LKA, LSD 36, LPD 4) built between 1965 
and 1973. When construction is complete, the 12 ships will allow the 
Navy to meet both our forward presence requirement for Amphibious Ready 
Groups (ARGs) and the fiscally constrained warfighting goal of 2.5 MEBs 
of lift. Additionally, the LPD 17 class will eliminate our reliance on 
mothballed ships presently needed to meet our 2.5 MEB lift goal.

                                                     CURRENT PROCUREMENT AND COMMISSIONING PROFILES
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                   96     97     98     99     00     01     02     03     04     05     06     07     08     09    Tot
--------------------------------------------------------------------------------------------------------------------------------------------------------
LPD 17s Funded.................................      1      0      0      1      2      2      2      2      2  .....  .....  .....  .....  .....     12
LPD 17s Commissioned...........................  .....  .....  .....  .....  .....  .....      1      1      1      2      2      2      2      1     12
Total in Inventory.............................  .....  .....  .....  .....  .....  .....      1      2      3      5      7      9     11     12     12
--------------------------------------------------------------------------------------------------------------------------------------------------------

                          Personnel Reductions

    Question. The fiscal year 1998 Authorization Act established end 
strength floors for the active forces, but provided language to allow 
the Navy and Marine Corps a one percent variance from that floor. The 
fiscal year 1999 budget requests an additional reduction of 14,200 Navy 
personnel, and approximately 790 Marine Corps personnel below the 
fiscal year 1998 end strength levels.
    Will the Department ask the Authorization Committees to either 
repeal this end strength floor or waive it for fiscal year 1999?
    Navy Answer. The Navy will seek repeal of the end strength floor 
established by the fiscal year 1998 Defense Authorization Act. This 
will allow the reduction of personnel commensurate with the 
recommendations of the Quadrennial Defense Review and provide funds to 
be reinvested in modernization and recapitalization of the Navy and 
Marine Corps.
    Marine Corps Answer. Yes.
    Question. Since the additional end strength reductions proposed in 
the budget can only be accomplished if the end strength floors are 
repealed, what problems of risks does this present to the Navy and 
Marine Corps in managing your forces if the floors are not repealed?
    Navy Answer. Failure to repeal the end strength floors established 
by the fiscal year 1998 Defense Authorization Act will jeopardize Navy 
and Marine Corps efforts to replace and modernize our warfighting 
platforms. A budget that supports the current floor of 390,802 would 
require an additional $819.4 million in the non-discretionary portion 
of the MPN account. It is not feasible to resource this shortfall from 
MPN discretionary funds that total only $640 million. That $640 million 
is critical to maintaining our current programs (Permanent Change of 
Station moves, reenlistment bonuses, Navy College Fund, etc.). 
Furthermore, the majority of the personnel reductions (66%) are 
inextricably linked to force structure; their restoration would require 
additional funding not only for the personnel costs, but also for the 
platforms on which those personnel would serve.
    Our planned Navy and Marine Corps force structure is adequate to 
meet our National Security Strategy and was validated by the 
Quadrennial Defense Review and the National Defense Panel. The total 
required end strength is a function of our force structure and 
infrastructure and is not a separate, independent, variable.
    Marine Corps Answer. We would encourage the Congress to repeal the 
end strength floors reflected in the fiscal year 1998 Authorization 
Act. In accordance with the QDR, we reduced our active end strength by 
1,800 from the authorized level of 174,000, and will achieve the total 
reduction by the end of fiscal year 1999. We have taken these 
reductions in order to free up funding to allow us to partially address 
the urgent need to modernize equipment for our ground forces. Under 
present fiscal constraints, this reduction was essential if we are to 
have funds available to apply to modernization. If the fiscal year 1998 
end strength floors are not repealed, we will not go below our 
Congressionally mandated floor.
    Question. Are the Navy and Marine Corps currently continuing to 
execute towards the end strength numbers in the budget request?
    Navy Answer. The Navy is working to finish fiscal year 1998 with as 
close to the 386,894 (390,802 with 1% variance) end strength, 
established in the 1998 National Defense Authorization Act, as 
possible. However, due to continued limited success of recruiting and 
retention, reaching this goal is unlikely. The Navy missed the 
accession goal for the month of February by 699 accessions. We will be 
unable to recover from this shortfall during the Summer months as the 
Recruit Training Command will be at planned capacity for those months. 
These additional accessions will have to be achieved during the fall of 
1998. Swift action on the MPN reprogramming request will assist us in 
providing the required resources necessary to mitigate this shortfall.
    We are on track to reduce our end-strength to 372,696 by the end of 
fiscal year 1999. The majority of these reductions (66%) are directly 
linked to force structure changes while the remainder stem from 
indirect savings in the infrastructure.
    The Marine Corps is executing toward the end-strength numbers in 
the fiscal year 1999 budget request, which incorporated the QDR 
recommendations, but does not plan to break the established minimum 
prior to approval of new end-strength levels.
    Marine Corps Answer. The Marine Corps is currently continuing to 
execute towards the end-strength numbers in the budget request, which 
have incorporated the QDR recommendations. We do not plan, however, to 
break the established minimum prior to the approval of new floor.
    Question. What is the total unfunded shortfall for manpower and the 
O&M costs associated with maintaining the additional force structure?
    Navy Answer. The annual cost would be in excess of $1.43 billion. 
This includes approximately $1,017 million in Military Personnel, Navy 
and $410 million in Operations and Maintenance, Navy. This estimate is 
very conservative in that it assumes the 25 ships scheduled for 
decommissioning during fiscal year 1999 are fit for further service 
without having to incur additional costs related to alterations and 
maintenance which were deferred based on pending decommissionings. The 
MP, N estimate is directly proportional to the fiscal year 1999 
President's Budget, adjusted for force shaping and recruiting tools 
which would be required at the higher end strength level. These figures 
would need to be escalated for inflation in the out years.
    Nine of the ships scheduled for decommissioning are nuclear powered 
attack submarines. On the assumption that these boats are fit for 
further service, they would require a nuclear refueling in the near 
future. This would require a nuclear refueling in the near future. This 
would require a one time cost in excess of $1.6 billion. In reality, 
seven of the submarines have reached, or will shortly reach, the end of 
their service life and would need to be replaced.
    An additional $54.7 million would be required for the Marine Corps: 
$48.6 million for MP, MC and $6.1 million for O&M, MC.
    Marine Corps Answer. The additional cost of maintaining an end 
strength of 174,000 would require $48.6 million for MPMC and $6.1 
million for O&M.
    Question. Are the fiscal year 1999 personnel reductions directly 
tied to force structure changes, like ship deactivations? Explain what 
those changes are.
    Navy Answer. Of the 18,106 active Navy reductions from President's 
Budget fiscal year 1998 to President's Budget fiscal 1999, 12.073 (67%) 
were directly tied to force structure changes to include ship and 
submarine decommissionings, transfer of select Combat Logistics Force 
ship to the Military Sealift Command, and phased transition to the F/A-
18 from the F-14. Commensurate reductions in end strength were taken 
against the operational staffs and shore infrastructure for an 
additional 3,851 (21%), and 1,161 (6%) were reduced by competitive 
initiatives to include outsourcing and civilian substitution. The 
remaining 1,021 end strength reduction (6%), was based on a manpower 
tail associated with training and transient personnel.
    The Marine Corps has also tied the personnel reductions to force 
structure changes. The most significant change for fiscal year 1999 is 
the continued down-sizing of our Marine Corps Security of our Marine 
Corps Security Force Battalion.
    Marine Corps Answer. Yes, the Marine Corps has tied the QDR 
reductions to force structure changes. The most significant change for 
fiscal year 1999 is the continued downsizing of our Marine Corps 
Security Force Battalion.
    Question. The Navy Reserve and Marine Corps Reserve are also 
reducing personnel by approximately 3,400 and over 800 respectively 
from last year's levels. Are these personnel reductions also tied to 
force structure changes?
    Navy Answer. In fiscal year 1999, the Naval Reserve will 
decommission one Maritime Patrol Air (MPA) squadron and eight Mine 
Inshore Undersea Warfare units because of reduced wartime requirements. 
Additionally, the remaining seven MPA squadrons will be restructured to 
six aircraft each, and the Carrier Air Wing Fighter squadron will 
transition from the F-14 to the F-18. These changes result in a lower 
manpower requirements. The remaining reductions reflect reductions to 
units that augment active forces and Full-time Support personnel 
reductions within the infrastructure.
    The Marine Corps Reserve personnel reductions are tied to force 
structure changes.
    Marine Corps Answer. The SMCR personnel reductions are tied to 
force structure changes. Personnel reductions result from anticipation 
of structure changes to be implemented from fiscal years 1999 to 2003.
    Question. What is the total Reserve force reduction recommended by 
the Quadrennial Defense Review (QDR) for the Navy and Marine Corps? In 
which fiscal year will you finish these QDR reductions?
    Navy Answer. The QDR recommended force reductions totaling 4,115 
Naval Reserve end strength. This reduction is planned to be fully 
implemented in fiscal year 2003.
    Marine Corps Answer. The active duty reduction recommended by the 
QDR was 1,800. This cut will begin in fiscal year 1999 and be completed 
in fiscal year 2000 or when end strength floors are reduced by law. The 
QDR recommended a reduction in the Marine Corps Reserve end strength of 
4,200. The Marine Corps Reserve would finish implementing equivalent 
QDR reductions in fiscal year 2002.

                          Tempo of Operations

    Question. With the additional personnel cuts recommended by the 
Quadrennial Defense Review (QDR) and our continued commitments to 
noncombat missions, do you feel that Navy and Marine Corps forces will 
be further stretched because of inadequate levels of troops?
    Navy Answer. No. As the Department's force structure and 
infrastructure requirements decline, our required end strength is also 
reduced commensurate with the reduction in ships, aircraft, and bases. 
As a result, the QDR recommended end strength reductions will not 
affect the Department's ability to meet operational commitments.
    Marine Corps Answer. The recommended Quadrennial Defense Review 
(QDR) personnel cuts will stretch our forces further, but we have tried 
to minimize the impact by taking the cuts from non ``trigger pullers''. 
Instead, they will come out of the supporting establishment. In order 
to implement the reduction and to restructure for the future, CMC 
directed a force structure review. The major focus of effort was to 
identify and make recommendations to reallocate Marine Corps Structure 
which is no longer contributing significantly to our warfighting 
capability. The goal is to put manpower into the operation forces at 90 
percent of their T/O requirement. Sustaining the readiness of our Corps 
remains our highest priority.
    Question. Explain to the Committee the effects, if any, on 
personnel tempo due to the carrier rotations in the Persian Gulf 
region.
    Navy Answer. The Navy is striving to support the current 
requirement for two carrier battle groups in the Persian Gulf with 
regularly scheduled forward-deploying forces. It must be emphasized 
however, that this support comes at a cost, in reduced presence in 
other theaters, and poses significant challenges for the Fleet 
Commanders.
    <bullet> To date, there have been no exceptions to the Navy's 
PERSTEMPO quidelines specifically caused by increased carrier presence 
in the Persian Gulf.
    <bullet> Short term impacts are slight due to the forward deployed 
posture and inherent mobility of naval forces which make them an ideal 
choice for crisis response and easy to shift between theaters when 
contingencies arise.
    <bullet> Longer term support comes at a greater cost due to 
compressed Interdeployment Training Cycles (IDTC) and perturbations to 
long range CVBG deployment schedules, which could result in increased 
OPTEMPO/PERSTEMPO.
    <bullet> Higher transit speeds, increased flight/steaming hours, 
and the requirement to compress or defer maintenance have potential 
impact on force readiness and quality of life for Sailors.
    Marine Corps Answer. The Marine Corps personnel tempo due to 
carrier rotations in the Persian Gulf has not been affected by the 
recent deployments. Currently, the Marine Corps has one F/A-18 squadron 
deployed with the Navy carrier airwing aboard the USS George 
Washington. This deployment is in accordance with established schedules 
governed by the Global Navy Force Presence Policy (GNFPP). At present, 
no requirements exist for an increased carrier presence beyond that 
which is covered by our regularly scheduled forward deployed forces.
    Question. What is the current number of personnel in the region to 
maintain the presence of two carriers in the gulf?
    Navy Answer. Currently there are approximately 24,000 Navy and 
Marine Corps personnel deployed onboard ships in the Arabian Gulf. This 
number includes two carrier battle grounds, an amphibious readiness 
group, the Middle East Force destroyers, frigates, and support ships. 
Each carrier battle group in the Gulf consists of approximately 6,500 
personnel.
    Question. Is the Navy still trying to keep to a limit of six-month 
long deployments for naval personnel?
    Navy Answer. Yes. Exceptions for any units exceeding the six month 
deployment rule must be personally approved by the Chief of Naval 
Operations. In 1997, only two waivers were granted and since the 
beginning of 1998, no waivers have been requested.
    Question. What is the Navy's estimate of the financial impact of 
deploying a second carrier to the Persian Gulf?
    Navy Answer. The Department of the Navy's budget for fiscal year 
1998 included funding to operate one Carrier Battle Group (CVBG) for 
three quarters of the year and one Amphibious Readiness Group (ARG) in 
the Arabian Gulf for about one half of the year (189 days). The 
increased cost associated with operating two CVBGs and one ARG for the 
remainder of the year is estimated to be $209 million. This includes 
increased levels of flying and steaming ($150 million), transportation 
and equipment ($31 million), and additional military personnel costs 
($28 million) for imminent danger pay and reservist activation. This 
estimate has been included in the Department of the Navy's portion of 
the Emergency Supplemental request currently being considered by the 
Congress.

                      Personnel Financial Problems

    Question. Mr. Secretary, a news article dated earlier this month 
quoted from a recent DoD study that ``At least one-third of Navy 
personnel can't pay their bills and are costing the Pentagon more than 
$200 million a year in bad checks, loan defaults and bankuprtcies.'' 
The article also states that Navy personnel were losing security 
clearances over financial difficulties and their military radiness was 
being affected by their money problems.
    Would you agree with these statements? How widespread is this 
problem?
    Navy Answer. While I do not completely agree with what the article 
implies, I agree with the study upon which the article was based. The 
press article excerpts from a study requested by the Department of the 
Navy and funded by DoD. The study examined existing data and tried to 
provide a snapshot of the cost to the Navy of poor financial planning 
by our Sailors. To address the questions raised in the article 
directly:
    <bullet> The one-third statistic came from the 1995 Navy Needs 
Assessment Study in which Navy personnel were asked if they 
occasionally have trouble paying monthly bills. While 43% answered they 
occasionally had trouble paying monthly bills, it cannot realistically 
be inferred that this means they cannot pay every month. We cannot 
break out the percentage of those who are having chronic problems 
paying bills because of poor financial management, as opposed to those 
who merely had a month or two when they may have had difficulty due to 
an unexpected expense.
    <bullet> The article is misleading in that it attributes the $200 
million figure directly to bad checks, loan defaults and bankruptcies. 
The figure is actually an estimate of lost productivity and includes 
issues such as cost associated with time off to handle personal 
problems and command man-hours expended to resolve financial problems.
    <bullet> The Defense Investigative Service reported that between 
1991 and 1995 approximately sixty percent of the service members who 
lost their security clearances had financial problems as a primary 
contributory cause.
    Marine Corps Answer. Poor financial skills can be a problem for 
Marines. However, we have not experienced the same widesspread problem 
as was portrayed in the news article.
    Question. Do these financial problems affect officers as well as 
enlisted evenly?
    Navy Answer. Personal financial problems affect every income and 
professional level in America. One of the things we learned from this 
study is that poor personal financial management is not just a problem 
with personnel in the Department of the Navy. It affects all of 
America. In the Navy, we do find the percentage of officers reporting 
problems paying monthly bills to be about fifty percent less than the 
percentage of enlisted personnel who report similar problems.
    Marine Corps Answer. No. Most of our Marines with financial 
problems are primarily in their first enlistment, when pressures of low 
pay, inexperience, and growing families are most intense.
    Question. How does this impact retention and readiness of your 
forces?
    Navy Answer. We do not have quantitative data to reply directly to 
this question. While personal finance is one of the pressing problems 
we are facing in the Department of the Navy, it does not stop ships 
from sailing nor planes from flying. The impact is felt more at the 
individual Sailor and Marine level with individual loss of productivity 
as a result of time spent resolving financial problems. Clearly this 
lost time could be spent in a more productive manner, however, the 
impact has not been seen in quantifiable terms at the unit or higher 
level in terms of readiness. I feel, however, that quality of life 
problems impact individual readiness and hence the performance of our 
Sailors at large. Poor financial management is a readiness issue in 
that it ultimately impacts productivity, safety, and morale.
    As for retention, although the study by the Military Family 
Institute (referred to in the article) states that poor financial 
management causes 11% of enlisted to leave the service, we have no 
statistics or further studies of the impact of financial problems on 
retention.
    Marine Corps Answer. We have no evidence that either retention or 
readiness has been affected by this problem.
    Question. Are any steps being taken to provide financial planning 
training for your personnel to help alleviate this problem?
    Navy Answer. The Department of the Navy is integrating personal 
financial training throughout the training continuums. We have 
refocused personal financial training at the Recruit Training Center in 
order to lower the number of recruits that experience financial 
problems between recruit training and their first duty assignment. Our 
training continuum includes fourteen hours of financial training after 
recruit training graduation and prior to reporting aboard the first 
permanent command. Additionally, we are incorporating personal finance 
into the Career Options and Navy Skills Evaluation Program (CONSEP). 
CONSEP involves three phases of training throughout the military 
lifecycle: New Accession Course of Instruction (entry into military); 
Mid-Career Course of Instruction (6-12 years); and Senior Course of 
Instruction (18 years).
    We have also increased the amount of time we spend on personal 
finance in our General Military Training. We have executed education 
and counseling Memorandums of Understanding (MOU) with the Navy-Marine 
Corps Relief Society and are in the process of executing an MOU with 
the Department of Defense Credit Union Council.
    Taking advantage of information technology, we are working with DoD 
to provide our commands and resource learning centers with an 
interactive CD-ROM allowing the individual Sailor to learn about many 
areas of personal finance. Additionally, we are piloting a project 
called ``Lifelines'' which will put personal financial education and 
counseling on the World-Wide-Web for use by our Sailors at home and at 
work.
    Marine Corps Answer. The Marine Corps has an extensive financial 
planning training system. First term enlisted marines receive training 
in the basics of direct deposit, ATM cards, checkbook management, and 
credit. The individual Marine first receives training at the Recruit 
Depots, where three academic hours of financial instruction are 
included in the curriculum. This training is reinforced for enlisted 
Marines with the completion of the Marine Corps Institute course on 
Personal Finance. For officers and career enlisted Marines, we are 
reviewing policy that will implement financial instruction into formal 
Professional Military Education courses. In addition, informal 
counseling is available for all Marines at our Family Service Center.

                       Gender Integrated Training

    Question. In June 1997, the Secretary of Defense appointed the 
Federal Advisory Committee on Gender-Integrated Training and Related 
Issues to assess the current training programs of the Military Services 
and determine how best to train a gender-integrated, all volunteer 
force. The recommendations of the December 1997 Kassebaum Report center 
on the quality of recruits and the need to instill discipline 
throughout the training process. The report also recommends 
establishing separate barracks for male and female recruits. The 
January 1998 Defense Advisory Committee on Women in the Military 
(DACOWITS) Report highlights some of the same issues as the Kassebaum 
Report but adds that the Services need to establish and enforce clearer 
gender related policies in areas such as fraternization.
    What is the estimated cost to implement the recommendations in the 
Kassebaum report?
    Navy Answer. The total estimated costs to implement the 
recommendations in the Kassebaum report are not available at this time 
since numerous initiatives are still under review. However, it has been 
estimated that a minimum of $1.1 million would be required for 
modifications to the existing barracks at Recruit Training Command, 
Great Lakes, in order to provide separate barracks for male and female 
recruits.
    Marine Corps Answer. The Marine Corps presently billets its male 
and female recruits separately. There is no additional funding required 
to implement separate barracks as recommended in the Kassebaum Report.
    Question. The committee understands the Military Services are 
developing their recommendations independently on the Kassebaum report. 
Would you please give the Committee an indication of what is the DoD 
position?
    Answer. Within DoD, all 30 recommendations cited in the Kassebaum 
report are being implemented. However, not all 30 are being implemented 
by each Service. Within DoD, three areas requiring additional 
attention: leadership, rigor of training, and billeting.
    As to leadership, it is essential to ensure that recruit training 
billets are career enhancing and that there are rewards and incentives 
for that demanding position. We in the Department of the Navy are 
working toward that end.
    The focus of rigor will be an increased emphasis on Physical 
Training (PT) as well as developing realistic exercises that challenge 
the ability to think and react positively while under stress.
    A final determination has not yet been made regarding how males and 
females will be berthed (e.g. separate floors, separate buildings, 
etc.). However, the Department of the Navy is committed to ensuring 
that berthing arrangements afford proper privacy, dignity, safety and 
security.
    Question. What role will the Office of the Secretary have in any 
necessary coordination of the Services' recommendations?
    Answer. The role of the Office of the Secretary in coordinating the 
Services' recommendations will be to ensure that regardless of the 
decisions made, military training remains fair, demanding and 
effective, and that it produces fully qualified individuals to serve as 
Sailors and Marines.

                           Aviation Readiness

    Question. In the transmittal letter accompanying the DoD 
Quadrennial Defense Review (QDR) Defense Secretary Cohen indicated that 
the Navy and Air Force faced shortfalls in fiscal year 1998 of over 
$600 million for aviation spare parts. The Congress provided an 
increase totaling $622 million in the 1998 DoD appropriations bill for 
this purpose. Of the total, $322 million was added to Operation and 
Maintenance, Navy. Despite this add, recent press accounts indicate 
that deployed Naval Aircraft have a mission capable rate of about 75%. 
How has the Navy applied the $322 million added by Congress for 
aviation spares in fiscal year 1998?
    Navy Answer. The fiscal year 1998 Congressional plus-up of $322 
million was applied directly to the Navy's Flying Hour Program. This 
money will allow our maintenance personnel to order the necessary parts 
and perform the essential repairs needed to improve the material 
condition of our aircraft. We have already observed improvement in 
aircraft Mission Capable (MC) and Full Mission Capable (FMC) rates and 
are optimistic these trends will continue to improve in the future.
    Question. The Committee understands that the current mission 
capable rates for deployed aircraft are about 75%. Is this a matter of 
concern for the Navy?
    Navy Answer. The material condition of our aircraft is an important 
indicator of near-term readiness. Therefore, we pay close attention to 
aircraft mission capable (MC) and Full Mission Capable (FMC) rates. The 
Department's goal for deployed MC is 78% and anytime it is not 
attained, it warrants our attention. In fiscal year 1997, deployed MC 
dropped below 75% for the first time in 11 years. Historically, the 
rate has fluctuated between 75%-78%. Our readiness indicators proved 
reliable in identifying the deficiency and with the help of Congress we 
were able to implement corrective action quickly to avoid further 
degradation. We have already begun to see signs of improvement and are 
optimistic this trend will continue to improve in the future.
    Marine Corps Answer. Mission capable rates are not currently a 
matter of concern for the Marine Corps. The Marine Corps includes all 
its aircraft in the deployed category for computing readiness, giving a 
more realistic view of our ability to fly and fight at a moment's 
notice. The CNO goals for Marine aircraft readiness are 73 percent 
mission capable (MC) and 56 percent fully mission capable (FMC) 
aircraft, respectively. In fiscal year 1997, our fixed-wing MC rates 
averaged over 75 percent while the FMC rates were nearly 70 percent. On 
the rotary-wing side, fiscal year 1997 MC rates were 75 percent, and 
FMC rates were 67 percent.
    Question. What has been the trend for Navy aircraft mission capable 
rates for deployed aircraft since operation Desert Shield/Desert Storm?
    Navy Answer. With the exception of Fiscal Year 1997, the trend has 
remained relatively flat. For the period Fiscal Year 1990-96, the 
Department's deployed MC rate has fluctuated between 75%-78%.
    Marine Corps Answer. The Marine Corps does not differentiate 
between deployed and non-deployed aircraft when reporting mission 
capable (MC) rates. Marine Corps Aviation MC rates since Operation 
Desert Shield/Desert Storm have been fairly robust.

----------------------------------------------------------------------------------------------------------------
                                                        FY92      FY93      FY94      FY95      FY96      FY97
----------------------------------------------------------------------------------------------------------------
Mission Capable Rates...............................      71.4      77.2      79.5      78.9      76.2      75.3
----------------------------------------------------------------------------------------------------------------

    The CNO goal for Marine aircraft readiness is 73 percent mission 
capable.
    Question. What effect does the change in the mission capable rate 
for Navy aircraft have on the reported readiness of the Navy?
    Navy Answer. Mission Capable (MC) and Full Mission Capable (FMC) 
rates are measures of aircraft material condition and, if not sustained 
at appropriate levels, will eventually lead to readiness degradation. 
It is important to note that MC and FMC are not the only measure of 
aviation readiness. Areas such as aircrew proficiency and availability, 
as well as aircraft inventory are among other critical elements that 
determine overall aviation readiness. However, we do know that material 
condition plays an important role in the ability of our aircraft to be 
used for training and operations, and is therefore, an important 
indicator of near-term readiness.
    Marine Corps Answer. The mission capable rate is an aggregate 
number reflecting combined aircraft mission capability of Navy and 
Marine Corps aircraft, deployed and non-deployed. Navy mission capable 
and fully mission capable rates combine with Marine Crops mission 
capable and fully mission capable rates for a Naval Aviation Readiness 
rate. If Navy readiness rates (mission capable and fully mission 
capable) were to go down, and Marine Corps readiness rates remained 
constant, the net effect would still be a decrease in the naval 
aviation readiness rate.
    Therefore, a change in the overall mission capable rate for Navy 
aircraft may or may not reflect accurately the Marine Corps specific 
readiness rates.
                    Cross-Decking and Navy Readiness
    Question. The 1997 House National Security Committee Report on 
Military Readiness indicates that there is an increasing incidence of 
cross-decking of personnel equipment within the Navy. The House 
Appropriations Committee Surveys and Investigations Staff has also 
observed this phenomenon. Among the Navy's personnel specialties, the 
most prevalent examples of cross-decking involve fire control and 
electronics technicians. There has also been an increase in the 
prevalence of cross-decking among unrated personnel.
    How prevalent is the practice of cross-decking personnel?
    Navy Answer. The term ``cross-decking'' is often used to describe 
three different personnel management actions used by Manning Control 
Authorities (MCAs) (i.e. CINCPACFLT and CINCLANTFLT) to support 
deployment requirements.
    <bullet> Diverts: the first option. BUPERS modifies a Sailor's 
ultimate duty station to another unit in same geographic location.
    <bullet> Cross-decks: the second option. Permanent Change of 
Station (PCS) transfer from one deployable unit to another (same 
geographic location); preferably from unit with excess. The Sailor must 
have at least one year remaining on sea duty. These occurrences are 
examined closely to ensure minimal impact to quality of life.
    <bullet> TAD Assists: the third option. Temporary fill to provide 
relief for mid-deployment arrival or unanticipated loss (e.g. medical 
emergency). These occurrences are examined closely to ensure minimal 
impact to quality of life.
    When necessary, these actions are most often used to fill personnel 
shortages among critical and highly technical ratings. Usage is kept to 
a minimum and monitored monthly by BUPERS. On average, the total number 
of personnel who are either diverted, cross-decked or sent TAD, 
averages approximately 2% of the total number of Sailor's transferring.
    Question. How prevelant is the practice of cross-decking aircraft 
and other equipment?
    Navy Answer. Cross-decking aircraft and equipment while deployed is 
uncommon. During the Interdeployment Training cycle (IDTC), non-
deployed aircraft undergo various repairs to ensure material condition 
is maintained at acceptable levels. Since repair times vary, Squadrons 
frequently receive the first available aircraft (which may or may not 
be the aircraft they flew on their last deployment) to support the 
necessary training during the IDTC.
    Question. How do the rates of cross-decking equipment and personnel 
compare to Navy goals?
    Navy Answer. There are no established goals or limits set for 
cross-decking equipment or personnel. Although the Fleet Commander's 
intentions, with regard to personnel, are to minimize the amount of 
cross-decking that occurs, cross-decking equipment is a viable solution 
to an emergent requirement.
    Question. Is cross-decking on the increase?
    Navy Answer. There is no evidence to support the premise that 
cross-decking has become more prevalent today than in the past.
    Question. What effect does cross-decking have on readiness?
    Navy Answer. Cross-decking is conducted to enhance the readiness of 
deploying units. It may affect the readiness of the non-deployed unit 
that is providing the asset. However, because of our cyclical readiness 
posture, we expect non-deployed readiness to drop soon after units 
return from deployment. This is a direct result of units entering the 
Inter-Deployment Training Cycle (IDTC) where ships and aircraft undergo 
various levels of maintenance. During the IDTC, proficiencies migrate 
to a basic level due to crew turnover and the reduced opportunity to 
train while conducting maintenance. Cross-decking within the IDTC can 
be accomplished without adversely affecting a unit's ability to achieve 
combat ready status prior to their next deployment.

                           A-6 Crash in Italy

    Question. On February 3, 1998, a U.S. Marine Corps EA-6B struck a 
cable suspending a ski lift in Italy. The aircraft sustained only minor 
damage, but the ski lift collapsed killing 20 people. What compensation 
does the Navy plan to offer to the families of those who were killed in 
this accident?
    Marine Corps Answer. This has not been determined. Under Title VIII 
of the NATO Status of Forces Agreement (SOFA), claims (in this case) 
against the U.S. must be filed with the Italian Ministry of Defense and 
settled under Italian law. To date eight claims, all on behalf of 
German victims, have been filed by an Italian lawyer. We do not know 
what they are asking for, and we do not yet know what is appropriate 
compensation under Italian law. Previously Department of the Navy (DON) 
paid approximately $100,000 out of discretionary funds to help the 
families arrange for burial.
    Question. Does the Navy plan to alter low level flight training 
procedures in response to this incident?
    Marine Corps Answer. First and foremost, the Marine Corps would 
like to express its heartfelt condolences to the families of those who 
died in this tragedy. They remain in our hearts and prayers. As the 
committee is aware, the Marine Corps immediately directed a command 
investigation into this tragedy. The report of investigation was 
recently completed, and clearly states that if the mishap crew had 
followed current low level flight training regulations, the mishap 
would not have occurred. This report makes no recommendations, nor 
expresses any opinions, that would require the Marine Corps to alter 
its training regulations in regards to low level flight training. Given 
the content of the report of investigation, the Marine Corps currently 
has no plans to alter the current low level flight training 
regulations.
    Question. Will the Navy have to identify new low level flight 
training routes?
    Marine Corps Answer. The Marine Corps is deeply concerned over the 
tragedy in Cavalese and we continue to express our condolences to the 
families of those who lost their lives in this mishap. As the committee 
is aware, the Marine Corps immediately directed a command investigation 
into this tragedy. The report of investigation was recently completed 
and makes no recommendations, nor expresses any opinions, concerning 
the designation of low level flight training routes. The report shows 
that had the mishap crew followed existing low level flight 
regulations, this mishap would not have occurred. The investigation 
states that the low level training route the mishap aircraft was 
operating on was designed by Italian authorities, authorized for U.S. 
flight training and correctly scheduled. In view of these facts (a 
correctly designated/authorized/scheduled route and an unexplained 
deviation from low level training regulations) the Marine Corps will 
not seek to identify new low level flight training routes.
    Question. The Committee understands there are discrepancies between 
locally produced maps and those produced by DoD concerning the location 
of the ski lift. What measures will the Navy take to reconcile these 
differences?
    Marine Corps Answer. Two charts used during the low level mishap 
flight were DoD National Imagery Mapping Agency (NIMA) Tactical 
Pilotage Charts (TPC) F-2A and F-2B. F-2B is the chart that covers the 
area of the mishap.
    The TPC F-2B does not depict the mishap cable as a vertical 
obstruction (tower). However, there is an aerial cable way depicted 
four nautical miles north of the Town of Cavalese, five nautical miles 
north of the mishap, and within the AV047 (low level) route structure.
    The mishap pilot and Electronic Countermeasure Officer One (ECMO 1) 
had all current DoD NIMA obstruction data correctly labeled on their 
charts. The Italian F-1, Edition 2, 1:500K (low level flying chart) 
chart depicts a horizontal obstruction (read cable) within one nautical 
mile of the mishap location. VMAQ-2 and the 31st Fighter Wing 
Standardization and evaluation were unaware of the Italian charts.
    As the committee is aware, the Marine Corps immediately directed a 
command investigation into this tragedy. The report of investigation 
was recently completed, and the investigation board recommended that 
``the National Imagery and Mapping Agency (NIMA) should review all map 
sources from a foreign country to ensure that all obstructions to 
flight are accurately plotted.'' The Commanding General of Marine 
Forces Atlantic has forwarded a copy of the report and this 
recommendation to the Director of NIMA for review and action as he 
deems appropriate.

                           F/A-18E/F Aircraft

    Question. There have been a number of negative press reports lately 
concerning technical problems in the development of the F/A-18E/F 
aircraft.
    Has the Navy eliminated or significantly reduced any key 
performance requirements for the aircraft?
    Navy Answer. No. The F/A-18E/F is meeting or exceeding all key 
performance parameters called for in the Operational Requirements 
Document (ORD). The ORD performance requirements were revalidated by 
the Joint Requirements Oversight Council on March 7, 1997.
    Question. Does the Navy currently plan to achieve the Initial 
Operating Capability (IOC) date for deployment of the aircraft on time?
    Navy Answer. Yes. The F/A-18E/F will IOC by September 2000. First 
operations deployment is planned for Spring of 2002.
    Question. Does the Navy currently plan to finish the development 
program within budget?
    Navy Answer. Yes. The program is currently $48 million (in fiscal 
year 1998 constant dollars) below the 1992 Defense Acquisition Board 
Funding profile.
    Question. Is the aircraft meeting its weight projections?
    Navy Answer. Yes. The aircraft's current weight is 30,135 pounds 
which is a positive 429 pound margin to specification weight of 30,564.

                        Ship Self Defense System

    Question. The Committee has been concerned for a number of years 
about Navy ship self-defense programs. A key program is the Ship-Self 
Defense System, an upgrade to the short range air defense systems of 
aircraft carriers and amphibious ships, which uses computers to 
integrate the sensors on ships (such as radars) with weapons (guns and 
missiles) to shoot down incoming anti-ship cruise missiles.
    What justifies a 38 percent reduction in SSDS ship installations 
between fiscal years 1999 to 2002 (18 ship installations rather than 
29).
    Navy Answer. Navy's 1999-2002 fielding plan represents a balanced 
approach to fielding maritime force protection capability rather than 
focusing on individual system procurement plans. Navy utilizes a combat 
systems approach to validate each ship class' performance against this 
CAPSTONE requirement. All systems in the detect through engage sequence 
are modeled against the validated Defense Intelligence Agency threats. 
No one system is good enough by itself to meet the CAPSTONE performance 
requirements. The SSDS fielding plan is indicative of this balanced 
approach to maritime force protection.
    Question. Secretary Dalton, why does Navy continue to submit 
deficient ship self-defense budgets to the Congress? Is this 
intentional?
    Navy Answer. Navy's individual ships class maritime force 
protection planning is based on providing the most cost-effective force 
protection possible, consistent with available funding, force wide. 
Furthermore, all ship classes will receive or retain a level of force 
protection consistent with their expected service life and potential 
exposure to operational threat environments.
    Navy's 1999-2002 plan represents a balanced approach to fielding 
maritime force protection capability rather than focusing on individual 
system procurement plans. Navy utilizes a combat systems approach to 
validate each ship class' performance against this CAPSTONE 
requirement. All systems in the detect through engage sequence are 
modeled against the validated Defense Intelligence Agency threats. No 
one system is good enough by itself to meet the CAPSTONE performance 
requirements. The SSDS fielding plan is indicative of this balance and 
cost effective approach to maritime force protection.
    Question. General Krulak, how many Marines are on an assault ship 
of the LSD-4 1 class?
    Marine Corps Answer. The LSD-41 class ships are configured to 
embark 450 Marines, with surge capability up to approximately 500. 
Generally, we embark between 400-430 Marines. This generally equates to 
one infantry (rifle or weapons) company, two or more additional 
platoons, and a variety of smaller detachments, depending on the load 
plan.
    Question. What would be the implications if an LSD-41 were lost to 
an anti-ship cruise missile attack?
    Marine Corps Answer. The answer to this question will vary, 
depending upon the ship's load plan, which is a function of the assault 
landing plan of the force. As a general rule, our MEU (SOC)s tend to 
load the LSD-41 one of two ways:
    Option 1:
    MEU Command Element
    --RadBn (-)
    --JTF Enabler (-)
    BLT
    --H&S Co. (-)
    --Weapons Co.
    --LAR Plt or Co. (-) (Varies depending on whether or not a Tank 
Plt. deploys)
    --Tank Plt
    --Arty Btry
    --Combat Engineer Det.
    MSSG
    --Engineers (-); Maint (-); Supply (-)
    Assault Craft Unit
    --4 LCAC
    Ammunition: 25 pallets
    Option 2: Primary difference is with the BLT configuration, as 
indicated below:
    BLT
    --H&S Co. (-)
    --AAV Plt (Rein)
    --Rifle Co. (Rein)
    Comments:
    Option 1: Significant loss in heavy weapons, both direct and 
indirect fire, e.g., LAV-25s, 155mm Howitzers, 81mm mortars, .50 cal 
and Mk 19 machineguns. Substantial loss of tactical mobility, fire 
power, and combat engineering capability. Additionally, there would be 
a significant loss in substantiality, e.g., maintenance and supply. 
Finally, the loss of four LCACs would dramatically reduce ship-to-shore 
movement. Impact: Loss of 400(+) Marines (20% of the MEU). The MEU 
(SOC)'s ability to conduct an amphibious assault would be severely 
degraded; its ability to engage in ground combat operations of any 
significant would be highly questionable; risk to the force would be 
significant.
    Option 2: Loss of surface and assault capability, tactical 
mobility, and fire power. Significant loss in sustainability, e.g., 
maintenance and supply. Impact: Loss of 400(+) Marines (20% of the 
MEU). The MEU (SOC) would be unable to conduct a simultaneous surface 
and heliborne amphibious assault; tactical ground mobility would be 
effectively eliminated.
    Question. General Krulak, are you personally satisfied with the 
pace of installation of SSDS systems on Navy amphibious assault ships 
that bring Marine Corps troops and equipment into battle?
    Marine Corps Answer. I am satisfied with the pace of installation 
for the SSDS. The Ship Self-Defense System MK-1 (SSDS) is a shipboard 
integrated system that connects various shipboard systems through a 
Local Area Network (LAN) to a Sensor Supervisor Console, Weapons 
Supervisor Console, and Tactical Action Officer (TAO) Console work 
stations. The commercial off the shelf, open architecture technology 
incorporated into the SSDS MK-1 system to provide sensor fusion and 
automatic anti-air defense detection through engagement is truly 
evolutionary.
    The SSDS will integrate existing shipboard sensors, including 
Volume Search Radar (VSR), Horizon Search Radar (HSR), Surface Search 
Radar (SSR), Electronic Warfare Suite (EWS) Central Identification 
Friend or Foe (CIFF) System, and Electro-Optic Sensor System (EOSS) 
assets, with RAM, NSSMS, ESSM, Close-In Weapon System (CIWS) and 
softkill weapon systems including the Decoy Launching System (DLS). In 
addition, the SSDS will interface with other systems (e.g. navigation, 
radar video distribution) and both ship and force-level command and 
control systems. SSDS possesses the capability to process all inputs 
from these shipboard systems converting them into digital tracks 
representing the various threats and the identification of intercepted-
emitters by using standard Naval Tactical Data System (NDTS) symbology. 
This fully automated system greatly enhances ship survivability. The 
SSDS will be designed to operate in multiple ship classes and 
represents a significant increase in the self-protection afforded 
amphibious ships.
    The SSDS will provide:
    --Reduced reaction time.
    --Automatic multisensor integration
    --Enhanced target identification and classification.
    --Automated threat evaluation and weapon assignment.
    --Integrated hardkill and softkill engagements.
    SSDS is being installed on all amphibious ships under construction 
and will be installed on the LPD-17 ship class. USS GUNSTON HALL (LSD-
44), USS ASHLAND (LSD-48), and USS HARPERS FERRY (LSD-49) have SSDS 
installed. All LSD-41/49 class ships will complete the SSDS 
installation by the end of fiscal year 2001. Four LHDs will be 
backfitted by fiscal year 2002.

      Theater Ballistic Missile Defense Capability on DDG-51 Ships

    Question. The Navy's original plan to build 12 DDG-51 Aegis 
destroyers on a multi-year contract covering fiscal years 1997 to 2001 
would have delivered the ships to the fleet well after the turn of the 
century without theater ballistic missile defense or cooperative 
engagement capability. Because this is unacceptable to both the 
Congress and the warfighting CINCs, the Committee last year directed 
that this problem be fixed and provided additional funds for that 
purpose. The Committee understands that the Navy is closer to fixing 
the problem, but that in the outyear plan accompanying the fiscal year 
1999 budget the DDG-51 shipbuilding program is not fully funded to meet 
this objective.
    Admiral Johnson, is it your intent that all 12 ships to be built 
under the DDG-51 multiyear contract be delivered to the fleet with full 
theater ballistic missile defense (TBMD) and cooperative engagement 
capability (CEC) installed?
    Navy Answer. Yes, all multiyear DDGs will sail from the building 
yard with TBMD and CEC installed. Aegis Weapon System modifications for 
Area TBMD are planned for SCN funded in-line installation on all 13 
DDGs in the fiscal year 1998 to fiscal year 2001 timeframe. CEC 
introduction will occur in-line with SCN funding for DDGs 91 and 92, 
the last two ships in fiscal year 1998, as a result of the fiscal year 
1998 Congressional SCN plus-up. All other multiyear ships are 
programmed to receive CEC during the post-delivery availability. The 
procurement and installation of these remaining 11 ships are funded in 
OPN.
    Question. The Committee understands that the program is fully 
funded in 1998 (due to the Congressional add) and in 1999, but is off 
in the subsequent fiscal years. Is your intention to fix this funding 
problem before committing to the multiyear contract?
    Navy Answer. The fiscal year 1998-2001 DDG-51 multiyear contract 
was awarded on March 6, 1998. Initially, after receipt of the bids in 
late November 1997, the multiyear contract appeared unexecutable due to 
the following:
    1. An undistributed fiscal year 1998 Congressional ``tax'' to all 
procurement accounts ($95 million from the DDG 51 Program); and
    2. The Office of Management and Budget (OMB) inflation adjustments 
that removed an additional $195 million over the four years of the 
multiyear procurement
    Working with OSD and OMB after the fiscal year 1999 DoD budget had 
been submitted to the White House, Navy succeeded in adding the funding 
necessary to fiscal year 1998 and fiscal year 1999 to make the 
multiyear procurement executable. The fiscal year 2000 and fiscal year 
2001 funding is sufficient to deliver complete ships, however some 
upgrades are not funded. Funding of these upgrades are part of our 
upcoming Program Objective Memorandum deliberations.
    Question. Are the 3 DDG-51 destroyers in the fiscal year 1999 
budget fully funded, in terms of including theater ballistic missile 
defense and cooperative engagement capability?
    Navy Answer. Yes, the DDG-51 destroyers are fully funded in the 
fiscal year 1999 budget, to include Navy Area ballistic missile defense 
and Cooperative Engagement Capability.

              Future Aircraft Carriers/Nuclear Propulsion

    Question. The fiscal year 1999 budget envisions spending about $1.1 
billion in R&D between now and 2003 to develop the next class of 
aircraft carrier (CVX). Last year the Navy testified that CVX design 
would be from a ``clean sheet of paper'', and in this regard the issue 
of propulsion type must be examined as part of the Defense Department's 
internal management system.
    In response to this Committee's direction in 1994, the General 
Accounting Office has recently circulated a draft audit on the cost 
effectiveness of conventionally and nuclear powered carriers. A few 
observations made by GAO are:
    <bullet> Over a 50 year life, the cost of a nuclear-powered carrier 
is 66 percent ($9.3 billion) more than a conventionally powered carrier 
($23.4 billion vice $14.1 billion).
    <bullet> A force of 12 conventionally powered carriers can provide 
a greater overseas presence in the European Command, the Central 
Command, and the Western Pacific; or a force of 11 conventionally 
powered carriers can provide an equivalent level of forward presence as 
a force of 12 nuclear-powered carriers.
    <bullet> Although both types of carriers can transit to crisis 
areas at the same top speed, the conventional carriers take somewhat 
longer to cover long distances than nuclear carriers due to their need 
to refuel. For an 18-day voyage from the West Coast of the United 
States to the Persian Gulf--a distance of 12,000 nautical miles 
steaming at a sustained speed of 28 knots per hour--a conventional 
carrier would arrive about 6 hours later than a nuclear carrier.
    <bullet> GAO found little difference in the operational 
effectiveness of nuclear and conventional carriers in the Persian Gulf 
war. The five conventional carriers replenished aviation fuel about 
every 2.7 to 3.1 days and the nuclear carrier every 3.3 days.
    <bullet> The larger storage capacity on today's nuclear carriers is 
primarily due to design decisions that have little to do with 
propulsion type.
    Admiral Johnson, it seems that the General Accounting Office is 
saying that nuclear powered aircraft carriers have significantly higher 
cost with little real benefit. Do you agree with GAO?
    Navy Answer. Navy concurs that there is a life-cycle cost premium 
associated with nuclear propulsion on aircraft carriers. However, the 
cost estimate provided by the Navy to the GAO and our preliminary 
review of the GAO report for both types of carriers indicate that the 
draft report overstates the premium by several billion dollars, largely 
because of a number of internal analytic inconsistencies. Further, I 
believe the draft report does not adequately address operational 
effectiveness features provided by nuclear power.
    Currently, Navy is conducting a forward looking analysis of carrier 
capability and cost in the Analysis of Alternatives for the planned new 
design carrier CV(X). At the completion of this process, we will have 
detailed life cycle cost estimates for future nuclear and fossil-fueled 
carrier designs.
    Question. Last year, you and Secretary Dalton testified that you 
were examining all options. This year, you seem to be strongly in favor 
of retaining nuclear propulsion in any new class of aircraft carriers. 
What has changed since last year?
    Navy Answer. Nothing has changed since last year. All alternatives, 
both nuclear and non-nuclear, are still being considered during the 
Analysis of Alternatives (AOA). Each alternative will be evaluated as 
to capability provided and cost. This process is designed to determine 
which alternative provides the most cost-effective carrier. However, as 
reflected in the Navy posture statement, the Navy has stated its 
preferred alternative as a large deck nuclear-powered carrier. This 
alternative provides the greatest capability, mobility, flexibility and 
survivability of all the alternatives being analyzed in the CVX AOA. A 
large deck provides the Navy the greatest flexibility in airwing size, 
mix of types of aircraft or other payloads carried on the ship, and 
operating in all types of weather. Nuclear power provides the carrier 
force added mobility, operational flexibility and survivability as 
compared to a conventional carrier. In addition, given that the next 
class of aircraft carriers will be in service throughout the next 
century, it is prudent to provide the Navy's capital ship with the 
greatest capability practicable. The ongoing CVX AOA is examining 
several design alternatives and a final decision on CVX size and 
propulsion will be made after the next phase of this AOA has been 
completed and reviewed by the DOD senior leadership.
    Question. In the CVX program, do you plan to design a totally new 
class of ships or do you plan to have an evolution from the NIMITZ 
class design?
    Navy Answer. The Navy is currently analyzing several alternative 
designs for CVX. These alternative designs run the gamut from an 
evolution of the current NIMITZ design to a totally new design which 
includes a new hull, new propulsion plant, new communications suite, 
new distributive systems, new functional arrangements and significant 
improvements in ship survivability and signature management. While 
there are obvious advantages to evolving the current design (minimal 
retooling costs, etc.), we also need to examine alternatives that could 
achieve total ownership cost reductions. The challenge is to 
accommodate a major R&D program and lead ship cost inside a flat 
topline. How ``new'' the ultimate design will be will hinge on the cost 
effectiveness of the design as determined by the Analysis of 
Alternatives (AOA) process and overall affordability.
    Question. Was there a material difference between the performance 
of nuclear and non-nuclear aircraft carriers in the Persian Gulf War?
    Navy Answer. Sustained high speed and almost unlimited endurance 
provide the nuclear carrier far more flexibility, survivability, and 
capability than a conventionally powered carrier. Due to current 
airwing composition, the combat capability of all carriers is similar 
but the logistics required to support not only propulsion fuel for the 
carrier but aircraft fuel and ordnance to support sustained combat 
operations is considerably more difficult for the conventional carrier. 
This higher logistics requirement requires the conventional carrier to 
replenish more often than the nuclear carrier and in a high threat 
environment places the conventional carrier at greater risk.
    Where today, the Navy has a predominately nuclear carrier force of 
12 carriers, the carrier force at the beginning of Operation DESERT 
SHIELD was a larger, predominately conventional, carrier force of 15 
carriers. Following the long build-up of forces, there were six 
carriers in theater at the start of DESERT STORM (five conventional, 
one nuclear powered). These carriers were deployed to the Gulf based on 
their deployment cycles without regard to their propulsion plants. Due 
to the low threat and logistics availability, the nuclear carrier was 
replenished at about the same periodicity as the conventional carriers.
    The carrier force is built to provide a mix of capabilities and 
flexibility for 50 years of operation. Operation DESERT SHIELD/DESERT 
STORM was unique and does not portend the types of conflict in which 
U.S. Naval forces expect to be engaged in the foreseeable future. In 
the Gulf War, naval forces had a long, unopposed build-up, significant 
host-nation support, the luxury of a large supply of oil nearby, little 
naval opposition with the exception of naval mining, and sufficient 
pre-planning time. The logistics situation and the low threat to naval 
forces did not challenge the unique capabilities of the nuclear 
carrier. Current DoD planning scenarios envision a much more stressing 
threat from countries with significant naval and submarine threats and 
do not assume the favorable logistics and threat conditions present 
during DESERT STORM.

               Downscoping the Capability of LPD-17 Ships

    Question. General Krulak testified last year before this Committee 
that ``the future LPD-17 class will have the best self-defense 
capability (against anti-ship cruise missiles) of any amphibious 
ship''. In the new budget, the Navy has decided to downscope the 
equipment to be included for installation on the LPD-17 ships and save 
$1 billion on the 12 ships in the program. The main deletions are the 
Enhanced Sea Sparrow Missile--the main self-defense weapon--and its 
vertical launching system. The launcher, once installed, could be used 
for other missiles (such as Navy ATACMs) to perform other missions such 
as land attack in support of amphibious assault operations.
    Admiral Johnson, please describe the Navy's proposal to 
significantly downscope the equipment to be installed on LPD-17 ships 
during their construction.
    Navy Answer. The decision to remove the Evolved Sea Sparrow Missile 
(ESSM) and its Vertical Launching System (VLS) is based on requirements 
and affordability.
    ESSM and VLS are not required to meet the Navy Anti-Air Warfare 
(AAW) CAPSTONE Requirement for self defense against anti-ship missiles, 
and land attack missile capability is not an operational requirement 
for the LPD-17 class. The LPD-17 class will be equipped with the 
Rolling Airframe Missile (RAM) and NULKA decoy. These, in combination 
with law radar cross-section design meet the AAW CAPSTONE Requirement 
and Congressional guidance against the validated threat.
    The defense of LPD-17 is multi-layered. In a threat environment, 
maritime dominance and subsequent force protection will be established 
and maintained by AEGIS combatants. Amphibious forces will close the 
operating area once the threat has been diminished. In situations where 
amphibious forces could be detached to operate independently, 
combatants would be committed when required by threat.
    Question. General Krulak, are you confident that the main ship 
self-defense weapon can be removed from the LPD-17 class of ships 
without significantly increasing the danger to the Marines who must go 
into battle directly from those ships?
    Marine Corps Answer. Mr. Chairman, given the performance of the 
Rolling Airframe Missile system and Nulka decoy system against today's 
threats, the United States Navy is confident they have provided an 
effective ship self-defense capability for the LPD-17 for now and the 
foreseeable future. Based on this assessment and the Navy's commitment 
to sending ships with additional capability as escorts when the ARG 
goes in harms way, I am confident that our needs can be met.
    Question. General Krulak, what is the cost per ship of installing 
the vertical launcher on an LPD-17 ship during construction?
    Given this low cost, why would the Marines not want to have the 
flexibility perhaps one day in the future to launch land attack 
missiles for LPD-17 ships to protect the soldiers who are initiating an 
amphibious assault from them?
    Marine Corps Answer. The LPD-17 Program Officer would have to 
prepare an estimate on the cost of installing the vertical launcher 
system (VLS) on each ship.
    The decision to remove the ESSM missile and the VLS was done after 
assessing the strong performance capability of the RAM system and the 
lack of any significant increase to self-defense capability, outside of 
weapons redundancy, that the ESSM system provided. Furthermore, RAM 
will meet the anticipated threats through fiscal year 2010. To upgrade 
ESSM to a performance level beyond that provided by RAM would require 
an investment of several hundred million dollars greater than the 
program cost we presented in the fiscal year 1998 President's Budget. 
As time passes and the threat environment becomes more severe, there 
will probably be a need for future upgrades to ship self-defense as 
envisioned in the AKCITA program.
    A land attack missile capability for the LPD-17 has been discussed 
to support our Marines during Amphibious Ready Group (ARG) deployments. 
Several alternatives exist to provide a land attack capability. One 
alternative is having it organic to the LPD-17. A second alternative 
would be the routine deployment of Naval Surface Fire Support (NSFS) 
capable surface combatant ships with the Amphibious Ready Groups. The 
first alternative is fiscally constrained, while the second is a policy 
decision. The Department of the Navy has come to no conclusion at this 
time as to which is the best alternative.

                       LHA Service Life Extension

    Question. Admiral Johnson, last year the Committee asked you why 
the Navy abandoned outfitting the entire class of LHA amphibious 
assault ships with the Ship Self-Defense System, and you testified that 
it was due in part to the short remaining service life of these ships. 
In the outyear plan accompanying the 1999 budget, the Navy has budgeted 
a service life extension for an LHA ship starting in 2003.
    What is your current thinking about the service life of LHA ships?
    Navy Answer. The five ships of the LHA class will reach their 35 
year service life in the 2011-2015 time frame, one each year. A service 
life extension program would add an additional 15 years to the service 
life. As part of the outyear budget process, the Navy is evaluating 
options for extending or replacing the LHA's.
    Question. What specifically is the Navy considering doing to the 
LHA ships in order to prolong their life and upgrade their 
capabilities? Provide for the record each specific item that is under 
consideration by the Navy.
    Navy Answer. The Navy is considering an LHA service life extension 
program which would consist of the following:
    <bullet> Overhauling/replacing selected hull, mechanical, and 
engineering items to ensure viability for an additional 15 years of 
service life.
    <bullet> Correcting the LHA class damaged stability shortfall and 
restoring service life allowance for future weight additions (such as 
MV-22).
    <bullet> Upgrading C4ISR (Command, Control, Communications, 
Computers, Intelligence, Surveillance, and Reconnaissance) and combat 
systems to LHD-7 equivalent.
    Question. Using ``ball park'' figures, about how much does an LHA 
service life extension cost? How does this compare to the cost of 
construction of a new LHD ship, in similar year constant dollars?
    Navy Answer. A LHA service life extension program (SLEP) is 
estimated to cost $0.95 billion per ship, in fiscal year 1999 constant 
dollars. A new LHD is estimated to cost $1.3 billion in fiscal year 
1999 constant dollars plus potential start up costs if LHD production 
is gapped after LHD-7 delivers in fiscal year 2001.
    Question. Is the Navy committed to performing an LHA service life 
extension, or is the amount shown in your outyear plan just a 
``placeholder''?
    Navy Answer. The Navy is committed to maintaining 12 LHAs/LHDs 
within the amphibious force structure. A decision to extend the service 
life of the LHAs or build new construction replacements is an outyear 
budget development process issue.
    Question. Would you, General Krulak, or Secretary Dalton be in 
favor of Congress adding some or all of the $1.3 billion required to 
construct a new LHD ship in fiscal year 1999 rather than to perform an 
LHA service life extension in 2003?
    If yes, please provide for the record the amounts in your fiscal 
year 1999 budget that you would suggest the Congress use as offsets to 
finance such a program.
    Navy Answer. The Navy's fiscal year 1999 budget funds our 
requirements in a balanced manner. I would not be in favor of a new LHD 
ship in fiscal year 1999 if offsets are required. I would also not be 
in favor of partial funding of an LHD in fiscal year 1999 because 
additional funds would be needed in subsequent budgets to fully finance 
the ship. Current Navy planning projects LHAs to begin reaching the end 
of their service lives (35 years) in fiscal year 2011, about 12 years 
from now. The President's fiscal year 1999 Budget supports concept 
exploration of a new-design amphibious ship, called LHX, which could 
replace the LHAs. The Navy is also evaluating an LHA SLEP, and has 
initiated an Analysis of Alternatives in fiscal year 1999. Thus due to 
the life remaining in the existing LHAs without a SLEP, there is no 
requirement for funding an 8th LHD in the fiscal year 1999-2003 Future 
Years Defense Program (FYDP). A final decision to include funding to 
extend the service life of the LHAs, or to plan for new-construction 
replacements, will likely be reflected early next year in the fiscal 
year 2000 President's Budget and fiscal year 2000-2005 FYDP.
    Marine Corps Answer. I believe procurement of a new LHD is a wiser 
investment for our Nation than refurbishing our oldest LHA. The LHD is 
larger, has more carrying capability, and can better accommodate our 
new technology systems that have been fielded in recent years or will 
soon be added to our force. In short, it will carry more tanks 
aircraft, amphibious assault vehicles, and LCACs than its LHA 
predecessor.
    As currently planned, the LHA service life extension, if initiated, 
would start in fiscal year 2005. Current estimates for the service life 
extension range from $800 million to $1.2 billion. The estimated cost 
of a new LHD (modified) in fiscal year 2005 is $2.3 to $2.5 billion. 
(This estimate includes approximately $750 million to restart the 
production line.) The cost of a new LHD in fiscal year 1999 would be 
approximately 20 to 40 percent more than the cost of the LHA service 
life extension, and would provide the Nation with a much more capable 
LHD that would complement our forward presence forces for 40 years, as 
opposed to the 15 to 20 years gained with a service life extension. We 
need to engage this issue actively so a solution can be implemented 
before the end of the LHA's planned service life. I am working with the 
Chief of Naval Operations on this important requirement.
    Big deck amphibious ships are at the heart of the Navy-Marine Corps 
team. Building a new LHD, more capable of accommodating leaps in 
technology and expansion of equipment, would be a most welcome 
initiative. However, within present top line constraints, the Marine 
Corps has no program to offer as an offset. The entire Procurement 
Marine Corps account is only $745.9 million and we have already applied 
anticipated QDR Force Structure savings to help get this account near 
its historical norms and begin ramp up of our number one modernization 
priority, the V-22, to a realistic production rate. This is not a 
reluctance to back up the need for this ship * * * there is simply no 
fat in this budget request.
    Question. Given the recent outstanding performance of the Ship Self 
Defense System in its operational tests, would the Navy perform an LHA 
service life extension without including the Ship Self-Defense System?
    Navy Answer. Navy utilities a combat systems approach to validate 
each ship class' performance against the CAPSTONE requirement. All 
systems in the detection through engage sequence are modeled against 
the validated Defense Intelligence Agency threats. No one system is 
good enough, by itself, to meet the CAPSTONE performance requirements. 
In the case of the LHA class, a Ship Self-Defense System is expected to 
be part of any combat systems upgrades during a service life extension.
    Marine Corps Answer. If a decision were made to SLEP the LHA class, 
the USMC would want a robust Ship Self-Defense System included in the 
overhaul. We would engage fully with the Navy to ensure the ship was 
able to deal with threats envisioned in the post-2010 environment.
    Question. Given the Navy's desire to now retain LHA ships for a 
longer period than was thought last year, how much additional funding 
could be provided by Congress in 1999 to install the Ship Self-Defense 
System (SSDS) on LHA/LHD ships and for how many ships?
    Navy Answer. None. Navy utilizes a combat systems approach to 
validate each ship class' performance against this Capstone 
requirement. All systems in the detection through engage sequence are 
modeled against the validated Defense Intelligence Agency threats. No 
one system is good enough, by itself, to meet the Capstone performance 
requirements.
    For the LHD 1 class, the SSDS installation plan is being aligned 
with the fielding plan for the other major upgrades planned for the 
ship--most notably Cooperative Engagement Capability, Advanced Combat 
Direction System, Rolling Airframe Missile Block 1 and the NATO Sea 
Sparrow Missile System. Navy plans to install this same integrated 
combat system in CV/CVN ship classes. The full integration and testing 
of all combat system elements is funded to coincide with a first ship 
installation in CVN 68 in fiscal year 2001. After follow-on test and 
evaluation of CVN 68, other LHD and CV/CVN ships will be upgraded; 
these upgrades are projected to commence in fiscal year 2002. The 
required SSDS procurements to support them are funded beginning in 
fiscal year 2001. Accelerating SSDS without coordinating the fielding 
plan with other required upgrades would do little to improve the ships 
performance against the predominant anti-ship cruise missile threat.
    Marine Corps Answer. The Marine Corps fully supports the 
installation of the Ship Self-Defense System on LHA/LHD ships within 
fiscal constraints. Although a modest amount of funds were programmed 
for fiscal year 2003 LHA SLEP, the DoN is examining different options 
concerning the LHA force in the upcoming Program Objective Memorandum 
build. It would be premature to increase funds in fiscal year 1999 for 
Ship Self-Defense until we have a plan for the LHA class in place.

                            Aerostat Program

    Question. The Army is requesting $103 million to continue the Joint 
Army/Navy Aerostat program, now called the Joint Land Attack Cruise 
Missile Defense Elevated Netted Sensor System (JLENS). Last year, this 
Committee recommended that the Aerostat program be terminated, but did 
not prevail in conference. Instead the conferees appropriated 
$35,000,000, a decrease of $51,193,000 from the budget request.
    Please explain the JLENS concept. How will the Navy deploy JLENS 
and what will be its mission?
    Navy Answer. JLENS is designed to detect, track and provide fire 
control quality data in a sensor-netted network against the overland 
cruise missile threat. JLENS will support final illumination 
requirements in an over-the-horizon engagement in support of overland 
cruise missile defense.
    Navy does not plan to procure or deploy JLENS at sea. Navy's 
interest lies in ensuring integration of critical sensors in a Joint 
Composite Tracking Network (JCTN). Cooperative Engagement Capability 
(CEC) is phase I of the JCTN.
    Question. Why do you need a JLENS? What other systems (either 
fielded or in development) could be used to do the JLENS mission?
    Navy Answer. Elevated sensors, netted together to form composite 
tracks are critical to detect low flying, low radar cross section 
cruise missiles. Airborne fire control is required to conduct over-the-
horizon engagements at the full kinematic capability of Standard 
Missile (SM-2). Upgrades to surveillance aircraft including E-2C 
Hawkeys, E-3 AWACS and aircraft with airborne fire control (aircraft 
specifics are classified) could fulfill this mission.
    Question. Secretary Dalton, the DoD is requesting $103 million in 
fiscal year 1999 for JLENS demonstration.The demonstration will cost 
$400 million--the Army has told us the program is underfunded by $86 
million. Are you willing to offset the shortfall within the Navy 
budget?
    Navy Answer. No. Navy cannot support reductions in other much 
needed programs to offset the JLENS demonstration.
    Question. In what fiscal year will the Navy begin procuring JLENS?
    Navy Answer. The Navy will not procure JLENS.
    Question. Do you have funds budgeted in the outyears for JLENS? If 
so what years and how much?
    Navy Answer. JLENS is a Joint Advanced Technology Demonstration 
program led by the Army with Navy interest due to Standard Missile 
support and Cooperative Engagement Capability (CEC). JLENS provides 
funds for Standard Missile (SM-2 BLK 1) development and CEC 
integration. As previously noted, the Navy does not provide funds to 
this effort. Therefore, Navy does not budget for JLENS.

                        SLAM-ER Missile Program

    Question. SLAM-ER is a Navy cruise missile program currently in 
production with capabilities similar to the Air Force's future JASSM 
program.
    Admiral Johnson, what is the current status of the SLAM-ER program 
including flight testing, projected delivery dates, and estimated unit 
costs?
    Navy Answer. At this time, the SLAM-ER development program is more 
than 92 percent complete and is on cost, on schedule and meets or 
exceeds all Operational Requirements Document thresholds. SLAM-ER has 
successfully completed five of five Development Test flights which 
verified SLAM-ER's performance. SLAM-ER will enter the combined 
Developmental & Operational (DT/OT) test phase the first week of April 
1998.
    The SLAM fiscal year 1996 production contract was modified July 
1997 to change the missile configuration from SLAMs to SLAM-ERs to 
avoid $35 million in retrofit costs. The first production SLAM-ER is 
scheduled to be delivered March 25, 1998.
    The estimated unit cost for SLAM-ER retrofits is $476 thousand (in 
fiscal year 1998 constant dollars) at a production rate of 90 missiles 
per years. The current SLAM-ER production rate is about 40 missiles per 
unit (unit cost approximately $575 thousand). Affordability of more 
efficient buy rates is being explored.
    Question. Admiral Johnson, in your opinion, will SLAM-ER be capable 
of successfully attacking the same targets listed in the JASSM target 
set? What JASSM targets will SLAM-ER be incapable of destroying?
    Navy Answer. Yes. SLAM-ER, when improved to become SLAM-ER+ (with 
Automatic Target Acquisition) meets all of the Key Performance 
Parameters enumerated in the JASSM ORD, including Missile Mission 
Effectiveness. Production of SLAM-ER+ begins in fiscal year 1998, and 
retrofit of the 135 SLAM-ERs funded in fiscal years 1996 and 1997 is 
budgeted in fiscal years 1999 and 2000.
    Question. Admiral Johnson, can JASSM meet the Navy's requirements 
for SLAM-ER? Why or why not?
    Navy Answer. No. Current JASSM contractor Engineering/
Manufacturing/Development (EMD) proposals make no provisions to include 
the enhancements required for JASSM to meet the Navy's ORD for SLAM-ER. 
The requirements not addressed are: Main-in-the-Loop data link, 
Positive target ID operations, Anti-ship capability (ability to attack 
mobile targets), operational life in the carrier environment and a 
maximum weight of 1,800 pounds. Additional requirements for SLAM-ER 
(more stringent than those for JASSM) which JASSM could be modified to 
meet include: minimum launch altitude, low altitude maximum launch mach 
and target area weather minima.

                        Aegis Cruiser Conversion

    Question. In the fiscal year 1999 budget, the Navy has a new plan 
that did not exist last year to perform major upgrades to its fleet of 
Aegis cruisers.
    Admiral Johnson, please describe the Navy's plan for the cruiser 
ship conversions.
    Navy Answer. The Cruiser Conversion Plan is a mid-life, warfighting 
capability upgrade for the Navy's Aegis guided missile cruisers. It is 
designed to modernize and extend their Aegis combat system's viability 
well into the 21st Century. The Cruiser Conversion Plan enables the 
Navy's deployment of Theater Ballistic Missile Defense (TBMD), Land 
Attack and Area Air Defense Command (AADC) capabilities, as well as 
providing support of the Marine Corps' concept for Operational Maneuver 
from the Sea.
    In general terms, the Cruiser Conversion Plan incorporates a major 
mission change for Aegis cruisers, converting them from ``blue water'' 
air defense and anti-submarine warfare ships, to ``littoral'' 
combatants specifically equipped for overland Theater Ballistic Missile 
Defense (TEMD) and Land Attack/Long Range Naval Surface Fire Support 
missions.
    Question. How many ships are involved, and what is the total cost?
    Navy Answer. The goal of the Cruiser Conversion Plan is to 
eventually modernize all 22 Baseline 2, 3, and 4 Aegis cruisers (CGs 
52-73). 12 conversions are currently funded between fiscal years 2001-
2003.
    The total cost of the Cruiser Conversion Plan, including $1.38 
billion for Research, Development, Test and Evaluation and Shipbuilding 
and Conversion, Navy already programmed in the President's fiscal year 
1999 budget, is $2.66 billion.
    Question. Last year, the Committee affirmed the Navy's plan to 
conduct a competition among shipyards for each ship conversion. 
Secretary Dalton, do you still plan to compete each and every cruiser 
conversion?
    Navy Answer. The Navy still intends to compete all cruiser 
conversions. Shipyards capable of conducting cruiser Regular Overhauls 
could perform the cruiser conversion work. This plan will generate 
significant industrial work across a variety of shipyard trades. 
Whether the conversions are bid individually or in groups will be 
determined by the Department of Defense acquisition process.
    Question. Last year, the Navy contemplated converting all 27 of its 
Aegis cruisers. Today, the Navy plans to only convert 22. What changed?
    Navy Answer. During the early stages of developing the Cruiser 
Conversion Plan, Navy investigated the feasibility of including the 
five Baseline 1 cruisers in the plan. Conversion of these to the TBMD 
and Land Attack mission would require removal of the current Mk 26 rail 
launches and installation of the much heavier Mk 41 vertical launching 
system (VLS). VLS installation would require ``double-hulling'' the 
Baseline 1 cruisers. With double-hulling, the cost of converting a 
Baseline 1 cruiser rose to over $220 million each. As a result of the 
much higher cost to modernize these earlier ships, conversion of the 
Baseline 1 cruisers (CGs 47-51) is no longer planned.

                       Trident Submarine Backfit

    Question. Under the conditions of the START II treaty, the Trident 
submarine force will assume a role of growing importance within the 
strategic triad by carrying approximately one-half of the allowable 
strategic nuclear warheads. The Trident Backfit program, to retrofit 14 
of the 18 boats with the D-5 missile, began last year but was 
controversial in the Senate and a major issue in our conference.
    Secretary Dalton, what is the status of the Trident Backfit 
program?
    Navy Answer. Fourteen D-5 Trident SSBNs in two oceans are required 
to assure the survivability and security of the SSBN force per the 
Nuclear Posture Review (NPR). Ten of the eighteen Trident SSBNs in the 
force today are already D-5 capable. The Trident Backfit program, 
retrofits four of the remaining eight boats to the D-5 missile. The 
Navy is fully implementing the D-5 backfit program as directed by the 
Secretary of Defense in his 1995 Nuclear Posture Review (NPR) 
implementation guidance. This program conducts two D-5 backfits in 
fiscal year 2000 and 2001, and two in fiscal year 2004 and 2005. 
Strategic weapons system equipment production for the backfits is 
already in progress. The fiscal year 1999 budget includes funds to 
continue equipment production and to begin the upgrades to the 
Strategic Weapons Facility, Pacific (SWFPAC) to handle the D-5 missile 
and for the Trident Training Facility--Bangor.
    Question. How much is included in the fiscal year 1999 budget to 
continue it?
    Navy Answer. There is $241 million in the fiscal year 1999 budget 
request to continue the procurement of D-5 strategic weapons system 
equipment for the first two of the four planned D-5 backfits commencing 
in fiscal years 2000 and 2001.
    Question. What has been the effect of the Senate reductions (to 
which we agreed in conference) to the D-5 missile production program in 
terms of impact on the D-5 missile production line, the program 
schedule to support Trident submarine loadout, and outyear cost to 
restore the missiles deleted by the Congress?
    Navy Answer. The fiscal year 1998 Senate Appropriations Committee 
(and Defense Appropriations Act) reduction of $65 million in Weapons 
Procurement, Navy was intended to reduce D-5 missile procurement by 2 
missiles, thereby slowing the rate of D-5 production. Because the D-5 
missile procurement strategy purchases some missile critical components 
at the most economical production rates, while purchasing all-up rounds 
at the minimum sustaining rate, the actual effect was that the Program 
Manager was forced to break production lines in fiscal year 1998 for 
four critical components: (1) Post Boost Control Systems (PBCS) gas 
generators, (2) Nose Fairing Jettison Motors (NFJM), (3) MK-6 Guidance 
System Electronics Assemblies (EA), and (4) HMX rocket motor 
propellant.
    Without additional funding, the program will be approximately 46 
missiles short of the inventory objective of 434 D-5 missiles required 
to fully out load a 14 boat, two ocean, Trident D-5 force.
    Although DoD reduced the fiscal year 1999 U.S. missile procurement 
quantity from 7 to 5 to be consistent with the fiscal year 1998 
Congressional action, additional funds were added to the fiscal year 
1999 Weapons Procurement, Navy line to mitigate the impact of broken 
production lines resulting from the fiscal year 1998 Congressional 
reduction.
    Specifically, the fiscal year 1999 WPN budget request of $323.5 
million includes $14 million to restart and re-qualify production for 
three of the fourth broken production lines (MK-6 Guidance EAs, PBCS 
gas generators, and NFJM). The Department is reviewing the additional 
out-year funding requirement to restart and re-qualify the fourth 
broken production line (HMX propellant) and to procure the hardware 
deleted from the fiscal year 1998 program to ensure that the inventory 
objective of 434 missiles is achieved.
    Question. Congress directed that the Navy maintain the option to 
increase (from 14 boats) to an 18 all D-5 SSBN force until the Russian 
Duma ratifies START II. The fiscal year 1999 budget contains $18 
million to begin purchasing of equipment for the last four Trident 
boats that will be wasted if the Russian Duma makes such ratification. 
What is the Navy's plan for investment in the last four Trident ships 
that would be decommissioned once START II is ratified?
    <bullet> What is the potential cost next year?
    <bullet> What is the potential cost during the next five years?
    <bullet> How much of this cost is currently addressed in the 
Administration's future years defense plan?
    Navy Answer. The fiscal year 1998 Defense Authorization Act 
prohibits obligating any funds to retire or dismantle (or prepare to 
retire or dismantle) Trident ballistic missile submarines, pending 
START II ratification and Congressional approval. The fiscal year 1999 
budget request reflects $18 million programmed to preserve the option 
of maintaining the 18 D-5 Trident SSBN force. These funds provide for 
the procurement of long-lead reactor components to support the 
additional refueling overhauls. If START II is ratified, this $18 
million would not be wasted, since these reactor components will be 
procured anyway for future refueling operations of the other Trident 
SSBNs.
    Maintaining this year-by-year ``hedge'' option is only possible 
until fiscal year 2002. Beyond that, a decision must be made to either 
refuel or remove the four Trident SSBNs from strategic service. The 
costs for maintaining the option for an 18 D-5 Trident force beyond 
fiscal year 1999 are not programmed, pending a recommendation for START 
I force structure by the OSD/Joint Staff co-chaired START I Task Force. 
For fiscal year 2000, the estimated costs are as high as $683 million 
above the current program, and for fiscal year 2001, the hedge option 
costs up to $960 million. These funds would only maintain the option 
for 18 D-5 Tridents, not execute an 18 D-5 Trident program. Executing 
an 18 D-5 Trident SSBN force would cost between $5 and $6 billion in 
additional funds across the Future Years Defense Plan.
    The START I Task Force is presently examining both costs and 
alternative force structures in the event START II is not ratified. The 
Secretary of Defense will make a full report on the Task Force findings 
to Congress in April 1998.

               Use of Trident Submarines for New Mission

    Question. If the START II treaty is ratified by the Russian Duma, 
then 4 of the 18 existing Trident submarines would be decommissioned or 
otherwise made available to perform other missions. A Trident submarine 
would be an ideal platform for covertly launching conventional land 
attack missiles--such as Navy ATACMs. A program to convert excess 
Tridents for conventional missions may be more attractive with the 
recent demise of the Arsenal surface ship. Admiral Johnson, what is 
your thinking about converting Trident submarines to other missions 
should START II be ratified?
    Navy Answer. The Trident conversion (SSGN) is a topic of interest 
and the Navy is continuing to consider the concept.
    Question. Do the theater CINCs share your enthusiasm?
    Navy Answer. There has been some interest in this concept from 
several sources, including the Commander, US Special Operations Command 
and the Commander, US Pacific Fleet.
    Question. How much would be required to convert 4 Trident 
submarines to a conventional mission, and how much would be saved by 
avoiding the decommissioning cost?
    Navy Answer. Conversion costs are currently estimated to be 
approximately $400 million per ship (includes the refueling overhaul 
required for 20 additional years of service life), with a one time 
initial design cost of approximately $170 million.
    Navy currently has a nominal $90 million per ship ($360 million 
total) programmed for the fiscal year 2002 and fiscal year 2003 
inactivations.
    Question. How much is currently budgeted in fiscal year 1999 or the 
accompanying future years defense plan?
    Navy Answer. The Trident SSGN is a concept and not yet a program. 
Therefore, no funds have been applied to it in the fiscal year 1999 
budget or accompanying Future Years Defense Plan (FYDP).
    Question. Why would the Navy need to develop a new land-attack 
destroyer (DD-21) if it could convert 4 Trident submarines, which 
otherwise would have to be scrapped, to carry hundreds of land attack 
missiles?
    Navy Answer. Supporting forces ashore from the sea requires a 
balanced mix of long and medium range precision strike weapons (for 
Strike and Interdiction missions) and shorter range munitions (for 
Naval Surface Fire Support). Guns offer the biggest payoff on 
investment for providing the rate and volume of fire required for Naval 
Surface Fire Support, a capability unique to surface combatants.
    The approved SC-21 Mission Need Statement (MNS) and DD 21 
Operational Requirements Document (ORD) emphasize the need for a 
surface combatant to provide independent forward presence and operate 
as an integral part of joint and allied maritime expeditionary warfare 
operations. Although the focus of DD 21 is land attack, it is also 
required to provide in-theater presence, battlespace dominance, and 
Joint Command, Control, Communication, Computer, Intelligence, 
Surveillance, and Reconnaissance (C4ISR) interoperability. These 
capabilities are especially suited to surface combatants.

                              A-12 Lawsuit

    Question. Last Friday, a federal judge ordered the government to 
pay its contractors $1.8 billion for improperly terminating the 
troubled A-12 stealth fighter program (a fighter sized, B-2 shaped 
aircraft) in 1991. The judge awarded the contractors $1.2 billion and 
$538 million in interest. The Justice Department will appeal the 
ruling, but interest would keep accruing at $200,000 per day until the 
legal process concludes.
    If the verdict is upheld on appeal, would the Navy be liable for 
the $1.8 billion cost or would the cost be apportioned DOD wide?
    Navy Answer. After all appeals, any final judgment would be paid 
initially from the judgment fund of the U.S. Treasury. The Navy would 
be required to reimburse the judgment fund with the same kinds of 
appropriations that were used on the contract.
    Question. What would be the effect on Navy modernization accounts?
    Navy Answer. The Navy has appealed the judgment to the Court of 
Appeals for the Federal Circuit. We believe that the appeal will be 
successful. However, we are unable at this point to determine what the 
final outcome of the litigation will be or when it will occur. A $1.8 
billion liability would have a significant impact on our 
recapitalization and modernization programs.

                           Aircraft Accidents

    Question. What is the current situation? The Committee wants to 
remain vigilant on the issue of aircraft safety. In the past, Navy and 
Marine Corps aircraft mishaps seemed to be happening too frequently.
    Navy Answer. From October 1, 1997 to March 15, 1998, there have 
been 13 Class A flight mishaps within the Department of the Navy, for a 
rate of 2.02 per 100,000 flight hours. If this rate holds, fiscal year 
1998 will be the third best year.
    In 1996, Navy and Marine Corps aviation leadership established the 
goal of a 50 percent reduction in human factor, Class A mishaps by 
1999. At the same time the Navy's Air Board chartered a Human Factors 
Quality Management Board (HF QMB) to lead Naval Aviation's efforts to 
accomplish this goal. The HF QMB has been instrumental in developing a 
safety systems plan as well as institutionalizing Operational Risk 
Management (ORM) into our aviation culture.
    Marine Corps Answer. During fiscal year 1998, the Marine Corps has 
experienced 5 Class A Flight Mishaps (FM), resulting in 21 fatalities 
(20 civilian, 1 USMC pilot) and 4 destroyed aircraft (2 AV-8B, 2 F/A-
18C).
    The Marine Corps has also had two Class A Aircraft Ground Mishaps 
(AGM): C-20G damaged by a tornado and a KC-130 damaged by bleed air 
failure during a ground high power test.
    USN/USMC/DON Class A Flight Mishaps:

                           NAVY/MARINE MISHAPS
------------------------------------------------------------------------
                  Fiscal year                       No.          Rate
------------------------------------------------------------------------
1990..........................................           66         3.00
1991..........................................           60         2.79
1992..........................................           55         2.80
1993..........................................           53         2.84
1994..........................................           28         1.67
1995..........................................           34         2.05
1996..........................................           36         2.18
1997..........................................           27         1.77
                                               -------------
    Total.....................................          359         2.39
------------------------------------------------------------------------
Note: Rate is per 100,000 flight hours.

    As of April 7, 1998 the Marine Corps has suffered two fewer Class A 
Flight Mishaps (5) during fiscal year 1998 than it did during fiscal 
year 1997 (7).
    Question. What is the Department of the Navy's most recent annual 
mishap rate, and how does that compare to earlier years. The Committee 
wants to remain vigilant on the issue of aircraft safety. In the past, 
Navy and Marine Corps aircraft mishaps seemed to be happening too 
frequently.
    Navy Answer. Fiscal year 1997 was the second lowest year ever with 
a 1.77 Class A flight mishap rate (27 mishaps).
    The trends during fiscal years 1988-1997, specifically fiscal years 
1988-1993 compared with fiscal year 1994-1997, show a twenty-nine 
percent rate decrease in the Navy Class A flight mishap rate (2.24 to 
1.59); a twenty-nine percent decrease in the Marine Corps Class A 
flight mishap rate (4.16 to 2.94); and a twenty-seven percent decrease 
in the Navy/Marine Corps Navy Class A flight mishap rate (2.64 to 
1.92).
    Marine Corps Answer. A single aircraft mishap is one too many and 
we continue to work to reduce our mishap rate. As the numbers below 
reflect, the four most recent years reflect numbers below historical 
averages and two of these years are our best ever statistics.

                               NAVY/MARINE
------------------------------------------------------------------------
                  Fiscal year                       No.          Rate
------------------------------------------------------------------------
1990..........................................           66         3.00
1991..........................................           60         2.79
1992..........................................           55         2.80
1993..........................................           53         2.84
1994..........................................           28         1.67
1995..........................................           34         2.05
1996..........................................           36         2.18
1997..........................................           27         1.77
                                               -------------
    Total.....................................          359         2.39
------------------------------------------------------------------------
Note. Rate is per 100,000 flight hours.

    Question. How does the Navy's mishap rate compare to that of the 
Air Force, for similar models of aircraft?
    Navy Answer. Class A mishap rate for Fighter-Attack Aircraft:

----------------------------------------------------------------------------------------------------------------
                         Fiscal year                              Navy        Marine    Navy/Marine   Air Force
----------------------------------------------------------------------------------------------------------------
1997........................................................         1.46         4.58         2.58         2.98
1998\1\.....................................................         1.66         7.40         3.72         1.58
----------------------------------------------------------------------------------------------------------------
\1\ As of March 15, 1998.
Note. Rates are mishaps per 100,000 flight hours, and include both ashore and deployed flight operations.

    Marine Corps Answer.

          FIGHTER-ATTACK COMPARISON--CLASS A FLIGHT MISHAP RATE
------------------------------------------------------------------------
                  Fiscal year                       USN          USAF
------------------------------------------------------------------------
1990..........................................         4.64         3.63
1991..........................................         4.55         2.54
1992..........................................         5.05         3.17
1993..........................................         6.38         3.01
1994..........................................         3.68         3.38
1995..........................................         4.71         2.56
1996..........................................         5.35         2.18
1997..........................................         1.46         2.98
------------------------------------------------------------------------
Note. Rate is in mishaps per 100,000 flight hours.

    Question. Name for the record each known unfunded aircraft safety 
of flight upgrade that exists today, and how much would be required in 
fiscal year 1999 to implement each of them.
    Navy Answer. Naval Aviation identifies safety of flight hazards 
when an aviation unit reports a safety of flight discrepancy through 
the Hazard Reporting System. If a safety of flight hazard is severe, 
the Naval Air Systems Command (NAVAIR) will ground the fleet of the 
particular type/model aircraft affected. NAVAIR then researches an 
engineering solution for the reported problem; and after a solution is 
identified it is incorporated into the budget based upon the severity 
of the hazard. At the current time there are no safety of flight 
hazards which are grounding aircraft.
    In an attempt to reduce the mishap rate, the HF QMB has developed 
an aviation safety systems plan consisting of Global Positioning 
Systems (GPS), Flight Data Recorders (FDR), Ground Proximity Warning 
Systems (GPWS), and Collision Avoidance Systems (CAS). GPS is fully 
funded for fiscal 1999. Funding for FDR, GPWS, and CAS is based on a 
risk assessment using loss of life, aircraft life remaining and mishap 
cost benefit analysis. Over $70 million was identified in the fiscal 
1999 budget to increase procurement of these systems on aircraft with 
the highest return on investment. For aircraft with low mishap rates, 
the funding of these systems will start in 2000. Additional funded 
aircraft improvements to reduce mishaps include fuel and electrical 
system improvements, fatigue life enhancements, and fire detection and 
suppression system upgrades.
    Marine Corps Answer. The Navy/Marine Corps categorize aircraft 
upgrades into three categories under the term HONA or Health of Naval 
Aviation. They are defined as:
    HONA A: Safety, structural, mandated and other issues that would 
ground aircraft, or designate weapons unserviceable or unsafe.
    HONA B: Readiness and maintainability issues and investments which 
impact asset availability and/or lead to lower overall life cycle cost.
    HONA C: Mission performance enhancements.
    Marine aviation currently has no known unfunded HONA A (safety of 
flight) requirements that could be funded in fiscal year 1999.

                     Privatization and Outsourcing

    Question. The Navy has an aggressive privatization program designed 
to contract out base support functions such as vehicle maintenance, 
facilities maintenance and civil engineering, automated data processing 
operations, and numerous administrative functions. DoD claims that a 
significant portion of the end strength reductions specified in the 
Defense Reform Initiative will be achieved through privatization of 
functions currently performed in-house by DoD. DoD also claims that 
outsourcing will result in cost reductions of about 20%.
    What are the net savings from outsourcing and privatization assumed 
in the Navy's fiscal year 1999 budget request?
    Navy Answer. The Navy's Future Years Defense Program (FYDP) 
reflects approximately $2.7 billion net savings through fiscal year 
2003, with annual savings in fiscal year 2003 approximating $1.2 
billion, that have been reapplied within our budget request, toward 
recapitalization and modernization of our force structure. I need to 
stress that the Navy's emphasis is on competition, not on outsourcing 
and privatization per se. We expect savings regardless of the outcome 
of the competitions either a new more cost effective in-house 
organization or a contract. Recent studies have identified nearly $4 
billion annually spent on commercial activities that might be performed 
more economically by the private sector or more efficiently in-house 
after they have been competed.
    Marine Corps Answer. The Marine Corps budget does not reflect any 
savings in fiscal year 1999. The budget assumes savings beginning in 
fiscal year 2000 ($20 million) and growing to a steady state amount of 
$110 million by fiscal year 2004.
    Question. What costs have been incurred by the Navy to implement 
its privatization program?
    Navy Answer. Currently the Navy has programmed $141.5 million in 
fiscal year 1999 through fiscal year 2003 to provide consultant support 
for competitive sourcing studies under OMB Circular A-76. Using $2 
thousand/Full Time Equivalent as a benchmark, these funds will be used 
to augment the in-house efforts of personnel conducting the studies. 
However, the major focus of the Navy program will rely upon personnel 
already in place to conduct the bulk of the A-76 study effort. The use 
of local expertise plays a critical part in establishing the 
requirements for performance work statements (PWS) and in developing 
the quality Most Efficient Organizations (MEO) required by OMB Circular 
A-76.
    Marine Corps Answer. To date the Marine Corps has spent $17 
thousand to implement its privatization program. We plan to invest 
approximately $37 million in our program from fiscal years 1998 to 
2001.
    Question. What measures has the Navy implemented to validate 
savings?
    Navy Answer. The Navy relies upon the cost comparison process 
established by OMB Circular A-76. Circular A-76 not only provides 
rigorous guidelines for identifying the costs of both in-house and 
private sector performance, but it also incorporates an independent 
review process and provides all affected parties with an independent 
appeal process. To monitor costs after the comparisons have occurred, 
we are establishing a reporting system that will track actual costs 
across the five-year comparison period. Based on our past experience, 
we expect actual costs to track well with the cost comparison estimates 
but will take appropriate corrective action if they do not.
    Marine Corps Answer. The Marine Corps is implementing Activity 
Based Costing within facilities maintenance and logistics aboard its 
U.S. bases. This will establish a baseline cost for those related base 
commercial activities within two areas which produce approximately 70 
percent of installation operating costs. These baseline costs can then 
be compared to either the A-76 cost comparison process generated most 
efficient organization costs and/or commercial sector contract offers.
    Question. What are the limits of privatization? Are the Navy's 
efforts limited by the need to maintain sea shore rotations? Does the 
need to maintain certain skills among military or civilian personnel 
limit your ability to privatize functions?
    Navy Answer. Privatization of manpower is limited both by 
legislation and by the application of Navy policy on sea-shore rotation 
and home-basing goals/minimums. Our policy provides a structured check 
and balance system between military manpower requirements and proposed 
shore infrastructure reductions for regionalization, outsourcing or 
privatization initiatives to ensure that our military readiness is not 
adversely affected. The need to maintain a sea-to-shore rotational 
base, along with the need to maintain certain critical skills, has 
indeed limited our ability to compete certain military-intensive 
functions. For this reason, the Navy's plan to achieve the savings 
reflected in this budget focuses on competing civilian-intensive 
functions.
    Marine Corps Answer. Privatization is limited by the requirement to 
have a commercial vendor willing to bid. The need to maintain certain 
skills among military or civilian personnel will not likely limit the 
ability of the Marine Corps to privatize functions. The need to 
maintain certain skills among military personnel will limit the ability 
of the Marine Corps to completely contract out some functions through 
the A-76 Cost Comparison Process.
    Question. What effect does increased outsourcing and privatization 
have on the Navy's home porting policy?
    Navy Answer. Increased emphasis on competitive sourcing of our 
shore infrastructure functions requires Navy to focus any efforts 
involving military-intensive functions towards the ``heartland'', vice 
the fleet concentration areas (FCAs), to maintain the Navy's home-
basing (not home porting) goal in FCAs at 70% opportunity. Any 
infrastructure reduction proposals which would take a military rating/
skill group below a 50% home-basing opportunity (considered minimum) 
for an FCA would not be approved. Again, for this reason, the Navy's 
plan to achieve the savings reflected in this budget focuses on 
competing civilian-intensive functions.

                       Marine Corps Modernization

    Question. The Marine Corps is requesting $745.9 million for Marine 
Corps, Procurement, $272.4 million higher than last year's appropriated 
level.
    General Krulak, you have been critical of the administration's 
defense budget. In the past, you have told us that the Marine Corps 
needs an annual procurement budget of $1.2 billion to meet 
modernization requirements.
    <bullet> Do you still believe $1.2 billion is the ``right'' level 
of procurement funding?
    <bullet> What major items are not funded in your fiscal year 1999 
budget request?
    Marine Corps Answer. It is very difficult to define the ``right 
level'' of procurement funding. For some time now, financing our top 
priority, near-term readiness, has come at the expense of future 
modernization. We have experienced severely depressed levels of 
procurement funding, well below our historical average of $1.2 billion, 
over the last six years. While this budget initiates a reversal of the 
past year's historically low levels of ground equipment modernization 
funding, the fiscal year 1999 level is still considerably below $1.2 
billion. Assuming no change in our topline, we begin to approach that 
level in the outyears; however, it is essential to note that it will 
take a long time to recover from the cumulative effects of low 
procurement levels necessitated during the budget deficit recovery 
years.
    Our equipment is aging and in many cases has exceeded its useful 
life. Maintenance costs are increasing and our Marines are working 
longer and longer hours to maintain aging equipment. The more time and 
money we spend on repairing equipment, the less we have to train 
Marines. We simply must maintain the increased levels of modernization 
funding we begin to see in the outyears if we are to sustain a ready, 
capable Corps in the next century. If we do not, today's modernization 
concerns will become tomorrow's readiness dilemmas.
    Following is a list of unfunded ground equipment and ammunition 
items included on our fiscal year 1999 Budget Enhancement List. This 
list is prioritized within appropriation (i.e., PMC, PANMC).
                                                                Millions
PMC:
    1. Base Telecomm Infrastructure............................... $64.1
    2. LTVR.......................................................  37.0
    3. Mod Kits Tracked Vehicles..................................   4.6
    4. Y2K Compliance/Computer Replacement........................  20.0
    5. P-19A Aircraft Firefighting SLEP...........................   4.6
    6. Shop Equipment Contact Maintenance.........................   5.4
    7. Night Vision Equipment.....................................   6.1
    8. Hose Reel..................................................  16.5
    9. Network Infrastructure.....................................  16.5
    10. Avenger...................................................   7.6
    11. Power Equipment...........................................   9.5
    12. Material Handling Equipment...............................  10.4
    13. Mod Kits (Artillery and Other)............................   1.3
    14. Joint Tactical Info Distribution System...................   3.0
    15. GPA-123 IFF Antennas......................................   1.2
    16. Chem Bio Incident Response Force (CBIRF)..................   1.0
                                                                  ______
        TOTAL PMC................................................. 208.8

PANMC:
    1. Ctg, 120mm Target Practice w/Tracer (TP-T).................   $.7
    2. Ctg, 120mm Target Practice, Cone Stabilized, Discarding 
      Sabot w/Tracer (TPCSDS).....................................    .5
    3. Ctg, 25mm Target Practice Discarding Sabot, Tracer (TPDS-T)    .9
    4. Ctg, 5.56mm Blank Linked...................................    .6
    5. Ctg, 7.62mm Ball Linked....................................    .7
    6. Ctg, Cal 50 Ball Linked....................................    .3
    7. Ctg, 9mm Ball..............................................    .8
    8. Rocket, 83mm Dualmode......................................  18.0
    9. Fuze, Hand Grenade Practice................................   2.5
    10. Grenade, Hand Smoke Green.................................    .5
    11. Grenade, Hand Practice, Smoke TA M83......................    .2
    12. Signal, Smoke & Illum Marine..............................    .5
    13. Igniter, Time Fuse Blasting...............................    .6
                                                                  ______
        TOTAL PANMC...............................................  26.8

    Question. Your fiscal year 1999 procurement request is $272.4 
million higher than last year's appropriated amount.
    <bullet> Does your outyear budget sustain this level of funding?
    <bullet> Which programs are not sustained in the outyears?
    Marine Corps Answer. The fiscal year 1999 request for procurement 
of ground equipment and ammunition is approximately fifty percent above 
the level appropriated for fiscal year 1998, allowing for the start of 
recapitalization of critical Fleet Marine Force equipment that is 
approaching the end of its useful life, as well as replacement of aging 
equipment with new, more capable equipment such as:
    Lightweight 155mm Howitzer, the replacement for our almost 20 year 
old, well-worn M-198 Howitzer;
    Medium Tactical Vehicle Replacement (MTVR), medium truck fleet 
upgrade for our almost 20 year old 5-ton trucks;
    Light Tactical Vehicle Replacement (LTVR), a lightweight truck 
fleet upgrade for our aging HMMWV;
    Javelin, our medium range, man-portable, antitank weapon;
    procurement of our short range anti-armor weapon, Predator; and
    upgrades to our C4I systems--as all Marines know, if you can't 
talk, you can't command.
    While this budget initiates a reversal of the past years' 
historically low levels of ground equipment modernization funding, the 
fiscal year 1999 level is still considerably below our historical 
average of $1.2 billion. Assuming no change in our topline, we begin to 
approach that level in the outyears. It is essential to note, however, 
that it will take a long time to recover from the cumulative effects of 
low procurement levels necessitated during the budget deficit recovery 
years, and that while the projected levels in the outyears will allow 
me to accelerate procurement of some of our ground equipment, it will 
not fully satisfy our requirements.
    Our equipment is aging and in many cases has exceeded its useful 
life. Maintenance costs are increasing and our Marines are working more 
and more hours to maintain aging equipment. The more time and money we 
spend on repairing equipment, the less we have to train Marines. We 
simply must maintain the increased levels of modernization funding we 
begin to see in the outyears if we are to sustain a ready, capable 
Corps in the next century. If we do not, today's modernization concerns 
will become tomorrow's readiness dilemmas.

                             V-22 Aircraft

    Question. Two years ago, the Administration envisioned a 27 year 
construction profile to purchase V-22 aircraft at low annual rates. 
Funding of the program at a rate of 36 aircraft per year was thought to 
save $8-11 billion. Last year, DOD forecast a 25 year production 
profile.
    General Krulak, in the new budget how many years does it take to 
buy out the V-22 program?
    Marine Corps Answer. At the rate currently budgeted, it will take 
16 years to complete procurement of the V-22 (Fiscal Year 1997-Fiscal 
Year 2012). Following is the profile based on the Quadrennial Defense 
Review decision which allows completion of the buy 6 years earlier than 
previously planned, increases by 11 the quantity purchased within the 
Future Years Defense Program, but reduces the acquisition objective 
from 425 to 360.

 
----------------------------------------------------------------------------------------------------------------
                FY97                   98      99      00      01      02      03     04-11    12       Total
----------------------------------------------------------------------------------------------------------------
5..................................       7       7      10      16      20      27   30/yr      28          360
----------------------------------------------------------------------------------------------------------------

    Question. Under the Administration's new budget plan, when is the 
first year that V-22s are manufactured at a rate of 36 per year?
    Navy Answer. Under the current budget and the Quadrennial Defense 
Review (QDR) recommendation, the maximum number of MV-22 procured per 
year will be 30 aircraft starting in fiscal year 2004. The QDR 
production profile supports the completion of the buy 6 years earlier 
than previously planned and increases the quantity procured in the 
Future Years Defense Program by 11 aircraft; however the QDR also 
revised the total acquisition objective from 425 to 360 aircraft.

----------------------------------------------------------------------------------------------------------------
                Fiscal Year                    99      00      01      02      03     04-11    12       Total
----------------------------------------------------------------------------------------------------------------
Aircraft...................................       7      10      16      20      27      30      28          360
----------------------------------------------------------------------------------------------------------------

    Question. Compared to a profile at the economic rate of 36 aircraft 
per year, how much is wasted under the Administration's non-economic V-
22 production profile show in the fiscal year 1999 budget plan?
    Navy Answer. The Quadrennial Defense Review enabled the Navy to 
increase the procurement from 24 to 30 MV-22 aircraft per year starting 
in fiscal year 2004. The goal of the Marine Corps has always been a 
procurement rate of 36 Ospreys per year but this is not achievable due 
to fiscal constraints. In the May 1996 DoD report to Congress on the 
implementation of the Defense Science Board recommendations (including 
options for more efficient V-22 production rates (36 per year)), the 
report states:
    ``Given fiscal realities, the Department would find it difficult to 
program the additional $4 billion to $5 billion (then-year dollars) 
through Fiscal Year 2001 to achieve comparable budget reductions which 
would not begin to accrue until at least ten years hence.''

                   Helicopter Modernization Programs

    Question. The Marine Corps developed a ``Rotary Wing Modernization 
Plan'' as a guideline to modernize its current helicopter fleet which 
was fielded in the mid-1980's.
    General Krulak, during last year's acquisition hearing, we were 
told that the Marine Corps is concerned with the pace of the helicopter 
modernization program.
    <bullet> Does the fiscal year 1999 budget accelerate the helicopter 
modernization plan?
    <bullet> If so, which programs were accelerated?
    Marine Corps Answer. No aircraft were accelerated in fiscal year 
1999. However, the Quadrennial Defense Review (QDR) increased the MV-22 
program by 11 aircraft within the FYDP accompanying this budget. The 
first year of this increase is in fiscal year 2000 when we will procure 
10 MV-22's vice 8 aircraft as previously planned.
    The CH-53D, which provides heavy assault support, will be replaced 
by the V-22. Based on the current Marine Corps budget, it will take 29 
years to replace the CH-53D. Last year, we were told that based on an 
estimated fatigue life of 10,000 hours, CH-53's will reach their 
fatigue life limit in fiscal year 2000.
    Question. The Marine Corps was planning a ``service life assessment 
program'' (SLAP) for the CH-53D. What is a ``service life assessment 
program?''
    Marine Corps Answer. The SLAP is a two year effort to develop usage 
and fatigue life profiles, complete with analytical evaluations of 
airframe dynamic interfaces leading to design recommendations.
    Question. Has the SLAP been completed?
    Marine Corps Answer. No. The first year of funding begins in fiscal 
year 1999 and completes in fiscal year 2000.
    Question. If not, when will the SLAP be completed?
    Marine Corps Answer. The SLAP report is due in fiscal year 2001.
    Question. If the SLAP was conducted, what were the findings?
    Marine Corps Answer. Not applicable.
    Question. Does your budget funds to implement the SLAP 
recommendations? If so, in what fiscal years and for what amount?
    Marine Corps Answer. No.
    Question. Since the CH-53D will reach its fatigue life limit next 
year, what plans do you have to ensure that the aircraft remains 
operable?
    Marine Corps Answer. We anticipate that a very small population of 
the total number of CH-53D airframes will reach the HONA generated 
estimated 10,000 hour service life limit in fiscal year 2000. The CH-
53D SLAP will identify and quantify those known/unknown risk areas 
within the airframe structure that have been adversely affected by the 
weapons systems' 25 year service life. Once those areas have been 
identified, then a Service Life Extension Program (SLEP) can be costed, 
developed and funds programmed.
    Question. Accelerating the procurement of the V-22 could avoid a 
service life extension program. If the V-22 program is not accelerated 
and a service life extension program is required, what is the 
anticipated cost of the program?
    Marine Corps Answer. The results of the SLAP will define the 
composition of a SLEP kit. Based on preliminary SLAP reports a 
budgetary estimate for SLEP will be developed.

    [Clerk's note.--End of questions submitted by Mr. Young. 
Questions submitted by Mr. Cunningham and the answers thereto 
follow:]

                            T-ADC(X) Program

    Question. What is your confidence level that the T-ADC(X) program 
will survive as an SCN program?
    Navy Answer. The preferred strategy to acquire T-ADC(X) is through 
a charter and build program. Under charter and build, the Navy will 
enter into an agreement to charter (25 year lease) with a private 
sector contractor and, on vessel delivery, the charter becomes 
effective. Currently, the Navy is working with QSD and OMB to discuss 
scoring and budget authority aspects of the charter and build approach. 
The three ships in the SCN account in fiscal years 2002 and 2003 allow 
the Navy to continue exploring this alternative while ensuring the 
needed CLF replacement program starts.
    Question. If money is available to be appropriated, would you 
support this money being put into the Sealift fund and used to pay 
capital lease payments for the T-ADC(X)?
    Navy Answer. No. The Department has not yet evaluated the use of 
the sealift fund for the procurement of a combat logistics force ship. 
Additionally, the Department does not currently endorse acquiring these 
ships using a capital lease.
    Question. If money is not available, do you support changing the 
scoring rules to allow Charter and Build authority to be used?
    Navy Answer. The Navy is reviewing alternatives to the traditional 
SCN procurement. During the POM process, we will determine if changes 
to scoring rules are necessary to the Charter and Build proposal.

                         Combat Logistics Force

    Question. Can you describe the Combat Logistics Force (CLF) fleet 
of the future?
    Navy Answer. The CLF fleet of the future will have 13-15 TAOs, 10-
12 T-ADC (X), 4 AOE/TAOE-6, and 5-7 Ready Reserve Force (RRF) Modular 
Cargo Delivery System (MCDS) Ships in a Reduced Operating Status (ROS).
    Question. What is the comparative cost (O&M) between the proposed 
fleet (to include the lease cost of at least 10 new T-ADC (X) ships) 
and the current fleet?
    Navy Answer. The President's Budget has approximately $894 million 
per year (in fiscal year 1997 constant dollars) to operate the current 
Combat Logistics Force (CLF) Assuming a CLF of 13 T-AO's 4 AOE-6's, and 
10T-ADC (X), with the T-ADC (X)'s being acquired through a Charter & 
Build operating lease agreement, the O&M requirement will be 
approximately the same in fiscal year 2010. Of this amount, $220 
million would be required for the T-ADC (X) lease.
    Question. What other actions need to be taken to achieve the new 
CLF fleet structure?
    Navy Answer. The current AOE-1, TAFS and TAE classes of CLF ships 
will be decommissioned/deactivated and replaced by the T-ADC (X).

                            Industrial Base

    Question. Currently, Boeing and Lockheed are developing Joint 
Strike Fighters (JSF) demonstration aircraft for a ``fly-off''. Down 
selection is scheduled for fiscal year 2001; low rate initial 
production will begin in fiscal year 2007, with full rate production in 
fiscal year 2011. It is expected that by 2010, the JSF will be the only 
tactical aircraft in production. By 2010, production of the F-22 and F/
A-18E/F will have stopped leaving the JSF as the only tactical aircraft 
in production for 10-15, perhaps 20 years. What are the implications to 
our industrial base if only one U.S. company is producing tactical 
aircraft? Do we risk the danger of losing innovation, increasing cost, 
and missing efficiencies by down selecting to only one prime TACAIR 
producer?
    Navy Answer. This is a critical issue that will be addressed as we 
develop our final acquisition strategy. We will continue to assess the 
implications as we proceed toward 2001. Taking more than one contractor 
through a full Engineering and Manufacturing Development phase would be 
cost prohibitive. Over the next 18 to 24 months these risks will be 
evaluated and deliberated within the Department of Defense until the 
strategy is finalized.
    However, there are numerous cooperative activities. For example, 
Northrop-Grumman's center fuselage production on Boeing's F/A-18E/F 
represents nearly 48 percent of the aircraft's total cost. 
Additionally, Lockheed Martin and Boeing, the two largest U.S. military 
contractors, have signed an agreement to govern their business 
relationships. This agreement provides for non-discrimination in buying 
and selling components between the two companies. It also protects each 
companies' ability to compete and have access to the latest 
technologies. These types of contractual arrangements will continue to 
provide ample opportunity for development efforts, secure and 
strengthen the national aircraft industrial base and benefit the 
Department of Defense.

    [Clerk's note.--End of question submitted by Mr. 
Cunningham. Questions submitted by Mr. Dicks and the answers 
thereto follow:]

                           F/A-18E/F Aircraft

    Question. The Navy has requested $3.2 billion for the F-18E/F for 
continued RDT&E and for the purchase of 30 aircraft, which I strongly 
support. I have been briefed on the ``wing drop'' issue and am 
convinced that the Navy is very close to developing a fix to this 
problem that will not impact the cost or schedule of the program. I 
commend the Navy leadership for their diligence and forthrightness in 
this matter.
    The Navy has been experimenting with three or four different fixes 
to the ``wingdrop'' problem. Has a decision been made as to which one 
will be incorporated on the aircraft?
    Navy Answer. Extensive testing of the various solutions to wingdrop 
indicate that the porous wing fold panel is the solution which has the 
minimum impact in the areas of range, drag and radar cross section. The 
Blue Ribbon Panel concurred with this solution. In the process of 
testing the porous panel solution in all configurations, buffet was 
detected in one particular configuration. Although the buffet is a well 
understood phenomena which is much less technically challenging than 
wing drop, we are continuing to refine the porous faring to optimize 
performance.
    Question. When will the flight test with the incorporated fix be 
completed and ready for evaluation by the blue ribbon panel that was 
formulated to provide oversight on this matter?
    Navy Answer. The Integrated Test Team has been working hard to 
solidify the wing drop fix. Flight testing is expected in late March. 
We are keeping the Blue Ribbon Panel advised of our progress.
    Question. Am I correct in understanding that whatever solution to 
the ``wing drop'' problem is adopted, there will be no impact on the 
signature of the aircraft?
    Navy Answer. The solutions being tested to correct wing drop have 
negligible impact on the overall radar signature of the aircraft.
    Question. GAO has alleged that, in addition to the ``wingdrop'' 
problem, the aircraft is faced with other problems including, 
signature, cost, engine capability and the ability of the aircraft to 
properly dispense munitions. I have seen nothing in the briefings I 
have received to substantiate any of the GAO claims. In your judgment, 
is there any validity to these charges? Could you discuss these 
assertions with the subcommittee?
    Navy Answer. The GAO report discusses six specific deficiencies 
(wing drop, new technologies, engine challenges, weapons separation, 
horizontal stabilator and vertical tail), and addresses program funding 
and cost in light of Quadrennial Defense Review reductions from 1,000 
to a minimum of 548 aircraft. Of the six areas, three (new 
technologies, weapons separation and vertical tail) are considered 
fixed or closed. The other three items are works in progress, with 
solid plans in place which will allow them to be closed in relatively 
short order. The report contains some misstatements and factual errors, 
and the overall tone and connotation are negative. The report makes no 
effort to recognize that deficiency identification and correction is 
the primary purpose of the Engineering and Manufacturing Development 
effort, or that the E/F program is a success by any measure as compared 
to past programs.

                   Joint Strike Fighter (JSF) Program

    Question. Can you give the Committee a general overview on the 
status of the JSF program? As you know, the budget includes $919 
million for continued RDT&E on the JSF program--of which $463 million 
is Navy money. I believe that this program is critical to all three 
services but that the Navy in particular must have this aircraft so 
that we can deploy a stealthy aircraft off of our Carrier decks.
    Navy Answer. The program is proceeding on schedule and on cost. The 
Joint Strike Fighter Program will develop and field an affordable, 
highly common family of next-generation multi-role strike aircraft for 
the United States Navy, Air Force, Marine Corps and our allies. The 
cornerstone of the JSF Program is affordability--reducing the 
development cost, production cost, and cost of ownership of the JSF 
family of aircraft. In November 1996, JSF commenced a multiyear $2.2 
billion competitive Concept Demonstration Program with Boeing, Lockheed 
Martin, and Pratt and Whitney. In parallel, requirements are being 
evolved between now and 2000 and include cost and operational 
performance trades aimed at meeting warfighters' needs at the lowest 
cost. Critical technology maturation demonstrations are proceeding on 
schedule to lower risk in Engineering and Manufacturing Development 
(E&MD) and reduce life cycle cost. The Services Joint Operational 
Requirements Document (JORD) will be complete in fiscal year 2000. 
Milestone 11 and E&MD start is planned in 2001. Delivery of initial 
operational aircraft is planned in 2008.
    Marine Corps Answer. The program is proceeding on schedule and on 
cost at this time. The Joint Strike Fighter Program will develop and 
field an affordable, highly common family of next-generation multi-role 
strike aircraft for the United States Navy, Air Force, Marine Corps and 
allies. The cornerstone of the JSF Program is affordability--reducing 
the development cost, production cost, and cost of ownership of the JSF 
family of aircraft. In November 1996 JSF commenced a multiyear $2.2 
billion competitive Concept Demonstration Program (CDP) with Boeing, 
Lockheed Martin, and Pratt and Whitney. In parallel, requirements are 
being evolved between now and fiscal year 2000 and include cost and 
operational performance trades (COPT) aimed at meeting warfighters' 
needs at the lowest cost. Critical technology maturation demonstrations 
are proceeding on schedule to lower risk in E&MD and reduce life cycle 
cost. The Services Joint Operational Requirements Document (JORD) will 
complete in fiscal year 2000. Milestone II and E&MD start is planned in 
2001. Delivery of initial operational aircraft is planned in 2008.
    Question. Do the Navy and Marine Corps still view JSF as one of its 
top modernization priorities?
    Navy Answer. The Navy and Marine Corps are fully committed to the 
JSF. It is the Marine Corps' top TACAIR modernization program and will 
replace all of the Corps AV-8Bs and F/A-18 C/Ds. Initial Operational 
Capability (IOC) for the Short Take-off Vertical Landing variant is 
planned in 2010 with IOC for the CV variant to follow.
    Marine Corps Answer. The Marine Corps is fully committed to the 
JSF. It is the Marine Corps' top TACAIR modernization program and will 
replace all of our AV-8Bs and F/A-18 A/B/C/Ds. IOC for the STOVL 
variant is planned in fiscal year 2010.
    Question. Is there still a commitment on the part of the Navy, 
Marine Corps and AF to jointly develop and manufacture JSF?
    Navy Answer. Yes. Joint development and manufacturing of the JSF is 
imperative to an affordable weapon system platform that will meet the 
needs of the warfighters.
    Marine Corps Answer. Yes. Joint development and manufacturing of 
the JSF is imperative to an affordable weapon system platform that will 
meet the needs of the warfighters.

                           Trident Submarines

    Question. Last year, the Senate attempted to eliminate the missile 
and backfit money on the D-5 program. Thanks to a strong cooperative 
effort between the subcommittee and the Navy and Joint Staff, we were 
able to minimize the Trident-related reduction. Does the Navy remain 
fully committed to the Trident program?
    Navy Answer. The Navy is fully committed to all aspects of the 
Trident program. Assuming ratification of START II by the Russian Duma, 
14 D-5 Trident SSBNs in two oceans are required to assure the safety, 
security and survivability of the force. With the recent service life 
extension of the Trident submarine from 30 to 42 years, the Trident 
SSBN will remain the most survivable leg of the strategic triad into 
the 2030's.
    Question. Assuming that we will end up with 14 as the Nuclear 
Posture Review (NPR) recommends, is it still the plan to have a 7-7 
basing split between Bangor and Kings Bay?
    Navy Answer. The NPR recommended a 14 D-5 Trident fleet in two 
oceans upon ratification of START II. An examination and evaluation of 
targeting requirements, based on Presidential Decision Directive (PDD), 
issued in November 1997 is being conducted by CINCSTRAT. This review is 
expected to be completed by the Summer of 1998. The matter is also 
under review within the Navy, and when these reviews are complete an 
official decision on force distribution will be made.
    Question. As you know, the plan as it relates to Trident has been 
to move toward a 14 boat fleet but to maintain a hedge of 18 boats 
pending Duma ratification of the START II. As you know, despite strong 
efforts on the part of President Yeltsin and Prime Minister Primakov, 
the Duma has not moved to ratify the Treaty.
    I understand we are nearing the point where we can no longer 
continue to sustain the hedge of 18 boats with low-level funding and 
that a final decision must be made on the ultimate Trident fleet 
composition. I am told that if we decide to maintain 18 boats, it will 
come to a cost of $6-$8B.
    Do you have an exact cost-estimate of maintaining 18 boats?
    Navy Answer. Rough order of magnitude costs have been developed for 
the execution of an 18 D-5 Trident force. Depending on when the 
decision was made to execute the program, approximately $5-$7 billion 
in additional funds across the Future Years Defense Plan (FYDP) (2000-
2005) would be required. These additional funds above the program of 
record would be required for four additional refueling overhauls and D-
5 backfits, as well as additional D-5 missiles to outfit the four extra 
SSBNs.
    Question. What is the exact point where a decision must be made on 
this issue? Can we sustain a hedge of 18 boats in next years budget 
with low-level funding or does Fiscal Year 2000 constitute the first 
stage of a substantial funding ramp for the four additional boats?
    Navy Answer. Maintaining this year-by-year ``hedge'' option is only 
possible until fiscal year 2002. Beyond that a decision must be made to 
either refuel or remove the four Trident SSBNs from strategic service. 
The costs for maintaining the option for an 18 D-5 Trident force beyond 
fiscal year 1999 are not programmed, pending a recommendation for START 
I force structure by the OSD/Joint Staff co-chaired START I Task Force. 
For fiscal year 2000, the estimated costs are as high as $683 million 
above the current program, and for fiscal year 2001, the hedge option 
costs up to $960 million. These funds would only maintain the option 
for 18 D-5 Tridents, not execute an 18 D-5 Trident program. An 18 D-5 
Trident SSBN force would cost between $5 and $7 billion in additional 
funds across the Future Years Defense Plan, depending on when a 
decision was made to execute the program.
    The START I Task Force is presently examining both costs and 
alternative force structures in the event START II is not ratified. The 
Secretary of Defense will make a full report on the Task Force findings 
to Congress in April 1998.

                       Trident Conversion (SSGN)

    Question. Since the collapse of the Soviet Union, the Navy has 
reoriented its strategy and forces to place much greater emphasis on 
littoral warfare--recognizing that most conflicts of the future in 
which US forces might be engaged would probably occur near coastal 
areas. A major challenge in implementing this vision of the Navy's 
future roles and missions is that much of the current fleet was 
designed primarily for operations in open seas. The initiation of the 
Arsenal Ship program, which was not funded this year, was in large part 
an effort to develop assets that could operate in this new environment.
    I have always believed that, assuming we go forward with the NPR 
recommendation of a 14 boat Trident fleet, converting the remaining 4 
Trident platforms to perform Arsenal ship-like missions made a great 
deal of sense. Converted Tridents would give the Navy--at a relatively 
low cost and short period of time--several highly survivable platforms 
capable of carrying as many Tomahawk cruise missiles as an entire 
carrier-battle group.
    I understand that while the Navy has not put any money behind a 
Trident conversion program to this point, it is something being widely 
discussed.
    Can you give the subcommittee your general opinion on the Trident 
conversion idea?
    Navy Answer. The Navy is continuing to consider the TRIDENT 
conversion (SSGN) concept. The four oldest Trident SSGNs are currently 
planned for removal from strategic service, two in fiscal year 2002 and 
two in fiscal year 2003. Absent either the requirement to utilize these 
ships in continuation of their strategic role or a program to convert 
them to a tactical role, the Navy will decommission them.
    Question. What is the status of discussions on this program within 
the Navy?
    Navy Answer. Current congressional language prohibits removal of 
any of the 18 TRIDENT SSBNs from strategic service prior to START II 
ratification. The Trident conversion (SSGN) is still a concept and not 
yet a program. No funds have been applied to it in the fiscal year 1999 
budget, but the Navy continues to evaluate the concept.
    Question. Are there any cost-estimates for converting the four 
boats to perform Arsenal Ship-like missions?
    Navy Answer. Conversion costs are currently estimated to be 
approximately $400 million per ship (includes the refueling overhaul 
required for 20 additional years of service life), with a one time 
initial design cost of approximately $170 million.

                             V-22 Aircraft

    Question. As you all know, I have been and continue to be a strong 
supporter of the V-22 program. However, I understand that there has 
been about a $130 million cost-overrun in the program and that the 
program is several months behind schedule on its test program. This 
concerns me because I recognize how critical this revolutionary 
aircraft is to the Marine Corps.
    Can you explain the nature of the cost overruns?
    Navy Answer. The increased completion cost of Engineering 
Manufacturing and Development (EMD) is attributable to the late 
delivery of four EMD aircraft.
    Question. What is the impact of the delay on the test program?
    Navy Answer. The EMD aircraft delivery delays caused the test 
program plan to be revised. All major scheduled milestones are within 
Acquisition Program Baseline (APB) thresholds. The MV-22 Milestone III 
decision and CV-22 remanufacture schedule are unchanged.
    Question. Do you view the cost and schedule programs as an isolated 
one-time incident that can be easily addressed or should we expect 
further hiccups with this program in the future?
    Navy Answer. The cost-overrun represents less than a 5% cost 
increase within the overall cost of the program. This increase is fully 
funded in the fiscal year 1999 President's Budget. There is a very low 
probability of any further cost increases. However, any fiscal year 99 
taxes applied to the program will result in funding shortfalls and 
potential restructuring or program slippage.
    Marine Corps Answer. The increased completion cost of Engineering 
Manufacturing and Development (EMD) is attributable to the late 
delivery of four EMD aircraft.
    The EMD aircraft delivery delays caused the test program to be 
replanned. All major schedule milestones are within Acquisition Program 
Baseline (APB) thresholds. The MV-22 Milestone III decision and CV-22 
remanufacture schedule is unchanged.
    The cost-overrun represents less than a 5 percent cost increase 
within the overall cost of the program. This increase is fully funded 
in the fiscal year 1999 President's Budget. There is a very low 
probability of any further cost increases. However, any fiscal year 
1999 taxes applied to the program will result in funding shortfalls and 
potential restructuring or program slippage.

                   Navy Area and Theater-Wide Systems

    Question. One of the real concerns that I have had over the past 
couple of years is the pace at which we are developing a credible 
Theater Missile Defense (TMD) capability. I have been strongly 
supportive of all TMD systems including the Navy Area and Navy Theater 
Wide systems which I know are of critical importance to the Navy. 
However, I am still concerned that we are not developing and deploying 
these systems quick enough.
    What is the projected IOC for the Navy Area TBMD System and the 
Theater-Wide TBMD System?
    Navy Answer. At currently programmed funding levels, the Area 
system will provide an initial capability with two ``Linebacker'' ships 
in 1999 with the objective tactical IOC in 2001.
    At currently programmed funding levels, the Navy Theater-Wide 
system is planning for an IOC for Block I in fiscal year 2006 and Block 
II in fiscal year 2009.
    Question. Is it possible from a technical standpoint to accelerate 
development and deployment of either of these programs?
    Navy Answer. AREA: The Area program is funded to support initial 
``Linebacker'' capability on two ships in late 1999, and full 
operational capability in 2001. The development/test schedule leading 
to IOC is aggressive with little possibility of overall acceleration. 
THEATER WIDE: In an effort to find alternatives to deploy Navy TBMD 
sooner than the current plan, the Secretary of the Navy and the Chief 
of Naval Operations initiated a Comprehensive Program Review (CPR) of 
Navy TBMD. The CPR became the basis for a complete evaluation of the 
most appropriate programmatic and technical steps needed to deploy Navy 
TBMD sooner. As part of this process, the Navy reallocated more than $1 
billion across the future years defense program to speed introduction 
of Area TBMD and the Cooperative Engagement Capability (CEC) in 
destroyers and cruisers, and Area Air Defense Commander (AADC) 
capability in 12 Aegis cruisers. The Navy has initiated a cruiser 
conversion program in part to prepare these ships to receive NTW 
capability at a rapid pace.
    In the fiscal year 1998 Defense Authorization Act, Congress 
directed the Secretary of Defense to report the ``earliest technically 
feasible deployment date'' of NTW. The earliest technically feasible 
deployment date for NTW was assessed by the Navy during the CPR, and 
again as a result of the Congressional direction, as a Block I 
capability in 2002 with a follow on NTW Block II capability in 2005/
2006. It is important to note, however, that a deployment in 2002 would 
be an extremely high risk venture. A more moderate risk program costing 
considerably less would yield a deployment in 2003 or 2004.
    Question. What would be the costs of accelerating one or both of 
these programs?
    Navy Answer. AREA: Little possibility of overall acceleration. 
THEATER WIDE: The estimated additional funding to accomplish the 
``earliest technically feasible deployment date'' for NTW is:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                     FY99         FY00         FY01         FY02         FY03
----------------------------------------------------------------------------------------------------------------
PB.............................................          192          191          191          145          149
Delta..........................................          250          209          198          410          323
                                                ----------------------------------------------------------------
      Total....................................          442          400          389          555          472
----------------------------------------------------------------------------------------------------------------

    To achieve NTW deployment starting in 2002, a decision to proceed 
with long-lead missile hardware procurement and the commencement of 
Aegis computer program development for NTW Block I would have to be 
made in 1999 to support commencement of formal testing in 2001. This 
funding profile also allows completion of risk reduction activities 
earlier in the program and in parallel with Block I development.
    A more measured approach for earlier deployment of NTW, with less 
risk, has been developed. This option differs from the earliest 
technically feasible approach by waiting to add funding to the program 
to procure Block I test missiles until after a successful Aegis-LEAP 
Intercept in 2000. This approach accelerates Block I related risk 
reduction activities and begins necessary systems engineering 
permitting more rapid deployment. This measured approach preserves the 
ability to deploy an NTW Block I capability in fiscal year 2003 with 
the following estimated funding:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                     FY99         FY00         FY01         FY02         FY03
----------------------------------------------------------------------------------------------------------------
PB.............................................          192          191          191          145          149
Delta..........................................          135          165          125           50           50
                                                ----------------------------------------------------------------
      Total....................................          327          356          316          195          199
----------------------------------------------------------------------------------------------------------------

    Following successful completion of the Aegis-LEAP Intercept (ALI) 
Program, a decision would be required to add additional funding to 
support the fiscal year 2003 first deployment.
    Question. Would there be technical risks to acceleration of one or 
both of these systems?
    Navy Answer. The Area program is funded to support initial 
``Linebacker'' capability on two ships in late 1999, and full 
operational capability in 2001. The development/test schedule leading 
to Initial Operating Capability (IOC) is aggressive with little 
possibility of overall acceleration. The ``earliest technically 
feasible'' program for NTW would add significant technical risk to the 
program by executing parallel systems engineering and development of 
the Block I system. The ``measured'' approach for NTW was designed to 
lessen technical risk by requiring completion of Block I risk reduction 
and completion of the Aegis-LEAP Intercept (ALI) program prior to 
making the NTW Block I procurement decision.

             Rapid Airborne Mine Clearance System (RAMICS)

    Question. Can you provide the Committee your general impression of 
the RAMICS program? In your testimony, you mention the Rapid Airborne 
Mine Clearance System (RAMICS) as one potentially effective way to 
modernize your Mine Countermeasure Forces. As you know, I have been an 
active proponent of this program. In fact, this subcommittee has added 
over $16 million over the past four years to develop RAMICS. I am 
pleased to note that the Navy has selected this program for a three 
year ATD project.
    Navy Answer. RAMICS, a laser targeting gun projectile system, has 
the potential to provide our battle groups and organic capability to 
rapidly neutralize near-surface moored contact mines. Current 
operational procedure requires mines to first be marked and then 
neutralized, either by Explosive Ordnance Disposal divers or by 
neutralization vehicles deployed from dedicated Mine Countermeasure 
ships.
    Question. What is the status of the ATD?
    Navy Answer. RAMICS is in the first year of the three year Advanced 
Technology Demonstration (ATD) project. Navy has assembled a team which 
includes Raytheon, CTECH, Kaman Aerospace, and General Dynamics, to 
execute the RAMICS ATD. Year one ATD goals include the development of a 
RAMICS anti-mine munitions and the demonstration of lethality.
    Question. Do you believe this program will transition to an 
acquisition program after completion of the ATD assuming the program 
continues to perform well?
    Navy Answer. Yes. RAMICS is one of five systems that Navy has 
identified to provide an organic mine countermeasures capability on the 
next generation H-60 platform. The other systems that will constitute 
this capability are the Airborne Laser Mine Detection System (ALMDS), 
the AQS-20/X, the Airborne Mine Neutralization System (AMNS), and the 
Shallow Water Influence Minesweep System (SWIMS). By combining the 
potential neutralization capabilities of RAMICS with the search 
capabilities of ALMDS, Navy will have the organic capability to detect 
and neutralize rapidly near surface contact mines.

         Joint Surveillance Target Attack Radar System (JSTARS)

    Question. I understand that the Navy and Marine Corps employed 
Joint STARS during Fleet Battle Experiment Alpha, the Hunter Warrior 
Exercise and in an amphibious landing exercise in Korea last November.
    Could you comment on the utility of JSTARS for Navy and Marine 
Corps operations?
    Navy Answer. Hunter Warrior/Fleet Battle Experiment ALFA (FBE A) 
was held in the Southern California operating area from March 3-13, 
1997 under direction of Commander Third Fleet (COMTHIRDFLT) as 
Executive Agent for the Chief of Naval Operations. FBE A demonstrated 
command and control for a sea-based Joint Task Force commander 
supporting dispersed Marine assault units ashore. This included 
evaluation of emerging Naval Surface Fire Support (NSFS) techniques and 
advanced munitions concepts. The Joint Surveillance Target Attack Radar 
System (JSTARS) aircraft linked target detection, identification, 
tracking and battlespace imagery feeds to COMTHIRDFLT onboard USS 
CORONADO via an afloat Deployable Ground Support System in support of 
NSFS and air attack missions. COMTHIRDFLT initiated numerous fire 
missions based upon the rapid turnaround of comprehensive targeting 
data provided by JSTARS.
    The utility of JSTARS demonstrated during FBE A far exceeded our 
expectations. For the first time ever, JSTARS Moving Target Indicator 
(MTI) and Synthetic Aperture Radar (SAR) images were transmitted 
``live'' to a ship at sea. The ship then used this data to 
electronically transmit calls for fire to a firing ship. In less than 
ten minutes from the receipt of the JSTARS data to the first ship, the 
firing ship put ordnance on target from over 100 nautical miles away. 
Utilization of JSTARS has far reaching tactical implications because it 
gives us the capability to provide direct fire support to the Sailor or 
Marine on the beach or further inland. It will be one of the systems 
which will help make the sensor-to-shooter concept a reality.
    Marine Corps Answer. Yes, we have incorporated Joint Surveillance 
Target Attack Radar System (Joint STARS) during the Marine Corps 
Warfighting Experiment (Hunter Warrior), Fleet Battle Exercise ``B'', 
ASCIET 97 and Exercise Foal Eagle (Korea) 97. During these exercises, 
Joint STARS was used for the surveillance and rapid targeting of 
opposing forces. It demonstrated the capability to provide near and 
deep, wide area surveillance of the battle area, target detection and 
tracking. Joint STARS and its battle management capabilities provide 
the surveillance, detection, tracking and targeting required to support 
key operational concepts called for in Forward from the Sea, 
Operational Maneuver from the Sea (OMFTS) and Ship to Objective 
Maneuver (STOM). Joint STARS are currently being considered as 
potential operational assets to be utilized during exercises Fleet 
Battle Experiment ``C'' & ``E'', RIMPAC 98, Urban Warrior and Kernal 
Blitz.
    As the Marine Corps learned during Operation Desert Storm, Joint 
STARS can significantly contribute to advancing the situational 
awareness of commanders afloat and ashore. If available, a Joint STARS 
capability will enhance the Marine Air-Ground Task Force (MAGTF) 
Commander's ability to plan and develop the tactical situation in his 
area of operations. Potential uses and methods will include:
    --Using its organic wide-area Moving Target Indicator and Synthetic 
Aperture Radar, Joint STARS will be able to provide an afloat MAGTF 
operating over-the-horizon with information on the changing situation 
ashore for preliminary mission planning and for cross-cueing of other 
information collectors.
    --As courses-of-action are refined, Joint STARS will continuously 
update the MAGTF Commander's near-real-time target data for the optimum 
employment of supporting arms.
    --While projecting forces ashore, Joint STARS will be used to 
maintain the commander's situational awareness by contributing to the 
existing common tactical picture.
    --In a post-strike environment, Joint STARS data will be used to 
assist in battle damage assessment and could also be used to support 
target re-attack.
    Currently, Marine Expeditionary Forces will receive Joint STARS 
data directly from the E-8C Joint STARS aircraft via a dedicated link 
and Common Ground Station. The Marine Corps' ultimate goal for 
utilizing Joint STARS data is a capability designed within Defense 
Information Infrastructure Common Operating Environment (DII COE) 
parameters that is flexible enough to use across operational units 
without being constrained by unique hardware and system configuration 
dependencies. Additionally, units from the Marine Expeditionary Force 
and down to and including the regiment/group level must be able to 
receive, process and store the data for operational use.

    [Clerk's note.--End of questions submitted by Mr. Dicks. 
Questions submitted by Mr. Visclosky and the answers thereto 
follow:]

                            Napalm Disposal

    Question. The Navy has been criticized by Illinois and Indiana 
residents about the Navy's failure to inform the public about the 
planned shipment of napalm from California to Indiana. The Navy has 
responded that it did not have a legal requirement to inform the 
public. Notwithstanding the wisdom of the law in this case, doesn't the 
Navy have a moral responsibility to inform the public of hazardous 
waste shipments through their communities?
    Navy Answer. The Navy does have a responsibility to inform the 
public when there is a unique or potentially dangerous situation 
pertaining to hazardous waste shipments through their communities. In 
this case, there is an extremely low risk posed to the public by the 
shipment of napalm compared to materials and wastes routinely shipped 
via rail in the normal day to day commerce of the country. In 
comparison, while napalm burns extremely hot, it is much harder to 
ignite than gasoline and it will not explode like propane. Gasoline and 
propane are shipped every day throughout the country. The Department of 
Transportation regulates how and what can be shipped on the railroads. 
The Navy will follow these rules for the transport of the napalm.
    Moreover, the hazardous waste permitting process allows PCI to 
accept only those wastes specifically authorized by the Indiana 
Department of Environmental Management. The napalm constituents are 
among the authorized waste streams. The permitting process included 
extensive public participation and facility siting requirements. Only 
after checking with the regulatory agencies to ensure that PCI was 
properly permitted did the Navy proceed with the plan to ship the 
napalm to PCI.
    The Navy notified the public in a series of information meetings in 
the Illinois and Indiana area as well as with press releases.
    Question. Why is it more cost effective to send this waste across 
the country rather than blending it on site at Fallbrook? How is the 
Navy's plan to dispose of napalm different from how the Army has been 
disposing of its chemical weapons inventory? It is my understanding 
that the Army is constructing cradle-to-grave disposal facilities at 
each of its eight chemical weapons storage facilities. The Army is not 
shipping any of its dangerous material outside of its current 
locations. Why didn't the Navy follow this model and course of action? 
What kind of public relations activity did the Army do prior to the 
start of their disposal efforts and how is that different from what the 
Navy has done?
    Navy Answer. The Navy believes that it is more cost-effective, even 
when you add transportation costs, to ship napalm to a facility which 
has already been constructed and has already obtained permits than it 
is to construct and permit wholly new blending facilities onsite. The 
gel-like nature of napalm requires that it be blended with other more 
fluid materials, such as those routinely received by permitted blending 
facilities. If the Navy were to blend onsite, it would have to incur 
the expenses of purchasing blending materials and constructing the 
blending facility. Moreover, transportation costs would still be 
incurred because the blended material would have to be shipped to a 
permitted facility for use as an alternative fuel.
    There is no civilian industry to recycle chemical munitions; unlike 
Napalm, chemical munitions can not be burned in industrial incinerators 
and there is no recycled market value. The Army consequently 
constructed special facilities to dispose of unique chemical weapons.
    The Army program involves a very complicated, multiple factor means 
of demilitarization encompassing all aspects of the munitions (e.g. 
propellants, motors, explosives, hardened non-detachable containers as 
well as highly toxic chemical/nerve agents, etc.) since these munitions 
do not have disposal streams in civilian industry. The constituents of 
napalm on the other hand, as well as the Napalm metallic canisters, 
have similarities with other common industrial hazardous waste 
materials, and industry-recycling processes therefor, exist.
    Navy's public relation plan for the Napalm disposal effort included 
a series of public information meetings in the Illinois and Indiana 
areas, as well as numerous press releases. Information on the Army's 
public affairs program for chemical weapons should be requested from 
the Department of the Army Public Affairs.
    Question. I have been a supporter of this project since I first 
became aware of it. I have, however, also been pressing Navy officials 
about improving on their poor public relations campaign on this issue 
since early December. The simple fact is that the real perception among 
citizens in my communities is that the Navy is dumping napalm on them. 
The Navy counters these perceptions with dense technical documents that 
have done nothing to alleviate the very real fears of the residents of 
East Chicago, a large portion of whom are minorities. Many of my 
constituents have raised the issue of environmental racism regarding 
this project. Instead of the Navy responding to this serious 
allegation, Navy attorneys released a two-paragraph legal statement 
announcing that the Navy was not legally required to examine the issue 
of environmental racism and had no intention of doing so. The citizens 
I represent in Northwest Indiana were not pleased with that answer. 
Does the Navy intend to reexamine the issue of environmental racism 
regarding this project, and do you think your subordinates handled the 
issue with appropriate sensitivity and common sense then it was raised?
    Navy Answer. Executive Order 12898 requires each federal agency to 
identify and address, as appropriate, disproportionately high and 
adverse human health or environmental effects of programs and policies 
on minority populations and low-income populations as a means of making 
environmental justice part of its mission. On March 24, 1995, the 
Department of Defense (DoD) issued to the military departments its 
Strategy on Environmental Justice, which focused on ensuring a healthy 
and safe environment around DoD installations located near minority and 
low-income populations. With regard to CERCLA actions, the DoD strategy 
integrates environmental justice considerations through the community 
relations plan and the Restoration Advisory Board (RAB), both of which 
are used to provide information and receive input from the community in 
which the cleanup is being conducted.
    Neither Executive Order 12898 nor the DoD strategy applies to the 
Navy's shipment of CERCLA substances via railroad to permitted 
facilities. Rather environmental justice concerns involving 
transportation and treatment/storage/disposal (TSD) facility permitting 
fall under the purview of the cognizant regulatory agencies. The 
entities involved in the shipment and treatment and disposal of the 
napalm byproducts have valid permits evidencing regulatory agency 
review and approval.
    In any case, transportation of the materials, which complies with 
all rail safety regulations, has no predictable high and adverse effect 
on any community. Receipt and processing of the materials at PCI 
similarly presents no explosive risk, and releases of hazardous 
material into the environment will not occur in normal handling. Health 
and Safety Plans are in place to deal with spills that might occur.
    Question. Does the Navy intend to actually start answering press 
calls promptly from now on, or is it going to continue to ignore press 
calls until my office repeatedly asks that they be answered?
    Navy Answer. The Navy believes it has answered media and other 
queries promptly. The Navy endeavors to provide accurate replies to 
media inquiries.
    Question. Have any nationally recognized environmental 
organizations endorsed this method of disposal?
    Navy Answer. The Department of the Navy is unaware of other 
environmental organizations that might support this program. However, 
the United States Environmental Protection Agency (EPA) headquarters 
might be a source for such information, since EPA interfaced with many 
such organizations during the Boiler and Industrial Furnace rulemaking 
process, from which the Alternative Fuels Program evolved.
    Question. The Navy has now passed off responsibility on part of 
this project by asking the Department of Energy to examine the 
suitability of one of the contractors involved in the project, 
Pollution Control Industries (PCI), located in East Chicago, Indiana. 
This requested action does not make sense. Specifically, it is my 
understanding that once the Department of Defense certified that PCI 
was a suitable subcontractor and was approved to participate in federal 
contracts, then that action automatically requires that all other 
federal agencies recognized that certification. DOE is not supposed to 
reexamine PCI because DoD's original certification of the company is 
backed by the authority of the entire federal government, including the 
Department of Energy
    Am I generally correct in that understanding?
    Navy Answer. It is not true that the Department of Defense 
certified that PCI was a suitable subcontractor or approved their 
participation in federal contracts. The Navy is the lead federal agency 
for the removal action under the Comprehensive Environmental Response, 
Compensations and Liability Act (CERCLA) and has a statutory obligation 
to ensure that wastes transferred off-site are shipped only to 
facilities which are operating in compliance with applicable state and 
federal laws. (See CERCLA Sec. 121(d)(3)). PCI is a facility permitted 
by the Environmental Protection Agency (EPA) under the Resource 
Conservation and Recovery Act (RCRA).
    The Department of Energy has technical and contracting experience 
with disposals of this nature. For maximum efficiency and to make use 
of DOE's experience, the Navy chose to have DOE manage the contract 
using an interagency order placed under the Economy Act. The 
acquisition process utilized by the Department of Energy's contractor 
includes all acquisition and subcontracting functions. It is being 
accomplished by the Department of Energy's Pacific Northwest National 
Laboratory, operated by Battelle. A key element of the Navy's task 
order with DOE was the requirement to ensure that all applicable state 
and laws are met.
    Consistent with applicable environmental regulations and guidance, 
Battelle performed certain checks of PCI prior to award of a contract 
to ensure it was properly permitted by EPA, technically competent, and 
suitable to perform waste treatment services. These checks included an 
inspection of the proposed facility, a review of PCI's permit status 
and compliance history, and consultation with state and federal 
environmental authorities. Battelle's checks did not result in a 
``certification'' of PCI; Battelle relied on the status of the facility 
as reported by environmental regulators.
    In January and February 1998, the Department of the Navy performed 
a review of the project. Because the Department of Energy is executing 
the project on behalf of the Department of the Navy, the Department of 
the Navy's review focused primarily on the overall program management. 
The Department of the Navy's review was not intended to, nor did it 
result in a certification of PCI.
    Question. I have repeatedly asked the Navy to put in place a 
comprehensive public and media relations master plan that will see us 
through the completion of this project. Instead, the Navy continues to 
believe that a reactive posture is the best solution and that the only 
proactive action that should be taken is the establishment of an 
internet site where the public can obtain the same unhelpful 
information that has already been released. Do you agree with this 
approach to public relations?
    Navy Answer. The Navy has prepared and is executing a media 
relations plan for this project. The plan includes a website and an on-
scene outreach and communication team located in East Chicago, IN.

                           Shipbuilding Rate

    Question. Is the planned rate of shipbuilding sufficient to 
maintain a Navy of 300 ships over the long run (past 2015)?
    Navy Answer. In order to sustain a 300 ship Navy our shipbuilding 
rate must be maintained at approximately 8-10 ships per year. Within 
the fiscal year 1999-fiscal year 2003, we buy an average of 6 ships per 
year which is not sufficient over the long term to sustain a 300 ship 
force.
    Question. After what date will the Navy fall below 300 ships?
    Navy Answer. Based on current and projected ship building and 
decommissioning rates the Navy could fall below the 300 ship threshold 
as early as 2007. However, when considering the adequacy of our force 
structure, the focus should be on ensuring the required capability vice 
a specific number of ships. Modernization programs in some cases have 
enabled us to accomplish the same missions with considerably less ships 
and fewer personnel.
    Question. Why wasn't the reduction in the planned size of the Navy 
from the BUR figure of 346 ships to the new figure of 300 ships made 
explicit in the QDR?
    Navy Answer. The Quadrennial Defense Review (QDR) validated that 
the Navy's core combat capability should reside in twelve aircraft 
Carrier Battle Groups (CVBGs) and twelve Amphibious Ready Groups 
(ARGs). The total number of ships was not explicitly directed. The 
numbers of surface combatants, attack submarines, and logistic support 
ships were adjusted to match and support the core capabilities 
represented by the 12 CVBGs and 12 ARGs identified in the QDR. Based on 
the current capabilities of ships in the fleet, the total number of 
ships required to support the 12 CVBG/12 ARG centered Navy is about 300 
ships.

               Navy Size (in Ships), Current Defense Plan

1998..............................................................   333
1999..............................................................   315
2000..............................................................   314
2001..............................................................   314
2002..............................................................   308
2003..............................................................   306

                   Shipbuilding Industrial Base Study

    Question. What is the status of the joint Navy/DoD shipbuilding 
industrial base study? Wasn't this study supposed to have been done by 
November or December of last year? Why is the Navy sitting on it?
    Navy Answer. On April 7, 1997, Assistant Secretary of the Navy 
(Research, Development and Acquisition) and the Under Secretary of 
Defense (Acquisition & Technology) commissioned a Shipbuilding 
Industrial Base Study (SIBS). While the study was originally envisioned 
to be completed by November or December, the magnitude of data received 
from the shipbuilders required additional effort on the part of the 
Navy and OSD. The SIBS Working Group has completed its efforts and is 
in the process of briefing senior Navy and OSD management. Due to the 
sensitive nature of the data, it is unlikely that the results of the 
study will be made available to the public.
    Question. Can you tell us anything about the findings of the 
report? Should the government award shipbuilding contracts without 
regard to possible yard closure?
    Navy Answer. Since the study has not been officially reviewed by 
the interested Navy and DoD officials, it is premature to present 
findings. Due to the sensitive nature of the report, it is likely that 
it will not be released to the public.
    Question. What should be the government's policy about 
consolidation or mergers?
    Navy Answer. Since the study has not been officially reviewed by 
the interested Navy and DoD officials, it is premature to present 
findings or attempt to articulate the Government's position. Due to the 
sensitive nature of the report, it is likely that it will not be 
released to the public. However, the study would not have been 
successful without the involvement of the shipbuilding community. They 
were asked to participate up-front and were very cooperative.

                             DD 21 Teaming

    Question. Can you have vigorous competition after the announced DD 
21 teaming arrangement between Ingalls, Bath Iron Works, and Lockheed 
Martin? What is the Navy going to do about this? How does the Navy 
intend to prevent ``group think'' during the conceptual design phase if 
both major surface combatant yards are on the same team? Can the 
Government prevent the teaming arrangement? On the issue of prevention 
of exclusivity, what is the incentive for the first yard to break ranks 
and join up with a second team?
    Navy Answer. The original draft DD 21 request for Proposals (RFP) 
was issued in November 1997. Shortly thereafter, the proposed team of 
Ingalls, Bath Iron Works and Lockheed was announced. Raytheon expressed 
concerns about this team to the Department of the Navy and the 
Department of Defense, and then referred the matter to the Department 
of Justice for review. In order to encourage competition to the maximum 
extent, the Navy made amendments to the RFP (listed below), and issued 
a revised DD 21 Draft RFP on February 20, 1998. Major changes included:
    <bullet> Use of Section 845/804 Authority vs. the original Federal 
Acquisition Regulation (FAR)/Defense Federal Acquisition Regulation 
Supplement (DFARS) RFP.
    <bullet> Prohibition against industry entering into exclusive 
teaming arrangements.
    <bullet> Provisions to allow industry to propose competition at the 
system and subsystem level if only a single bid is received.
    <bullet> Additional funds allocated to industry in Phase I and 
Phase II (1998-2001) of the development program.
    <bullet> Additional opportunities for industry to innovate in the 
development process by removing Navy cost and schedule oversight, 
removing Navy performance specifications other than those in the Joint 
Chiefs of Staff approved Operational Requirements Document, and 
removing Navy control over the Integrated Product Teams.
    <bullet> Extended Phase I from 9 months to 12 months.
    These changes affirm the Navy's desire for a two shipyard program 
for DD 21 series production.
    All industry feedback to date is positive, including comments 
received during a day long industry brief on February 27, 1998. More 
than 200 industry and government representatives attended the RFP 
review. The Navy expects at least two bids; however, the RFP puts 
industry on notice that if only one proposal is received, the Navy has 
a right to negotiate with that offeror to explore whether that offer 
contains a sufficient level of competition. Two or more bids will 
ensure intense competition and innovation for DD 21.
    DD 21 was not conceived as a ``business as usual'' ship, and its 
development will not be executed in a ``business as usual'' manner. All 
of America's shipyards have innovative ideas that could be used in DD 
21. Some U.S. shipyards are world leaders in ship signature control, 
others have been setting new technical standards in automated design 
and construction of Navy ships, some have been able to compete in the 
commercial shipbuilding market by using advanced processes, while 
others are acknowledged leaders in ship systems integration. Any of 
these shipyards, when teamed with a capable combat systems or Command, 
Control, Communication, Computers, Intelligence Surveillance and 
Reconnaissance integrator will be able to provide the high degree of 
innovation the Navy needs to build and maintain DD 21 within its 
aggressive cost and performance envelopes.
    As always, the Department of Justice remains free at any time to 
take action against the team as it deems appropriate. The Navy 
considers it in the best interest of any given shipyard to be on as 
many DD 21 teams as possible, thus increasing the chances that the yard 
will be on the ``winning team'' that designs and builds 32 DD 21 ships 
over the next 15 years.

                              CVX Carrier

    Question. What is the Navy's inclination on the size of the ship? 
What is the Navy's inclination on the ship's propulsion?
    Answer. The Navy's preferred alternative for CV(X) being evaluated 
in the Analysis of Alternatives (AOA) is a large deck nuclear-power 
carrier. This alternative provides the greatest capability, mobility, 
flexibility and survivability of all the alternatives being analyzed in 
the CV(X) AOA. A large deck provides the Navy the greatest flexibility 
in airwing size, mix of types of aircraft or other payloads carried on 
the ship, and for operations in all types of weather. Nuclear power 
provides the carrier force added mobility, operational flexibility and 
survivability as compared to a conventional carrier. In addition, given 
that the next class of aircraft carriers will be in service throughout 
the next century, it is prudent to provide the Navy's capital ship with 
the greatest capability practicable. The ongoing CVX AOA is examining 
several design alternatives, and a final decision on CV(X) size and 
propulsion will be made after the next phase of this AOA has been 
completed and reviewed by the DoD senior leadership.
    Question. In your posture statement (page 51), you stated that the 
CVX will be a nuclear ship. Is the Navy attempting by that statement to 
prejudge the outcome of the second phase of the AOA? Do you think that 
it was appropriate to include that claim in the posture statement prior 
to a decision being made by OSD or the Congress on this issue? Do you 
agree that it is Congress that has the ultimate responsibility and 
authority to provide and maintain the Navy, to include the physical 
characteristics of U.S. military equipment?
    Navy Answer. The Navy is not prejudging the outcome of the AOA. 
However, as reflected in the Navy posture statement, the Navy has a 
preferred alternative in the AOA. All alternatives, both nuclear and 
non-nuclear, are being considered during the AOA. Each alternative will 
be evaluated as to capability provided and cost. This process is 
designed to determine which alternative provides the most cost-
effective carrier.
    Congress does have the responsibility to provide and maintain a 
Navy. Further, Congress provides oversight of the design, development, 
and construction of specific weapon systems through the annual Defense 
Authorization and Appropriation Acts. Historically, Congress has 
counted on the service's military technical and engineering expertise 
for specific design characteristics of weapons systems.
    Question. In light of the GAO report that is scheduled to be 
released in the near future, please provide information about the cost 
comparison between nuclear and conventionally powered carriers. The 
Navy does not build other surface combatants with nuclear reactors. How 
does a nuclear-powered carrier's additional capabilities over a 
conventionally-powered carrier relate to comparisons among other 
surface combatants and their nuclear versus conventional debates? Are 
conventionally powered cruisers and destroyers not so less capable than 
nuclear ones that the Navy could accept the lesser cost and 
capabilities of conventional destroyers but does not wish to do so with 
carriers?
    Navy Answer. The DoD position on this GAO report has been provided 
to the GAO and the Congress recently by the Office of the Under 
Secretary of Defense (Acquisition and Technology).
    Question. What is the schedule on the CVX, and is it slipping? When 
do we need to start the development process? Since the ship is 
scheduled to be delivered in 2013, isn't the traditional 15-year window 
for development and construction about to close?
    Navy Answer. It is critical that major development effort for CVX 
begin now. To achieve the total life cycle cost reductions with the 
flexibility and capability currently planned for CVX, technology and 
design development must start in earnest in fiscal year 1999 to meet 
the required delivery date of 2013. The fiscal year 1999 request is 
critical to initiate key development programs having major ship 
configuration and design impacts.

                              Battleships

    Question. It is my understanding that the Navy has returned two of 
its battleships to the Naval Vessel Register as Mobilization Category B 
ships in accordance with a provision of the fiscal year 1996 Defense 
Authorization Act. What did it cost to return these two ships to the 
Naval Vessel Register?
    Navy Answer. The Navy has spent approximately $200,000 per year per 
ship to maintain ex-NEW JERSEY and ex-WISCONSIN in a mobilization 
status since the ships were stricken in January 1995. Each year these 
ships remain on the Naval Vessel Register, $400,000 is required. No 
other expense was incurred to place the ships on the Naval Vessel 
Register.
    Question. Is it the Navy's preference that these ships remain on 
register in this status and does the Navy foresee any realistic 
circumstances under which the Navy would seriously consider returning 
these ships to active duty even for a temporary period of time?
    Navy Answer. Absent Section 1011 of the fiscal year 1996 Defense 
Authorization Act, the Navy would not retain the ships on the Navy 
Vessel Register. The Navy struck all four IOWA Class Battleships from 
the Navy Vessel Register in January 1995, after a full review of 
requirements. The Navy does not plan to reactivate these ships. There 
are no current contingency plans that call for their reactivation.

                        Network Centric Warfare

    Question. Which programs are critical to it? How much money do you 
intend to spend on it?
    Navy Answer. From a practical point, any Navy program which 
contributes to the sensor grid, command and control grid or shoot grid 
will be critical to network-centric warfare. This could include all 
warfare platforms and the information technology systems which support 
those platforms. As a result, there is no specific dollar amount which 
we can say is dedicated solely to network-centric warfare. Network-
centric warfare is a concept not a program.
    As we transition to a network-centric Navy, we will be required to 
view our programs and resources as part of a whole rather than as 
individual pieces. Instead of looking at programs vertically, we will 
be required to look at how they contribute or improve the network-
centric environment. As a result, it is difficult to give a relative 
weight of importance to individual programs. The key to success for 
network-centric warfare is a change in mindset or approach to the way 
we do business. Network-centric operations flatten the command 
hierarchy which requires that we no longer view programs or platforms 
in isolation but as part of a whole.
    With the Information Technology (IT)-21 implementation strategy we 
have begun to look at programs across a horizontal plane rather than 
vertical. With this approach, we are attempting to bring an entire 
network capability to our ashore and afloat forces. This will provide 
the basic backplane which will enable network-centric warfare. Instead 
of installing individual programs at varying rates across a variety of 
platforms, we propose to install the IT-21 capability on a Battlegroup 
basis or Naval Operations Center (NOC) basis.

                         Anti-Submarine Warfare

    Question. During the Cold War ASW was the Navy's number one 
warfighting priority. After the Cold War it was no longer the number 
one priority. Is it being neglected? Are we losing our proficiency?
    Navy Answer. Anti-Submarine Warfare (ASW) is a top priority mission 
and a core and enduring naval competency. The 1997 ASW Assessment 
tasked by Congress will be delivered in early March and concludes that 
ASW proficiency is, in fact, in decline. To reverse the decline, the 
Department has re-focused ASW training opportunities in the fleets. To 
enhance training effectiveness, the Navy is developing instrumental 
shallow water training ranges and experimenting with the fleetwide 
implementation of new training technology such as the Interactive 
Multi-sensor Analysis Trainer (IMAT). Such initiatives allow for 
accurate reconstruction and feedback which is essential to the Navy's 
continuous improvement approach to training.
    ASW modernization is balanced with the competing warfighting areas 
of Strike, Mine Warfare, Theater Air Missile Defense, Ship Self Defense 
and Nuclear Deterrence. The fiscal year 1999 Budget submission provides 
adequate equipment to respond to likely submarine threats to the end of 
the Future Years Defense Plan.
    Question. Has ASW become an area that has suffered or do we need to 
address this? The ASW office has been charged with writing a new master 
plan. Is the Navy paying proper attention to its ASW exercise 
activities? What has happened to the number of people in the fleet who 
have ASW proficiency?
    Navy Answer. The intense focus in ASW shifted after the Cold War 
submarine threat declined in importance as a National Defense priority. 
Subsequent threats and taskings have shifted warfighting priorities, 
however, a core ASW program has been retained throughout. A review of 
world wide technology proliferation and threats has renewed our 
appreciation for the threat and difficulty of countering quiet diesel 
submarines in a littoral environment.
    The Navy recently completed the ASW Assessment that was tasked by 
Congress, and is now working on an Integrated Requirements Document 
that will articulate requirements from a threat capabilities and 
warfighting mission perspective as opposed to a platform perspective. 
This is consistent with the ongoing revolution in military affairs and 
shift to network centric warfare.
    The Navy never stopped exercising its ASW forces. Both the Atlantic 
and Pacific Fleets continue to have area ASW commanders and each 
warfighting community (surface, submarine, air and surveillance) has a 
tactics development agent. Over the past few years, these organizations 
have implemented initiatives to coordinate their efforts, consistent 
with the shift in naval warfare toward network centric approaches in a 
littoral environment. Additionally, ASW exercises continue to play a 
vital role in the battle group deployment work-up cycle of the Second 
and Third Fleet Commanders. Complementing this effort is a strong core 
of bilateral and multi-lateral ASW exercises which continue to be 
conducted. Across the board, the fleet commands tasked with these 
efforts report that the trend is toward more ASW exercises now than in 
the past.
    As part of the Navy wide draw-down in force structure and people 
over the past several years, there are fewer people in the fleet with 
ASW proficiency. However, on a fair share basis, ASW retains its status 
as a core and enduring Navy competency.
    Question. If it is true that the Navy continues to place a high 
priority on this area of warfare, has the Navy's training and exercise 
schedule reflected this?
    Navy Answer. ASW training and exercises are core capabilities 
integrated into the Battle Group deployment work-up cycle, and form the 
core of many multi-lateral and bilateral training exchanges such as the 
LUNGFISH (US-Australia), SHINKAME (US-Japan), NORTHERN VIKING (US-
Canada-Norway), and STRONG RESOLVE (NATO) series. UNITAS cruises 
provided significant ASW training for participating surface ships in 
coordination with diesel submarines of South American navies. If 
anything, the focus on these ASW training opportunities is a growing 
trend.
    Finally, the tactical development agents; Submarine Development 
Squadron 12, Surface Warfare Development Group, VX-1 (Air ASW 
Development), and Commander Undersea Surveillance, conduct numerous 
exercises to evaluate new systems, tactics and coordination of the ASW 
mission.
    Question. Do measures of ASW proficiency as revealed in these 
exercises bear this out?
    Navy Answer. The 1997 ASW Assessment evaluated exercise results as 
part of the detailed analysis, and concluded that ASW proficiency is in 
decline. It is important to understand, however, that proficiency is 
not merely a matter of training. A multimission penalty is being paid 
as we downsize our force structure--fewer platforms executing more 
missions resulting in less overall emphasis on ASW. The proliferation 
of submarine technologies, including automated systems and engineering 
improvements, are contributing to more capable systems the Navy may 
have to engage. Because of this, numerous initiatives in training, 
organization, infrastructure (underwater ranges, analysis, etc.) and 
modernized equipment are being pursued as an integrated program, within 
the myriad of competing missions and real world operations, to focus 
the ASW effort and ensure proficiency improvements outpace the threat.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky. The Fiscal Year 1999 Navy Posture Statement, as 
referred to on page 233, follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Thursday, March 5, 1998.

                   FISCAL YEAR 1999 AIR FORCE POSTURE

                               WITNESSES

HON. F. WHITTEN PETERS, ACTING SECRETARY OF THE AIR FORCE
GENERAL MICHAEL E. RYAN, CHIEF OF STAFF, UNITED STATES AIR FORCE

                              Introduction

    Mr. Young. Good morning. The Committee will come to order. 
This is an open hearing, so anyone who is interested in coming 
in is welcome to come in.
    This morning our hearing is on the posture of the United 
States Air Force, and we are pleased to welcome Mr. F. Whitten 
Peters, the Acting Secretary of the Air Force, and General 
Michael Ryan, the Chief of Staff of the Air Force. A more 
important visitor is Mrs. Jane Ryan, the lovely wife of the 
Chief of Staff of the Air Force.
    Mrs. Ryan, we are awfully happy to have you here this 
morning. We will go easy on your husband.
    We welcome you both today in your first appearance before 
this Committee in your new capacities. We look forward to 
working with you in what I think will be a very interesting 
year.
    Inasmuch as your budget submission is a little better than 
it has been in previous years, and we appreciate that, but I 
think there is still some shortfalls that you would probably 
agree with that are not funded in this budget. We would like to 
fund, if we could find some additional money.
    The OPTEMPO of the Air Force, the number of personnel 
deployed overseas on a regular basis and on short deployments, 
is very aggressive. We understand the costs that are associated 
with that, and so far you have been making those dollars 
available out of your existing budgets. We hope that we can 
take care of your supplemental costs for contingencies through 
a supplemental that would not have to be offset from your 
regular budget, and we will keep our fingers crossed that we 
can get enough support to do that.
    There are a lot of important issues, the F-22, the Airborne 
Laser, the Joint Strike Fighter, JSTARS and so many other 
programs that we know that you are interested in and that the 
members of this Committee are interested in. So we look forward 
to hearing from you, General, and we will place your complete 
statement in the record, and you may summarize it as you wish. 
Before you do that, I would like to yield to Mr. Dicks for any 
opening comment he would like to make.
    Mr. Dicks. General, we want to welcome you and the 
Secretary. We realize that there are a lot of daunting 
challenges that the Air Force faces with the budget problems 
that we all face, and we want to welcome you in your first 
testimony before this committee, and we look forward to your 
service. We have a lot of good questions for you. We are going 
to try to be as fair as possible.
    Thank you, Mr. Chairman.

                 Summary Statement of Secretary Peters

    Secretary Peters. Thank you, Mr. Chairman, and thank you, 
members of the Committee. We appreciate the opportunity to 
appear before you this morning to talk about our posture and 
particularly our 1999 proposed budget. I would also like to 
thank this Committee for all of its great support for the Air 
Force in the past.
    For fiscal year 1999, we continue our budget priorities of 
people, readiness and modernization. People come first because 
we cannot have a ready force today or tomorrow unless we 
attract, train and retain the highest quality men and women to 
operate our 21st century technologies. Readiness and 
modernization are equally key to our present and future 
national security, but in our constrained budget environment, 
we must assume some risk in current readiness in order to pay 
for modernization that is key to our future.
    We believe that we have properly balanced our 1999 budget, 
increasing funding for readiness related items by some $1 
billion, while also providing increased funding for key 
modernization programs and air superiority, global mobility, 
and space. Importantly, over the Future Years Defense Plan, 
FYDP we have achieved 15 percent real growth in investment 
accounts. Our three budget priorities directly support the 
Quadrennial Defense Review, QDR strategy and the report of the 
National Defense Panel and the Chairman's Joint Vision 2010. As 
the National Defense Panel, NDP reaffirmed, aerospace power 
plays a significant role in shaping, responding and preparing 
for an uncertain future.

                          AIR FORCE PERSONNEL

    Let me turn first to people. People are central to our 
efforts to shape the international environment. Over the past 
year, our airmen have been engaged around the world and have 
flown into virtually every country in the world. Our forces, 
for example, have supported peacekeeping operations in Bosnia, 
humanitarian firefighting operations in Indonesia, and 
noncombatant evacuations operations in Albania and Sierra 
Leone. We also contributed significantly to shaping events by 
participating in 53 joint and multilateral exercises worldwide. 
Of course, the Air Force has always been heavily engaged in 
Southwest Asia, where last year on a typical day almost 8,500 
Air Force men and women launched 150 sorties over Iraq, and 
that number has of course grown over the last few months given 
our current problems.
    These operations, as you noted, Mr. Chairman, are not 
without a cost. The deployment rates of our total force have 
increased dramatically since the end of the Cold War. All 
together last year about 14,000 total force airmen were 
deployed on any given day, a fourfold increase over 1989, 
despite a 35 percent decrease in total end strength since the 
end of the Cold War. Two years ago, many of our men and women 
were deployed well over our goal of 120 days a year. In the 
last year, until recent deployments to Southwest Asia, we had 
substantially reduced deployment rates for many units through 
global sourcing, creative use of Reserve and Guard units, and 
increases in manning highly stressed specialties.
    However, these efforts have placed a heavy burden on our 
Reserve forces. During 1997, our Reserve component deployed 
during every contingency tasking. In 1997, Air National Guard 
and Air Force Reserve air crews served on average 110 days in 
uniform, and their support teams served about 80 days.
    Strengthening the quality of life for all of our airmen 
must, therefore, be our highest and enduring priority. We owe 
it to our airmen to ensure that their faithful service is 
rewarded with pay, housing, medical and community support 
services that meet their needs.
    Over the past year, we have worked hard also to decrease 
the stresses of deployments. We have increased the amount of 
time our men and women at home stations can spend with their 
families after a deployment, and we have improved family 
support during times of deployment. For example, we have 
reduced Air Force participation in joint exercises by about 15 
percent, and we have tried to combine operational readiness 
inspections with other operational activities. We are also 
testing Ombudsman Programs at five Air Force bases to assist 
families and deployed airmen.
    In 1999 we will continue our efforts to improve dormitories 
and family housing, increase child care spaces and provide teen 
and family centers. About one-third of our Military 
Construction budget is devoted to these Quality-of-Life 
improvements.

                               READINESS

    We are also working hard on readiness to support the 
``respond'' portion of the QDR strategy. Today, about 91 
percent of our total units are at readiness ratings of C1 and 
C2 with our frontline units in PACAF and USAFE significantly 
higher, however, some readiness indicators are dropping. Our 
mission capable rates, for example, have declined 8.8 percent 
since the Gulf War. Engine readiness has also fallen, although 
we are recovering some of that in more recent time periods. And 
as General Ryan will discuss in more detail, pilot retention 
remains a very grave concern.
    The reasons for declining readiness are complex and go 
beyond simply dollars. With respect to engines, turmoil in our 
air logistics systems work force, coupled with a shortfall in 
spare parts funding in 1997, have caused lower than average 
productivity. Elsewhere, about one-third of our depot work is 
moving to new locations with attendant disruption. Across our 
fleet, old age has increased the difficulty of keeping aircraft 
running and has raised the cost of readiness.
    To overcome these challenges, we increased our readiness-
related funding in 1998 and in 1999. We are also investing in 
additional engines for our F-15 fleet and in new engines for 
our RC-135s. We have started an engine recovery program that 
will shortly reactivate a TF-39 facility at Travis Air Force 
Base in an effort to improve the reliability of the C-5 fleet. 
Later this year the F-100 core engine workload will transfer to 
a more stable work force at Oklahoma City.
    Finally, we are upgrading our old equipment. For example, 
our fiscal year 1999 investment in the PACER CRAG program 
upgrades the avionics suites on 121 KC-135s with state-of-the-
art glass cockpit systems. We have also programmed over $500 
million for C-5 engine and avionics upgrades. We are optimistic 
about the result of these changes, but it will take time to see 
their effects.

                             MODERNIZATION

    Ultimately, readiness improvements will depend on 
modernization. In this regard, we have increased procurement 
funding for our breakthrough capabilities identified by the QDR 
and the NDP, such as the F-22, the Airborne Laser, SBIRS and 
Evolved Expendable Launch Vehicle, EELV. We are also funding 
programs to defend against the asymmetric threats identified by 
the NDP. For example, in 1999, we will invest approximately 
$225 million in passive chemical biological defensive measures 
and nearly $150 million in active defense. In addition, as part 
of our defense in depth against cyber attack, we have 
implemented the Automated Security Incident Management System 
in all of our 108 Air Force bases to detect network intrusions, 
and we are putting firewalls throughout the whole force in 
about a year.

                     REVOLUTION IN BUSINESS AFFAIRS

    To fund these modernization efforts, the Air Force achieved 
significant cost reductions through ongoing efforts to bring 
about a revolution in business affairs. Since 1995, we have cut 
headquarters manning by 1,700 positions, and through the recent 
C-5 depot competition, we should save $190 million over the 
next seven years. Recent and planned A-76 competitions should 
yield savings of about $1 billion. In acquisition reform, we 
have saved about $7 billion in ongoing contracts and avoided 
some $11 billion more.
    This year's Air Force posture statement is tangible proof 
of how we are saving resources. Last year, we produced 20,000 
paper copies. This year, using electronic publishing, we 
produced less than 2,000 paper copies and put other copies on 
the Web for download. However, still more needs to be done to 
save money.
    We continue to pay for excess support structures. Prudent 
Base Realignment and Closure, BRAC decisions are vital to our 
ability to bring our infrastructure into line with our force 
structure. We need Congress to approve two more rounds of 
closures for 2001 and 2005. Simply put, BRAC is tomorrow's 
readiness decision that we must begin planning today.

                         EMERGENCY SUPPLEMENTAL

    Finally, Mr. Chairman, as you mentioned, the administration 
has submitted an emergency non-offset supplemental to cover the 
unfunded costs of Bosnia and other operations for fiscal year 
1998 and the total cost of Bosnia for fiscal year 1999. The Air 
Force needs several hundred million dollars in each year to 
cover our costs. We urge prompt congressional approval of this 
bill, which is absolutely essential so we can plan effectively 
and avoid disruption in our readiness and modernization 
accounts.

                                SUMMARY

    Your support has been, and I am sure will in the future be, 
absolutely essential if we are to transform the world's premier 
air and space force of today into the indispensable aerospace 
force of the 21st century. As we plan for the future, our 
principal focus will be on building a seamless total aerospace 
force, one that is ready to meet the challenges of the QDR 
wherever and whenever we are called upon to shape, respond or 
prepare.
    I again thank you for the opportunity to be here this 
morning, and I will turn the podium over to General Ryan.
    Mr. Young. Mr. Secretary, thank you very much.
    [Clerk's note.--The joint statement of Secretary Peters and 
General Ryan follows. The fiscal year 1999 Air Force Posture 
Statement is printed at the end of this hearing. See page 584.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. General, we are happy to hear from you, sir.

                   Summary Statement of General Ryan

    General Ryan. Good morning, Mr. Chairman, and distinguished 
members of the Committee. I am pleased to join you today along 
with the Secretary, and I would like to thank you for your 
continued support of the United States Air Force.
    Today we are globally engaged. As I speak, nearly 15,000 
Air Force members are deployed in support of contingency 
operations around the world; nearly 9,000 in SOUTHERN WATCH in 
Iraq, and over 1,000 in NORTHERN WATCH, 3,000 in Bosnia, and 
the rest supporting 11 other contingencies around the world. 
They represent a fourfold increase in our deployments since the 
end of the Cold War, with orer 35 percent fewer personnel to 
cover the commitments.
    More than ever, the United States Air Force is an 
expeditionary force. Our Air Force men and women are meeting 
every challenge they face, with a consummate commitment that 
reflects service before self. Many of our members will spend 1 
out of the next 3 years in support of contingencies away from 
home. That is our job.
    I have just returned from Southwest Asia where I had the 
opportunity to visit with many of our young men and women 
serving there. You would be proud of their professionalism and 
their unsung sacrifices. For the most part, they live in 
austere conditions. The majority are in tent cities they 
erected and maintain, sleeping 8 to 10 to a tent. Privacy is 
minimal, amenities are few, and trust and cohesion are 
absolutely essential. They serve proudly, monitoring the no-fly 
zone in Iraq and are ready for any contingency you can throw at 
them, flying their aircraft hard and fixing them and loading 
them and getting ready for the next day.
    For the commanders, each morning brings, the hope of 
discovering new ways of making things better for those young 
men and women who live there every day. Each day brings 
operational challenges and hopefully successes, and each night 
brings the realization that the next day could bring combat.
    The 15,000 people are currently deployed in contingency 
operations, rotate in and out of their original bases. It has 
been that way since the early 1990s with Iraq, Bosnia, Africa 
contingencies, Haiti, et cetera.
    I don't see a major change in what we have experienced over 
the last 8 years. In effect, we are operating many additional 
bases without the resources and people to make up the 
difference. So the home station people feel the OPTEMPO as well 
as we take the support out of their hide. Bases don't get any 
additional personnel to make up for those who are deploying in 
order to keep the bases running. The workload just increases on 
those who remain. The bases must still be guarded, the 
remaining aircraft maintained, the families still need medical 
attention and the remaining personnel must train.
    We need to restructure the Air Force to deal with OPTEMPO 
by consolidating our Air Force bases so that they have the 
breadth and depth to both deploy and maintain home-base 
operations. For that reason alone we need BRAC legislation, not 
to mention the savings that would accrue for future 
modernization.
    We also must take action to fend off the adverse affects of 
this OPTEMPO in our readiness and retention. As Mr. Peters 
said, our overall readiness is still high, but we are beginning 
to see some adverse trends. The mission capability rates of our 
operational flying units have dropped 7 percent in the 8 years 
since the Gulf War. I attribute that to the aging nature of our 
aircraft. In 1999, the average age of a United States Air Force 
aircraft will be 20 years old. Predicting breakages is getting 
harder and harder. That is why modernization is so important to 
us.

                             MODERNIZATION

    Three systems under development are very important to 
maintain our preeminence as the greatest aerospace force for 
the 21st century. The F-22, the Joint Strike Fighter, the 
Airborne Laser, these systems are vital to ensuring our young 
men and women have the advantage of technologically superior 
weapons. We never want a fair fight. The F-22 stealth and its 
ability to cruise at supersonic speeds its' integrated 
avionics, and its large air-to-air payloads make it the 
predominant air suppority fighter for the 21st century. It 
allows all the forces, not just the Air Force, the freedom to 
operate where we choose and when we choose. The inherent air-
to-ground capability of the F-22 could make it our high-end 
attack aircraft. The Joint Strike Fighter, or JSF, will provide 
a less expensive multirole partner for the F-22. The F-22 and 
the Joint Strike Fighter will be complementary, and they are 
not substitutable. Together they represent a synergistic high-
low mix. Because of the F-22's ability to gain and maintain air 
dominance, it makes it possible for us to design the Joint 
Strike Fighter as a multirole aircraft, which is less capable 
and, therefore, less costly.
    Finally, we are developing the Airborne Laser to provide 
protection for our forces against theater ballistic missile 
threats. The ABL system provides the Nation with a rapidly 
deployable global capability for defending against theater 
ballistic missiles. It will be a key component of the missile 
defense architecture necessary to counter the theater ballistic 
missile threat and protect our forces.
    At the same time, we must continue our migration into 
space. The Air Force is proud to be the leader in the American 
military's use of space and will continue to be good stewards. 
The key to protecting and exploiting space will be the seamless 
integration of our assets. We plan to migrate those functions 
to space which offer better capability when accomplished in 
space. This transition and trade-off will be done as technology 
makes it both physically and fiscally possible.

                               RETENTION

    While modernization is an important element of tomorrow's 
readiness, retaining quality people is a key factor in 
maintaining readiness now and in the future. While enlisted 
retention rates are down slightly, and we must improve in that 
area, our biggest concern is pilot retention. It represents the 
majority of our front-end warfighting capability. We simply 
must retain more of these selfless warriors, as well as our 
support and combat personnel who go in harm's way to support 
our national commitment. We have worked hard, with your help, 
to counter this trend.
    One of the indications of future retention is the pilot 
bonus acceptance rate in the United States Air Force. Last 
year, 33 percent of our eligible pilots took the long-term 
commitment of the bonus, and another 10 percent took shorter 
bonuses. While this is below our target of 50 percent, we are 
hopeful that the legislative assistance provided by Congress 
will help us level off this decline. We thank you for that.
    We are focusing on several other areas to counter our 
retention decreases. They include reducing effects of OPTEMPO 
on our forces and improving family care for our members, 
improving quality of life and improving support programs.

                                SUMMARY

    Our experience since the fall of the Iron Curtain has 
reinforced the lessons about the pivotal nature of air and 
space power, power which maximizes the flexibility of our 
military and allows solutions to national security threats with 
less risk to American lives. We want to ensure that the United 
States Air Force remains the preeminent air and space power in 
the world. We are today and our deployed men and women are 
confident in their mission, their equipment and their 
capabilities. We thank you for your support for making that 
happen today and on into the future.
    Thank you, Mr. Chairman.
    Mr. Young. General, thank you very much.

                            PILOT RETENTION

    Mr. Young. Mr. Secretary, we will proceed with some 
questions here this morning.
    I want to first go back to the issue of pilot retention. 
Members of the Committee have visited a lot of your 
installations not only at home, but abroad, and we see the 
problem with pilot retention, and we have had some pretty frank 
discussions with some of your pilots. The OPTEMPO is a very 
large part of their problem, and I just don't see how we can 
continue to fly your airplanes and have the pilots that are 
flying them keep going as fast and as furious as they do 
apparently without any let-up, but at the same time we are 
getting messages from the administration that we have to 
continue to downsize. We have less fighter wings than we had 10 
years ago. We have less personnel than we had 10 years ago, and 
somewhere along the way that has to stop.
    You didn't mention this, but I read a piece done by 
Sergeant Benken about 6 or 8 weeks ago in the Air Force Times 
saying that there was a terrible retention problem with the 
enlisted personnel. When you start losing pilots and enlisted 
at a greater rate, you are going to have some real serious 
problems. It is not your problem. I think you probably would 
agree with me and members of this Committee that we shouldn't 
be downsizing as much as we are, especially in the view of the 
tremendous OPTEMPO that your people are forced to carry out.
    But anyway, part of the problem with the high OPTEMPO is 
not only the people, and of course that is the important 
problem, but also the equipment, and as you and I have 
discussed numerous times, spare parts to keep the airplanes 
flying becomes more of a problem constantly.
    Last year, we added $622 million in the Air Force budget 
for flying hours and for spare parts and maintenance. Despite 
these adds, we are still getting reports that the mission-
capable rate for our aircraft now is about 76 percent, and that 
it has been declining since 1991. Where are we going to be 5 
years from now?
    General Ryan. Sir, I would like to talk to the pilot part 
of that and the enlisted and then go on to the aircraft, if I 
could, and I am sure Mr. Peters will have some comments.
    As you know, our pilot retention problem has been connected 
almost directly to the ability of the airlines to hire. If you 
look at the airline hiring rate projected over the next 5 
years, and if you took all of the pilots that are eligible to 
leave the Air Force, the Army, the Navy and the Marine Corps 
who are qualified to go into the airlines, it wouldn't meet 
half of the demands that the airlines have for the 13 major 
airlines. That doesn't even include the commuter portion of 
that. So there is an economic draw for our pilots out there.
    The pilots that we are talking about are men and women who 
have been in our Air Force for about 9 years. They have been to 
the desert, they have been to Bosnia, they have been under 
heavy OPTEMPO during those 9 years. They are wonderful, 
wonderful men and women who have given a great part of their 
young life to the service of their Nation. So we can't hold it 
against them that they would want to change career patterns. 
But from our standpoint, we want to keep at least half of them 
as they reach that decision point, and with the help of this 
committee, we have been able to give the bonus--we haven't been 
able to tell directly how much the bonus affected us, except 
that we think it upped the rate, you know, from 3 to 13 
percent, and it is hard to tell yet.
    We have a problem. It is not just a United States Air Force 
problem, it is a problem throughout the services on retention 
of our pilots. Part of it has to do with pay. A lot of it has 
to do with the OPTEMPO.
    From our enlisted standpoint--well, let me finish on the 
pilots. We have done as much as we can in their concerns about 
their capability to maintain their readiness. We have been able 
to get agreements from the countries in which our pilots are 
now based to be able to train, which was a concern about a year 
ago. Both in Turkey and Southwest Asia, we have a training 
capability now. We rotate our pilots for those kinds of 
training capabilities that they can't get about every 45 days. 
We have given them down time after they get back, 7 days for 
every 45 gone. It has allowed them to get their personal and 
professional life back together and get back with their 
families and straighten out the checkbook and the kids. We have 
all been in those situations. We are working hard on their 
support mechanisms back home when they are deployed.
    I don't know what the key is or that there is any one key 
to the retention of our pilots. I think that we have to work 
across the board, including pay, including flight pay, 
including taking care of their families and their professional 
lives.
    On our enlisted side we have seen a downturn in those Air 
Force Specialty Codes (AFSCs), those capabilities that are 
employable on the outside where there are high demands, and 
where we have a high OPTEMPO in the Air Force. We have targeted 
those like F-16 avionic specialists with reenlistment bonuses, 
and that appears at first blush to be turning that around. In 
the past, that has worked fairly well for us to give the 
bonuses for reenlistment, and it looks like that is working 
fairly well.
    We don't have a terrible problem on the enlisted side. We 
want, at the second enlistment rate, we want about 75 percent 
to stay with us, because these are the people that we put a lot 
of work into and a lot of schooling, who are professionals, but 
they are also the people bearing the brunt of the deployments. 
So we are targeting those. We have doubled the number of those 
variable enlistment rates, AFSCs that we have targeted.

                         MISSION CAPABLE RATES

    On the mission capability rates of the aircraft, we have 
had a problem. It has been a fairly constant decline. It is not 
a precipitous dropoff. I would like to be able to attribute it 
to underfunding in some ways, but the breaks that we are 
getting on our aircraft for the most part are things that we 
didn't predict, and then it takes us an 18-month cycle to catch 
up, after you have found the problem, and you go out to get a 
vendor to supply that particular part, and then go back in, and 
it is this aging fleet of ours that is of great concern to us. 
We are putting a lot of money into this budget, as you all 
know, to shore up the capabilities of our fleet that will not 
be modernized for the future, to make it more reliable and 
maintainable. And with your support, I think we can turn this 
trend around.
    Thank you, sir.

                      BASE REALIGNMENT AND CLOSURE

    Mr. Young. General, thank you very much.
    I hope neither one of you think that I am being critical of 
the Air Force. I think you do a tremendous job with the limited 
resources that you have available. I think you have some 
political obstacles that get in your way, but I think 
considering what you have to work with, I think you are doing 
an outstanding job. I don't know of anyone that wants to have a 
United States Air Force come against them. We don't have to 
tell the world, they know, how effective the United States Air 
Force is, and we just want to make sure that we continue to 
keep it that way, and I just have a real problem with the 
downsizing, and even though this budget looks better, it is 
still going to be less money than it was last year. I think it 
is going to be the thirteenth year in a row that your budget 
has gone down, and there are some of us that don't like that at 
all. We all live with the same political realities.
    Let me ask just one more quick question. Every one of your 
colleagues who have been before us this year have talked about 
two more rounds of BRAC. How do you all decide on two rounds of 
BRAC? Why don't you say one round of BRAC or three rounds of 
BRAC? Do you have a plan that works with a two BRAC scenario?
    Secretary Peters. Yes, Mr. Chairman. The two rounds come 
really from the Office of the Secretary of Defense level, but 
it is based on analysis of the factors that were reported in 
the last BRAC rounds, the accomplishments of the last BRAC 
rounds. As you know, Secretary Cohen wants to get the BRAC 
report that is not due for about another year up here in the 
next several months, and we have been providing inputs into 
that report.
    I think two rounds is still about right. It takes a lot of 
work to get ready for these rounds, and we need to get our 
infrastructure down. As General Ryan said, we really look at 
infrastructure as a problem for three reasons, one of which is 
we like to make money, and we have made about $5.6 billion net 
off of the last BRAC rounds through 2001.
    But there really are two equally important reasons. One, as 
General Ryan pointed out, when we deploy off of these bases, we 
are putting people in the desert working 12- to 24-hour days, 
very long days, and then they come home and we rotate another 
unit out, and those at home face the same problem, because they 
don't have enough mechanics, security guards and other 
personnel on these bases of ours at this point because our 
force structure is spread over too many bases. The only real 
solution to that is to try to bring force structure back to a 
smaller number of bases.
    Similarly, we know from trying to reach our QDR targets for 
the number of fighter wings and Reserve and National Guard, 
that in order to put the modern equipment into the Guard that 
we promised to do in QDR, we would have to take down another 
active fighter wing, which we did not do this year, after 
consulting with Secretary Cohen, because the pain of doing that 
was very high, and the belief was we ought to do that in 
connection with BRAC, which gives us economic redevelopment and 
environmental restoration capabilities we would not otherwise 
have. But at this point we are not going to be able to get 
modern F-16s in the hands of the Air National Guard without 
taking down one additional fighter wing equivalent, and we 
still need to do that. Otherwise, we are left with seriously 
aging equipment in the Guard.
    So our sense is that really this is an OPTEMPO issue for 
us. We need to make our total force as capable as possible and 
as equal as possible, but we particularly need to get our 
forces onto a fewer number of bases, so that when a unit 
deploys, the people at home are not working 12-hour shifts just 
like the people deployed. That is really critical, particularly 
for the enlisted folks. The OPTEMPO is the number one reason we 
hear people are leaving, particularly where they can move to 
good civilian jobs. So it is a serious problem for us and one 
that we need to overcome.
    Mr. Young. Well, I recognize the need to do exactly what 
you are saying, but what I am wondering is if there is another 
way of approaching the problem rather than through the BRAC 
process, because I think you all know that that left a fairly 
bad taste here on the Hill with the several rounds of BRAC we 
already did. I certainly would not disagree with what you said, 
Mr. Secretary, about the need to consolidate, but I just wonder 
if there is a better way to approach it that eliminates some of 
the political pitfalls.
    Thank you very much.
    Let me now yield to Mr. Dicks.

                         FORWARD BASING ACCESS

    Mr. Dicks. Thank you, Mr. Chairman.
    One of the significant differences between the recent 
buildup in the Gulf and the one which occurred in 1991 is the 
lack of forward basing available to our ground-based base 
tactical aircraft. In the most recent buildup, key allies such 
as Saudi Arabia denied U.S. forces access to their airfields. 
All of the assumptions the Pentagon has used in determining 
their long-range air power force mix has assumed that we will 
always have basing access similar to what we enjoyed in 1991. 
This recent scenario proved the faultiness of that assumption, 
something that many of us have been saying for years.
    One of the core Air Force competencies you cite in your 
testimony is unparalleled access. You didn't have anything near 
that in the recent Gulf buildup, and this is just one way where 
U.S. forces could be locked out of forward theaters. The real 
concern I have is that next time, lockout won't be of a 
political nature, but rather our forces will be denied access 
because forward airfields will have been contaminated with 
biological or chemical weapons, and that is a very major 
possibility in South Korea.
    Given our inability to get basing access in key Middle East 
airfields, how could we have used ground-based tactical 
aircraft in the most recent scenario?
    General Ryan. First of all, sir, we did have access for the 
most part into the nations where we needed it. What was at 
question was would those nations allow us to use their 
airfields for offensive operations, and that is still unclear. 
So our priority, I don't think we can say that we were boxed 
out. We never came to a decision to use force from those fields 
to the extent that we were denied the use of those fields. So 
that is--I think that is a supposition.

                              BOMBER FORCE

    Mr. Dicks. Well, let's just assume for the moment, General, 
in a hypothetical situation, that a somebody says, I am sorry, 
even though we let you in 1991 use our airfields, we are not 
going to let you use them this time. There is a lot of 
speculation in this situation, that the Saudis--that we did not 
want to get into an open, public situation with the Saudis, but 
let's just say that they wouldn't let us use their airfields 
for offensive operations.
    What bothers me here, as you well know, is we are investing 
all of our resources in the future here in tactical air. Now, 
we are doing some good things, and I support and applaud what I 
read in here about trying to conventionalize the existing 
bomber force. I support that and have been fighting for that 
for a number of years, and I think it is the right way to go. 
What I worry about is when you look at the B-1 today, the 
mission-capable rate is declining, cannibalization a serious 
issue, and you have real problems with the B-1. If that is 
going to be the backbone of our bomber force, don't we have to 
do something about those issues?
    General Ryan. Yes, sir. As you know, the bomber force, over 
the last 10 years we have put $46 billion into it. We plan in 
this budget that we have submitted for the 5-year program to 
put over another $15 billion into our bomber force, to bring it 
up, its maintainability, its operational capability on the 
conventional side, and more standoff capabilities in B-1, B-2 
and B-52. We think that that gives us a hedge against denial of 
bases in specific areas. But you almost have to question our 
reason for being in some of these areas, or even being engaged, 
if the allies that are associated with that region are most 
threatened won't allow us to prosecute our operations.
    Mr. Dicks. The problem that I have is this question of 
balance, and it looks to us up here on the Hill, to many of 
your best supporters, the people that are pro-defense, pro-Air 
Force for many, many years, that we are--and I support these 
programs, I support Joint Strike Fighter, JSF, I support the F-
22. But it looks like we are putting all of our resources 
into--Mr. Chairman, it is very hard to hear in this room. If I 
could have the ability to pursue this line of questioning 
without interference from the staff, I would appreciate it. It 
is very hard to hear.
    You know, it is whether we are putting all of our resources 
into the tactical air side without getting to an adequate 
bomber force, and it is because of this lockout situation and 
the problem of what happens if there is zero or no warning.
    General Tilelli was widely quoted in an Inside the Air 
Force article as questioning whether you could really swing 
assets from the Gulf back to Korea in a timely way, and in 
order to stop a zero warning attack or a short-warning attack 
from the North Koreans. That is probably the most distressing 
scenario in these two major regional contingencies. That is why 
a lot of us up here believe that having a robust bomber force 
and one that has more than 21 B-2s--and I realize B-2's not all 
up to Block 30 capacity, and we have some weapons shortages and 
things of that nature, but as you look at this over the next 4 
to 5 years, you are going to get all of the B-2s of the 21 up 
to a Block 30 standard, which I think is very good.
    What we see is this problem that we saw in the Gulf of 
whether our allies don't let us in, and if you have chemical, 
or, in the Korean scenario, what if they rain down chemical and 
biological weapons. As General Tilelli said yesterday, maybe we 
can get some of the C-17s and F-22s of the future in, but the 
question is, can we get them out and can we use them if these 
fields are contaminated?
    That is why a lot of us again say, wait a minute, maybe we 
ought to have more long-range, stealthy capability that could 
be deployed in Guam. The simulators at Whiteman have 
demonstrated these planes can be flown for 43 hours. It is 
remarkable. So we see this capability as being paramount.
    If you look at the Air Force's core capability over its 
history, it has been long-range bombing. What we are worried 
about here is that in the desire to--and as I said in my 
opening remarks earlier, we recognize that there are very 
limited resources available, but what we are worried about is 
that we have an imbalance in the program, that over the next 20 
years we are doing some things in weaponization but we are not 
buying a single additional bomber. And we worry that if the B-1 
can't be fixed and improved, and it isn't stealthy, and neither 
is the B-52, we wind up only have 21 B-2s and the F-117s. And 
if you look at the studies that have been done, Rand did a 
study, Jasper Walsh did a study, all of which said that the 
right force for the Air Force of the future would be 40 to 60 
B-2s. This then was started, as you remember, 132, went down to 
75, and down to 21. The 21 was totally a political number.
    So I just want to give you an opportunity to explain what 
your strategy is, and I want to just review this, because a lot 
of us up here simply do not believe that we are doing the right 
thing. It isn't because we are against the Air Force, we are 
for the Air Force.
    I think air power is on the ascendancy. When you look at 
stealth, long-range and precision-guided weapons and the 
ability to stop an enemy in the halt phase and I think destroy 
the enemy make the ground operations much easier. This was 
argued in the QDR proceedings. The Air Force presented a very 
forceful case.
    I think that is possible. But I worry that if we don't have 
enough bombers so that we can execute, and come in from outside 
of the theater, and get the sorties necessary to really utilize 
this capability, that, yes, we will have less than the $44 
billion, but we will have cut this thing off at a point where 
we didn't realize the potential of this capability. That is 
what we are worried about.
    I am not trying to hurt the Air Force. What we are trying 
to say to you is we think you have something here that has 
remarkable potential conventionally and can be used, and we are 
noting this because we are cutting this program off, and we 
think it is a very serious mistake. That is why last year a lot 
of us on this committee urged to have a Presidential commission 
set up to take one final look at this, because we are so 
concerned that we are making a mistake of historic proportion.
    So I will give you a chance to comment on that.
    General Ryan. Yes, sir. As you know, we have studied this 
very hard. But because of the lack of resources,--of course we 
would like to have had more B-2s, but we just could not afford 
them. And in our studies, looking at the two major theater wars 
both from a POM standpoint and from a QDR standpoint, both of 
those concluded that we could stop buying the B-2 at the 21 
level as long as we continued the modernization of the bomber 
force as we have discussed before.
    I agree with you completely that we need a capability for 
long-range bombardment. In the form of our B-52, B-1 and B-2 
fleet of right now over 200 bombers, our capabilities that we 
are putting into those bombers will allow us, I think, to do 
what you were suggesting, and that is, carry a very large load 
a long way and use standoff munitions rather than penetrating 
aircraft for the most part of that, to be able to go in and 
service the targets that need to be serviced. It is an 
affordability issue.
    Mr. Dicks. Can I make one point on that?
    General Ryan. Sure.
    Mr. Dicks. If you look at General Howley's film, and if you 
look at what Joint Direct Attack Munitions, JDAM is going to 
cost, JDAM is going to cost $13,000 a weapon, and 16 times 
$13,000 is $208,000. That is one-sixth the cost of a cruise 
missile. This is revolutionary if you look at the capability of 
World War II or Vietnam, the sortie rate and the ability to hit 
16 separate targets, with the cost. People say the B-2 is so 
expensive, but when you look at the weapons, it is much less 
expensive than the standoff weapons, which are a lot less 
effective.
    General Ryan. The closer we can get, the better theater for 
the aircraft we can have.

                              B-2 AIRCRAFT

    Mr. Dicks. Let me ask you another question, reading all of 
these clippings. Secretary Hamre says the B-2 is not ready. 
General Goslin of the Air Force Association Magazine this month 
says there are a limited number of B-2s that are ready. What is 
the answer to that?
    Mr. Dicks. Is the B-2 ready, or is it not ready?
    General Ryan. It is a judgment call, and let me answer you 
very straightforwardly. I would like to answer you in closed 
session on that issue because of the sensitivity.
    Mr. Dicks. That is fine. We will just leave it at that.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Skeen.
    Mr. Skeen. Thank you, Mr. Chairman.
    Welcome, Secretary Peters, General Ryan, General Dicks. I 
have to give him credit, though. He does some of the best 
questioning I have ever heard, and at great length, and we 
appreciate it.
    Mr. Dicks. Never give up, right?

                       SPACE COMMAND AND CONTROL

    Mr. Skeen. Never give up.
    I am concerned about the Air Force's position on space 
command and control issues, and I am most concerned that since 
we are relying on a number of space assets for both peacetime 
and wartime missions, that we must make every effort to ensure 
our dominance and superiority in this. The question I would 
like to ask, can you comment on this point and address whether 
you believe that this year's budget and whether the outyear 
contain adequate resources to accomplish these tasks?
    Secretary Peters. Let me try to respond to that, if I can.
    First, we have been looking at a number of these 
technologies, and the President's policy, as we develop these 
technologies that we need to have. We have security in space. 
We have asked our chief scientists to do a project we call 
``doable space.'' We have also talked with our Space Command 
about a number of these issues, and they have recommended a 
road map. We have asked our Scientific Advisory Board to also 
look at these technologies and see where we are.
    Right now, this is basically a science and technology 
development issue, it is not really a fielding issue, so that 
we are working this year to try to come up with a better plan 
for space, a better funding plan for critical technologies that 
we are going to need, which will cover, you know, cheaper lift, 
which is a key issue of space superiority, and other 
technologies that will be used to secure our satellites.
    We are going to do a very broad review of that, and, 
starting with our fiscal year 2000 Program Objective 
Memorandum, POM and probably concluding in our 01 POM, make 
sure we are funded appropriately.
    One of the things we need to do and one of the things we 
have asked our Scientific Advisory Board to do, is look at how 
we could leverage our dollars with the dollars of private 
industry, NASA, NRO, and DARPA to try to come up with a more 
effective program. We are working this very hard right now, and 
we have a number of ideas from Space Command as well that we 
are trying to put together.
    But the answer is we are funding the critical--what we now 
know of as the critical technologies, and we are looking at 
those issues, and we are going to try to come up with a better 
way to prioritize a list of those technologies and also 
strategy to try to go to our commercial partners and other 
agencies to come up with a more effective program.
    Mr. Skeen. Is there a feeling that we are open to a little 
vulnerability at this point?
    Secretary Peters. Well, I was surprised to learn the other 
day that we don't have sensors on any of our satellites, 
military or commercial, to tell if they are really under 
attack. One of the things that we are looking at is perhaps 
coming up with a fairly low cost sensor to look at that. We do 
have other capabilities that we can discuss in closed session.
    Mr. Skeen. Yes, sir.
    Secretary Peters. We think we need to look hard at this. It 
is really a technology development issue, and that is what we 
have to try to do through these various means that we have 
commissioned.

                             LINE-ITEM VETO

    Mr. Skeen. The President line item vetoed three items 
relating to space superiority in last year's defense bill, 
which had strong congressional support, and that was the 
Antisatellite, ASAT testing program, military launch vehicles 
and the Clementine program. Has the administration revisited 
these matters or come up with alternative proposals? Would you 
comment on this?
    Secretary Peters. Well, of the three that were vetoed, the 
so-called military space plane was the one that we were 
working. We have continued to fund the basic technology issues 
for our space maneuver vehicle, because a lot of that is truly 
just general technology development at this point. Space 
Command has come back in with a new concept of operations, 
something they call space maneuver vehicle. I think it has 
never really been clear exactly what a military space plane 
did. It was many things to many people. But one of the things 
we have asked all of our folks who are looking at this to do is 
come back and tell us what are the critical maneuvering 
technologies, and one of them that they have identified is 
developing a vehicle, unmanned, which could go into orbit and 
could move satellites around orbit, could pick up a satellite 
that is dead and bring it back for repair, and that looks like 
the next piece of kind of enabling technology and that we are 
looking at quite hard for funding.
    Mr. Skeen. Well, we are becoming more dependent on this 
kind of technology.
    Secretary Peters. Absolutely.
    Mr. Skeen. Thank you for your responses.
    Mr. Young. Mr. Hobson.

                        BASE COMMANDER TURNOVER

    Mr. Hobson. Thank you, Mr. Chairman.
    Gentlemen, I have some frustrations with the Air Force, and 
I think I have been a friend to the Air Force, but I am rapidly 
becoming extremely concerned.
    I have had an ASC since 1992. I am going to be on my fifth 
commander of ASC. I am going to lose probably the best Air 
Force officer I have ever met and dealt with since I was in the 
Guard until now, General. I am on my 6th base commander at 
Wright-Patterson Air Force base since 1992. I don't think that 
is a very good situation.
    I am not going to ask you to talk about it right now, but I 
think it is terrible to have these kinds of command changes. 
There is no continuity of command. It affects morale, it 
affects the ability to perform the job, and I think the latest 
retirement should have been avoided. It could have been 
avoided, in my opinion.
    I didn't find out about it, they never talked to me, but I 
think we need to promote people in the Air Force, even if they 
don't have wings. I know there is a preference for wings, but 
there is also other great technical parts of the Air Force that 
need to be supported. So I am very frustrated about that. That 
is my first frustration, sir. And, Mr. Peters, we don't know 
each other yet, but we are going to.
    Secretary Peters. I have come to realize that.
    Mr. Hobson. If you think I am bad, you should have been 
here when the Navy was here when Mr. Visclosky got ahold of 
them, with very good reason.
    Mr. Visclosky. Don't drag me into this.

                   AIR FORCE INSTITUTE OF TECHNOLOGY

    Mr. Hobson. You did a very good job, and you had every 
reason, but his was much more difficult than mine.
    And, Norm, I have a B-2 question here, too.
    I am very concerned about the Air Force Institute of 
Technology AFIT, and I have a long question that I have here. I 
was going to read it all, but I am going to give it to you so 
you can answer it for the record. I don't know if you have had 
it yet or not, but what I am really concerned about, let me 
tell you, is the major regard you give the law from this 
committee. Maybe I better read it so I get to that point.
    The Air Force Institute of Technology at Wright-Patterson 
Air Force Base is a component of Air University, which directly 
supports national defense through graduate, continuing and 
professional specialized education programs. Further, it is an 
important element of support and partner for the Air Force 
laboratories. Last year, it became apparent that the Air Force 
was considering closing AFIT. It seems that this decision was 
based purely on budget considerations and does not address the 
development of technology which continues to benefit the Air 
Force.
    Neither this committee nor the members of the Ohio 
congressional delegation have yet to see any comprehensive 
cost-benefit analysis study taking into consideration the 
technological advances from research performed at AFIT. I would 
like for you at some point to supply that now, both to the 
Committee and to me personally.
    I firmly feel that the Air Force should budget for a cost-
effective AFIT. However, as an alternative, the Dayton, Ohio, 
local community proposed a plan to save AFIT by using the 
Dayton Area Graduate Studies Institute, a consortium of 
graduate engineering schools in the area and a cash subsidy 
from the State. The plan was prepared with little or no input 
from Air Force on numbers of students, costs, and so forth. 
Hence, none were surprised when the plan appeared to be 
rejected out of hand. Now, the Air Force has demonstrated a new 
interest in the proposal, and I would like to know the status 
of that negotiation.
    In the fiscal year 1998 defense appropriations bill, this 
Committee added language prohibiting the Air Force from paying 
graduate tuition at civilian schools unless every empty student 
slot was first filled at AFIT. I understand that all master's 
degree spots were filled at AFIT, allowing others to attend 
civilian schools. However, there are no new Ph.D. spots at 
AFIT, and hence, none at civilian schools. Air Force officials 
have had the temerity to, one, grouse about being barred from 
educating Ph.D.s; but, two, to announce that that is temporary 
and Ph.D.s will start civilian college class in January of 1999 
after this bill language expires 30 September, 1998. Do you 
understand that it is the Air Force blocking Ph.D.s? All you 
have to do is admit them to AFIT first.
    Although the situation I just outlined may be within the 
letter of the law, do you think it is within the spirit of the 
law, and is this a measure of the regard that the Air Force 
gives the law from this committee?
    Prior to his becoming the Under Secretary of Defense for 
Manpower and Readiness, Rudy DeLeon chaired an AFIT working 
group. Now the Ohio congressional delegation has received 
conflicting information which has led us to conclude that there 
is considerable confusion within the Air Force about the role 
of AFIT. Who is empowered now to speak and negotiate for the 
Air Force on AFIT? I would like his name, telephone number, and 
rank and serial.
    Secretary Peters. If I may respond to that on AFIT, it is 
one of those problems that I learned about 20 days ago after 
our folks came up and briefed the Ohio delegation, and they 
came back and said, gee, the people weren't thrilled with this 
briefing, and I learned about some of these opportunities to 
try to use consortia and all to reduce our costs.
    Mr. Hobson. You don't mean the congressional delegation, 
you mean people from Ohio, correct?
    Secretary Peters. Well, I know they met with the 
congressional delegation and others as well. I wasn't at the 
meeting, but there was a group that brought to their attention 
very clearly there were other opportunities for doing 
consortia. We have sent our folks back to look at this, and 
they are not going to come back with a proposal until they come 
to the Chief and myself to look at it.
    Unfortunately, I have been spending a lot of my time on the 
other problems with the depots, which is an all-consuming 
problem, but I think this is one that is equivalently a serious 
problem for us. We need to learn how to cut our costs while 
also keeping the benefits, colocation and so forth. So we are 
going to go back and look at that. We are not going to come 
forward again until we have a chance to look at it.
    Now, with respect to the Ph.D. situation, those were cut 
off some time ago when we thought that we had a solution that 
was going to be quick and that would please everybody. And 
obviously we have not had a solution that is quick and that is 
pleasing everybody, so that is going to have to be revisited as 
well. But we thought we would have that in place in time to--we 
did not want to start a Ph.D. program that might be closed, and 
we thought we would have a fix to this within the appropriate 
time frame, and it looks now that we are not.
    We need to look at that again. I think the group that has 
been working this is on my calendar in the next couple of 
weeks, and they will come back to me and explain to me where we 
are.
    General Ryan. AFIT has always produced the kinds of folks 
that we need in the Air Force, as you know, sir. But it was 
costing us a lot of money. We need to come up with a solution 
that allows us continuing education of our officers in those 
specialties that contribute to where we are going in the future 
as an aerospace force. So we will work with you.

                            PILOT RETENTION

    Mr. Hobson. And you need to compare apples to apples and 
oranges to oranges and they weren't doing that, and, I think 
you got the message what we want to talk about on that.
    Let me talk about pilot retention for just a second. I 
understand you have been in this a little bit before, but I 
want to say something that I said to Secretary Cohen when he 
was in here talking about sexual harassment. You can't go out 
and just have a meeting and expect everybody to stand up and 
tell you what is wrong. They are not going to. You didn't do 
this, but I understand the Air Force, for example, they go out 
and they have these big meetings with officers to try to find 
out when there is retention, and what happens to that, the four 
commanders the day before, and they say if anybody says 
anything, they are going to be in trouble. If a general isn't 
smart enough to figure that out, sir, they will probably get 
promoted to I don't know, whatever.
    That seems to be the way it goes. But that isn't the way to 
find out. You got to talk to troops when they are not 
intimidated or not in a setting where they are intimidated, and 
they will tell people the truth, and they will find out that it 
isn't increasing the amount of money to pay them to stay in, it 
is the question do you know where you are going to be, how long 
are you going to be away from your family, what are these 
sorties going to be and what is the predictability of your 
lifestyle. Those are the questions you need to ask and talk to 
people about, but it shows to me a lack of a certain type of 
leadership when people don't understand that. Not you, sir, I 
am not talking about you, but it is a problem. You've got to 
talk to troops. They will tell you the truth, but they are not 
going to do it in such a way--even if you are getting out, you 
don't want to tell the truth, because that can hang around for 
a long time, and you don't get out and you get shifted around, 
so things can happen. But they will tell you the truth because 
they want a change for themselves and other people to be 
positive, and I think you do, too, sir.
    I have a couple of other things, just two things, sir, if I 
may. I am going to do one for Norm here. The Wall Street 
Journal reports that the Air Force feels left out in plans for 
Iraq.
    Did you do this, Norm?
    Mr. Dicks. No.

                              B-2 AIRCRAFT

    Mr. Hobson. He usually gets to this.
    But the Navy plans to play a central role in attack, and 
the Air Force B-2 Stealth bomber was purposefully excluded. 
What is the Air Force's role in Iraq, what should it be, and 
why did they use the B-2?
    General Ryan. Sir, if you allow me to defer the B-2 
question, as I did with Mr. Dicks, to another forum where I can 
speak directly to you all about that.
    Mr. Hobson. Okay.
    General Ryan. Newspapers are not necessarily a place where 
you get factual information.
    Mr. Hobson. We understand that.
    General Ryan. If you look back on the United States Air 
Force's commitment in the Persian Gulf with respect to Iraq, 
you will find that 70 percent of the effort that goes into 
that, in terms of sorties have been by the United States Air 
Force. If you look at the number of aircraft that are deployed 
in the theater right now, the United States Air Force has the 
majority of the Air Force contingent in there. The United 
States Air Force has a command and control system that makes it 
work. The United States Air Force has the enabling systems like 
AWACS and Joint STARS and RIVET JOINT, and the fuelers and the 
bombers, et cetera. So what you read in the paper has a lot to 
do with who has access to the particular areas where people are 
located. In this case, the carriers are sovereign pieces of 
U.S. territory and can lock up the press on board.
    Mr. Hobson. We would like to lock up the press.
    General Ryan. We would like to lock them up at some of our 
bases.
    We haven't been able to get out the word of the great 
participation and dedication that our folks have over there. So 
we are not locked out of this. In fact, we are locked into it.

                    TACTICAL AIRCRAFT MODERNIZATION

    Mr. Hobson. I am not going to ask my Civil Air Patrol 
question, but I am sure you are going to handle that. But I 
have one quick question.
    We currently are trying to buy three very expensive fighter 
planes, the Air Force F-22, the Navy F-18E/F Super Hornet, and 
the multi-service Joint Strike Fighter. Combined costs are 
estimated at approximately $350 billion. Is any thought being 
given to either, one, purchasing fewer planes, or two, 
cancelling any one of these fighters? How much of an 
acquisition budget do we need to afford all three? And as I 
asked in the past, can we afford this configuration?
    General Ryan. As we look at the Air Force needs for 
modernization, we see that our air superiority capability as 
representing the F-22 is the enabling technologies for lots of 
other improvements, not only just in the Air Force, but in the 
other services, and then the Joint Strike Fighter being the low 
end to replacing our aging F-16s.
    We have looked at our budget out through 10 years into the 
future and have been able to make an affordable, capable force 
by bringing in the F-22 early and then bringing in the Joint 
Strike Fighter later. We think from an Air Force standpoint it 
is doable. In fact, it is an absolute necessity that we do it.

                               RETENTION

    Mr. Hobson. Mr. Chairman, I want to thank you. I understand 
the Secretary is looking at this overall, not just with the Air 
Force, but with the Navy, and the Army and the Marine Corps, 
this retention problem of senior officers. It is promotion of 
senior officers. It is a very difficult problem.
    General Ryan. I would like to talk to you about that 
particular situation, too, Mr. Hobson.
    Mr. Young. Mr. Hobson, thank you very much.
    Mr. Visclosky.

                   EVOLVED EXPENDABLE LAUNCH VEHICLE

    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Secretary, if you could tell me about the evolution of 
the EELV program, because it started out as a competition, and 
my understanding now is you have two that will continue. Will 
that be through the production phase?
    Secretary Peters. We anticipate that that will remain, two 
competitors throughout the life of the program. Even today, if 
you look at the number of space launches we have, commercial is 
now greater than military. We think that there is a very large 
volume market out there for commercial space lift and that the 
EELV offers a very substantial cost advantage, both to 
ourselves and to our commercial partners, and that there is 
enough work in the commercial arena to fund both systems, and 
we ought to allow both systems to go forward so there is 
competition and continued interest in driving the price down 
through the two competitors. So it is still our belief that the 
best way to go is to let those two folks be out there. We buy 
from both. We anticipate that commercial will buy from both and 
that ultimately the volume of sales will drive the unit cost 
down, which is what we want to do.
    Mr. Visclosky. I might want to follow up with your staffs 
later if I could, because to be honest with you, I have lost 
track of that development program, and I was very concerned 
some years ago about the cost of the program. My first 
impression, based on your testimony and the written statement, 
is the positive development of the program, if you are going to 
have a two-contractor base.
    General Ryan. We think that the commercial demand out there 
will allow that to continue. We see the commercial demand 
actually bypassing military demand in the next couple of years, 
and that the costs per pound to orbit will come down 
significantly with these two programs.
    Mr. Visclosky. My understanding, too, has been about some 
of the heavy payloads for the government and that some of the 
private payloads are also getting larger.
    Secretary Peters. We have a heavy payload requirement, so 
we are going to have to continue there. I think there has been 
some debate about how much requirement there is for commercial, 
but our best information is that there will be a commercial 
lift requirement for heavier payloads as well, particularly in 
the communications area. But we definitely have that heavy 
requirement, and we will just have to see how that unfolds.

                          JOINT STRIKE FIGHTER

    Mr. Visclosky. General, as far as the Joint Strike Fighter, 
do you believe that the contractors and the users have to 
understand that it is not business as usual, and that there 
might have to be sacrifices of capability for the Air Force?
    General Ryan. The driving force behind the Joint Strike 
Fighter has been affordability. We have done a lot of trade-
offs in keeping the affordability down. Some examples, we 
talked about a Mach 2 airplane, then we bought it back to 1.5, 
because that saves you money, and operationally it did not have 
a lot of effect. We traded off the number of Gs on the airplane 
back from nine to eight, but that is a weight savings, and the 
times that you use it were not terribly operational or 
significant.
    So, yes, we have a very good process for doing it. It is a 
joint process. It involves Marines and Air Force and Navy and 
many competitors or many partners for this competition.
    So I think not only that, but the competing companies 
understand that that is the way we approach this particular 
airplane to keep costs down.
    Mr. Visclosky. The person that doesn't have the last bell 
and whistle may get the contract?
    Secretary Peters. Cost is a very, very important factor, 
and there have been some very large trade-offs as well. For 
example, the Navy originally wanted two engines, and it is now 
one to save costs. So cost is very much a driver in this, and 
there is no question about that.
    The acquisition strategy is to keep two competitors in the 
fight until a final configuration is worked out over the next 
year to year-and-a-half type of time frame and then to have a 
competition. But people see this as a very large opportunity, 
and they are pretty aggressive, so I think the costs are going 
to be pretty good when this all comes to pass.

                  OPERATION AND MAINTENANCE SHORTFALLS

    Mr. Visclosky. As far as your operation and maintenance 
budget, do you have some shortfalls that you are concerned 
about in this budget for 1999?
    Secretary Peters. We think we have funded operation and 
maintenance, at the right level for 1999. The area of great 
risk is readiness. As you can see from our mission-capable 
rates and some of the other statistics you may have seen, we 
underfunded spares in 1997. With the help of this Committee we 
were able to get spares back where they should have been in 
1998. We left them at that level in 1999, and we are working 
hard to stop some of the contributing factors to inefficiencies 
at our depots, such as the turmoil in personnel as we move work 
around. We are going to try mightily to get the public-private 
competitions at McClellan and Kelly done this year so we can 
stop the turmoil in that process, and our hope is that we have 
funding correctly. But as General Ryan says, as these aircraft 
age, things are breaking which nobody predicted would break, 
and that is one of the largest O&M risks I think we have. So we 
are looking at that, and we are trying to take that into 
account.
    General Ryan. O&M also, we have tried to make balances 
under the top line that we are given, but O&M funds that have 
to do with our infrastructure also are very, very important 
considerations. And we never have funded those to the extent 
that we think we need to, and that is a concern that we have. 
Given the other priorities that we have with respect to 
funding, we think we have a fairly balanced program. It isn't 
the best, and O&M isn't at the level we like it, but neither 
are a lot of other things.
    Mr. Visclosky. You don't have a problem with the spare 
parts budget for 1999?
    Secretary Peters. We have funded the spares. We have the 
levels we funded in 1998, which is bringing back readiness. We 
also have funded modernization.
    Mr. Visclosky. Is that showing a shortfall, though?
    Secretary Peters. There was a shortfall in 1997 which we 
are digging out of. This committee helped us bring back the 
depot level numbers where they should be for correct numbers of 
flying hours. We think we have that right, and we decided in 
addition to funding that, we are putting a fair amount of money 
into upgrading some of the systems that break a lot, try to get 
past this. Once we can go to glass cockpits in our KC-135s, for 
example, we don't have to repair the really old parts in some 
of those cockpits today.
    So our strategy here is to try to put some money into 
forward-looking modernization programs as well as funding the 
depot, day-to-day maintenance-type stuff, and I think we have a 
balance there. We are continuing the funding at the high level 
that we had in 1998.
    Mr. Visclosky. You had mentioned infrastructure. Do you 
have a specific example in mind?
    General Ryan. Every year we calculate what our own property 
maintenance expenditures are for our bases, and then we try and 
fund that, and every year we are funding it much below what we 
would project would be the catch-up rate. Eventually that 
catches up with us. If we look at maintenance, we are going to 
the lowest level we have been in a long time, and we haven't 
closed any bases.
    So I worry about the real property maintenance accounts and 
O&M accounts that keep our infrastructure up. That is another 
argument for reducing a certain number of bases we have. But we 
are spreading it fairly thin and commanders out there who must 
manage this money, are working very, very hard to spend every 
dollar as wisely as they can, but they don't have that many 
dollars.
    Secretary Peters. Let me add one other thing, and that is 
how critical it is for us to get the supplemental through on a 
non-offset basis. We have not-budgeted for the monies that are 
in the supplemental. If we have to eat those out of the current 
levels, we are going to be in a very tough situation going in. 
So right now, our number one priority is to try to make sure 
that supplemental gets passed without an offset, because that 
is going to give us the relief we need, and without that we 
would have a terribly unbalanced budget.
    Mr. Visclosky. Gentlemen, thank you very much.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Bonilla.

                 FISCAL YEAR 1998 SUPPLEMENTAL REQUEST

    Mr. Bonilla. Thank you, Mr. Chairman.
    Mr. Secretary, before I get into a couple of specific 
questions, you touched on the supplemental that we are all 
going to be dealing with in the coming days, and just to pass 
along some very general concerns that I have heard from some of 
my colleagues, not on this Committee, but on the Appropriations 
Committee and beyond that, it is going to be very difficult to 
pass a supplemental without offsets. And I am not here to 
suggest at all that we need to take a dime from any other 
budget at the Pentagon, but there are a lot of members that 
have different agendas and--there is going to be some blood on 
the floor after this battle is done behind closed doors here in 
the Congress. So you probably have heard that. I just want to 
reiterate that it is there, and it is something that we are all 
going to have to deal with on this subcommittee and on the full 
committee.
    Secretary Peters. Let me just say if I may, Congressman, we 
understand that, and I think it is important to stress how 
incredibly damaging it would be to have to take these 
operations out of our current budgets. For 1998, it will affect 
them, and we will have to redo our whole flying schedule and 
also look for offsets in modernization. For 1999, if those 
costs are spread over all of our programs, it will badly break 
every one of our acquisition programs, and 1999 is an 
absolutely critical year.
    We now have an aggrement with Lockheed Martin for a fixed-
price contract on the F-22 for the first two lots. Also, the 
last year of major Joint Strike Fighter research and 
development and configuration determination is in 1999, and 
where we are going to get the cost trade-offs really is a 1999 
issue. If we don't get that funded, it is going to either delay 
Joint Strike Fighter from month to month or year to year, or we 
are not going to get the cost trade-offs that are so important 
to make that an important aircraft.

                               RETENTION

    Mr. Bonilla. I am the messenger on this, so I just want to 
let you know that.
    Related to what my colleague Mr. Hobson said earlier, and 
Mr. Visclosky, about pilot retention, that is--I have five Air 
Force bases that are either technically in my congressional 
district or right next door that we deal with in south and west 
Texas, and I get an earful from people concerned about the 
morale and how many pilots we are losing to the private sector. 
So I concur with what he said earlier about the exchange of 
some of the research methods that the private sector uses in 
getting the truth from some of these pilots that are thinking 
about leaving or have left already. I think we are reaching a 
critical time, and before too long the horse is going to be out 
of the barn, and we are going to be faced with what could we 
have done to keep them?
    General Ryan. I want to reassure both of you that the Air 
Force is using every method we can to get at the root cause of 
the reasons why our people leave. We do it through the command 
chain, we do it by surveys, we do it by talking to the 
families. We try and nail down the root causes for people 
leaving, and it comes back, quite honestly, to the fact that we 
have a very high OPTEMPO, and there are alternatives for our 
pilots that are very, very stable for their families and 
lucrative from an employment standpoint.
    Most of our folks enjoy what they are doing, but we have 
had a very high OPTEMPO for the last 8 years. We don't see much 
of a change in that OPTEMPO for the future. We are just going 
to have to figure out how to deal with what the demands of this 
Nation are for the security that require us to deploy and 
remain at locations overseas.
    I have to tell you, we have a lot in the Air Force to learn 
from our naval services, who schedule their deployments in a 
way that allows some predictability in when they are going to 
be gone and when they are home. But we are a bit of a different 
service because we are stationed not only stateside, the 
preponderance of our forces are stateside, but we have a very 
large contingency overseas. Eighty thousand of our folks are 
stationed overseas also, unlike the naval services. So we have 
a bit of a different problem. We need to get at that problem 
from a stability standpoint, and we are working that very hard.

                        LAUGHLIN AIR FORCE BASE

    Mr. Bonilla. General, can you predict in the year 2000 what 
you anticipate for Laughlin Air Force base, in your testimony 
noting that pilot retention is going to increase by about 200 
per year in fiscal year 2000? What does that mean for our fine 
facility at Laughlin?
    General Ryan. Laughlin will be at capacity for the 
foreseeable future. We are ramping up from a low of 500 pilots 
produced from the United States Air Force several years ago to 
1,100 pilots produced for the United States Air Force active 
duty force. That does not include Guard, Reserve, foreign 
military, and NATO, which kick us up to about 1,400 plus.
    We are on this ramp right now, and one of our constraining 
factors is not the number of aircraft we have, but the airspace 
and runway configurations that we have to be able to execute 
the training in a safe manner. So from your standpoint, sir, 
for Laughlin, they will be full capacity for the foreseeable 
future.
    Mr. Bonilla. We are so proud of what they do at Laughlin.
    General Ryan. They do a wonderful job down there.
    Mr. Bonilla. Our community hopes every day that they are 
going to do even better. As you know, the community of Del Rio, 
Texas, and Laughlin are joined at the hip and proud of it.
    One of the problems that we want to anticipate about the 
future of Laughlin is anything that might impede any training 
missions, or any of the training there. There is a concern down 
there about a dump site that is going to be constructed in the 
town of Spaford. I don't know how much you know about this, 
General, but there was an Air Force bird strike specialist that 
testified that this proposed dump posed a risk to Air Force 
operations, but the Air Force has not taken an official 
position in opposition to this dump.
    My question today is, can I get your commitment to look 
into this threat to Air Force training, and if it would pose a 
threat, as we expect it does, I think the Air Force should take 
a strong position on this, because the last thing we want to do 
is do anything to impede the training missions that we have 
there.
    General Ryan. Yes, sir. We will look at it and get back to 
you with an answer for the record.

                        LACKLAND AIR FORCE BASE

    Mr. Bonilla. I appreciate that.
    The question now is about Lackland, the Air Force 
Securities Forces Center, in your testimony you mentioned that 
this has been established. Can you tell me a little bit more 
about what this is going to entail?
    Secretary Peters. Well, the Security Forces Center actually 
is already established at Lackland. It is our major training 
facility, and it is up and running and probably will be 
increasing. One of the things we have recognized is that one of 
our most stressed force elements is our security forces and our 
major training school is at Lackland. So my guess is we will 
continue to have to beef up training through that facility in 
order to meet the OPTEMPO needs that we have.
    Mr. Bonilla. Also at Lackland there is a situation with the 
privatization effort at Lackland that is not going as well as a 
lot of us thought it would. Frankly, I have always thought that 
privatization of any project always increases competition and 
bids, but it is not going as well as we would like because of 
the quality of the construction bids that it is attracting. How 
do you all see that going at Lackland Air Force base?
    Secretary Peters. I would like to get back to you for the 
record on details on that, but my understanding is that 
Lackland is one of the areas in which we first tried to do the 
housing privatization. It has been a slow process, as we 
learned. Our hope is that it is still going to be successful 
and will roll out well, but any time you do something for the 
first time, it can be troublesome, and that is my 
understanding, that there have been some unexpected glitches. 
But people are trying to get that right, because we need the 
housing.
    [The information follows:]

    We have taken a measured approach with our housing privatization 
initiative. Privatization is an entirely new and different acquisition 
approach requiring us to build a level of expertise over time. We have 
been ``plowing new ground'' with the housing privatization initiative 
at Lackland. It is nearing conclusion, and we are in the process of 
requesting the best and final offers from the proposed contractors. 
This marks the last step prior to congressional notification and 
subsequent award. We continue to make progress in this landmark 
endeavor and anticipate a July 1998 award. The Air Force has used a 
three-step procedure in this privatization effort--first being the 
qualification of the offerors; second being the solicitation and 
evaluation of business, financial and technical proposal; and third 
being the final negotiations with the selected offeror to conclude the 
terms and conditions of the final agreement. We feel we have received 
good responses from industry that demonstrate a high degree of interest 
in housing privatization and are confident our selectee's offer will 
satisfy the project requirements. Delays in execution of the Lackland 
privatization initiative were mainly the result of the development of 
procedures and policy that accompany this new financing process.

    General Ryan. We really ascribe to the concept of 
privatization, if it will give us a long-term benefit. We know 
it gives us a short-term push where we can amortize the costs 
of upgrading the housing for long-term commitment to that 
particular type of housing. The question is what happens in 10 
years with the contractor and those houses, and how we write 
the contract on its maintenance and upkeep, and who can live in 
it. We still have a lot of concerns about that, so we are going 
slow. But we know that it leverages our money a lot and takes 
care of our folks in the near term. The question is what 
happens in the far term.

                          KELLY AIR FORCE BASE

    Mr. Bonilla. I appreciate you keeping an eye on that.
    Now I would like to talk about Kelly Air Force Base for a 
second. In your testimony you decided that the Economic 
Development Conveyance, EDC for Kelly was a model for reuse. 
Could I get your commitment, Mr. Secretary, to work with me to 
accelerate the ability of these facilities that are needed for 
privatization, and also, that the Air Force will not strip 
Kelly of the equipment necessary to continue some of the 
maintenance work? We want to look forward to doing work in 
future years.
    Secretary Peters. Let me talk to you about both of those. I 
have been to Kelly several times now, and we are trying to get 
that running as smoothly as we can. I think we have been very 
forthcoming, as you know. We have just recently put an 
additional $11 million into environmental and safety issues on 
the C-5 facility that is being used by Boeing now. I understand 
that there is a list of other facilities which greater Kelly 
would like to use for private purposes. It is clearly in our 
best interest to try to get those facilities into private 
hands, and I know we are looking at the cost trade-offs. It is 
incredibly expensive, and we may not have the money to move, 
but we are trying to accommodate them.
    With respect to the equipment, there has been an 
unfortunate problem, and now a lesson learned, and that is we 
really need to tag pieces of equipment when we do one of these 
public-private competitions, and that way we can avoid disputes 
about what should stay and what should go. We are doing that in 
the propulsion business area. My understanding is that with 
respect to the other equipment, there were 4,000 items at one 
point which were demanded both by Warner Robins and by greater 
Kelly. We are down to 83 of those that have not been resolved. 
We will continue to work that.
    But with respect to the new competition, we hope to avoid 
the issue in the first instance with a detailed property list 
with a request for proposal, and when the offerors tell us what 
they want, what they say they don't want goes to Kelly in the 
ordinary course.
    Mr. Bonilla. We appreciate what you have done to help us in 
this privatization transition and the jobs that are going to be 
kept there in the community, and we appreciate that. Thank you 
very much.
    Mr. Young. Mr. Cunningham.

                               RETENTION

    Mr. Cunningham. Thank you, Mr. Chairman. Maybe I can get 
some of these for the record and make it easier.
    Mr. Secretary and General, I have a lot of respect for your 
predecessor. He was a good friend, and I want to tell you that 
in the eyes of the Navy pilots that I have talked to, he stands 
head and shoulders for standing up for somebody that he 
believed was getting a raw deal, and I feel the same way. I 
want you to know that.
    Anyway, I know for the last 30 years, the number one area 
for retention has been family separation, at least in the 
services that I have talked to the kids. Another one is erosion 
of benefits, when you look at your package, and the medical 
benefits and other things. So I know there is a lot of 
different effects, but this 300 percent increase in reduction 
rate and even the bonus, I think you went from 29 to 32 or 33 
percent on pilot retention, but the kids, the wrench-pullers 
and stuff, it is a real problem, and you lose that quality 
aviator out of there.
    Another thing that I want to talk to some Air Force guys, 
and I didn't know you guys, but talking to Air Force, Army and 
Navy pilots, part of the problem, too, is when we used to come 
back, we had adversary assets which meant flying billets. It 
not only kept a higher state of readiness, in my opinion, 
because you trained against this similar aircraft, but it gave 
them a flying billet to come back to that they felt very, very 
proud to be with, the 64th and 65th, the 414th overseas and in 
Europe and so on, and a lot of this has gone away. I know you 
can't buy fighters if you don't have the money, but someday I 
hope to change that.

                             C-17 AIRCRAFT

    The main question I want to ask you about, though, is the 
C-17s, and if somebody has already asked this, and I can read 
the record, let me know. I understand you are going to look at 
buying some additional C-17s because of the low level of 
special ops. If you can let me know, you can even provide for 
the record if you expect the Department to come out and request 
that, or what your plans are. I know we had a plan that we put 
in with Log Air to lease back some C-17s, have them operate 
commercially, kind of a lend-lease kind of a thing, have the 
commercial guys do it, and then in time of war actually have 
Air Force pilots fly the C-17s. If it was a time of war, just 
revert back to the military. I think that is the kind of 
finance that if you could get behind and support, let me know 
if you would like to take a look at those kinds of things in 
the future.

                   TRAFFIC COLLISION AVOIDANCE SYSTEM

    Mr. Dicks. Let me ask you another question. About a week 
ago, 2 weeks ago, there was a show on 60 Minutes. Two mid-air 
collisions involving Air Force and Air National Guard aircraft 
last week may highlight the lack of collision avoidance systems 
in military cockpits, safety devices already required for all 
civilian aircraft with more than 10 seats, Inside The Air Force 
reports. Africa's poor air traffic control system may also have 
played a role in the September 13th collision of a C-141 and a 
German Air Force TU-154 off the coast of Namibia, sources said. 
Neither of these planes--neither of the planes had equipment 
that could detect other aircraft, and the collision probably 
occurred outside the scope of any ground-monitored radar, 
sources said.
    Although this--manufacturing by Allied Signal, Rockwell, 
Collins and Honeywell, separate versions of the scientific 
alert are required in all American commercial aircraft carrying 
more than 30 passengers and all regional aircraft carrying more 
than 10 passengers, industry sources said. Although this 
congressional mandate does not apply to military aircraft, the 
Defense Department began considering TCAS for its aircraft last 
year after the crash of an Air Force F43 carrying then 
Secretary of Commerce Ron Brown. But DOD's Traffic Collision 
Avoidance System, TCAS effort has been proceeding slowly, and 
the Air Force has not given the purchase of collision-avoidance 
systems a high priority--high enough priority to secure funding 
for several platforms, sources said.
    Can you give us an update on where you are? I have been 
trying since 1986, Mr. Secretary, to try to convince all DOD 
that you needed to have a ground proximity warning system and 
this TCAS system. I mean, if you lose one airplane, it seems to 
me that is one airplane too much. None of us want to see either 
the loss of lives, of course, most importantly, or the aircraft 
loss.
    What I worry about here is I look at the 5-year plan, and 
there is some money in here, but I am told that it is still 
deficient in terms of being able to equip the necessary planes 
with these systems.
    Secretary Peters. Let me try to address that. First, I will 
get back to you for the record with the installation schedule 
for the ground proximity warning system. That is part of many 
of the cockpit upgrades we are doing, and we are doing it in 
many cases because it is much easier to do it as part of a 
cockpit upgrade.
    [The information follows:]


----------------------------------------------------------------------------------------------------------------
          Aircraft              GPWS/GCAS       EGPWS         TCAS           ELT           FDR           CVR
----------------------------------------------------------------------------------------------------------------
C-5.........................             C          P ECD: FY04   P ECD: FY02      C             C             C
C-9+........................             C          P ECD: FY01   P ECD: FY00      C             C             C
C-12........................             C          P ECD: FY01   P ECD: FY99      C          P ECD: FY99   P ECD: FY99
C-17........................             C          P ECD: FY03   P ECD: FY02      C             C             C
C-20........................             C          P ECD: FY01   P ECD: FY99      C             C             C
C-21........................             C          P ECD: FY01   P ECD: FY01      C             C             C
C-22*.......................             C          U/U           U/U              C             C             C
C-26*.......................             C          U/U              C             C             C             C
C-27*.......................             C          U/U           U/U              C             C             C
C-32........................           --              C             C             C             C             C
C-37........................           --              C             C             C             C             C
C/T-43<SUP>plus-minus</SUP> ...........             C        S/U ECD: TBD  S/U ECD: TBD       C          P ECD: FY99   P ECD: FY99
C-130.......................             C        S/U ECD: TBD  S/U ECD: TBD       C             C             C
C/KC-135....................           --           P ECD: FY02   P ECD: FY01   P ECD: FY04   P ECD: FY04   P ECD: FY04
C-137*<SUP>+</SUP>.....................             C          U/U           P ECD: FY99      C             C             C
C-141<SUP>+</SUP>......................             C        S/U ECD: TBD    P ECD: FY01      C             C             C
VC-25.......................             C      U/U \1\              C             C             C             C
KC-10<SUP>+</SUP>......................             C          P ECD: FY04   P ECD: FY02      C             C             C
E-4.........................             C          P ECD: FY01   P ECD: FY01      C             C             C
H-1.........................          N/A         S/U ECD: TBD    P ECD: FY04   P ECD: FY04   P ECD: FY04   P ECD: FY04
H-60........................          N/A         S/U ECD: TBD  S/U ECD: TBD    U/U         S/U ECD: TBD  S/U ECD: TBD
----------------------------------------------------------------------------------------------------------------
Legend: C = Complete P = Programmed (Funded) S/U = Scheduled/Underfunded
U/U = Unscheduled/Unfunded n/a = not applicable (Helos have GCAS-like system)
ECD = Estimated Completion Date TBD = To Be Determined
Notes: GPWS = Ground Proximity Warning System; GCAS = Ground Collision Avoidance System; EGPWS = Enhanced Ground
  Proximity Warning System;
TCAS = Traffic Alert and Collision Avoidance System; ELT = Emergency Locator Transmitter; CVR = Cockpit Voice
  Recorder; FDR = Flight Data Recorder.
* = Pending retirement.
1 = Aggressively working to establish Congressional ``New Start'' to equip VC-25 with EGPWS.
+ = Air Force has recently accelerated TCAS installations on the C-9, KC-10, C-137, and C-141.
<SUP>plus-minus</SUP> = CT-43 TCAS is programmed/funded for TCAS installation in FY99; T-43 is scheduled to be equipped
  with TCAS in the outyears and is underfunded.

    Secretary Peters. With respect to TCAS, one of our problems 
of course is our aircraft are very old. TCAS commercially 
available requires digital buses and things which many of our 
aircraft don't have, so that we have to do extensive 
engineering in order to get them onto an aircraft.
    Having said that, I believe that roughly half of our fleet 
will have TCAS in the next 2 years, and that all of our 
passenger fleet will have TCAS very early in the next century. 
We are looking at having all of our relevant fleet covered in 
about 2005 at this point. But as I say, our costs have been 
substantially higher because we have to figure out a way to put 
TCASs into analog cockpits, so that has been a problem we have 
which many of the airlines do not have, and we are working 
that. So we have funds budgeted, we are spending them.
    In terms of past aviation safety, the ground proximity 
warning system is the more important of the two, given the past 
history of accidents, but it is working, and as I say, we 
should have the whole fleet covered in about 2005.
    Mr. Dicks. I understand here, I have a funding profile here 
that shows that TCAS this year is at 56--or the year we are 
operating in is $56.2 million, ground warning system is $33.4 
million, and then in 1999 TCAS jumps up to 125.50, and GPS is 
at 27.7. I realize that this again is an affordability issue, 
but if you could put in the record what you are trying to do on 
this, and which airplanes.
    This is another thing I would like to know: Which airplanes 
are we going to put it on and which not? As I understand, some 
fighter aircraft, this is not--you don't put it on those kind 
of airplanes. This is more for the cargo planes and things of 
that nature.
    Secretary Peters. The strategy is to put it on the pure 
passenger carriers first, followed by the mixed passenger-cargo 
carriers second. We have a bit of an issue about the C-141, 
which we are retiring. In fact, we have now decided to put it 
on a number of the longer-life 141s, and we have those 
scheduled. We will submit a complete list for the record.
    [The information follows:]

    The Air Force is considering whether the Traffic Alert and 
Collision Avoidance System (TCAS) should be installed on non-passenger-
carrying aircraft, such as fighters and bombers. If a determination is 
made that it should be, then a major engineering effort will be 
required to ascertain the feasibility of installing the multi-component 
TCAS on each of the various types of aircraft. Regarding training 
aircraft (e.g., T-1, T-38), most will be equipped with TCAS--T-1s and 
T-6s are being purchased with TCAS already installed; the T-38 is being 
retrofitted; the T-37 is not being equipped as it will begin to retire 
in FY00. The TCAS installation schedule for passenger/cargo/tanker 
aircraft is laid out in the previous answer.
    Summary funding data is shown in a separate chart on the following 
page. Since the AF began combining modifications, other equipment may 
be incorporated under combined mods and reported elsewhere (e.g., under 
Global Air Traffic Management).

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Dicks. Are we putting these on the C-17s?
    Secretary Peters. Yes. Ultimately we are putting them on in 
assembly with hull 71, and I think it is 2001. That again is a 
retrofit problem because the C-17 has been in gestation for 
many years, and its initial cockpit design did not have TCAS 
because it is a later add on that system. So it is being 
reengineered, and that will start going in with ship 71 in 
2001. We believe we will retrofit all of the fleet before that 
by 2002.
    Mr. Dicks. General, do you have any comments?
    General Ryan. Just to say that, as you know, we went 
through a very, very in-depth scrub of the safety systems that 
we have on our aircraft as a result of the T-43 accident in 
Europe, and that we think we have a very aggressive and good 
program for bringing all of those on. And it isn't just TCAS we 
are also adding ground proximity warning and GPS and some of 
the other systems that we have on the aircraft from a safety 
standpoint. So I think we are moving very well. We will give 
you an answer for the record on what that schedule is.
    [The information follows:]

C-5.........................             C          P ECD: FY04   P ECD: FY02      C             C             C
C-9<SUP>+</SUP>........................             C          P ECD: FY01  SU ECD: TBD       C             C             C
C-12........................             C          P ECD: FY01   P ECD: FY99      C          P ECD: FY99   P ECD: FY99
C-17........................             C          P ECD: FY03   P ECD: FY02      C             C             C
C-20........................             C          P ECD: FY01   P ECD: FY99      C             C             C
C-21........................             C          P ECD: FY01   P ECD: FY01      C             C             C
C-22*.......................             C          U/U           U/U              C             C             C
C-26*.......................             C          U/U              C             C             C             C
C-27*.......................             C          U/U           U/U              C             C             C
C-32........................           --              C             C             C             C             C
C-37........................           --              C             C             C             C             C
C/T-43<SUP>plus-minus</SUP> ...........             C        S/U ECD: TBD  S/U ECD: TBD       C          P ECD: FY99   P ECD: FY99
C130........................             C        S/U ECD: TBD  S/U ECD: TBD       C             C             C
C/KC-135....................           --           P ECD: FY02   P ECD: FY01   P ECD: FY04   P ECD: FY04   P ECD: FY04
C-137*<SUP>+</SUP>.....................             C          U/U         S/U ECD:           C             C             C
                                                                 FY99
C-141<SUP>+</SUP>......................             C        S/U ECD: TBD  S/U ECD: TBD       C             C             C
VC-25.......................             C       U/U\1\              C             C             C             C
KC-10<SUP>+</SUP>......................             C          P ECD: FY04   P ECD: FY04      C             C             C
E-4.........................             C          P ECD: FY01   P ECD: FY01      C             C             C
H-1.........................          N/A         S/U ECD: TBD    P ECD: FY04   P ECD: FY04   P ECD: FY04   P ECD: FY04
H-60........................          N/A         S/U ECD: TBD  S/U ECD: TBD    U/U         S/U ECD: TBD  S/U ECD: TBD
----------------------------------------------------------------------------------------------------------------
 Legend: C = Complete P = Programmed (Funded) S/U = Scheduled/Underfunded U/U = Unscheduled/Unfunded N/A = not
  applicable (Helos have GCAS-LIke system) ECD = Estimated Completion Date TBD = To Be Determined
 Notes: GPWS = Ground Proximity Warning System; GCAS = Ground Collision Avoidance System; EGPWS = Enhanced
  Ground Proximity Warning System;
 TCAS = Traffic Alert and Collision Avoidance System; ELT = Emergency Locator Transmitter;
 CVR = Cockpit Voice Recorder; FDR = Flight Data Recorder.
* = Pending retirement.
\1\ = Aggressively working to establish Congressional ``New Start'' to equip VC-25 with EGPWS.
+ = Air Force is working to accelerate TCAS installations on the C-9, KC-10, C-137, and C-141; will require
  $19.6 million additional funding.
<SUP>plus-minus</SUP>  = CT-43 TCAS is programmed/funded for installation in FY99; T-43 is scheduled to be equiped with
  TCAS in the outyears and is underfunded.

                            JSTARS AIRCRAFT

    Mr. Dicks. Let me ask you this. As I understand it, the 
funding for JSTARS has been reduced; is that correct? What is 
that going to do? Apparently we thought NATO was going to step 
in and do part of this program.
    Mr. Hobson. You are going to do 13?
    General Ryan. Thirteen aircraft are currently in the 
program. What we had thought, that NATO would have stepped up 
to some and buy about six, but that has not been forthcoming. 
Right now we have a study in OSD looking at long-term leads 
with respect to Joint STARS and the other systems that we are 
buying that are complementary to it and see what the 
requirement is. That study is supposed to be complete this 
summer.
    Mr. Dicks. All right.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Cunningham.

                          JOINT STRIKE FIGHTER

    Mr. Cunningham. General Ryan, the Joint Strike Fighter, my 
concern is that we are building three different variations. I 
know we are supposed to have a lot of commonality, I hope. It 
is difficult enough to build one airplane and not have all of 
the tests and evaluation series have a lot of problems with it. 
I mean, that is F-15, F-14, F-5, everything, and the F-16 with 
the deep stall.
    But what I am looking at is the Navy is buying a low-end 
airplane, and it has F-18E/F coming out, but in 10 years I am 
concerned over what our potential enemies are building. Because 
right now, with the SU-35, 37, Russia has some pretty 
formidable airplanes. They are on line now, and we haven't even 
built this thing, and I know that you want a replacement for 
the F-16. It will probably have VSTOL and some other 
capabilities, but are you concerned with the low-end airplane 
that may not be as good as what the enemy has now that we won't 
even have for 10 or 15 years?
    General Ryan. As you know, the F-15 and the F-14 are top-
end aircraft. The air-to-air role are now essentially at parity 
with some of the aircraft that are on line from other nations, 
including the Europeans, who are producing the Mirage 2000 and 
the European Fighter Aircraft, EFA. So there is no question 
that we need to upgrade our top-end air-to-air capability. It 
is always first in; that is always what leverages the others. 
That is why for us in the Air Force, the F-22 is our answer to 
that threat, and the F-22's capability to penetrate, super 
cruise, and integrated avionics will then leverage the 
capability of a lesser capable Joint Strike Fighter.
    Mr. Cunningham. Do you plan on employing the F-22 with 
Joint Strike Fighter as a cap-type airplane?
    General Ryan. Yes, sir.

                          AIR-TO-AIR MISSILES

    Mr. Cunningham. One of the other problems that we had in 
the services, I noted that you all did different time frames, 
the number of AMRAAMS and AIM-7s. I know we are not using the 
AIM-7s, but AIM-9, quite often when we deployed so many 
carriers that we were short on each carrier, the number of 
rounds per airplanes, and then in areas like Bosnia and Iraq 
where you are actually carrying those weapons on board, it is 
just coming up stuck in a hole. You are banging those things 
not on a boat like we do and rattle it, but you are using them 
a lot, and I know there is a repair time and check time.
    Do you have enough rounds, especially with us in Iraq, with 
us in Bosnia and in Italy, and with the other increases in 
OPTEMPO, do you have the number of rounds you need to meet 
those kinds of requirements, because this is getting critical?
    General Ryan. Yes. As you know, we do a calculation on the 
number of those rounds that we need in the inventory and in War 
Readiness Material (WRM) for the two major regional 
contingencies. That number far exceeds what we need for this 
small regional contingency. So we are in pretty good shape. We 
think that we have the right stockpile for that.
    Mr. Cunningham. Well, I don't know if you remember a guy 
named Dr. Ressler Embro. That old doc came up when I was in the 
Pentagon and said, hey, the AIM-7 is going to have a new one, 
the AIM-9 with 879. Probability of kill PK, which means you 
need less missiles to do the job; that the SPARROW had a 14 
percent probability of kill PK in Vietnam, and the Sidewinder 
at the end of it only had a 49 percent. So those statistics are 
very important, too.
    General Ryan. The way we calculate that now is we use our 
Weapon System Evaluation Program, WSEP, where we go shoot the 
missile in an essentially combat environment with crews that 
aren't specifically trained on that, take the PKs that we get 
out of that and apply them, and then after looking at the bases 
for the number of shots that we would take in the two major 
regional contingencies, then we arm the fleet one more time, 
fully loaded, and that is how we do our calculation.

                           POTENTIAL SAVINGS

    Mr. Cunningham. Let me close with one last issue. Mr. 
Secretary, all of us go through the frustration of working 
through OSD at different times, especially foreign military 
sales (FMS), overseas things, but I would like to give you, I 
will hand them to you, some ideas on how I think we could save 
dollars.
    One example in OSD is we had authorized $12 million for a 
map copy that was a cross for all services. OSD held it for a 
year. They continue doing it the same way. They copied 10 
percent of the maps at $16 million. That is a waste of those 
kinds of dollars, and when who has it, what pot has it and who 
wants to hold it, or is it with DARPA and those kinds of 
things. I just have some suggestions that I would like to give 
to you. I think it would help us do the job better.
    I won't go into the BRAC round or anything like that, but I 
want to thank you for coming. I am a big supporter. I 
understand with the logistics, the F-22, and I want to thank 
you for coming.
    Mr. Young. Mr. Cunningham, thank you very much.
    Mr. Hobson.

                             C-141 AIRCRAFT

    Mr. Hobson. Very briefly, gentlemen, if you can find a 
flying unit for Wright-Patterson, we would be happy to take it 
if somebody is filled up.
    Lastly, and you don't have to answer this now, but 
something I keep asking, I am really concerned about the future 
of the C-141 and what is going to replace it, because I don't 
know that anybody is looking--maybe they are, but I don't know 
if we are going to have enough C-17s to replace it. That 
airplane, if you look at what it does all the time, it is 
flying all the time now, more and more capability that we are 
using it for, and it is old, and it is tired, and I don't know 
how you are going to handle--I don't know who is looking at 
planning those missions and how you are going to replace that. 
And you don't have to--I know you want to get out of here, but 
at some point I sure would like to talk to you about that, sir.
    Secretary Peters. I would have to say the Transportation 
Command and our Air Mobility Command are looking at those 
issues, and the short answer is the C-17 is going to ramp up to 
replace that capacity. We would be happy to come over and talk 
to you about it.
    Mr. Hobson. I just don't think we are going to get there 
fast enough. That is what worries me.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Secretary and General, thank you very much. 
We appreciate you being here. Your time has expired, so we are 
going to have some additional questions we will submit to you 
in writing and urge you to respond as quickly as possible.
    Again, thank you very much for the good job that you do, 
and thank you for your very forthright responses to our 
questions today. And as I told you before, we stand ready to be 
your partner in providing for the security of the Nation and to 
provide for the well-being of those who provide that security 
for the Nation. Thank you.
    General Ryan. Thank you for having us, Mr. Chairman. Thank 
you. Good luck on your trip to Bosnia. I know the troops 
appreciate you coming.
    Mr. Young. I am taking a couple of your people with me, so 
you know we are going to be in good shape.
    General Ryan. Yes, sir.
    Mr. Young. The Committee will meet again this afternoon at 
1:30 to discuss Air Force acquisition programs. That will be in 
a closed session.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                           Air Force Strategy

    Question. General Ryan, your statement includes discussions of 
information superiority, enabling technologies, agile combat support, 
and revolution in military affairs. In your view, is the Air Force in 
the midst of a revolution in military affairs? Please describe this 
``revolution'' as it applies to your Service.
    Answer. As in the past, the Air Force has embraced high-leverage 
technological advances, innovative operational concepts, and new types 
of organizations to enhance America's premier asymmetric advantage--its 
aerospace power. We view the Revolution in Military Affairs, RMA as a 
force multiplier that will compound our military capabilities 
exponentially. We are, therefore, committed to exploiting further RMAs 
by supporting research, experimentation, testing, exercising, and 
evaluation of new systems and associated operational concepts. In 
particular, we see five trends in the RMA which offer the opportunity 
to link existing and emerging technologies with new operational 
concepts and organizations.
    Stealth technology, although not new, will continue to provide us 
with unprecedented target access in medium to high threat environments. 
Stealth F-22s will not only assure target access, they will remain 
instrumental in providing air dominance over the battlefield. Other 
stealth platforms, including Unmanned Aerial Vehicles, UAVs, will add a 
unique battlefield edge that includes the freedom from attack to the 
freedom to attack.
    Second, technological advances in C41SR will provide us with 
``global transparency'' and enhance our ability to know our enemy's 
posture, capabilities, and intentions. C4ISR will also provide our 
lowest echelons with archived and real-time, all-source, and fused 
battlefield information. These capabilities will further enhance our 
dominant battlefield situational awareness, which we already have in 
Bosnia. We have, for example, the ability to view real-time, Predator 
UAV missions, we display near-real time, correlated, and fused 
electronic intelligence data from national and theater assets in local 
squadrons; and when JSTARS is deployed in theater, we have the ability 
to display their data real-time. As for imagery, we now have the 
ability to pass images from U-2 and national sources--again in near-
real time--directly into local squadrons. In short, we view these C4ISR 
capabilities as truly revolutionary and not just limited to Bosnia. We 
will expand this concept throughout the Air Force.
    Third, vast improvements have been made in precision guided 
munitions. These advances, when coupled with advances in C4ISR, are 
devastating in their effects. Today's family of GPS/INS guided 
munitions gives us a limited all-weather ability to destroy targets in 
all environments (including urban centers) with a high degree of 
accuracy, probability of kill (Pk), and a very low degree of collateral 
damage. In terms of wide-area cluster munitions, Sensor Fuzed Weapons 
(SFW) provide us the ability to destroy advancing enemy armor in their 
tracks. Each SFW carries 40 ``top attack'' projectiles that circle the 
battlefield and seek out and destroy individual armor targets with a 
high degree of accuracy. The B-1B can carry 30 SFWs, which means one B-
1B can release 1,200 projectiles on an advancing enemy. Such a 
capability is both revolutionary and instrumental in the halt-phase of 
major theater war. With PGM's we have broken the old paradigm of 
numbers of aircraft needed to destroy one target and are now talking 
about number of targets neutralized by one aircraft.
    Fourth, we have made quantum leaps in the field of rapid, in-flight 
targeting and retargeting. With Real-Time Intelligence in the Cockpit 
(RTIC) and the Rapid Targeting System (RTS), we have now matched the 
sensor to the shooter in real time. This capability will leverage our 
ability to accurately strike fleeting, time-sensitive targets and/or 
newly identified threats swiftly and precisely. This capability also 
increases the responsiveness of Air Expeditionary Forces. AEFs can now 
deploy with little or no preplanning. Instead they would receive their 
target information (complete with GPS coordinates, imagery, and maps) 
while enroute to the target area. When coupled with Precision Guided 
Munitions, PGMs and C4ISR technology, RTIC and RTS will reinforce 
aerospace power's capability to respond--vigorously and effectivel--
during Halt Phase operations.
    Lastly, advances in directed energy technology elevate the airborne 
laser (ABL)--the only boost phase theater missile defense program in 
DoD. The ABL may well become our ultimate defensive and force 
protection weapon because it will destroy enemy theater ballistic 
missiles in their boost phase with a high degree of success. We are 
also exploring some offensive options with the ABL against enemy 
aerospace assets.
    In summary, the RMA has already provided the Air Force with a 
potent blend of combat capability--from quickly identifying potential 
hot-spots through C4ISR-based ``global transparency'' to rapidly and 
accurately responding to threats with Air Expeditionary Forces equipped 
with stealth, PGMs, and real-time intelligence in the cockpit. We plan 
on building on all these developments to exploit what is already an 
unmatched U.S. asymmetric advantage--its aerospace force.
    Question. What steps is the Air Force taking to reorganize itself 
to take full advantage of information age technologies and other 
enabling technologies?
    Answer. At the top level, our organizational constructs are 
underpinned by a vision and a commitment to air, space, and information 
superiority--all of which are heavily dependent on information and 
aerospace technologies. We have in fact declared Information 
Superiority one of our core competencies and are committed to training 
and sustaining our capabilities in this area. In all areas of 
technology, the Air Force has put in place the organizational structure 
to exploit a wide range of emerging technologies--many of which are 
information dependent.
    We have established an Information Superiority Mission Area 
Directorate in the Secretariat and designated the Electronic Systems 
Center, Space and Missile Center, and Aeronautical System Center to 
serve as one-stop product centers overseeing the acquisition of our 
weapons systems, all of which build on information age and aerospace 
technologies.
    In addition, last year the Air Force stood-up six battlelabs and 
one agency charged with revolutionizing our military operations. The 
six labs are small, focused, centers that explore innovative operations 
and logistic concepts. They identify and apply new technologies to our 
doctrine, tactics, techniques, and procedures in such areas as force 
protection, information warfare and space. The Air Force took an 
additional step in 1997 to focus our resources and attention on the 
complex tasks of commanding and controlling globally engaged air and 
space forces. We stood up the Air and Space Command and Control Agency, 
at Langley Air Force Base to integrate command and control initiatives 
and to develop new command and control concepts and procedures 
strengthen through enabling information technologies. We treat command 
and control like a weapon system and are developing comprehensive 
programs to rapidly modernize.
    At the same time, the Air Force has fully responded to the 
Information Technology Management Reform Act (also known as the 
Clinger-Cohen Act) by establishing a Chief Information Officer (CIO), 
and a CIO support office. The CIO is responsible for a wide range of 
information and information technology issues that focus on the smart 
use of technology to achieve better, faster, cheaper performance in our 
business and national security systems.
    Question. Is there a single focal point within the Air Force 
leadership responsible for developing the concepts and priorities that 
will lead to the next revolution in military affairs?
    Answer. The Air Force Headquarters stood up the Deputy Chief of 
Staff for Plans and Programs last year. It is a primary focal point for 
Air Force RMA and development of the Air Force Strategic Plan, which 
explores the future security environment and defines the path for 
necessary transformations. However, the responsibilities for 
technological and conceptual Air Force RMA developments are shared 
among other agencies/groups such as: AF Battelabs, the AF Research Lab, 
Warfare Centers, Modeling and Simulation Centers, Major Command and 
Headquarters Air Staffs (Strategic Planning, Programming, Operational 
Requirements, Education and Training). The interaction between all 
these agencies facilitates the capture of future capabilities and 
enables a consensus building approach that is reflected in the Air 
Force Strategic Planning process.

                           Additional Funding

    Question. Last year, the Air Force identified critical unfunded 
requirements to the Committee. As a result, the Committee was able to 
provide additional funding for many of these requirements. I hope you 
will continue to work with us this year. If additional funds were made 
available in fiscal year 1999, how would you allocate them? For each of 
the programs you have identified, what would be the benefit for 
providing the additional funds?
    Answer. In response to your request, I am providing a list of 
underfunded or unmet quality of life, readiness and modernization 
requirements. I wish to underscore the fact that the Air Force fiscal 
year 1999 request is finely balanced. Our first priority is to execute 
that budget as submitted. Second in priority is supplemental funding 
without offset for ongoing contingency operations. Any additional funds 
could then be applied against this list, but not at the expense of the 
balance we have worked so hard to achieve. The benefits of providing 
the additional funds are annotated on the list.
    Question. Would the additional funds fix critical shortfalls, field 
modernization programs sooner, or just fund ``nice to have'' programs?
    Answer. Additional funds would be used first and foremost to 
improve overall readiness by increasing spare parts availability, 
reducing deferred aircraft and engine overhaul backlog, improving 
equipment readiness, upgrading engines and funding important technical 
data updates. Our list specifically focuses on improving force 
readiness in critical areas.
    Question. If the Air Force received additional funding in fiscal 
year 1999 for the programs that you have outlined, would the Air Force 
be willing to sustain those programs in the outyears? Why or why not?
    Answer. All of the programs are sustained throughout the outyears, 
but with a degree of underfunding, in order to remain within fiscal 
constraints while balancing overall needs. The level of underfunding 
represents the risk acceptable to the Air Force in order to achieve 
fiscal balance. The Air Force cannot sustain higher funding levels for 
these programs without an increase in overall funding.
    Question. Does the fiscal year 1999 budget adequately fund 
operations and maintenance and personnel requirements? If not, what are 
your highest priority shortfalls?
    Answer. While the fiscal year 1999 Air Force operation and 
maintenance (O&M) budget imposes constraints in several readiness 
related accounts, it adequately funds O&M and personnel requirements at 
an acceptable level of risk. Certainly, the Air Force would feel more 
comfortable if it could reduce the level of risk. Within the allowed 
topline, the Air Force has properly balanced people, readiness and 
time-phased modernization accounts.
    If the Air Force had another dollar beyond that required for 
contingency operations, its priority would be to continue to focus on 
improving readiness. Of high interest would be increasing depot level 
repairables (spares) to help stem a declining mission capable rate. 
Also, addressing the growing deferred aircraft overhaul backlog with 
additional funding for depot maintenance would improve overall 
equipment readiness.
    The fiscal year 1999 budget is sufficient only to sustain the Air 
Force's infrastructure and base operating support (BOS). Being able to 
fix a growing backlog of critical real property maintenance repair 
projects would improve overall readiness. A more robust base operating 
support account would reduce migration of mission funds to meet BOS 
requirements.
    There are other areas of O&M the Air Force would fund if it could 
to improve readiness while maintaining a proper balance for 
modernization and people programs. Among them are a backlog of 
technical order updates and a less-than-required number of readiness 
spares packages.
    Question. Would there be savings if Congress provided additional 
funds to procure items at an accelerated rate? If so, which procurement 
items would you accelerate? What would be the near term cost and long 
term savings of the accelerated procurement?
    Answer. The fiscal year 1999 President's Budget reflects a 
balanced, time-phased Air Force modernization program (near-, mid-, and 
long-term), which allows us to modernize without sacrificing current 
readiness and ensures no requirements bow-waves are created in the out-
year budgets. If additional funding were made available, the Air Force 
Corporate process would be engaged to determine appropriate allocation 
of any additional funding.
    Question. In the past, we have heard testimony from several of the 
CINCs. Each year, all of the CINCs testified that they are faced with 
critical shortfalls in areas such as equipment maintenance, air and sea 
lift, and OPTEMPO funding. The CINCs do not submit their own budget 
requests to the Congress. The resources required at the various 
Commands are requested by the Services. Which critical shortfalls 
identified by the CINCs are included in your fiscal year 1999 request? 
What requirements identified by the CINCs have not been included in 
your budget submission? Why were those requirements not funded? Which 
shortfalls were not funded at their highest levels? Why?
    Answer. The Air Force used the Fiscal Year 1999-2003 CINC 
Integrated Priority Lists (IPLs) to resource the CINC's highest 
priority requirements as we developed the Air Force's Fiscal Year 1999-
2003 POM submission, which eventually evolved into the Fiscal Year 1999 
President's Budget. As we documented in Tab I, the Unified Commands 
annex of our POM submission, 102 of 103 Fiscal Year 1999-2003 CINC IPL 
requirements were resourced at a level representing the highest 
category of support as measured by the Air Force.
    ------. This requirement is satisfied by Air Force E-8 JSTARS 
aircraft. As directed by the Quadrennial Defense Review report, the 
total purchase of JSTARS aircraft was reduced from 19 to 13, saving 
approximately $1.6 billion over the Future Years Defense Program 
(FYDP). This decision was made with the expectation that NATO would 
purchase six additional JSTARS aircraft. However, NATO recently 
deferred a decision on JSTARS procurement. The total JSTARS requirement 
is currently the subject of an OSD-led Front End Assessment for the 
Fiscal Year 2000-2005 programming cycle to help determine the 
requirement for this capability in lieu of its significant cost and 
evolving technical alternatives. Results of this review will be 
incorporated in the Fiscal Year 2000 President's Budget.
    Question. The Air Force's fiscal year 1998 list of unfunded 
requirements totaled over $2.2 billion dollars. Does the fiscal year 
1999 budget sustain the level of funding required for those activities 
that received additional funding in fiscal year 1998? For the record, 
please provide a list of the projects that received additional funding 
in fiscal year 1998, but are not adequately funded in fiscal year 1999.
    Answer. The fiscal year 1999 budget sustains those activities that 
received additional funding in fiscal year 1998. Some programs continue 
to absorb a degree of underfunding in order to remain within fiscal 
constraints while balancing overall needs. The level of underfunding 
represents the risk acceptable to the Air Force in order to achieve 
fiscal balance. While adequately funded within this framework, the 
areas of spare parts, engines, MILCON, Real Property Maintenance, RPM, 
aging aircraft, vehicles and recruit advertising are again reflected on 
our list of underfunded programs.

                    Air Force Mission Capable Rates

    Question. In the transmittal letter accompanying the DoD 
Quadrennial Defense Review (QDR), Defense Secretary Cohen indicated 
that the Navy and Air Force faced shortfalls in fiscal year 1998 of 
over $600 million for aviation spare parts. The Congress provided an 
increase totaling $622 million in the 1998 DoD appropriations bill for 
this purpose. Of the total, $300 million was added to Operation and 
maintenance, Air Force. Despite this add, recent press accounts 
indicate that the composite mission capable rate for all Air Force 
aircraft is about 76% and has declined every year since 1991. What has 
been the trend for Air Force aircraft mission capable rates for 
deployed aircraft since operation Desert Shield/Desert Storm?
    Answer. While deployed force Mission Capable, MC rates have 
averaged less than the 92 percent MC rates reported during the Gulf 
War, they are generally higher than overall Air Force MC rates and have 
always met deployed operational requirements. The January 1998 Air 
Combat Command OPERATION SOUTHERN WATCH deployed MC rates for the F-16 
(83.3%), B-52 (85.6%), and A-10 (79.6%) were higher than Air Force-wide 
MC rates for the F-16 (74.9%), B-52 (74.9%), and A-10 (73.3%) during 
the same period. Scheduling major maintenance inspections around 
deployment dates, cannibalizing parts from home station aircraft for 
spare parts kits, and assignment of higher priority for available spare 
parts to those forces engaged in deployed operations, accounts for the 
overall higher deployed force MC rates. However, maintenance and supply 
factors driving the overall declining Air Force MC rate since fiscal 
year 1991 effect our deployed forces as well. These factors include 
aging aircraft (increased aircraft inspections, landing gear, and fuel 
system problems), engine technical surprises, and higher than expected 
demand rates. Funding spare parts at 82 percent in fiscal year 1997 
compounded spare parts shortages, particularly in F-16 avionics 
components in the last quarter of fiscal year 1997. Additionally, some 
deployed forces have experienced wide fluctuations in MC rates due to 
things like delays of international spare parts shipments as was the 
case with OPERATION NORTHERN WATCH.
    Improved fiscal year 1998 and fiscal year 1999 spare part funding, 
implementation of an engine life management planning, and streamlined 
supply chain management are expected to stabilize both overall and 
deployed MC rates and begin recovery.
    Question. What effect does a change in the mission capable rate 
have on the reported readiness of the Air Force?
    Answer. Generally speaking, a small change in the mission capable 
(MC) rate of an individual weapon system will not result in discernible 
changes to the overall reported readiness of the Air Force. MC rates 
are one of many indicators considered when assessing overall readiness.
    Declines in MC rates are often accompanied by increased 
Cannibalization (CANN), Non-Mission Capable-Supply (NMCS) and Non-
Mission Capable-Maintenance (NMCM) rates. Depending on the nature, 
duration, and severity of the decline, these may reflect other 
readiness issues not always addressed through a unit-level SORTs 
report. ------.

           Air Force Ability To Support the Two MRC Strategy

    Question. Supporting the indefinite extension of the NATO mission 
in Bosnia combined with the recent increase in the deployment of U.S. 
forces to the Persian Gulf has stretched the ability of the U.S. to 
meet its security commitments elsewhere in the world. For example, the 
Air Force has two Air Expeditionary Forces (two wing equivalents 
deployed in the Persian Gulf. The movement of carrier battle groups in 
the Mediterranean and Pacific has caused the Air Force to carry an 
increasing burden in Bosnia and on the Korean Peninsula, respectively. 
Shuffling assets to meet both emergent requirements and long term 
security commitments may also hinder the Department's ability to 
conduct required maintenance actions on time. In addition, the need to 
meet the increasing demand for U.S. forces will significantly increase 
the strain placed on U.S. military personnel. Given the indefinite 
extension of the Bosnia mission and the recent buildup in the Persian 
Gulf, do you feel that the Air Force has adequate equipment and 
personnel resources to fulfill its share of current national security 
commitments?
    Answer. The Air Force is able to fulfill its mission taskings. 
However, several aircraft weapons systems will exceed the Air Force 
desired TEMPO rates. By June 1, 1998, 13 of 27 flying Air Force units 
deployed in support of Operation SOUTHERN WATCH would have an average 
Temporary Duty (TDY) rate for the entire squadron of greater than 120 
days. The effects of contingencies combined with exercises, 
inspections, and training are stressing our people (negative impact on 
Quality of Life, retention, efficiency, equipment, and maintenance)--
the backbone of Air Force readiness.
    Question. What specific deficiencies do you see in Air Force 
personnel and equipment?
    Answer. As stated in the previous response, the Air Force is able 
to fulfill its mission taskings albeit with greater than desired TEMPO 
for some of our flying units. Overall, unit readiness is good, but we 
have noted a downturn in readiness indicators:
    <bullet> Aircraft mission capable (MC) rates have declined nearly 
nine percent since the Gulf War.
    <bullet> TEMPO is identified as the primary reason our personnel 
are separating.
    <bullet> A strong economy is luring experienced pilots and highly 
trained, mid-career sergeants from our ranks.
    Question. Recent press accounts indicate that the Air Force may 
have a shortage of spare parts necessary to deploy aircraft. It has 
been reported that the Air Force must cannibalize CONUS based aircraft 
to assemble the spares kits necessary to support deployments. Could you 
please describe this shortfall in light of current requirements?
    Answer. The Total Not Mission Capable for Supply (TNMCS) rate has 
increased 5.5 percent since fiscal year 1991 (8.6 percent) to first 
quarter fiscal year 1998 (14.1 percent) as a result of increased spare 
parts shortages. Cannibalization trends per 100 flying hours have 
increased from a low in fiscal year 1991 of 2.1 to a peak of 4.2 in 
fiscal year 1997. Increased cannibalization represents a higher level 
of effort to work around the spare parts shortages. Spare parts 
shortages are driven by many reasons:
    --Fleet Age
          --F-15 water intrusion (corrosion of flight control surfaces) 
        and longer than expected depot repair times
          --B-52 electronic countermeasures (ECM) parts--AF Material 
        Command has trouble finding vendors who still make the 
        components
    --Contractor delinquencies
          --Caused 3 of the 10 items driving F-16 part shortages 
        February-August 1997
          --Organic repair constraints
          --Supply chain management primary factor in depot repair line 
        production shortfalls
    --Technical surprises
          --High performance engine reliability problems drive spare 
        engine shortfalls
          --B-1, F-16, and F-15E fleets have experienced engine 
        ``holes''--has driven some engine cannibalization
    --Excessive component repair part lead times; depot repair line 
bottlenecks
          --Caused 2 of top 10 items driving C-130 parts shortages 
        February-October 1997
    --Spare parts funding
          --Fiscal year 1997 82% funding compounded supply problems, 
        especially in fiscal year 1997/4

Corrective Actions:
    --Improved fiscal year 1998/1999 spare parts funding
    --Air Force implemented Improvement Process Team to improve flying 
hour cost estimate methods
    --Air Force implemented Engine Life Management Planning
    --Focused on streamlined supply chain management
    TNMCS and cannibalization rates should stabilize in fiscal year 
1998 and begin to recover in fiscal year 1999.
    Question. Do the new deployment requirements in Southwest Asia put 
depot maintenance schedules for Air Force equipment at risk?
    Answer. There has not been any significant impact reported. 
Generally, we do not deploy equipment scheduled for depot maintenance.
    Question. If the Air Force is unable to meet its maintenance 
schedules for equipment, what risks does this pose to the nation's 
ability to meet its security commitments?
    Answer. A slip in depot maintenance schedules should not have a 
significant impact on the ability of the Air Force to meet its security 
commitments because the Air Force does not deploy equipment scheduled 
for depot maintenance.

                         Contingency Operations

    Question. In the fiscal year 1998 DoD Appropriations Act, the 
Overseas Contingency Operations Transfer Fund included nearly $1.9 
billion for Operation and Maintenance costs associated with contingency 
operations in Bosnia and the Persian Gulf. Of this amount, $1,467.5 
million is for Bosnia, and $416.5 million is for Southwest Asia. 
Contingency operations for Fiscal Year 1998 are underfunded. Unofficial 
estimates indicate that Bosnia is underfunded by approximately $700 
million, and Southwest Asia is underfunded by a similar amount 
(assuming the current buildup, but no hostilities). What are the Air 
Force's Military Personnel and Operation and Maintenance requirements 
in fiscal year 1998 for Bosnia outside of what's already been funded in 
the 1998 DoD Appropriations Act?
    Answer. The Air Force's Military Personnel and Operation and 
Maintenance requirements in fiscal year 1998 for Bosnia outside what 
has already been funded in the 1998 DoD Appropriations Act is as 
follows:

                                                  [In millions]
----------------------------------------------------------------------------------------------------------------
                                                                   Appropriation    Requirement        Delta
----------------------------------------------------------------------------------------------------------------
O&M.............................................................          $266.1          $222.0           $44.1
Milpers.........................................................            47.0            33.4            13.6
----------------------------------------------------------------------------------------------------------------

    Savings resulting from reduced requirements in Bosnia will be 
applied to Southwest Asia Contingency funding shortfalls.
    Question. What are the Air Force's total Military Personnel and 
Operation and maintenance costs for Bosnia in fiscal year 1998?
    Answer. The Air Force's total Military Personnel and Operation and 
Maintenance current estimates for Bosnia in fiscal year 1998 is as 
follows:

Current Estimate

                                                                Millions
O&M...........................................................    $222.0
Milpers.......................................................      33.4

    Question. What are the Air Force's Military Personnel and Operation 
and Maintenance requirements in fiscal year 1998 for operations in 
Southwest Asia outside of what's already been funded in the 1998 DoD 
Appropriations Act?
    Answer: The Air Force's Military Personnel and Operation and 
Maintenance requirements in fiscal year 1998 for Southwest Asia outside 
what has already been funded in the 1998 DoD Appropriations Act is as 
follows:

                              [In millions]
------------------------------------------------------------------------
                                                             Emergency
                                              Current      supplemental
                                             estimate       requirement
------------------------------------------------------------------------
O&M.....................................          $848.3          $422.0
Milpers.................................            67.8            24.5
------------------------------------------------------------------------

    Savings from reduced Bosnia costs of $57.7 million will be applied 
to Southwest Asia Contingency funding shortfalls within Air Force 
Military Personnel and Operation and Maintenance accounts.
    Question. What are the Air Force's total Military Personnel and 
Operation and Maintenance costs for Southwest Asia in fiscal year 1998?
    Answer. The Air Force's total Military Personnel and Operation and 
Maintenance current estimates for Southwest Asia in fiscal year 1998 is 
as follows:

Current Estimate

                                                                Millions
O&M...........................................................    $848.3
Milpers.......................................................      67.8

    Question. Have funds yet been transferred from the Overseas 
Contingency Operations Transfer Fund to Operation and Maintenance, Air 
Force to fund your contingency related expenses?
    Answer. Funding in the amount of $692.4 million has been 
transferred from the Overseas Contingency Operations Transfer Fund to 
our Operation and Maintenance account to fund our contingency related 
expenses.

                         Personnel Endstrengths

    Question. The fiscal year 1998 Authorization Act established an end 
strength floor for the Air Force of 371,577 personnel. The fiscal year 
1999 budget request reflects a very small reduction to your end 
strengths levels, and generally complies with that end strength floor. 
The Air Force's Quadrennial Defense Review (QDR) goal, however, is 
344,000 end strength, a reduction of approximately 27,000 additional 
personnel below the Authorization floor. Mr. Secretary, unlike the 
other Services, why has the Air Force decided to defer these personnel 
reductions to the outyears? Doesn't this put the Air Force ``out of 
sync'' with the QDR?
    Answer. The vast majority of the 27,000 military reductions are 
targeted toward competing non-military essential activities with the 
private sector resulting in in-house civilian or contractor 
performance. The timeline for the competition process precluded the Air 
Force from realizing manpower savings through competition until the 
outyears starting in fiscal year 2000. We do not believe this puts the 
Air Force ``out of sync'' with the QDR since the QDR was designed to be 
a fundamental and comprehensive examination of America's defense needs 
from 1997 to 2015. These needs included potential threats, strategy, 
force structure, readiness posture, military modernization programs, 
defense infrastructure and other elements. Air Force concentrated on 
infrastructure efficiencies while sustaining the forces and 
capabilities needed to meet the National Military Strategy.
    Question. Are the additional QDR reductions directly tied to force 
structure or basing changes? Please explain.
    Answer. The Air Force's Quadrennial Defense Review (QDR) goal of 
344,000 end strength as of the fiscal 1999 budget request reflects a 
military end strength reduction of 27,000, of which 22,300 are directly 
related to competing non-military essential commercial activities with 
the private sector. The remaining reduction of 4,700 is a result of 
rightsizing Air Force medical facilities, OSD's directed 15 percent 
infrastructure reduction, and 1995 BRAC reductions that are effective 
in fiscal year 2000 and fiscal year 2001.
    Question. The authorities for the force management tools, like the 
15-year Temporary Early Retirement Authority (TERA), expire in fiscal 
year 1999. If the Authorization Committees do not extend those 
authorities beyond 1999, can the Air Force achieve these future 
personnel reductions without those drawdown programs?
    Answer. If the authorities for these programs are not extended, the 
Air Force may not be able to achieve planned force levels through 
fiscal year 2003 without using involuntary programs. Providing these 
tools allows the Air Force to target losses in overage skills and year 
groups without negatively impacting morale and retention. Reducing 
accessions for currently planned force levels is no longer viable. This 
approach would cause significant force imbalances that would plague the 
force for many years.

                   Personnel Recruiting and Retention

    Question. Is the Air Force meeting its fiscal year 1998 recruiting 
goals? What percent of your enlistees are High School graduates and GED 
graduates? Are your enlisted recruiters having problems accessing 
quality youth?
    Answer. The Air Force is postured to achieve its 1998 recruiting 
goal with a 99 percent high school diploma enlistment rate. Less than 
one percent of our enlistees are GED graduates.
    The robust economy with low unemployment creates intense 
competition for high quality youth, but we are meeting our recruiting 
goals with quality recruits. In fiscal 1997, the Air Force enlisted a 
total of 30,200 first-time enlistees of whom 99 percent were high 
school graduates and 79 percent scored in the top half on their 
enlistment test (Armed Forces Qualification Test [AFQT] Categories I-
IIIA). This is well above the Department of Defense floor of 90 percent 
high school graduates and 60 percent Cat I-IIIA. We are seeking 31,300 
enlistments for fiscal year 1998 and although we have noted a slight 
drop in the percent of enlistees scoring in the top half on the AFQT 
(78 percent) we are maintaining a 99 percent high school diploma 
enlistment rate.
    Question. The country is currently experiencing low unemployment 
rates and a robust economy. What challenges does this present to the 
Air Force in order to have a successful recruiting program? What career 
fields in the Air Force are the hardest to fill by your recruiters?
    Answer. The Air Force continues to meet its recruiting goals, but 
the challenges our recruiters face also continue. Ample opportunity to 
attend college, a robust economy with low unemployment, military 
drawdowns, and high-visibility overseas involvements have effectively 
shrunk the pool of qualified and interested potential recruits. This is 
further exacerbated by unfamiliarity with military service. As based 
around the U.S. close and our total endstrength falls, today's young 
people have less opportunity to be exposed to military life. Fewer 
people serving in the military translates to fewer fathers, mothers, 
brothers, sisters, cousins, and friends to positively relate their 
military experiences.
    As the recruiting market became more intense, the Air Force took 
actions to remain competitive in the market. We've more than doubled 
our advertising budget since the early 90s ($7.7 million fiscal year 
1993 to $17.1 million fiscal year 1998). Through the addition of 80 new 
authorizations and moving recruiters from overhead positions, we've 
increased the number of enlisted program recruiters from 1093 to 1209 
(+116). We've recently provided our recruiters with cellular phones and 
laptop computers as we move to a web-based recruiting information 
support system to bring our recruiting technology into the 21st 
Century. These and other actions have improved our ability to meet our 
accession goals and maintain quality enlistments. Special Tactics and 
Maintenance Fields are hardest to fill. Combat Control and Pararescue 
require unique qualifications. Due to the nature of their duties, these 
skills attract few volunteers and are an ongoing challenge for our 
recruiters to fill. Declining interest and average mechanical aptitude 
decreases the maintenance qualified recruiting pool. We're using 
directed advertising and enlistment bonuses to overcome these 
challenges.
    Question. What are your first and second term reenlistment rates 
for your enlisted service members? For officers? Have these rates 
declined from past years? What is the historical average for enlisted 
and officer reenlistment?
    Answer. Our fiscal year 1997 first-term reenlistment rate was 56 
percent and our second-term rate was 71 percent. First-term rates have 
dropped 5 percent since fiscal year 1993 (61 percent) but are still 
above our first-term goal of 55 percent. Our fiscal year 1997 second-
term rate has dropped 11 percent since fiscal year 1993 (82 percent) 
and is below our goal of 75 percent. Our fiscal year 1997 career 
reenlistment rate was 95 percent down from a rate of 97 percent in 
fiscal year 1993. Air Force goals are approximately equal to historical 
averages.
    Since officers do not reenlist, officer retention is tracked using 
the Cumulative Continuation Rate (CCR)--percentage of officers entering 
the 4th (6th for pilots and navigators) year of service that complete 
their 11th year of service. Our fiscal year 1997 pilot rate was 71 
percent, down 11 percent since fiscal year 1994 (82 percent). The pilot 
historical average is 48 percent. The fiscal year 1997 navigator rate 
was 73 percent, also down 11 percent since fiscal year 1994 (84 
percent). The navigator historical average is 58 percent. Fiscal year 
1997 non-rated retention was 50 percent, down 10 percent since fiscal 
year 1994 (60 percent). The non-rated historical average is 55 percent.
    Question. What are some of the factors that are influencing Air 
Force personnel to separate from the military early? Explain what the 
Air Force is doing to address its retention concerns.
    Answer. The number one reason people leave the Air Force is tempo. 
Today's Air Force is experiencing a four-fold increase in deployments 
since the end of the Cold War; yet, we are 34 percent smaller. The 
second most often reported reason for leaving the service is quality of 
life. When you examine these concerns closely, many members are 
specifically saying too much time away from home (e.g., tempo).
    In an effort to mitigate the effects of increased tempo, the Air 
Force has reduced the time in Joint Chiefs of Staff sponsored exercises 
by 15 percent. We have also reduced the normal aircraft until rotation 
time from 90 days to 45 days and many major commands have implemented 
post-deployment stand downs to reacquaint themselves with their 
families. In addition, we are reducing Operational Readiness 
Inspections by 10 percent in fiscal year 1998 and 30 percent by fiscal 
year 1999.
    Quality of life also plays an important role in influencing a 
member's decision to stay or leave the service. Our major command 
commanders, unit commanders, and first sergeants recently validated 
seven enduring quality of life priorities. They are to pursue fair and 
competitive compensation and benefits; balance the impact of high tempo 
rates; provide access to quality health care; provide access to safe, 
adequate and affordable housing; preserve stable retirement system and 
benefits; enhance community support; and to expand educational 
opportunities.
    Question. Last year the Authorization conference increased the 
Aviation Continuation Pay (ACP) bonus from $12,000 per year to a 
maximum of $25,000 per year. In addition, the Aviation Career Incentive 
Pay (ACIP), or flight pay, was increased from $650 month to $840 month 
for pilots with 14 to 22 years of service. Is the Air Force offering 
the maximum amount for the ACP bonus? What has been the ``take rate'' 
for these increased bonuses? With the increases to the special pays, is 
pilot retention still critical?
    Answer. The Air Force is offering $22,000 maximum bonus per year 
(versus $25,000) to restore the original value of the bonus. In fiscal 
year 1989, the original pilot bonus paid $12,000 for seven years, or 
$84,000. In fiscal year 1997 dollars, the original $84,000 is worth 
$110,000. Because of a two-year increase in the active duty service 
commitment for pilot training, today pilots are eligible for the bonus 
for only five years. By increasing the bonus to $22,000 for five years 
(or $110,000) we restored the original value and intent of the program.
    The fiscal year 1998 ACP take-rate is currently 42 percent. The 
long-term (five-year) ACP take-rate is currently 26 percent (88 of 
335), while the short-term (one-, two- or three-year) ACP take-rate is 
currently 16 percent (52 of 335). The legislative provision to 
grandfather fiscal year 1997 ACP eligible pilots made a significant 
impact on AF pilot retention. We had 38 pilots, who declined ACP in 
fiscal year 1997, accept the improved bonus in fiscal year 1998. To put 
this in perspective, 38 pilots is enough to man an entire fighter 
squadron. It is too early to tell if the increase in ACP will have a 
significant impact on the pilot force. As with last year, a large 
portion (39 percent) of fiscal year 1998 eligible pilots become 
eligible for the bonus in the last quarter of fiscal year 1998. We are 
optimistic about the long-term retention effects of the bonus program.
    Despite the increases to special pays, pilot retention is still a 
major concern. As of the end of February 1998, approved pilot 
separations have increased 85 percent when compared to the same time 
period last year (880 in fiscal year 1998 vs. 475 in fiscal year 1997). 
Approved pilot separations as of February 28, 1998 already exceed the 
entire number of pilot separations in fiscal year 1997 (632). These 
indicators coupled with a projection of a prolonged period of airline 
hiring pose critical challenges for the Air Force in retaining its 
pilots.
    Our pilots are telling us that the increased TEMPO is the primary 
reason why they are declining the pilot bonus and separating from the 
Air Force. The next most cited responses are decreasing quality of life 
and airline hiring. In response to these surveys and focus group 
information, we implemented a gameplan designed to improve pilot 
retention in April 1997. The gameplan is designed to reduce OPTEMPO, 
improve quality of life, increase pilot production, reduce rated 
requirements and restore compensation to original levels.
    Question. The Committee understands that the Air Force Reserve has 
expanded its mission to be included in the Undergraduate Pilot Training 
(UPT) program. The active Air Force will employ full-time and part-time 
Reservists as instructor pilots to offset a shortfall in active duty 
instructors. Please explain why the Air Force has a shortage of 
instructor pilots, and how the Reserves will be integrated into UPT 
training.
    Answer. Although the Air Force is experiencing an overall pilot 
shortage (we are projecting a shortage of 835 pilots by September 
1998), we have prioritized our pilot force to ensure that 100 percent 
of our cockpits (including instructors) are manned. Filling all our 
cockpits causes the shortages to be accepted in filling our pilot staff 
requirements. To help ensure we continue to protect our combat 
capability, we have embarked on a UPT Instructor Pilot program with the 
Air Force Reserve that will allow 225 active duty pilots to return to 
operational active duty flying units. Each active duty instructor pilot 
will be replaced by either one Active Guard Reserve (AGR) technician, 
or three Traditional Reservists (TR). Currently, we have Reserve 
instructors training side-by-side with active duty Air Force 
instructors at Columbus and Vance AFBs. These instructors provide the 
same quality training as their active duty counterparts. The program 
has proven very successful. By the end of fiscal year 2000, we will 
have Air Force Reserve instructor pilots assigned to each of our 
Specialized Undergraduate Pilot Training (SUPT) bases and aircraft.

                            Personnel Tempo

    Question. As the Air Force transitions from a forward-based force 
to an air expeditionary force based in the United States, what are you 
doing to maintain a balanced personnel tempo? How does the requirement 
for frequent temporary duty assignments affect readiness and a service 
member's quality of life?
    Answer. The Air Force has already done much to address the 
challenge of balancing TEMPO in the face of increasing demands for our 
forces:
Tempo Initiatives
    --Global Sourcing--spreads CINCs taskings across the Combat Air 
Forces (e.g. PACOM unit may deploy to SWA to reduce OPTEMPO of ACC 
units)
    --Global Military Force Policy--establishes limits on tasking of 
selected low density/high demand assets for contingency operations 
(e.g. U-2, AWACS)
    --Reduced Joint/Air Force Exercises
    --Post Deployment stand downs (1 day ``down'' for each 7 days 
deployed; up to 14 down days maximum)
    --Eliminated Quality Air Force Assessments
    --Reduced Operational Readiness Inspections (10% reduction in 
fiscal year 1998; 30% in fiscal year 1999)
    --Implemented temporary duty/deployment tracker
    --Shortened the duration for aviation unit deployments from 90 to 
45 days
    --Funded 2 additional RC-135s
    --Stood up Reserve Associate AWACS Squadron
    --Heavy use of Guard and Reserve units in SWA and Bosnia operations
    High TEMPO has a significant impact on readiness and Quality of 
Life. For the past eight years our airmen have been deployed at a rate 
unprecedented in our history. Many of our present forward contingency 
bases began as bare base installations, where sustainment meant having 
to bring from home most of the equipment and base support people. 
Meanwhile, back at home base, our airmen who remain behind are working 
longer and more intense hours to keep the base running to fill the void 
left by those who are deployed. Every one of our stateside aviation 
bases must still be guarded, aircraft still need to be flown and 
maintained, our troops and families still need base support services, 
and our people still need to train. Normal work stress becomes acute 
across the force when the deployed mission includes the need to rotate 
units, time and again, over an extended period.
    Rotations for the Air Force are a double edged sword because of the 
high readiness rates we are expected to maintain at both ends of the 
deployment. Our high readiness requirements are what drive us to select 
shorter rotations for tactical units. Tactical squadrons get their 
SORTS readiness rating based on accomplishing a host of mission 
training events that have proven to be very difficult, often 
impossible, to accomplish in most contingency areas. So, we rotate 
critical personnel (not necessarily equipment) rearward at shorter 
intervals to reduce the accumulated training ``deficit'', before it 
impacts C-ratings.
    Today, the main aviation bases in the rear are spread so thin, that 
despite airmen working harder and smarter, they have to work longer 
hours and more days to keep aircraft flying. These long hours, while 
gaining the wing a sortie the next day, do so at the cost of high 
workloads and high frustration. That frustration migrates home at the 
end of the day. Airmen and their families are telling us they are 
getting tired of a way of life that cycles between 4-6 months per year 
TDY, and 55 hour work weeks when they are back home. As more of our 
experienced airmen and officers decide to leave us, it is left to our 
inexperienced people to shoulder the load.
    Privately, many of our Airmen might tell you they are becoming 
professionally frustrated over the poor prognosis for a more managed 
way of life for them and their families. Sound--but politically 
unpopular--business and management steps can solve many of our 
problems. Organizationally, we need to reduce our unneeded 
infrastructure and consolidate our equipment and people into the right 
number of locations from which to operate. The effort at home needs to 
be better distributed so that when airmen rotate back from their TDYs, 
they can slow down and still catch up on training, without having to 
work weekends to do it.
    Question. We continue to draw down personnel end strength and force 
structure, but training, exercises, deployments and contingencies have 
intensified. How many years has this high personnel tempo and 
operations tempo been occurring? Would you say the main causes of high 
deployment rates are the CINC demands in ongoing operations over other 
everyday business?
    Answer. Since 1986, the Air Force has downsized by nearly 40 
percent, while military operations other than war have greatly 
increased. Since 1989, the average number of personnel deployed daily 
for contingencies and exercises has grown over fourfold from 3,400 to 
14,600. CINC demands for contingency forces, considered necessary in 
supporting our National Military Strategy, are unquestionably the 
single biggest factor impacting deployment rates, and the demand for 
aerospace forces is likely to remain high for the foreseeable future.
    Question. Which aircraft systems have the highest demand, or are 
always being requested by the CINCs? Does the high demand of these 
types of aircraft cause the air crew to be away from their home station 
more than the 120 day per year temporary duty (TDY) goal? Does this 
vary by aircraft system? What actions have been implemented that 
addresses post-deployment of personnel and aircraft unit rotations?
    Answer. The following weapons systems experienced the highest 
tasking rates between January 1 and December 31, 1997 in support on 
ongoing contingency operations:

                                                     Percent of aircrews
        Weapons system                                exceeding 120 days
U-2*..............................................................    61
EC-130E*..........................................................    46
MH-60*............................................................    45
EF-111*...........................................................    45
MC-130P*..........................................................    33
C-17..............................................................    32
A-10*.............................................................    26
E-3 (AWACS)*......................................................    24
MH-53*............................................................    23
EA-6B * * *.......................................................    23
F-15E.............................................................    22
F-16 (HARM).......................................................    20
HH-60*............................................................    20

* Indicates CINC taskings restricted by Global Military Force Policy 
(GMFP) Asset.
**Indicates Air Force Crewmembers assigned to Navy Asset.

    The workload does vary by weapons system, and many of the systems 
tasked in support of contingency operations receive focused management 
attention under the Secretary of Defense's Global Military Force 
Policy. Because of the additional stress incurred by many of our 
aircrews and support personnel, the Air Force has introduced a number 
of initiatives to provide a measure of relief for our people including:
Post Deployment Initiatives
    <bullet> Post deployment stand downs (1 day ``down'' for each 7 
days deployed; up to 14 down days maximum)
    <bullet> Implemented temporary duty/deployment tracker
    <bullet> Reduced Joint/Air Force Exercises
    <bullet> Reduced Operational Readiness Inspections (10% reduction 
in fiscal year 1998; 30% in fiscal year 1999)
    <bullet> Eliminated Quality Air Force Assessments
Aircraft Unit Rotation Initiatives
    <bullet> Global Sourcing--spreads CINCs taskings across the Combat 
Air Forces
    <bullet> Global Military Force Policy--establishes limits on 
tasking of selected low density/high demand assets for contingency 
operations
    <bullet> Shortened deployments from 90 to 45 days duration for 
aviation units worldwide
    <bullet> Increased use of Guard and Reserve units in all 
contingency operations
    Question. Explain how the Air Force Reserve and Air National Guard 
are helping to relieve perstempo/optempo of active duty forces.
    Answer. Air National Guard and Air Force Reserve participation in 
day-to-day Air Force activity has steadily increased since DESERT 
STORM. Today, more than ever, the Air Force relies on its Total Force--
Active Duty, Air National Guard, and Air Force Reserve, working 
together to meet today's peacekeeping, contingency and wartime 
commitments. The Total Force was used extensively during 1997 as Air 
National Guard and Air Force Reserve forces participated in every major 
deployment and contingency tasking. This trend will continue as Guard 
and Reserve forces play an increasing role in a variety of worldwide 
operations.
    Air National Guard and Air Force Reserve aircrew members serve an 
average of 110 days a year in uniform. During 1997, an average of 6,000 
Guard members and Reservists were deployed each month to support 
exercises, contingencies, and military operations around the world. On 
a volunteer basis, members of the Air Reserve Component around the 
world. On a volunteer basis, member of the Air Reserve Component deploy 
on a rotational schedule, helping to reduce active duty TEMPO without 
jeopardizing their civilian employment.
    In some cases, the Guard and Reserve are paired together to provide 
extended support to the active force. An example of a joint Guard and 
Reserve mission is the July 24 to October 25, 1997 deployment to 
perform sustainment airlift from Ramstein Air Base, Germany, to the 
forces in the Balkans. Other major efforts in 1997 included the 
deployment of security forces to Saudi Arabia; the deployment of civil 
engineers, firefighters, and Air National Guard air traffic controllers 
to Taszar, Hungary, as part of Operation JOINT GUARD; the use of KC-
135s to refuel fighter aircraft enforcing the no-fly zone over Bosnia; 
and the employment of F-15s and F-16s to enforce the no-fly zone over 
Northern Iraq, as well as the use of rescue crews to provide combat 
rescue support for those forces. The Air National Guard and Air Force 
Reserve also participated in over 60 exercises worldwide.

                         Joint Stars Shortfalls

    Question. The Air Force budget last year anticipated a total Joint 
STARS buy of 19 aircraft. Subsequent to the submission of the budget, 
the Quadrennial Defense Review (QDR) included a recommendation to 
reduce the United States procurement objective for Joint STARS from 19 
to 13 aircraft based, in part, on a proposal for NATO to buy 6 
aircraft. Last fall, NATO rejected this proposal. Nevertheless, the Air 
Force budget this year does not include the funds necessary to procure 
beyond 13 aircraft nor the funds to shutdown the Joint STARS production 
line. General Ryan, in your opinion, how many aircraft are required to 
perform the Joint STARS mission?
    Answer. The Joint Requirements Oversight Council (JROC)-validated 
Joint STARS fleet is 19 aircraft. The DOD is conducting reviews of 
requirements and technical alternatives to form choices about the 
overall architecture of airborne surveillance capabilities. The 
Department will then evaluate Joint STARS along with other surveillance 
systems and approaches to ensure dominant awareness of the battlefield. 
The review will be completed by mid-summer.
    Question. What are the operational and logistics implications of an 
inventory of only 13 Joint STARS aircraft?
    Answer. There are two operational implications of only 13 aircraft: 
would only be able to cover two Major Theater War (MTW) requirement 
with one 24-hour orbit vice two. That could increase the risk in a 2 
MTW scenario; and the CINC's availability for joint training and 
contingency support is reduced. The requirement for training aircraft 
in depot maintenance and modifications has a greater relative impact on 
operational aircraft availability with a smaller fleet size.
    Question. The Joint STARS budget as presented to Congress is 
``broken'' since it neither funds the $55-$110 million required for 
fiscal year 1999 advanced procurement for continued production nor the 
$40 million in fiscal year 1999 required for shutdown. Mr. Peters, what 
would you like Congress to do with respect to funding the fiscal year 
1999 JSTARS program?
    Answer. The Air Force supports the President's Budget as submitted. 
The Department will respond to Congress with a plan on how to provide 
additional ground surveillance capability.
    Question. The fiscal year 1999 request for Joint STARS research and 
development includes $40 million for a Radar Technology Improvement 
Program. Is this program fully funded in fiscal year 2000 and out? If 
not, what is the funding required versus the funding budgeted, by year, 
for fiscal year 2000 and out?
    Answer. The Fiscal Year 1999 PB initiates the Radar Technology 
Insertion Program (RTIP) and delivers a RTIP modified test aircraft in 
the fourth quarter of Fiscal Year 2006. This profile is executable as 
funded in the Fiscal Year 1999 PB.

                         F-22 Aircraft Problems

    Question. Last year, first flight for the F-22 was projected to 
occur in May 1997. Instead, mechanical issues with the fuel tank, 
auxiliary power unit, and engine delayed the flight until September. 
Recently, production of F-22 research and development aircraft has been 
delayed by 4-5 months based on manufacturing problems. General Ryan, 
please explain the nature of these manufacturing problems.
    Answer. The F-22 first flight occurred within the window (May 1997-
Nov 1997) established by the Acquisition Program Baseline. Thus, the 
mechanical issues you mentioned did not create any adverse costs or 
schedule impacts to the program.
    There were two manufacturing problems that caused the F-22 test 
aircraft delays: (1) excessive shell inclusions and shrink voids in the 
wing side-of-body castings and (2) excessive time required for the aft 
fuselage boom welding process.
    (1) Shell inclusions are produced when portions of the ceramic mold 
break off into the casting. An excessive number of shell inclusions in 
the F-22 wing side-of-body castings could have weakened the metal 
structure. We solved this problem by increasing the strength and 
durability of the ceramic molds. This decreased the size and quantity 
of shell inclusions to an acceptable level.
    Shrink voids, or air pockets, are created when there is an 
inadequate flow of liquid metal into the mold during the solidification 
process. We solved the shrink-void problem by redesigning the mechanism 
which feeds liquid metal into the casting mold. To date, this solution 
has resulted in 15 shrink-free castings.
    (2) Excessive time was required for touch labor to adjust and shim 
the aft fuselage boom parts in preparation for electronic beam welding. 
Minor design revisions were implemented to simplify the welding 
process, which decreased the time required to an acceptable level.
    The net effect of these two problems has been a delay in the 
delivery of test aircraft 3999 (static article) by 4.6 months; aircraft 
4000 (fatigue article) by 4.7 months; aircraft 4003 by 5.3 months; 
aircraft 4004 by 5.5 months; aircraft 4005 by 2.7 months; and aircraft 
4006 by 0.4 months. Aircraft 4007, 4008, and 4009 deliveries are not 
affected by the manufacturing issues. We are replanning final assembly 
flow for these test aircraft and will have detailed EMD schedule 
recovery plan in place by May 1998. There will be no impact to the 
IOT&E schedule and no delays in production schedule.
    Question. The Committee understands there have also been delays in 
software development. How long are the delays and what caused them?
    Answer. Both the communications/navigation/identification (CNI) and 
common integrated processor (CIP) teams suffered from the loss of 
qualified software engineers. The CNI and CIP software are elements of 
Block 1 software. Lower than expected productivity due to manning 
shortages caused a three week delay in scheduled CNI software 
deliveries to the Avionics Integration Lab (AIL) and delivery of CIP 
software for Version 1.1 to the AIL was 2.5 months late. The AIL is 
continuing integration efforts using an engineering version (EV) of 
software instead of a fully-qualified version, which has reduced the 
delay to 1.5 months. Currently, Block 1 software development has 0.5 of 
a 3 month schedule reserve remaining and overall F-22 software 
development is still on schedule.
    Question. How will these delays impact the F-22 test schedule?
    Answer. There is no impact to the start of Dedicated Independent 
Operational Test Evaluation, IOT&E. Both the communications/navigation/
identification and common integrated processor teams have hired back 
personnel to cover their earlier losses, and schedule reserve is just 
one of the tools the team will [continue to] use to deal with unknown 
risks. The avionics suite is on track to support flight test of 
aircraft 4004, the first full-up avionics and low observable test 
aircraft.
    Question. Despite these delays, the fiscal year 1999 President's 
Budget proposes to award the first F-22 production contract 7 months 
earlier than planned in the budget last year. Given manufacturing 
problems and testing delays experienced in the program since last year, 
is it wise to accelerate production? Are we in too much of a hurry to 
commit the government to production before more of the ``bugs'' have 
been worked out of the aircraft?
    Answer. In reality, production is not being accelerated. The timing 
of the award of the advanced buy contract for Lot 1 remains the same--
June 98. The scheduled deliveries of the Lot 1 aircraft remain the 
same. These Lot 1 aircraft will be utilized in the Dedicated IOT&E 
program. The only date that is changing is the full contract award for 
the Lot 1 aircraft (now Dec 98). Therefore, we do not see this as an 
acceleration of the production program but rather a prudent acquisition 
strategy.
    The F-22 program was established utilizing an event-based 
philosophy. Exit criteria to ensure the program does not proceed before 
it is ready. The exit criteria for awarding the advance buy effort for 
Lot 1 have been achieved. Again, we believe this is the appropriate 
time to move into production.
    The problems the program is currently experiencing are to be 
expected for a complex weapon system during the development phase. The 
program will work through these issues and make the improvements 
necessary to mature the design that meets Air Combat Command 
requirements.
    Question. One of the biggest concerns currently for the B-2 is the 
problem of low observable maintainability. What specifically is being 
done on the F-22 program to avoid or mitigate these problems 
experienced on older generation stealth aircraft?
    Answer. The F-22 is a fourth generation Low Observable (LO) 
aircraft, incorporating lessons learned from previous generation 
stealth aircraft to enhance its LO maintainability. The F-22 program is 
using gap treatment materials (instead of tape like the B-2) that are 
qualified at all flight conditions and environments. Other improvements 
include using J-seals that do not require LO restoration after opening 
the most commonly accessed panels; and, Form-In-Place seals allow less 
frequently accessed panels to be opened without removing the gap 
material, thereby eliminating the need for LO restoration. Overall, 75 
percent of all expected repairs on the F-22 can be accomplished without 
the need for LO restoration.
    Question. Given the challenge and expense the U.S. faces bringing 
new fighters into production, how is it that our adversaries with much 
less resources will be able to afford aircraft that can challenge our 
current fighters? Please list the types and quantity of aircraft, by 
country, projected to have parity or near parity with current U.S. 
aircraft (with future upgrades) in fiscal year 2005, 2010, and 2020. 
U.S. aircraft sold to foreign countries should be listed separately.
    Answer. (U) Our potential adversaries will be better able to afford 
fighters that challenge our F-15s and F-16s because in the first 
quarter of the 21st century, many of the world's air forces will be 
smaller than they are today, cutting their inventories of combat 
aircraft by 20 to 30 percent. The savings from maintaining a 
significantly smaller force will enable the next century's air forces 
to buy modest numbers of technologically sophisticated combat aircraft 
on the world market (e.g., multirole mission capability, extended 
range, and enhanced numitions). The combination of these improved 
aircraft, upgraded air-to-air weapons, and modern SAMs, will 
significantly increase the threat posed by hostile integrated air 
defense systems. ------.
    Question. The Committee understands that the F-22 budget might be 
underfunded in fiscal year 2000 and out based on the quantities 
currently projected. What is the amount required versus the amount 
budgeted for fiscal year 2000 and out, by year (then year dollars) for 
the F-22 program? Is there a shortfall in fiscal year 1999?
    Answer. The F-22 program has no shortfall in fiscal year 1999. 
Program budgets are being worked in the corporate Air Force Program 
Objectives Memorandum (POM) build, which is ongoing. The Air Force is 
committed to the F-22 program and will fully fund that program 
throughout the Future Years Defense Program, in accordance with 
mandatory cost caps.
    Question. Does the OSD CAIG agree with the Air Force estimates of 
the projected savings from the cost reduction initiatives?
    Answer. No. The Air Force estimate for F-22 Production costs is 
$40.9 billion; the CAIG estimate is $49-53 billion. The CAIG and the 
Air Force estimates have moved closer since last year. According to the 
OSD CAIG, the following factors have contributed to the estimate 
differences:
    (1) The CAIG reviewed and individually evaluated all of the 
approximately 200 airframe contractor Production Cost Reduction Plans 
(PCRPs). The net effect of all of these assessments was for the CAIG to 
recognize about 50 percent of the claimed PCRP savings as net savings 
to their estimate.
    (2) The CAIG decided to reduce the engine contractor's proposed 
realization factor on many of the 900 engine PCRPs by one-half when 
computing the net reduction to their estimate from this source.
    (3) The CAIG separately identified the use of contractor logistics 
support, multiyear procurement, and reductions in overhead from 
anticipated Joint Strike Fighter procurement as contingent upon 
government actions. If these government actions are implemented, the 
CAIG estimate ($53.3 billion without actions) would decrease an 
additional $3.8 billion to $49.5 billion.
    Question. Has the Air Force decided on the exact initiatives to be 
pursued? If so, please list these initiatives.
    Answer. Production Cost Reduction Plans (PCRPs) are selected by the 
contractor team due to their insight into cost, risk, and savings 
opportunities. The Air Force estimates $15.20 billion of cost avoidance 
from the following 14 categories:

                                                                Billions
Lockheed-Martin Boeing initiatives:
    Producibility improvement projects (PIPs)..................... $2.50
    Diminishing manufacturing sources (includes OPP)..............  1.75
    Lean enterprise initiatives...................................  2.45
    Material efficiencies.........................................  0.80
    Performance based contracting--includes acquisition reform 
      initiatives.................................................  0.50
    Product support--full contractor support includes warranty 
      elimination.................................................  2.65
    Joint Strike Fighter--overhead rate adjustments due to 
      business base increase......................................  0.50
    Multiyear procurement (for Lots 6 through 13).................  1.25
                                                                  ______
      Lockheed-Martin/Boeing subtotal............................. 12.40
                        =================================================================
                        ________________________________________________
Pratt & Whitney initiatives:
    Multiyear procurement.........................................  0.36
    Warranty elimination..........................................  0.19
    Producibility improvement projects (PIPs).....................  1.75
    Flexible sustainment--subset of contractor logistics support..  0.20
    Diminishing manufacturing sources (includes OPP)..............  0.02
    Rate/quantity improvements/other misc. initiatives............  0.28
                                                                  ______
      Pratt & Whitney subtotal....................................  2.80
                        =================================================================
                        ________________________________________________
      Total estimated savings--F-22 team (as of February 1998).... 15.20
     production cost reduction plans (pcrps) initiative definitions
DMS--Diminishing manufacturing sources
    The DMS PCRP initiative (currently related only to electronic 
components) uses a combination of parts buy-out and redesign strategies 
to protect production schedules. Opportunities for improvement in cost, 
performance, reliability, supportability, and weight are optimized 
within the limits of available funding. While many DMS projects do not 
necessarily provide net cost savings, the aggregate DMS initiatives do 
provide net cost savings.
    DMS projects are aimed at components that are, or will be, 
unavailable in the quantities and at the times needed to support 
aircraft production schedules. Diminishing sources are the result of 
market forces, technological innovation and other economic factors 
which motivate suppliers to end production on certain components or 
product lines.
Lean enterprise
    Combination of Lean Management and Lead Production principles 
applied to a company or group of companies:
    --Lean Management: Application of lean principles to activities 
other than those on the factory floor which cause companies to become 
more efficient, and which result in reduced cost.
    --Lean Production: Application of lean principles to activities on 
the factory floor which cause companies to become more efficient, and 
which result in reduced cost.
Material efficiency
    Cost reduction activities applied to procurement of raw material/
purchased parts, including but not limited to changes in make/buy 
decisions, effective application of group buys, and use of preferred 
supplies.
Performance based contracting
    Utilization of acquisition reform concepts to reduce cost through 
streamlining contract basis and requirements between SPO/contractor and 
contractor/supplier.
PIP--Producibility Improvement Program
    Projects which reduce cost through product redesign/manufacturing 
process changes. Initial investments are required in order to implement 
these projects.
    The contractor team has committed $107M to initiate the investment 
process. Projects funded with this initial investment are accounted for 
within Affordability Analysis 97/98.
Product support
    Savings opportunities reflecting a revised support concept 
including:
    --Avoidance of duplicative government/contractor resources by 
utilizing contractor support and available contractor manufacturing 
assets for depot support.
    --Reduction in support equipment quantity due to reduction in 
aircraft quantity.
    --Deletion of contract warranty provisions.
    --Reduction in number of initial spares procured.
Multiyear buy
    Reduction in overall acquisition cost by committing the Government 
to buy more than one (up to five) fiscal years of production 
requirements with a single contract award in lieu of annual buys.
    Currently applies to Lots 6-10 and Lots 11-13.
JSF (Joint Strike Fighter) rate
    The benefit realized by the F-22 program as a result of the 
reduction in contractor overhead costs resulting from the increase in 
business base generated by concurrent development and production of JSF 
with F-22 production.
    Since both JSF competitors are F-22 team members, savings will be 
realized regardless of the contractor selected for JSF.
    Question. What is the Air Force's current projection of savings 
from these initiatives and what will be the resulting total production 
cost?
    Answer. The Air Force estimates $15.20 billion of cost avoidance 
from 14 categories of the Production Cost Reduction Plans (PCRPs). We 
are the process of adjusting the production cap for the new inflation 
values directed by OSD. The fiscal year 1998 National Defense 
Authorization Act provided limitations on the total amount that could 
be obligated or expended for the F-22 program. For engineering and 
manufacturing development (EMD), the limit is $18.688 billion; for 
production the limit is $43.4 billion. The Act further directs the 
Secretary of the Air Force to adjust these limitations to reflect 
increases or decreases attributable to compliance with federal, state, 
or local laws enacted after September 30, 1997. The Air Force estimates 
production costs to remain within the congressionally mandated cost 
cap. We will notify you when the new cap number becomes available.
    Question. Are all the initiatives fully funded?
    Answer. Yes. The Production Cost Reduction Plans are now part of 
the baseline program and will be negotiated into the production 
contracts beginning with Lots 1-2.

                         Airborne Laser Program

    Question. BMDO is charged with the responsibility within DOD for 
setting priorities for Ballistic Missile Defense. Last year, General 
Lyles, the head of BMDO, provided testimony to this Committee 
indicating that even if the Air Force had not funded the Airborne Laser 
program and even if BMDO received additional funding, that his 
priorities for the additional funds would be first to reduce the risk 
of his core programs rather than fund an aggressive Airborne Laser 
program. In fact, BMDO would not fund an aggressive ABL program until 
the PAC-3, Navy Area, THADD, and Navy Theater Wide programs were well 
into production. General Ryan, would you agree that we should optimize 
the limited DOD resources that can be applied to ballistic missile 
defense?
    Answer. Yes, it is critically important that we optimize our 
limited resources as we pursue Department of Defense (and Service) 
requirements. As stewards of the Air Force budget and as taxpayers, we 
are constantly assessing our requirements and making the tough 
prioritization decisions in order to meet validated needs with limited 
available resources.
    That said, it is important to clarify that the Air Force and BMDO 
both recognize the importance of pursuing the ABL program. The 
Director, Ballistic Missile Defense Organization, testified to the 
National Security Subcommittee of the House Appropriations Committee on 
March 4, 1998, that ABL is needed as part of the Ballistic Missile 
Defense Architecture. It remains DoD's only boost phase intercept 
system and makes a vital contribution to the family of systems approach 
to meet theater ballistic missile defense requirements.
    Question. Do you believe that BMDO is in a reasonable position to 
determine overall priorities for ballistic missile defense?
    Answer. No. Prioritization of ballistic missile defense is the 
responsibility of the Department of Defense, based upon validated 
requirements as specified by service warfighters, reviewed and endorsed 
by the Services, and approved by the Joint Requirements Oversight 
Council (JROC). BMDO's responsibility is to create and maintain the 
Ballistic Missile Defense architecture and ensure that weapon systems 
are fully integrated into the family of systems. While BMDO has a key 
input, the JROC determines the overall priorities.
    Question. General Ryan, how much does the Air Force plan to spend, 
including R&D and procurement, on the Airborne Laser Program? What 
quantity of aircraft will be procured?
    Answer. The Air Force plans to spend a total of $11.1 billion for 
the Airborne Laser program ($2.5 billion research and development, $3.7 
billion procurement, $4.9 billion for 20 years operation and support). 
A total of 7 aircraft will be procured. Initial Operational Capability 
(IOC) is scheduled to occur in fiscal year 2006 with three operational 
aircraft. Full Operational Capability (FOC) is scheduled to occur in 
fiscal year 2008 with all seven aircraft operational.

                        [In billions of dollars]
------------------------------------------------------------------------
                                                       Amount      Qty
------------------------------------------------------------------------
R&D.................................................      $2.5         2
Procurement.........................................       3.7         5
Operations & Support................................       4.9  ........
                                                     -------------------
    Total program...................................      11.1         7
------------------------------------------------------------------------

    Question. Do you believe that BMDO is inappropriately biased 
against the Airborne Laser Program?
    Answer. No, the Director, Ballistic Missile Defense Organization, 
has long been a strong Airborne Laser (ABL) supporter. In a March 4, 
1998 letter to Mr. Young, Chairman, Subcommittee on National Security, 
Committee on Appropriations, he stated:
    ``. . . . The ABL fits into the TAMD Family of Systems as it will 
provide the only boost phase theater ballistic missile defense 
capability in the FoS Architecture. . . . TAMD Family of Systems (FoS) 
analysis indicates that ABL increases the number of TBMs killed in both 
North East Asia and South West Asia scenarios, in both the near and far 
term. . . . I must reiterate that a high funding priority must continue 
to be placed on producing and fielding PATRIOT PAC-3, THAAD, Navy Area, 
and Navy Theater Wide programs as well as our only boost phase kill 
capability, the ABL. . . . I strongly support continued development and 
risk reduction for the ABL at its current level.''
    In addition, during his testimony before the House Subcommittee on 
National Security, Committee on Appropriations on March 4, 1998, the 
Director highlighted these same themes and expressed his strong support 
for the ABL program and its integral role within the TMD Family of 
Systems as the sole boost phase system.
    Question. Currently, the sole mission for the Airborne Laser is 
ballistic missile defense with adjunct missions being ``studied.'' What 
is the status of these studies and when might other missions be 
incorporated as validated requirements for the weapon system?
    Answer. The adjunct mission studies are being conducted in three 
phases. A preliminary look completed in fiscal year 1997, revealed 
potentially four adjunct missions--cruise missile defense, imaging 
surveillance (using ABL's optical system to image objects on the 
ground), protection of high value airborne assets (self-protection and 
protection of other HVAAs using the high energy laser), and suppression 
of enemy air defenses (using the high energy laser to kill enemy air 
defense components on the ground). As the TMD Family of Systems 
architect, BMDO has identified and funded an ABL adjust mission study 
dealing with post boost tracking of TBMs utilizing ABL's active 
surveillance sensor.
    In fiscal year 1998 and fiscal year 1999 an ACC cost/requirements 
analysis will determine which adjunct mission requirements will be 
submitted to the Joint Requirement Oversight Council (JROC) for 
validation. If any new requirements are validated, funds will be 
programmed for the fiscal year 2001 POM. There is currently no 
requirement for adjunct mission capability in the Program Definition 
and Risk Reduction (PDRR) phase.
    Question. Is the Airborne Laser program the only platform 
anticipated for these mission areas? If not, what are the other 
platforms for these other mission areas?
    Answer. No. The Airborne Laser (ABL) will be part of a system of 
systems required to achieve success in both its primary and adjunct 
missions. Contributing to the ABL capability will be space, air, and 
ground based systems which provide intelligence, surveillance and 
reconnaissance of the battle field, as well as a robust command and 
control system. Examples of these systems are the U-2, JSTARS, AWACS, 
UAVs, and intelligence and communications satellites. ABL is joined in 
the attack phase by our fighter and bomber forces (some performing 
attack operations against ballistic and cruise missile forces). ABL is 
also one of the layers of ballistic missile defenses that include upper 
tier and terminal engagement systems.

                            Passenger Safety

    Question. Please update the Committee on the status of the Air 
Force's efforts to install safety devices on its aircraft.
    Answer. The tragic April 1996 CT-43 accident with Commerce 
Secretary Brown on board led to SECDEF's direction to expedite Air 
Force efforts to minimize controlled-flight-into-terrain (CFIT) 
mishaps. The Air Force incorporated those CFIT-prevention initiatives 
into a comprehensive Navigation and Safety Program that includes Global 
Positioning System (GPS), Cockpit Voice and Flight Data Recorders 
(CVRs/FDRs), Ground Proximity Warning System (GPWS), Emergency Locator 
Transmitters (ELTs), and Traffic Alert and Collision Avoidance System 
(TCAS). The Safety portion of the program encompasses GPWS (including 
Enhanced GPWS-EGPWS), TCAS, ELTs, CVRs, and FDRs. Navigation and Safety 
Program implementation plan funding exceeds $1 billion. The fiscal year 
1999 Presidents Budget funding for two very important systems--EGPWS 
and TCAS--is approximately $450 million for the period fiscal year 
1999-fiscal year 2003.
    Question. Please provide a matrix describing which aircraft are 
getting which upgrades.
    Answer.

----------------------------------------------------------------------------------------------------------------
          Aircraft              GPWS/GCAS       EGPWS         TCAS           ELT           FDR           CVR
----------------------------------------------------------------------------------------------------------------
C-5.........................             C            P             P              C             C             C
C-9.........................             C            P           S/U              C             C             C
C-12........................             C            P             P              C            P             P
C-17........................             C            P             P              C             C             C
C-20........................             C            P             P              C             C             C
C-21........................             C            P             P              C             C             C
C-22*.......................             C          U/U           U/U              C             C             C
C-26*.......................             C          U/U              C             C             C             C
C-27*.......................             C          U/U           U/U              C             C             C
C-32........................           --              C             C             C             C             C
C-37........................           --              C             C             C             C             C
C/T-43......................             C          S/U           S/U              C            P             P
C-130.......................            P           S/U           S/U              C             C             C
C/KC-135....................           --             P             P             P             P             P
C-137*......................             C          U/U           S/U              C             C             C
C-141.......................             C            P           S/U              C             C             C
VC-25.......................             C      U/U \1\              C             C             C             C
KC-10.......................             C            P           S/U              C             C             C
E-4.........................             C            P             P              C             C             C
H-1.........................          n/a           n/a             P             P             P             P
H-60........................          n/a           n/a           U/U              C          S/U           S/U
----------------------------------------------------------------------------------------------------------------
Legend: C=Complete P=Programmed (Funded) S/U=Scheduled/Underfunded U/U=Unscheduled/Unfunded n/a=not applicable
  (Helos have GCAS-like system)
Notes: EGPWS=Enhanced Ground Proximity Warning System; GCAS=Ground Collision Avoidance System; TCAS=Traffic
  Alert and Collision Avoidance System; ELT=Emergency Locator Transmitter; CVR=Cockpit Voice Recorder;
  FDR=Flight Data Recorder.
 AA<SUP>*</SUP>=Pending retirement. 1=Aggressively working to establish Congressional ``New Start'' to equip VC-25 with
  EGPWS.

    Question. Is it correct that Traffic Collision Avoidance systems 
(TCAS) are currently not configured for use on tactical aircraft that 
fly in formation? Where does the Air Force stand on integrating TCAS on 
tactical aircraft?
    Answer. The Traffic Alert and Collision Avoidance System (TCAS) is 
installed or planned for installation on all passenger/cargo-carrying 
aircraft (e.g., C-130, C-17) that can perform tactical missions and may 
fly in formation. As long as each aircraft has an operating TCAS and 
IFF transponder, traffic alert and collision avoidance information is 
available to the aircrews. The Air Force plans to install Enhanced TCAS 
(ETCAS) on some aircraft; ETCAS will facilitate extended formation 
flying (e.g., formations of greater than one mile separation between 
aircraft).
    For non-passenger carrying aircraft performing tactical training, 
including associated formation flying, TCAS would provide marginal 
collision-avoidance benefits, if any. Also, the majority of aircraft 
conducting tactical operations have radars and other avionics that 
enhance collision avoidance. Thus, TCAS would have limited utility on 
tactical aircraft, especially fighters. The Air Force will continue to 
review the applicability of TCAS to tactical aircraft as the 
international air traffic control and management system evolves over 
the next few years.

                           C-130 Requirements

    Question. The Committee understands that the Air Mobility Command 
(AMC) has reviewed the problem of C-130 configuration management and is 
currently recommending retiring 150 of the oldest C-130s and procuring 
150 new C-130Js. AMC is also recommending bringing the remaining C-130s 
to a common configuration. General Ryan, is this accurate? If so, what 
is the corporate Air Force view of this AMC proposal?
    Answer. Air Mobility Command has recommended the retiring of 150 of 
the oldest C-130s and procurement of 150 new C-130J-30s. In addition, 
modernization of the remaining C-130s to a common configuration with 
state-of-the-art avionics was also proposed. The corporate Air Force is 
reviewing C-130 modernization proposals and balancing these 
recommendations with other competing Air Force requirements.
    Question. Do you anticipate budgeting for a more robust C-130J 
program in the future?
    Answer. The C-130J is being actively considered as a C-130 fleet 
modernization option.

                           Aircraft Accidents

    Question. Over the course of the last twelve months, 27 Air Force 
active, reserve, and National Guard aircraft have experienced Class A 
mishaps. These are mishaps that result in fatality, a destroyed 
aircraft, or more than $1 million of damage to an aircraft. General 
Ryan, one of these mishaps involved an F-117 flying last September in 
Maryland. What was the cause of this accident and are any modifications 
required to other F-117 to address the problem?
    Answer. According to the Aircraft Investigation Report, the cause 
of this F-117 mishap was a structural failure of left wing support 
brackets that attach the Brooklyn Bridge assembly to the ribs on either 
side of a bay in the left wing. This was due to four missing fasteners. 
The failure of the assembly allowed for excess movement of the left 
outboard elevon, which began to oscillate until the left wing failed 
approximately 2.5 feet inboard of the elevon.
    The aircraft went through a phase inspection at Holloman, AFB, New 
Mexico, in January 1996 where the Brooklyn Bridge assembly was removed 
and reworked. When the assembly was reinstalled, four fasteners were 
inadvertently left off by maintenance technicians. The remaining 
fastener was not sufficient to hold the assembly.
    The accident was caused by the unintentional maintenance oversight 
during the left Brooklyn Bridge assembly reinstallation in January 
1996. This oversight was exacerbated by USAF structural maintenance 
technicians not having approved technical order guidance to complete 
reinstallation, requiring them to rely on engineering support 
personnel. This deficiency of technical orders has been corrected. No 
modifications to the aircraft are required to address the problem.
    Question. Two B-1 bombers crashed this year, one just a few weeks 
ago in Kentucky. General, can you describe the circumstances of these 
two mishaps and any implications there might be for the rest of the B-1 
fleet?
    Answer. On September 19, 1997, a B-1B crashed near Alzada, Montana, 
killing all four crewmembers. According to the aircraft accident 
investigation report, the aircraft began a planned high-speed threat 
avoidance maneuver. The technique used was neither regularly practiced 
nor taught by either of the two mishap pilots. The pilot flying the 
aircraft placed the aircraft into an unfamiliar and ultimately an 
unrecoverable flight regime resulting in a crash.
    A B-1B crashed on February 18, 1998 near Mattoon, Kentucky. As the 
mishap investigation is on-going, it is premature to discuss the mishap 
sequence at this time.
    Air Combat Command has conducted a Conventional Bomber Training 
Review to assess the adequacy and thoroughness of our bomber force 
mission training. The review found the training programs were basically 
sound for the entire bomber force. Suggested improvements to enhance 
the training have either been or are being incorporated.
    Question. Of the 27 Class A mishaps over the last twelve months, 10 
involved the F-16. About half of these involved engine failures and the 
other half involved midair collisions. General, is there a trend here 
with respect to F-16 mishaps? Is the Air Force studying this problem?
    Answer. Between March 1, 1997 and March 1, 1998, the Air Force did 
experience ten Class A Mishaps in the F-16. Four of those were midair 
collisions, four were engine related malfunctions, one a ``G'' Induced 
Loss of Consciousness, and one an out of control situation from which 
the pilot was unable to recover.
    It is unusual to have midair collisions in such a short time, but 
there is no trend here. Each of the four occurred in a different phase 
of flight and the accident board conclusions regarding the causes of 
the mishaps were very different.
    We are not conducting a special study of midair collisions, since 
there is no common thread in these events. We do, however, train 
vigorously in trying to prevent them. First, a pilot is taught from day 
one that a comprehensive mission briefing, which emphasizes the roles 
and responsibilities of each flight member during phases of flight, is 
essential. Second, all pilots are required to adhere to ``training 
rules'' designed to prevent midair collisions. Third, the flying 
community emphasizes thorough debriefs where mistakes during a flight 
are constructively criticized. This philosophy creates a more 
proficient pilot and ensures that a midair mishap becomes less likely. 
Midair awareness and prevention will always be a high interest item in 
the USAF.
    Specifically regarding the engines, two different companies 
manufacture the six engines installed in the F-16. In the mishaps in 
question, both manufacturers' engines where involved. However, there 
was no common thread among them. Because the F-16 is a single engine 
aircraft we are always very concerned when we have an engine 
malfunction. Air Force experts work very closely with both 
manufacturers to analyze trends and manage risk quickly. In these 
particular malfunctions the Air Force has instituted short-term 
solutions to minimize the possibility of a recurrence of the same 
event. Long term solutions have been identified, are being implemented, 
and will effectively eliminate the possibility of the same event 
recurring.

                           T-3 Pilot Screener

    Question. In fiscal year 1994, the Air Force began taking delivery 
of the T-3 as a pilot screening aircraft. Since February 1995, there 
have been three T-3 Class A mishaps with six fatalities at the Air 
Force Academy. There have been 66 instances of engine stoppage 
including nine in flight. General, how long has the T-3 been grounded 
as a result of these mishaps?
    Answer. On July 24, 1997 the Air Force suspended flight-screening 
operations of the T-3A, and will not resume them until full confidence 
in this aircraft and our training parameters is restored. In addition 
to our suspension of flight-screening operations, the Secretary of the 
Air Force recently asked the Air Force Inspector General to conduct a 
Broad Area Review of the entire Enhanced Flight Screened Program (EFSP) 
to reduce risks further. We expect this report to be completed by late 
April 1998.
    Question. What is the problem with the aircraft?
    Answer. After careful analysis and testing, we believe most of the 
uncommanded engine stoppages were caused by problems in the fuel 
delivery system.
    Question. Has the Air Force identified modifications that will 
correct these problems? If so, what are they and how much will they 
cost?
    Answer. Yes, a series of ten modifications at a cost of $6.24 
million for the entire 110 aircraft fleet was funded in December 1997. 
We're confident these modifications will correct the fuel-system 
anomalies that caused the uncommanded engine stoppages. The 
modifications are:
    <bullet> Shorten and straighten fuel lines
    <bullet> Increase and standardize fuel line diameter
    <bullet> Relocate and increase diameter of fuel selector valve
    <bullet> Remove Automatic Moisture Control (AMC) from the system 
(pilot will manually adjust)
    <bullet> Change fuel flow divider spring
    <bullet> Relocate fuel boost pump
    <bullet> Increase flop tube diameter
    <bullet> Increase engine accessory compartment cooling
    <bullet> Alter Ram-Air box geometry
    <bullet> Study to add engine stoppage (low Exhaust Gas Temperature) 
audible warning
    Question. When do you anticipate the T-3 will be returned to full 
flight status?
    Answer. We expect to resume Enhanced Flight Screening Program 
(EFSP) operations in late August/early September 1998. Instructor pilot 
requalifications should begin in late May/early June 1998.
    Question. What has been the ``work around'' for not having these 
pilot screening aircraft available? How has our pilot training been 
impacted?
    Answer. Students were granted waivers for entry into Specialized 
Undergraduate Pilot Training (SUPT) without completion of Enhanced 
Flight Screening Program (EFSP). It's too early to tell what the impact 
will be on our pilot training, since the first unscreened students just 
entered SUPT in September 1997. Anecdotal evidence from interviews 
indicates that over two-thirds of those eliminated from SUPT would have 
been identified during EFSP. We anticipate some increase in attrition. 
Since we currently have no excess capacity in our pilot production, 
this would lower the number of graduates, and cause us to fall short of 
our pilot production goals.
    Question. Are there any lessons learned from this experience with 
the T-3?
    Answer. The lessons we learned cover a broad spectrum from 
acquisition and testing of commercial off-the-shelf (COTS) items, to 
training and procedures. We will incorporate lessons learned from the 
T-3A acquisition into future COTS acquisitions. COTS strategies 
streamline and compress the acquisition process; therefore, any 
modifications to the off-the-shelf system must be thoroughly tested. 
Additionally, the Air Force Inspection Agency (AFIA) is currently 
conducting a specialized review (called Eagle Look) of the testing and 
modification process. The acquisition of new equipment should go hand-
in-hand with the development of training procedures and a course 
syllabus. We have thoroughly reviewed our Enhanced Flight Screening 
Program (EFSP) training procedures and course syllabi, and are making 
appropriate changes.
    We are committed to providing a safe environment for all our 
aviators. The Air Force has conducted several major studies, including 
the SAF/IG and AETC Broad Area Review (BARs), and the AFIA's review of 
Commercial and Non-Developmental Item (CaNDI) Aircraft Programs. 
Numerous recommendations contained in these reports will be implemented 
to continuously improve our acquisition, training, and flying 
operations.

                         F-15 and F-16 Aircraft

    Question. The baseline inventory requirements for both the F-15 and 
F-16 were met several years ago, and in recent years, we have been 
procuring aircraft to meet attrition reserve requirements. The budget 
this year includes no funds for new production of either the F-15 or F-
16. General Ryan, have we met the inventory requirements, including 
attrition reserve, for the F-15 and F-16? If not, what are the 
shortfalls for each platform?
    Answer. As you mentioned, we have met baseline inventory 
requirements for both the F-15 and F-16. Additionally, the attrition 
reserve fleets for the F-15C and F-15E are sufficient to meet 
operational requirements throughout their programmed service lives.
    However, based on our 20.21 Fighter Wing Equivalent, FWE, and given 
historical attrition rates for the F-16, we will begin to experience an 
F-16 attrition reserve shortfall beginning in fiscal year 2007. This 
shortfall will grow to 25 aircraft by fiscal year 2010, when the Joint 
Strike Fighter (JSF) reaches IOC.
    Question. If there are shortfalls, what is the Air Force plan to 
deal with these shortfalls?
    Answer. The attrition reserve fleets for the F-15C and F-15E 
aircraft are sufficient to meet operational requirements throughout 
their programmed service lives.
    Given our focus on readiness and modernization, we have chosen not 
to purchase additional F-16 attrition reserve aircraft and we accept 
the mid-term risk associated with this shortfall.

                        Unmanned Aerial Vehicles

    Question. General Ryan as you know, there currently are two high 
altitude endurance UAVs under an Advanced Concept Technology 
Demonstration, ACTD, program, the Global Hawk and the DarkStar. There 
has been some delay in schedule, however, I understand that Global Hawk 
successfully flew this past weekend and the DarkStar is scheduled to 
fly again the end of the month. I also understand that the cost per 
vehicle is estimated to be considerably higher than the original 
requirement of $10 million for vehicles 11 through 20. I realize that 
these UAVs are currently under DARPA program management. But if they 
successfully pass military utility assessment, the Air Force will take 
over. From what you know of the current configuration and capabilities 
that are being developed, how confident are you that these UAV systems 
will meet military utility and suitability?
    Answer. The Air Force believes both Global Hawk and DarkStar could 
offer significant military utility. Global Hawk may provide significant 
improvements in range and endurance. DarkStar may provide on-demand 
imagery coverage in denied airspace. Neither system has completed the 
flight test nor demonstration phases of their ACTD. It is premature to 
estimate either system's utility or suitability until the ACTD is 
complete and the JROC has compared the results to the operational 
requirements document being written by Air Combat Command.
    Question. The current estimate per vehicle for the Global Hawk is 
now approaching $13.6 million and for the DarkStar almost $12 million. 
Has the Air Force planned for these increases in costs?
    Answer. The Air Force has made the post-ACTD funding of Global Hawk 
and DarkStar an issue in the fiscal year 2000 Program Objectives 
Memorandum. We will determine the appropriate level of funding for 
post-ACTD activity at that time. Our options account for variations in 
the unit flyaway price based on possible outcomes of the ACTD process.
    Question. It is envisioned that the Global Hawk is the ``follow-
on'' platform for the U-2. I understand that you are looking at an 
option to reopen the production line for the U-2. Is that correct? If 
yes, why?
    Answer. Currently, there are no plans to re-open the U-2 production 
line. The Global Hawk is one of two complementary air vehicles being 
developed, along with a Common Ground Segment, in the High Altitude 
Endurance (HAE) Unmanned Aerial Vehicle (UAV) Advanced Concept 
Technology Demonstration (ACTD). The Global Hawk is envisioned to be a 
long-dwell, stand-off collection platform similar to the U-2. The 
Global Hawk had its first flight on February 28, 1998, and has entered 
the airworthiness part of Phase II, System Test, of the ACTD.
    If the HAE UAV ACTD is successful and a decision is made to acquire 
and operate Global Hawks, the Global Hawk will initially augment the U-
2. The current ACTD version of the Global Hawk will carry EO/IR and SAR 
sensors, but cannot fully replicate U-2 collection capabilities. 
Decisions to phase out the U-2 and replace it with the Global Hawk will 
not occur until the Global Hawk has been proven affordable, capable, 
cost-effective, and reliable.,
    The High Altitude Endurance UAV ACTD was initiated to alleviate our 
shortfall in imagery intelligence. If the ACTD is unsuccessful, one of 
the options that may be considered to achieve the required capability 
is to acquire additional U-2s.

               National Airborne Operations Center (NAOC)

    Question. The National Airborne Operations Center (NAOC) program 
consists of four Boeing 747 aircraft outfitted to carry a battlestaff 
with the mission to mirror the capabilities of the Pentagon's National 
Military Command Center (NMCC) during a nuclear war. The aircraft has 
recently been designated for other missions including Secretary of 
Defense transport and mobile command and control element for the 
Federal Emergency Management Agency (FEMA). General Ryan, do you 
believe that the NAOC mission area will be with us for a long time? Why 
or why not?
    Answer. Yes, I believe the NAOC mission will be with us for the 
foreseeable future. As long as our nation faces the threat of weapons 
of mass destruction, we will need the survivable means to control our 
forces only NAOC can provide--there simply is no substitute. DoD-wide, 
we've already reduced the Strategic Military Command Center 
architecture from its Cold War level of 59 airborne platforms to 20, 
and although we consider this 66 percent reduction appropriate, what 
remains, to include four NAOC aircraft, must be robust, capable and 
viable with a fully combat-ready crew force. In peacetime, the NAOC's 
considerable capabilities provide flexible and needed communications to 
the National Command Authorities, and to the Federal Emergency 
Management Agency during national emergency operations.
    NAOC's force structure and missions are legitimate, validated and 
necessary. NAOC will be around for a long time, and its modernization 
should be vigorously supported.
    Question. The switching system and multiplexers are at the heart of 
the NAOC system. However, these components date to the 1960s and have 
long since become obsolete. Currently, the switching circuit cards are 
literally held in place by string. Replacement parts are not available 
in the supply system and must be salvaged from the Air Force museum at 
Wright Patterson Air Force Base. Given the many nuclear command and 
control upgrades funded over the last decade, why have these aircraft 
been so neglected? What is being done to rectify this situation?
    Answer. First, let me assure you that the most vital NAOC systems, 
while based on outdated technologies, can accomplish their most 
critical tasks today. This is due in large measure to the dedication 
and resourcefulness of the joint aircrew and staff assigned to perform 
the NAOC mission.
    As you correctly noted, past circumstances have occasionally 
required somewhat ``unconventional'' methods of inflight 
troubleshooting and repair of systems throughout the aircraft. 
Unfortunately, this is a trend which is becoming increasingly more 
frequent. For this reason, we are fully behind plans to modernize all 
four NAOC aircraft and take advantage of tremendous advances in 
communications and information processing technologies. We agree that 
these upgrade efforts are long overdue.
    That being said, many factors contributed to past underfunding--but 
not neglect--of the NAOC fleet. Severe reductions in post Cold-War 
defense spending forced us, and, in fact, all of DoD, to make tough 
decisions on where to cut force structure, organizations and programs. 
At the same time, perceptions of reduced nuclear threats shifted its 
operational focus from strategic to conventional. As a result, funds 
were made available for only the most critical upgrades to the NAOC 
fleet, such as the recently completed MILSTAR modification. Another 30 
or so key improvements have also been completed since 1979.
    This past year, at the request of the Secretary of Defense, an Air 
Force-led joint integrated process team developed a comprehensive 
Roadmap to modernize the NAOC fleet. DoD then endorsed and budgeted 
funds to support our plan, with a total cost estimated at $198 million 
through fiscal year 2006. We ask for your support in funding the 
initiation of these planned modernization efforts in the fiscal year 
1999 President's Budget.
    Question. The NAOC is extremely survivable once airborne. However 
while sitting on ground alert, the aircraft is vulnerable to sabotage 
and attack. Do you believe the Air Force has taken all the necessary 
steps to ensure the safety of the aircraft and crew while on alert?
    Answer. Yes. Adequate physical security measures are being employed 
based on known and postulated threats. The NAOC alert aircraft and 
crews are afforded priority protection to produce a safe and secure 
operating environment, ensuring they are capable of meeting operational 
requirements. Long term protection enhancement measures designed to 
prevent potential vulnerabilities are constantly being evaluated and 
improvements undertaken as warranted. An example of this is the 
relocation of Wright Patterson AFB alert crew billets to house crew 
members in a more secure and controlled location inside the alert area 
and provide better access to aircraft. This project is planned to be 
completed this fiscal year.
    Question. How does the physical protection of NAOC compare to other 
elements of the nation's nuclear infrastructure (weapons and command 
and control elements)? How does the importance of NAOC compare to these 
other elements of the nation's nuclear infrastructure?
    Answer. The NAOC provides National Command Authorities (NCA) with 
survivable airborne command and control throughout the full spectrum of 
nuclear operations. It receives the same stringent force protection 
measures (top priority) afforded all critical nuclear related resources 
entrusted to AF control. Dedicated response forces are assigned, and 
electromechanical intrusion detection and surveillance devices are 
employed. Significant emphasis is placed on this C2 asset due the vital 
role it plays in the execution of our national defense capabilities.

                   Cooperative Engagement Capability

    Question. The nation has spent over $1.2 billion to develop the 
Navy's Cooperative Engagement Capability (CEC), which is a network that 
allows sharing of precise radar information between aircraft, ships, 
missiles, and sensors. Since the network is only as good as the sensors 
in it, AWACS must eventually be a key player in the CEC system if 
theater CINCs are to be supported by interoperable forces. Former 
Defense Secretary Perry called CEC ``the most significant technological 
development since stealth.'' What is the Air Force doing to get ``the 
most significant technological development since stealth'' onto Air 
Force AWACs aircraft?
    Answer. Last year the Air Force assessed the results of both the 
Mountain Top exercise and the final results of the Joint Engagement 
Technology Study (JETS). The Mountain Top exercise validated the 
integration of CEC and the Joint Tactical Information Distribution 
System (JTIDS), and the ability of the AWACS to act as an airborne 
relay of CEC data utilizing JTIDS.
    The JETS study results were limited to qualitative assessments 
only. Operators perceived an increased situational awareness through 
tracking continuity and improved timeliness of tactical information. 
While CEC does not possess an organic aircraft identification 
capability, once identification through other sensors was accomplished, 
track identification maintenance was improved. As in the Mountain Top 
scenario, netting sensors via CEC increased the battle space and 
facilitated battle management decisions.
    While these two studies provided a broadbrush assessment of placing 
CEC on AWACS, neither produced quantifiable, objective results. In both 
studies design limitations on sensor placement, sample size and lack of 
statistically significant data collection limited the utility of the 
results. Compounding the problem was the absence of a clearly defined 
Navy, Air Force or joint concept of operations for CEC employment.
    The Air Force, in conjunction with the Joint Theater Air Missile 
Defense Organization (JTAMDO), has initiated a comprehensive four phase 
study to determine the utility of CEC on AWACS. Phase 1, the 
technological analysis, initiated in March 1998, will compare the All 
Services Combat Identification Evaluation Team (ASCIET) baseline Link 
16 picture against what CEC could have provided (accomplished via 
modeling and simulation). The technological study will then take the 
next step and compare those results against a projected `improved' 
(2010 capability) Link 16 picture. Phase 1 is expected to last 3 
months. Phase 2, an operational utility analysis, will compare the 
value added benefit to the operator of a baseline/modified Link 16 
picture versus a CEC picture. The operational utility assessment will 
immediately follow the technological analysis; expected duration is 4 
months. Phase 3, the electromagnetic study, will determine if CEC 
interferes with any other sensor on board the AWACS. Phase 4, the CEC 
employment study, will establish how CEC can be integrated into the 
AWACS concept of operations. The electromagnetic and employment concept 
studies will run concurrently. They are expected to commence in 
September 1998, lasting approximately 6-9 months. Once these studies 
are completed the Air Force will evaluate the results to determine 
follow-on investment decisions.
    Question. How much is in the Air Force's budget in 1998 and each 
year of your outyear budget plan for this purpose?
    Answer. The funds in the Air Force's budget for the demonstration 
of CEC on AWACS are as follows:

                 [By fiscal year in millions of dollars]

1999..............................................................   7.9
2000..............................................................  15.8
2001..............................................................  13.7
2002..............................................................   3.8
2003..............................................................   0.8
                                                                  ______
    Total.........................................................  42.0

    Question. On December 5, 1995 JCS Chairman Shalikashvili wrote to 
the Committee and said: ``When equipment and funding are available, the 
Air Force intends to put CEC on an AWACs aircraft to examine the full 
benefits of AWACS/CEC employment applications.'' So, how did the Air 
Force follow up on the JCS commitment to the Congress?
    Answer. Last year the AF assessed the results of both the Mountain 
Top exercise and the final results of the Joint Engagement Technology 
Study (JETS). The Mountain Top exercise validated the integration of 
CEC and the Joint Tactical Information Distribution System (JTIDS), and 
the ability of the AWACS to act as an airborne relay of CEC data.
    The JETS study results were limited to qualitative assessments 
only. Operators perceived an increased situational awareness through 
tracking continuity and improved timeliness of tactical information. 
While CEC does not possess an organic aircraft identification 
capability, once identification through other sensors was accomplished, 
track identification maintenance was improved. As in the Mountain Top 
scenario, netting sensors via CEC increased the battle space and 
facilitated battle management decisions.
    While these two studies provided a broadbrush assessment of placing 
CEC on AWACS, neither produced quantifiable, objective results. In both 
studies design limitations on sensor placement, sample size and lack of 
statistically significant data collection limits the utility of the 
results. Compounding the problem was the absence of a clearly defined 
Navy, Air Force or joint concept of operations for CEC employment.
    Consequently, in March 1998 the Air Force, in conjunction with the 
Joint Theater Air Missile Defense Organization (JTAMDO), initiated a 
comprehensive four phase CEC on AWACS integration study. This study 
analyzes the technological and operational utility of CEC on AWACS, 
CEC's electromagnetic impacts to the AWACS platform, and determines a 
CEC on AWACS employment concept. The first phase, the technological 
analysis study, is already underway and will last until June 1998. The 
second phase, operational utility assessment, will be conducted 
immediately following the technological analysis with an expected 
duration of 4 months. The electromagnetic impact and employment concept 
studies will run concurrently. They will commence in September 1998 and 
are expected to last 6-9 months. Once this comprehensive study is 
completed the Air Force will evaluate the results to determine follow-
on investment decisions.
    Question. How much is required in the Air Force R&D appropriation 
to perform the JCS directed demonstration, by fiscal year?
    Answer. The Air Force estimates that approximately $53.1 million is 
required to complete the JCS directed demonstration of integrating CEC 
on AWACS. Currently, the Air Force has the following amounts budgeted 
for the demonstration:

                 [By fiscal year in millions of dollars]

1999..............................................................   7.9
2000..............................................................  15.8
2001..............................................................  13.7
2002..............................................................   3.8
2003..............................................................   0.8
                                                                  ______
    Total.........................................................  42.0

    The above funding may need to be adjusted based on results of the 
Joint Theater Air Missile Defense Organization (JTAMDO) and Air Force 
study.

                       Gender Integrated Training

    Question. In June 1997, the Secretary of Defense appointed the 
Federal Advisory Committee on Gender-Integrated Training and Related 
Issues to assess the current training programs of the Military Services 
and determine how best to train a gender-integrated, all volunteer 
force. The recommendations of the December 1997 Kassebaum Report center 
on the quality of recruits and the need to instill discipline 
throughout the training process. The report also recommends 
establishing separate barracks for male and female recruits. The 
January 1998 Defense Advisory Committee on Women in the Military 
(DACOWITS) Report highlights some of the same issues as the Kassebaum 
Report but adds that the Services need to establish and enforce clearer 
gender related policies in areas such as fraternization. What is the 
estimated cost to implement the recommendation in the Kassebaum report? 
What would the impact be on each: the Defense Appropriations bill and 
the Military Construction Appropriations bill?
    Answer. Preliminary evaluation indicates costs to implement the 
recommendations to provide separate barracks at both recruit and 
advanced training would be, at a minimum, $48 million for 
implementation and $2.2 million recurring costs. Manpower for recruit 
training is six personnel and to be determined for advanced training. 
Costs and manpower at Joint training locations requires study .
    Until we determine the costs and manpower at Joint training 
locations we cannot determine the overall impact on the two bills 
cited.
    Question. The Committee understands that each Military Service is 
developing its own recommendations independently on the Kassebaum 
report. Would you please give the Committee an indication of your 
position?
    Answer. Air Force views have been provided to the Secretary of 
Defense for his consideration and, while Air Force supports most of the 
conclusions reflected in the Kassebaum report, we have certain specific 
concerns that are being evaluated with the Department.
    Question. What is your understanding of the Office of the Secretary 
of Defense's role in coordinating the Services' recommendations?
    Answer. The Office of the Secretary of Defense (SECDEF) did not 
review the Air Force report referenced in the prior question until it 
was completed by the Air Force. After the Air Force report--and those 
of the other services--was submitted to the Secretary of Defense, the 
SECDEF evaluated the Services' inputs to ensure training programs met 
mission needs and provided a safe/secure training environment. SECDEF 
has directed each Service further investigate and report on: (1) 
development of a system of rewards and incentives to ensure our best 
become trainers; (2) adding rigor to basic military training's physical 
fitness programs; (3) physically separated living areas, if not 
buildings, for male and female basic trainees. A report is due by April 
15, 1998.

                     Privatization and Outsourcing

    Question. The Air Force has an aggressive privatization program 
designed to contract out base support functions such as vehicle 
maintenance, facilities maintenance and civil engineering, automated 
data processing operations, and numerous administrative functions. DoD 
claims that a significant portion of the end strength reductions 
specified in the Defense Reform Initiative will be achieved through 
privatization of functions currently performed in-house by DoD. DoD 
also claims that outsourcing will result in cost reductions of about 20 
percent. What are the net savings from outsourcing and privatization 
assumed in the Air Force's fiscal year 1999 budget request?
    Answer. The Air Force is projecting $1.5 billion savings through 
fiscal year 2003 through competitive sourcing. The savings are 
projected to result from competitions conducted under the A-76 process. 
Savings in A-76 competitions since 1979 have been at the 24 percent 
level; however, in the last ten years we have achieved savings of 34 
percent. In the fiscal year 1999 President's Budget, we budgeted a 
conservative savings of 25 percent. We have not programmed any dollar 
savings for initiatives in housing and utilities privatization.
    Question. What costs have been incurred by the Air Force to 
implement its privatization program?
    Answer. With respect to A-76 programs, Air Force has spent 
approximately $7 million on training, systems upgrades, Performance 
Work Statement development and contractor augmentation since FY95. 
Based on our increased study loads, we will require additional dollars 
to augment our force to accomplish the studies. Approximately $2 
million has been spent on utilities and housing privatization studies.
    Question. What measures has the Air Force implemented to validate 
savings?
    Answer. The AF has tracked cost comparisons and direct conversions 
via the Commercial Activities Management Information System since 1979. 
Per DoD policy, we are required to track/validate actual costs of 
performing functions that have been cost compared for three performance 
periods (which DoD is increasing to five years). Savings can be 
computed by comparing the cost of performing the function prior to the 
cost comparison to the actual cost of performance after a given 
performance period is completed. This provides the historical basis to 
project and program overall savings across the FYDP for our entire 
Competitive Sourcing Program. We conservatively program dollar savings 
at 25%. We track and report to OSD on every decision (both contract and 
in-house) and adjust the overall projected savings to the ``actuals'' 
as they occur.
    Question. What are the limits of privatization? Are the Air Force's 
efforts limited by the need to maintain a rotation base? Does the need 
to maintain certain skills among military or civilian personnel limit 
your ability to privatize functions?
    Answer. There are limits to privatization based on military 
essential and inherently governmental requirements. Recently, General 
Ryan and I directed all Major Commands to review positions identified 
as A-76 candidates to ensure that any resulting military personnel cuts 
would be consistent with Air Force OPTEMPO and rotation base goals. We 
have taken those limits into consideration in our outsourcing and 
privatization program. Our candidate population for outsourcing is 
primarily at wing level or below within the Continental United States. 
This candidate population is not required for deployment or forward 
basing to support the 2 Major Theater War concept, but we are assessing 
the role of these positions as they may affect OPTEMPO during times of 
high deployment levels. We do not consider other military essential 
positions, such as commanders, firefighters, security guards, etc., in 
our candidate population, nor do we consider positions that are 
determined to be inherently governmental.

    [Clerk's note.--End of questions submitted by Mr. Young. 
Questions submitted by Mr. Lewis and the answers thereto 
follow:]

                         Corporate Acquisitions

    Question. There have been several recent news stories about the 
possible acquisition of the Computer Sciences Corporation by Computer 
Associates. I understand that Computer Sciences does a lot of sensitive 
and important work for the Department of Defense as well as the 
intelligence community and that Computer Associates currently does not 
perform comparable sensitive work for the government. This possible 
deal raises a number of issues in my mind and I urge you to watch it 
carefully. I look forward to your reporting back to the Subcommittee 
when you have had the chance to assess this proposed acquisition and 
its possible ramifications.
    Answer. The acquisition of Computer Sciences Corporation by 
Computer Associates did not happen; however, the Air Force is very 
sensitive to acquisitions or mergers within industry which may have an 
impact on the Air Force. The Office of the Assistant Secretary of the 
Air Force for Acquisition has a continuing responsibility to monitor 
potential and ongoing acquisitions or mergers of companies with 
existing DoD contractual relationships. The Air Force evaluates 
mergers, acquisitions and restructuring in the industry with a specific 
sensitivity to the impact such restructuring can have on the 
competitive environment; the research, development, and manufacturing 
base for essential military products and the protection of capabilities 
and technologies that impact our national security. Foreign corporate 
acquisitions represent an opportunity for unauthorized technology 
transfer, particularly when the US firm is involved in sensitive, 
state-of-the-art research and development. For this reason, the Air 
Force evaluates mergers, acquisitions and restructuring in the industry 
with a specific sensitivity to the impact on long term national 
security interests and in particular, the impact such restructuring can 
have on the competitive environment; the research, development, and 
manufacturing base for essential military materials; and the protection 
of capabilities and technologies that impact our national security 
interests.

    [Clerk's note.--End of questions submitted by Mr. Lewis. 
Questions submitted by Mr. Hobson and the answers thereto 
follow:]

                            Civil Air Patrol

    Question. The Civil Air Patrol is unhappy with the determination of 
the Air Force General Counsel. CAP would now receive a grant from the 
Air Force instead of the historic procedure which has worked perfectly 
well of the CAP having a line item and congressional review. General 
Ryan, I understand that you are a CAP alumnus. How are we going to help 
the Civil Air Patrol?
    Answer. It is well recognized that the Air Force has a long-
standing, mutually beneficial relationship with the Civil Air Patrol 
(CAP). It is important, however, for us to ensure that our support 
meets both the letter and spirit of the law.
    The AF Audit Agency (AFAA) had that in mind during their recent 
audit of CAP when they raised the question of the applicability of 
Office of Management and Budget (OMB) Circulars to CAP. Because the 
issue involved an interpretation of law rather than policy, we asked 
the office of the Air Force General Counsel to review the matter. While 
an initial review by her staff did not preclude the applicability of 
the OMB Circulars, the General Counsel is still reviewing the matter 
and has not rendered a final opinion.
    The Air Force General Counsel is continuing to assess the 
applicable guidance and appropriate internal controls to ensure the 
accountability for appropriated funds, but this does not mean that the 
Air Force is in any way reducing its support for the Civil Air Patrol. 
The Air Force will keep CAP in its programming and budgeting process, 
and will continue to transfer funds to them, whether by line item or 
grant. It is noteworthy that the National Guard Bureau uses cooperative 
agreements pursuant to the Federal Grant and Cooperative Agreement Act 
as the legal instruments through which Federal funds are provided to 
state military departments.
    While the Air Force General Counsel continues its review, an 
Integrated Process Team (IPT) is being formed to review all of the 
challenges currently facing CAP, including CAP organizational 
structure, realignment possibilities, mission impacts, funding options, 
and possible statutory changes. The IPT will report its findings and 
recommendations to me before fiscal year 2000 program inputs are 
completed.
    We will continue to work with Congress to support CAP and its many 
valuable activities.

    [Clerk's note.--End of questions submitted by Mr. Hobson. 
Questions submitted by Mr. Dixon and the answers thereto 
follow:]

                   Corporate Acquisitions and Mergers

    Question. Recently, a number of reports have highlighted concerns 
about the possible acquisition of the Computer Sciences Corporation by 
Computer Associates International Inc. Although it appears that 
Computer Associates current acquisition effort has been abandoned, I am 
interested in the Department's views. Computer Sciences Corporation 
does important classified work for the Department of Defense, and 
concerns have been raised about the company's ability to do very 
sensitive work with required objectivity and independence after 
acquisition. What is the department's view on this matter, and in 
general the problems of mergers between organizations active in highly 
classified defense work by larger concerns with either little 
experience in such activities or with substantial foreign ties?
    Answer. The Air Force is very interested in acquisitions or mergers 
within industry which may have an impact on Air Force procurement. The 
Office of the Assistant Secretary of the Air Force for Acquisition has 
a continuing responsibility to monitor potential and ongoing 
acquisitions or mergers of companies with existing DoD contractual 
relationships. Contractual agreements established with companies remain 
binding throughout the performance period of the contract regardless of 
organizational changes. Foreign corporate acquisitions represent an 
opportunity for unauthorized technology transfer, particularly when the 
US firm is involved in sensitive, state-of-the-art research and 
development. For this reason, the Air Force evaluates mergers, 
acquisitions and restructuring in the industry with a specific 
sensitivity to the impact on long term national security interests and 
in particular, the impact such restructuring can have on the 
competitive environment; the research, development, and manufacturing 
base for essential military materials; and the protection of 
capabilities and technologies that impact our national security 
interests.

    [Clerk's note.--End of questions submitted by Mr. Dixon. 
The Fiscal Year 1999 Air Force posture statement, as referred 
to on page 453, follows. The 1998 Annual Report to the Congress 
by the Secretary of Defense is printed at the end of this 
hearing volume. See page 630.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           W I T N E S S E S

                              ----------                              
                                                                   Page
Dalton, Hon. J. H................................................    22
Johnson, Adm. J. L...............................................   229
Krulak, Gen. C. C................................................   229
Peters, Hon. F. W................................................   449
Reimer, Gen. D. J................................................     1
Ryan, Gen. M. E..................................................   449
Walker, Hon. R. M................................................     1


                               I N D E X

                              ----------                              

                   FISCAL YEAR 1999 AIR FORCE POSTURE

                                                                   Page
Additional Funding...............................................   558
Airborne Laser Program (ABL).....................................   572
Aircraft Accidents...............................................   575
Aircraft Programs:
    Bomber Force.................................................   530
        B-2 Aircraft...........................................533, 538
    C-17 Aircraft................................................   546
    C-130 Requirements...........................................   574
    C-141 Aircraft...............................................   556
    F-15 and F-16 Aircraft.......................................   577
    F-22 Aircraft Problems.......................................   568
    Joint Surveillance Target Attack Radar System (JSTARS) 
      Aircraft...................................................   554
        Shortfalls...............................................   568
    Joint Strike Fighter Program (JSF).........................540, 554
    T-3 Pilot Screener Aircraft..................................   576
Air Force Institute of Technology................................   535
Air Force Strategy...............................................   556
Air-to-Air Missiles..............................................   554
Base Commander Turnover..........................................   534
Base Realignment and Closure (BRAC)..............................   528
Civil Air Patrol.................................................   582
Contingency Operations...........................................   562
Cooperative Engagement Capability (CEC)..........................   579
Corporate Acquisitions and Mergers.............................582, 583
Evolved Expendable Launch (EELV) Program.........................   539
Forward Basing Access............................................   529
Gender Integrated Training.......................................   580
Introduction.....................................................   449
Kelly Air Force Base.............................................   545
Lackland Air Force Base..........................................   544
Laughlin Air Force Base..........................................   543
Line-Item Veto...................................................   534
Mission Capable Rates, Air Force (MCR).........................528, 560
National Airborne Operations Center (NAOC).......................   578
Operation and Maintenance Shortfalls.............................   540
Passenger Safety.................................................   573
Personnel Endstrengths...........................................   563
Personnel Recruiting and Retention Issues..526, 537, 539, 542, 546, 563
Personnel Tempo (PERSTEMPO)......................................   565
Potential Savings................................................   555
Privatization and Outsourcing....................................   581
Report to the President and the Congress by the Secretary of 
  Defense, The 1998 Annual.......................................   630
Space Command and Control........................................   533
Statement of F. Whitten Peters, and General Michael D. Ryan, The 
  Joint..........................................................   454
Summary Statement of General Ryan................................   524
    Modernization................................................   525
    Retention....................................................   525
    Summary......................................................   526
Summary Statement of Secretary Peters............................   450
    Air Force Personnel..........................................   450
    Emergency Supplemental.......................................   452
    Modernization................................................   452
    Readiness....................................................   451
    Revolution in Business Affairs...............................   452
    Summary......................................................   453
Supplemental Request, Fiscal Year 1998...........................   542
Tactical Aircraft Modernization..................................   538
Traffic Collision Avoidance System...............................   546
Two Major Regional Contingency (MRC) Strategy, Air Force Ability 
  to Support the.................................................   560
Unmanned Aerial Vehicles (UAVs)..................................   577
                     FISCAL YEAR 1999 ARMY POSTURE
Advanced Warfighting Experiments (AWEs)..........................   123
Ammunition Supplies, Adequate....................................    72
    M829A2 (A2) Round............................................   136
    Tank Ammunition..............................................   130
    Training Ammunition Destruction..............................71, 75
Army After Next (AAN) Project....................................   135
Army Budget......................................................64, 86
Black Hawk Helicopter............................................   130
Bosnia Visit.....................................................    73
Capabilities.....................................................    77
Civilian Cuts....................................................   131
Comanche Helicopter.............................................85, 133
Contingency Operations...........................................   104
Crusader Self-Propelled Howitzer.................................   127
Deficiencies in the Force........................................    83
Depot Maintenance...............................................84, 130
Digitization.....................................................   116
Emergency Supplemental...........................................    58
Environmental Cleanup Liability..................................    74
Force XXI Initiative.............................................   125
Gender Integrated Training.......................................   104
High Energy Laser Test Facility (HELSTF).........................   132
    Directed Energy Space Control................................   132
Hollow Army......................................................   133
Introduction.....................................................     1
Land Forces Training Readiness...................................   101
Legacy Systems...................................................    69
M1 Tanks.........................................................    69
Materiel Shortages...............................................    78
Military Construction............................................    67
Military Retirement..............................................    63
Modernization Issues:
    Army.......................................................105, 136
    Aviation.....................................................   125
    Funding, Additional Modernization............................    89
National Defense Panel..........................................67, 106
National Training Center........................................58, 102
Operating Tempo (OPTEMPO)........................................    60
Personnel Reductions.........................................63, 74, 94
Personnel Tempo (PERSTEMPO)......................................    62
Quality of the Force.............................................    80
Readiness........................................................    75
Recruiting.......................................................    73
Remarks of Mr. Young.............................................    40
Reserve Components...............................................    70
    Guard and Reserve Role in Domestic Terrorism.................60, 97
    Individual Ready Reserve.....................................    96
    Reserve Forces in Bosnia.....................................    95
Sexual Harassment Training.......................................    99
Solid State Laser (SSL) Program, Army's..........................   132
Statement of General Dennis J. Reimer............................    43
Statement of Robert M. Walker....................................     8
Statement, The Fiscal Year 1999 Army Posture.....................   137
Summary Statement of General Reimer..............................    40
Summary Statement of Secretary Walker............................     2
    Base Realignment and Closure.................................     5
    Emergency Supplemental.......................................     4
    Equal Opportunity............................................     5
    Fiscal Year 1999 Budget Request..............................     5
    Readiness....................................................     3
    Recruiting...................................................     4
    Reserve Components...........................................     6
    Summary......................................................     7
Tactical High Energy Laser Program (THEL), Army's................   131
Tactical Wheeled Vehicles, Light.................................   127
Twenty-Nine Palms Marine Corps Base..............................    86
Two Major Regional Conflicts (MRC) Strategy......................   128
Unfunded Requirements............................................   131
West Point Academy...............................................    79
White Sands Missile Range........................................    66
                     FISCAL YEAR 1999 NAVY POSTURE
Aegis Cruiser Conversion.........................................   346
Aerostat Program.................................................   345
Aircraft Carriers, Future (CVX)/Nuclear Propulsion.............340, 366
Aircraft Programs:
    A-6 Crash in Italy...........................................   337
    A-121 Aircraft Lawsuit.....................................297, 349
    Aircraft Accidents...........................................   349
    F/A-18E/F Aircraft....................................250, 338, 356
        Test Flight..............................................   254
    Joint Strike Fighter (JSF) Program.........................295, 357
    Joint Surveillance Target Attack Radar System (JSTARS).....296, 361
    V-22 Aircraft....................................258, 303, 354, 359
Anti-Submarine Warfare...........................................   368
Base Realignment and Closure (BRAC)..............................   299
Battleships......................................................   367
Budget Priorities/Requirements, Unfunded.......................257, 309
Camp Pendleton Levee.............................................   304
Collision Avoidance..............................................   298
Combat Logistics Force Ships...................................302, 355
Contingency Operations...........................................   305
DD 21 Teaming....................................................   366
Horizon Concept..................................................   291
Industrial Base, Aircraft........................................   356
Interservice Rivalry.............................................   259
Introduction.....................................................   229
Junior ROTC......................................................   301
LHA Service Life Extension.......................................   343
LPD-17 Ships, Downscoping the Capability of......................   342
Missile Defense Program:
    Navy Area and Theater-Wide Systems...........................   360
    Theater Ballistic Missile Defense Capability on DDG-51 Ships.   340
Modernization:
    Helicopter Programs..........................................   354
    Marine Corps.................................................   352
Multiyear Contracts, Increased Use of............................   326
Napalm Disposal................................................260, 362
    Communication with Local Communities.........................   261
    Contact with Local Communities...............................   262
    Contact with Public Officials................................   262
    Environmental Concerns.......................................   266
    Navy Goals...................................................   263
    Notification to Congress.....................................   261
    Timing of Disposal Process...................................   264
    Vendor Selection.............................................   265
    Views of Congressman Packard.................................   266
    Ward Valley Nuclear Waste Disposal...........................   266
Naval Strategy...................................................   308
Network Centric Warfare..........................................   367
Next Generation Destroyer........................................   288
Personnel Issues:
    Adverse Impact of Deployments................................   247
    Bosnia and Persian Gulf Deployments, Impact of...............   255
    Gender Integrated Training...................................   334
    Persian Gulf Deployments, Cost of............................   248
    Personnel Financial Problems.................................   333
    Personnel Reductions.......................................293, 330
    Quality of Life..............................................   291
    Recruiting.................................................249, 258
        Quality of People........................................   289
        Visits to High Schools...................................   255
    Retention....................................................   304
        Marine Corps Personnel...................................   290
        Pilot Retention..........................................   289
    Six-Month Rotations..........................................   247
    Tempo of Operations........................................307, 332
Privatization and Outsourcing....................................   351
Rapid Airborne Mine Clearance System (RAMICS)....................   361
Readiness Issues:
    Aviation.....................................................   335
    Cross-Decking and Navy.......................................   336
Ship Self-Defense System.......................................291, 338
Shipbuilding Industrial Base Study...............................   365
Shipbuilding Rate................................................   365
SLAM-ER Missile Program..........................................   345
Statement of General Charles C. Krulak...........................   241
Statement of John H. Dalton......................................   234
Statement, the 1998 Department of the Navy Posture...............   369
Summary Statement of Admiral Johnson.............................   240
    Budget Priorities............................................   240
Summary Statement of General Krulak..............................   240
Summary Statement of Secretary Dalton............................   230
    Budget Priorities............................................   232
    Operational Status...........................................   230
    Other Initiatives............................................   232
    Personnel Status.............................................   231
    Programmatic Status..........................................   231
    Strategy.....................................................   231
T-ADC(X) Program.................................................   355
Trident D-5 Submarines Backfit/Conversion............296, 347, 348, 358
Two Major Regional Conflict (MRC) Strategy, Navy Ability to 
  Support the....................................................   306

                                <greek-d>


</pre></body></html>
